No.

In the Supreme Court of the United States
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., PETITIONERS
v.
SIERRA CLUB, ET AL.
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., PETITIONERS
v.
STATE OF CALIFORNIA, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
HASHIM M. MOOPPAN
Counselor to the Solicitor
General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
MATTHEW GUARNIERI
Assistant to the Solicitor
General
H. THOMAS BYRON III
ANNE MURPHY
COURTNEY L. DIXON
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTIONS PRESENTED

In Section 8005 of the Department of Defense Appropriations Act, 2019, Pub. L. No. 115-245, Div. A,
Tit. VIII, 132 Stat. 2999, Congress authorized the Secretary of Defense to transfer certain appropriated
funds between Department of Defense (DoD) appropriations accounts “[u]pon determination by the Secretary
* * * that such action is necessary in the national interest.” Section 8005 contains a proviso stating “[t]hat
such authority to transfer may not be used unless for
higher priority items, based on unforeseen military requirements, than those for which originally appropriated and in no case where the item for which funds are
requested has been denied by the Congress.” Ibid. In
2019, the Acting Secretary of Defense transferred approximately $2.5 billion pursuant to Section 8005 and
another similar provision to make funds available for
DoD to respond to a request from the Department of
Homeland Security for counterdrug assistance under
10 U.S.C. 284, including in the form of construction of
fences along the southern border of the United States.
The questions presented are as follows:
1. Whether respondents have a cognizable cause of
action to obtain review of the Acting Secretary’s compliance with Section 8005’s proviso in transferring funds
internally between DoD appropriations accounts.
2. Whether the Acting Secretary exceeded his statutory authority under Section 8005 in making the transfers at issue.

(I)

PARTIES TO THE PROCEEDING

In Sierra Club, petitioners (defendants-appellants
below) are Donald J. Trump, in his official capacity as
President of the United States; Steven T. Mnuchin, in
his official capacity as Secretary of the Treasury; Mark
T. Esper, in his official capacity as Secretary of Defense; and Chad F. Wolf, in his official capacity as Acting Secretary of Homeland Security. Respondents
(plaintiffs-appellees below) are the Sierra Club and the
Southern Border Communities Coalition.
In California, petitioners (defendants-appellants
and cross-appellees below) are Donald J. Trump, in his
official capacity as President of the United States; Steven T. Mnuchin, in his official capacity as Secretary of
the Treasury; Mark T. Esper, in his official capacity as
Secretary of Defense; David Bernhardt, in his official
capacity as Secretary of the Interior; Chad F. Wolf, in
his official capacity as Acting Secretary of Homeland
Security; Ryan D. McCarthy, in his official capacity as
Secretary of the Army; Kenneth J. Braithwaite, in his
official capacity as Secretary of the Navy; Barbara M.
Barrett, in her official capacity as Secretary of the Air
Force; the United States; the Department of the Treasury; the Department of Defense; the Department of the
Interior; and the Department of Homeland Security. *
Respondents (plaintiffs-appellees and, with respect to
California and New Mexico, cross-appellants below) are
the State of California; the State of Colorado; the State
of Connecticut; the State of Delaware; the State of Hawaii; the State of Illinois; the State of Maine; the State
of Maryland; the State of Massachusetts; Dana Nessel,
Secretaries Braithwaite and Barrett are substituted as parties
for their predecessors in office pursuant to Rule 35.3 of the Rules of
this Court.
*

(II)

III

in her official capacity as Attorney General of Michigan;
the State of Minnesota; the State of New Jersey; the
State of New Mexico; the State of New York; the State
of Nevada; the State of Oregon; the State of Rhode Island; the State of Vermont; the Commonwealth of Virginia; and the State of Wisconsin.
RELATED PROCEEDINGS

United States District Court (N.D. Cal.):
Sierra Club v. Trump, No. 19-cv-892 (May 24, 2019)
(preliminary injunction)
Sierra Club v. Trump, No. 19-cv-892 (June 28, 2019)
(partial final judgment)
California v. Trump, No. 19-cv-872 (June 28, 2019)
(partial final judgment)
California v. Trump, Nos. 19-cv-872 and 19-cv-892
(Dec. 11, 2019) (related litigation)
United States Court of Appeals (9th Cir.):
Sierra Club v. Trump, Nos. 19-16102 and 19-16300
(July 3, 2019) (denying stay pending appeal)
Sierra Club v. Trump, Nos. 19-16102 and 19-16300
(June 26, 2020) (affirming on merits)
California v. Trump, Nos. 19-16299 and 19-16336
(June 26, 2020) (affirming on merits)
California v. Trump, Nos. 19-17501 and 20-15044
(argued Mar. 10, 2020) (related litigation)
Supreme Court of the United States:
Trump v. Sierra Club, No. 19A60 (July 26, 2019)
(granting stay pending appeal)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 2
Jurisdiction .................................................................................... 2
Constitutional and statutory provisions involved...................... 2
Statement:
A. Statutory background ............................................... 4
B. The challenged transfers .......................................... 7
C. Prior proceedings ...................................................... 8
1. Sierra Club v. Trump......................................... 9
2. California v. Trump ......................................... 13
Reasons for granting the petition ............................................. 16
I. The decisions below are incorrect ................................ 18
A. Respondents lack any cause of action to obtain
judicial review of whether the Acting
Secretary exceeded his transfer authority
under Section 8005 .................................................. 18
B. The Acting Secretary fully complied with
Section 8005 ............................................................. 29
II. The questions presented warrant review.................... 32
Conclusion ................................................................................... 35
Appendix A — Court of appeals opinion (June 26, 2020) ..... 1a
Appendix B — Court of appeals opinion (June 26, 2020) ... 78a
Appendix C — District court order (June 28, 2019) ......... 174a
Appendix D — District court order (June 28, 2019) ......... 189a
Appendix E — Court of appeals order (July 15, 2019) ..... 204a
Appendix F — Court of appeals order (July 3, 2019) ....... 206a
Appendix G — Court of appeals order (July 3, 2019) ....... 300a
Appendix H — District court order denying motion to
stay preliminary injunction
(May 30, 2019) ............................................ 302a
Appendix I — District court order granting in part and
denying in part plaintiffs’ motion for
preliminary injunction (May 24, 2019) ...... 305a

(V)

VI
Table of Contents—Continued:

Page

Appendix J — District court order denying plaintiffs’
motion for preliminary injunction
(May 24, 2019) ............................................. 386a
Appendix K — Constitutional and statutory provisions .... 438a
TABLE OF AUTHORITIES

Cases:
Armstrong v. Exceptional Child Ctr., Inc.,
575 U.S. 320 (2015).......................................16, 19, 27, 28, 33
Bennett v. Spear, 520 U.S. 154 (1997)............................ 27, 29
Boston Stock Exch. v. State Tax Comm’n,
429 U.S. 318 (1977).............................................................. 28
Bowsher v. Synar, 478 U.S. 714 (1986)................................ 17
Clapper v. Amnesty Int’l USA, 568 U.S. 398 (2013) .......... 22
Clarke v. Securities Indus. Ass’n, 479 U.S. 388
(1987) .............................................................................. 19, 28
Dalton v. Specter, 511 U.S. 462 (1994)..................... 16, 25, 26
Department of the Navy v. Egan, 484 U.S. 518
(1988) .............................................................................. 17, 34
Gonzaga Univ. v. Doe, 536 U.S. 273 (2002)......................... 28
Grupo Mexicano de Desarrollo, S. A. v. Alliance
Bond Fund, Inc., 527 U.S. 308 (1999) ............................... 27
Hernandez v. Mesa, 140 S. Ct. 735 (2020) .................... 28, 34
Lexmark Int’l , Inc. v. Static Control Components,
Inc., 572 U.S. 118 (2014) ......................................... 18, 19, 27
Lujan v. National Wildlife Fed’n, 497 U.S. 871
(1990) .................................................................................... 29
Maryland v. King, 567 U.S. 1301 (2012) ....................... 17, 32
Match-E-Be-Nash-She-Wish Band of Pottawatomi
Indians v. Patchak, 567 U.S. 209 (2012) .......................... 19

VII
Cases—Continued:

Page

Thompson v. North Am. Stainless, LP, 562 U.S. 170
(2011) .............................................................................. 18, 28
United States v. Richardson, 418 U.S. 166 (1974) ............. 22
Valley Forge Christian Coll. v. Americans United
for Separation of Church & State, Inc., 454 U.S.
464 (1982) ............................................................................. 28
Youngstown Sheet & Tube Co. v. Sawyer, 343 U.S.
579 (1952) ............................................................................. 25
Ziglar v. Abbasi, 137 S. Ct. 1843 (2017) ........................ 21, 28
Constitution, statutes, and rules:
U.S. Const.:
Art. I:
§ 8, Cl. 3 (Commerce Clause) ................................... 28
Appropriations Clause ..................................... passim
§ 9, Cl. 7........................................3, 10, 25, 29, 438a
Art. II ......................................................................... 21, 23
Art. VI, Cl. 2 (Supremacy Clause) ................................. 27
Amend. I (Establishment Clause) ................................. 28
Administrative Procedure Act, 5 U.S.C. 701
et seq. ...................................................................................... 9
5 U.S.C. 702 ...................................................................... 19
Department of Defense Appropriations Act, 2019,
Pub. L. No. 115-245, Div. A:
Tit. I, 132 Stat. 2982 .......................................................... 5
Tit. VI, 132 Stat. 2997 ....................................................... 6
Tit. VIII, § 8005, 132 Stat. 2999 ................... passim, 447a
Tit. IX, § 9002, 132 Stat. 3042 ............................ 6, 8, 449a
Department of Homeland Security Appropriations
Act, 2019, Pub. L. No. 116-6, Div. A, Tit. II,
§ 230, 133 Stat. 28 ............................................................... 10

VIII
Statutes and rules—Continued:

Page

Illegal Immigration Reform and Immigrant Responsibility Act of 1996, Pub. L. No. 104-208, Div. C,
§ 102(c), 110 Stat. 3009-555 ................................................ 13
National Emergencies Act, 50 U.S.C. 1601 et seq. ............... 7
10 U.S.C. 284 ....................................... 4, 6, 10, 15, 31, 32, 438a
10 U.S.C. 284(a) ............................................................. 7, 438a
10 U.S.C. 284(a)(1)(A) ................................................... 7, 438a
10 U.S.C. 284(b)(7) ............................................... 4, 7, 14, 441a
10 U.S.C. 2214(a) ..................................................................... 5
Sup. Ct. R.:
Rule 10(c) ......................................................................... 33
Rule 12.4 ............................................................................. 1
Miscellaneous:
Michelle D. Christensen, Cong. Research Serv.,
R43098, Transfer and Reprogramming of
Appropriations (June 6, 2013) .......................................... 33
Department of Defense—Availability of
Appropriations for Border Fence Construction,
B-330862, 2019 WL 4200949 (Comp. Gen.
Sept. 5, 2019) ..................................................... 17, 30, 31, 32
84 Fed. Reg. 4949 (Feb. 20, 2019) .......................................... 7
Gov’t Accountability Office, Principles of Federal
Appropriations Law (4th ed. rev. 2016)................. 6, 22, 23
H.R. Conf. Rep. No. 952, 115th Cong., 2d Sess.
(2018) ...................................................................................... 5
H.R. Rep. No. 662, 93d Cong., 1st Sess. (1973) ............ 21, 31
Memorandum on Securing the Southern Border of
the United States, 2018 Daily Comp. Pres. Doc.
(Apr. 4, 2018) ......................................................................... 7

IX
Miscellaneous—Continued:

Page

Office of Mgmt. & Budget, An American Budget:
FY2019: Appendix (2018), https://www.
whitehouse.gov/wp-content/uploads/2018/02/
appendix-fy2019.pdf ............................................................. 5
James V. Saturno et al., Cong. Research Serv.,
R42388, The Congressional Appropriations
Process: An Introduction (updated Nov. 30, 2016).......... 5

In the Supreme Court of the United States
No.
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., PETITIONERS
v.
SIERRA CLUB, ET AL.
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., PETITIONERS
v.
STATE OF CALIFORNIA, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Acting Solicitor General, on behalf of Donald J.
Trump, President of the United States, et al., respectfully petitions for a writ of certiorari to review the judgments of the United States Court of Appeals for the
Ninth Circuit in these related cases. The government
is filing a “single petition for a writ of certiorari” because the “judgments * * * sought to be reviewed” are
from “the same court and involve identical or closely related questions.” Sup. Ct. R. 12.4.
(1)

2
OPINIONS BELOW

In Sierra Club, the opinion of the court of appeals
(App., infra, 1a-77a) is reported at 963 F.3d 874. An
earlier order of the court of appeals (App., infra, 206a299a) is reported at 929 F.3d 670. The order of the district court (App., infra, 174a-188a) is unpublished but
available at 2019 WL 2715422. Earlier orders of the district court (App., infra, 302a-304a, 305a-385a) are available or reported at, respectively, 2019 WL 2305341 and
379 F. Supp. 3d 883.
In California, the opinion of the court of appeals
(App., infra, 78a-173a) is reported at 963 F.3d 926. The
order of the district court (App., infra, 189a-203a) is unpublished but available at 2019 WL 2715421. An earlier
order of the district court (App., infra, 386a-437a) is reported at 379 F. Supp. 3d 928.
JURISDICTION

The judgments of the court of appeals were entered
on June 26, 2020. The jurisdiction of this Court is invoked under 28 U.S.C. 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

Section 8005 of the Department of Defense Appropriations Act, 2019 (DoD Appropriations Act), Pub. L.
No. 115-245, Div. A, Tit. VIII, 132 Stat. 2999, provides:
Upon determination by the Secretary of Defense
that such action is necessary in the national interest,
he may, with the approval of the Office of Management and Budget, transfer not to exceed
$4,000,000,000 of working capital funds of the Department of Defense or funds made available in this
Act to the Department of Defense for military func-

3
tions (except military construction) between such appropriations or funds or any subdivision thereof, to
be merged with and to be available for the same purposes, and for the same time period, as the appropriation or fund to which transferred: Provided, That
such authority to transfer may not be used unless for
higher priority items, based on unforeseen military
requirements, than those for which originally appropriated and in no case where the item for which funds
are requested has been denied by the Congress:
Provided further, That the Secretary of Defense
shall notify the Congress promptly of all transfers
made pursuant to this authority or any other authority in this Act: Provided further, That no part of the
funds in this Act shall be available to prepare or present a request to the Committees on Appropriations
for reprogramming of funds, unless for higher priority items, based on unforeseen military requirements, than those for which originally appropriated
and in no case where the item for which reprogramming is requested has been denied by the Congress:
Provided further, That a request for multiple reprogrammings of funds using authority provided in this
section shall be made prior to June 30, 2019: Provided further, That transfers among military personnel appropriations shall not be taken into account for
purposes of the limitation on the amount of funds
that may be transferred under this section.
Ibid.
The Appropriations Clause of the U.S. Constitution
provides: “No Money shall be drawn from the Treasury, but in Consequence of Appropriations made by
Law.” U.S. Const. Art. I, § 9, Cl. 7. Other pertinent

4
provisions are reproduced in the appendix to this petition. App., infra, 438a-449a.
STATEMENT

In 2019, the Acting Secretary of Defense transferred
certain already appropriated funds between Department of Defense (DoD) appropriations accounts in order to respond to a request from the Department of
Homeland Security (DHS) for counterdrug assistance
at the southern border of the United States pursuant to
10 U.S.C. 284. DoD used the transferred funds to undertake the construction of more than 100 miles of fencing, along with roads and lighting. See 10 U.S.C.
284(b)(7). The district court held that the Acting Secretary had exceeded the scope of his authority to transfer
funds, and that respondents in these two companion
cases—a group of States and two environmental
groups—are proper parties to enforce the limits on that
authority. In the environmental groups’ case, the court
enjoined DoD and DHS from using the transferred
funds to “construct a border barrier.” App., infra, 188a.
This Court stayed that injunction, holding that “the
Government has made a sufficient showing at this stage
that the plaintiffs have no cause of action to obtain review of the Acting Secretary’s compliance with” the
transfer statute. 140 S. Ct. 1, 1. Yet a divided panel of
the Ninth Circuit concluded otherwise and affirmed in
both cases. App., infra, 1a-77a (Sierra Club); id. at 78a173a (California).
A. Statutory Background

In August 2018, Congress enacted the DoD Appropriations Act, Pub. L. No. 115-245, Div. A, Tit. VIII, 132
Stat. 2999, to fund DoD’s operations for the 2019 fiscal
year. Like most annual appropriations laws, the DoD

5
Appropriations Act directs funds to discrete, named accounts to be used for specified purposes. See James V.
Saturno et al., Cong. Research Serv., R42388, The Congressional Appropriations Process: An Introduction
12 (updated Nov. 30, 2016) (Appropriations Process).
Thus, for example, Congress appropriated approximately $42 billion to an account entitled “Military Personnel, Army” to be used “[f ]or pay * * * for members
of the Army.” 132 Stat. 2982 (capitalization altered).
During the annual budgeting process, DoD requests
appropriations for each such account by describing the
amounts it will need to execute the various programs,
projects, and activities funded by the account. See, e.g.,
Office of Mgmt. & Budget, An American Budget: FY
2019: Appendix 213-214 (2018) (DoD’s request for appropriations to “Military Personnel, Army” account for
fiscal year 2019). When it submits a budget, DoD identifies items of expenditure to be paid from each
account—for example, “Pay and Allowances of Officers”
as an item to be funded from the military personnel account. Id. at 214. Congress may require or prohibit the
use of funds for particular proposed items; legislators
also commonly use committee reports to memorialize
their expectations about how appropriated funds will be
used for particular items in DoD’s budget. See, e.g.,
H.R. Conf. Rep. No. 952, 115th Cong., 2d Sess. 161-164
(2018) (“Military Personnel, Army” example); cf. Appropriations Process 12.
DoD’s budget requests are based on estimates, and
its actual needs may change during the ensuing fiscal
year for a variety of reasons, from price fluctuations to
new national-security threats. To address that problem, Congress often authorizes DoD to “transfer
amounts provided in appropriation Acts,” 10 U.S.C.

6
2214(a)—i.e., from one account to another. See Gov’t
Accountability Office, Principles of Federal Appropriations Law 2-38 (4th ed. rev. 2016) (GAO Red Book) (explaining transfers and noting that “agencies have a legitimate need for a certain amount of flexibility”).
Section 8005 of the DoD Appropriations Act confers
transfer authority for the funds appropriated by that
Act. It authorizes the Secretary of Defense, “[u]pon determination * * * that such action is necessary in the
national interest,” to transfer up to $4 billion between
appropriations made by the DoD Appropriations Act.
132 Stat. 2999. Section 8005 contains a proviso, however, stating that funds may not be transferred under
that provision “unless for higher priority items, based
on unforeseen military requirements,” and “in no case
where the item for which funds are requested has been
denied by the Congress.” Ibid. Congress provided additional transfer authority in Section 9002, which permits the Secretary to “transfer up to $2,000,000,000 between the appropriations or funds made available” in
Title IX of the DoD Appropriations Act. 132 Stat. 3042.
That authority is “subject to the same terms and conditions as the authority provided in section 8005.” Ibid.
The DoD Appropriations Act also appropriated
funds to an account for “Drug Interdiction and CounterDrug Activities, Defense.” 132 Stat. 2997 (capitalization
altered). The funds appropriated to that account are
available “[f ]or drug interdiction and counter-drug activities of the Department of Defense,” ibid., including
activities undertaken pursuant to 10 U.S.C. 284. Under
that statute, the “Secretary of Defense may provide
support for the counterdrug activities * * * of any
other department or agency of the Federal Government,” if “such support is requested * * * by the official

7
who has responsibility for the counterdrug activities.”
10 U.S.C. 284(a)(1)(A). As relevant here, DoD may provide assistance in the form of “[c]onstruction of roads
and fences and installation of lighting to block drug
smuggling corridors across international boundaries of
the United States.” 10 U.S.C. 284(b)(7).
B. The Challenged Transfers

On February 15, 2019, the President declared a national emergency on the southern border of the United
States under the National Emergencies Act, 50 U.S.C.
1601 et seq., based in part on his determination that the
border remains “a major entry point” for “illicit narcotics.” 84 Fed. Reg. 4949, 4949 (Feb. 20, 2019); see Memorandum on Securing the Southern Border of the
United States, 2018 Daily Comp. Pres. Doc. 2 (Apr. 4,
2018) (directing DoD to “support [DHS] in securing the
southern border and taking other necessary actions to
stop the flow of deadly drugs”). On February 25, 2019,
DHS submitted a request for DoD’s assistance, under
10 U.S.C. 284(a), “with the construction of fences[,]
roads, and lighting” to block drug-smuggling corridors
on the southern border. C.A. E.R. 272.
The Acting Secretary of Defense approved DHS’s
request for assistance under Section 284 with respect to
seven projects in Arizona, California, and New Mexico.
App., infra, 83a; cf. C.A. E.R. 219. The projects are located in sectors of the border where, in the 2018 fiscal
year, DHS made hundreds of drug-related arrests and
seized thousands of pounds of illegal narcotics. See,
e.g., C.A. E.R. 274 (Yuma Sector). The projects consist
in part of replacing existing pedestrian fencing or vehicle barriers that had proven to be ineffective with 30foot-high steel bollard fencing. See ibid.; id. at 278-279,
294-298.

8
To ensure adequate funds to complete the first
tranche of approved projects, the Acting Secretary invoked his authority under Section 8005 of the DoD Appropriations Act to transfer $1 billion of funds from two
personnel accounts to the appropriations account for
“Drug Interdiction and Counter-Drug Activities, Defense.” C.A. E.R. 285. The Acting Secretary determined that the transfer satisfied Section 8005 because
it would be “in the national interest” and “[t]he items to
be funded * * * are a higher priority than the item for
which funds and authority are transferred (excess
Army military personnel funds).” Ibid. The Acting Secretary also explained that, for purposes of Section
8005’s proviso, there was an “unforeseen military requirement” because DoD’s need to provide support to
DHS was “not known at the time of ” DoD’s earlier
budget requests to Congress; he further explained that
Congress had not “denied” any request for DoD to provide this assistance to DHS. Id. at 285-286. To fund a
second tranche of projects, the Acting Secretary later
transferred an additional $1.5 billion, invoking both
Sections 8005 and 9002 of the DoD Appropriations Act.
Id. at 172-173.
C. Prior Proceedings

Respondents brought these suits to challenge the
Acting Secretary’s internal transfers of funds, as well
as other governmental actions to construct physical
barriers along the southern border. The challenges to
the Secretary’s transfers proceeded along similar
tracks before the same district court judge and were
consolidated for briefing and argument in the court of
appeals. See App., infra, 204a-205a.

9
1. Sierra Club v. Trump

a. The district court first addressed the challenges
brought by respondents the Sierra Club and the Southern Border Communities Coalition (collectively, Sierra
Club). Sierra Club contended that the construction of
fencing and roads in drug-smuggling corridors along
the southern border would impair its members’ interests in “hiking, birdwatching, photography, and other
professional, scientific, recreational, and aesthetic activities.” App., infra, 12a.
The district court issued a preliminary injunction
forbidding federal officials from “taking any action to
construct a border barrier * * * using funds reprogrammed by DoD under Section 8005,” App., infra,
385a; see id. at 305a-385a, and later incorporated the
same reasoning into an order granting a permanent injunction and entering partial final judgment, see id. at
174a-188a. The court held that it had “authority to review” challenges to the Acting Secretary’s transfers
pursuant to its equitable power to enjoin government
officials from violating federal law, rather than under a
specific grant of statutory authority, such as the Administrative Procedure Act (APA), 5 U.S.C. 701 et seq.
App., infra, 345a. The court concluded, on that basis,
that Sierra Club need not demonstrate that its asserted
injuries “fall within the ‘zone of interests’ ” protected by
Section 8005’s proviso, because the court viewed that
requirement as applicable only “to statutorily-created
causes of action.” Id. at 347a.
The district court then determined that the Acting
Secretary exceeded his authority under Section 8005 in
transferring the funds at issue. The court stated that
Congress had “denied” funds for the projects within the
meaning of Section 8005’s proviso, see p. 6, supra, when

10
Congress appropriated only $1.375 billion to DHS in
February 2019 for DHS to construct fencing in the Rio
Grande Valley pursuant to DHS’s own separate authority to construct such fencing. App., infra, 350a-354a; see
Department of Homeland Security Appropriations Act,
2019, Pub. L. No. 116-6, Div. A, Tit. II, § 230, 133 Stat.
28. The court also reasoned that DoD’s need to provide
assistance to DHS was not “unforeseen” for purposes of
Section 8005’s proviso because, even though DHS had
not requested DoD’s support under Section 284 until
February 2019, the “government as a whole” had made
other funding requests for border-wall construction in
2018. App., infra, 356a-357a.
b. The district court declined to stay its permanent
injunction pending appeal. App., infra, 188a; see id. at
302a-304a. A divided panel of the court of appeals also
declined to stay the injunction, although for different
reasons. Id. at 206a-299a. The panel majority stated
that Sierra Club was not required to demonstrate that
its members’ putative recreational and aesthetic interests fall within the zone of interests protected by Section 8005’s proviso because, in the majority’s view, Sierra Club “allege[s] a constitutional violation.” Id. at
234a. In particular, Sierra Club alleged that any use of
funds transferred improperly under Section 8005
“would cause funds to be ‘drawn from the Treasury’ not
‘in Consequence of Appropriations made by Law,’ ” in
violation of the Appropriations Clause. Id. at 246a
(quoting U.S. Const. Art. I, § 9, Cl. 7). The majority
accepted that theory and reasoned that the relevant
question is whether Sierra Club’s asserted interests
“fall within the zone of interests of the Appropriations
Clause,” id. at 264a—a test it found satisfied, see id. at
265a-267a. Judge N.R. Smith dissented, explaining that

11
when Sierra Club’s “claim is properly viewed as alleging
a statutory violation” of Section 8005, Sierra Club has
“no mechanism to challenge [DoD’s] actions.” Id. at
276a; see id. at 274a-299a.
On July 26, 2019, this Court stayed the district
court’s injunction pending appeal and, if necessary, the
disposition of a petition for a writ of certiorari filed by
the government. 140 S. Ct. at 1. The Court stated that
“[a]mong the reasons is that the Government has made
a sufficient showing at this stage that the plaintiffs have
no cause of action to obtain review of the Acting Secretary’s compliance with Section 8005.” Ibid. Justice
Breyer concurred in part and dissented in part. Id. at
1-2. He would have stayed the injunction to the extent
it prohibited the government from finalizing the contracts at issue. Id. at 2. Justices Ginsburg, Sotomayor,
and Kagan would have denied a stay. Id. at 1.
c. On the merits, a different panel of the court of appeals affirmed by a divided vote. App., infra, 1a-77a.
The panel majority first concluded that Section 8005
did not authorize the transfers at issue, based on the
panel’s reasoning in a companion opinion issued in the
States’ case. App., infra, 17a; see p. 14, infra. The majority then turned to addressing “whether Sierra Club
is a proper party to challenge the Section 8005 transfers.” App., infra, 18a. Notwithstanding this Court’s
stay order, the majority held that Sierra Club “has both
a constitutional and an ultra vires cause of action” to
claim that the Acting Secretary exceeded his authority
in transferring the funds. Id. at 19a. On the former, the
majority elaborated that the Appropriations Clause itself confers an implied cause of action to challenge allegedly unlawful spending. Id. at 20a-25a. Finally, the

12
majority concluded that Sierra Club need not demonstrate that its asserted interests are within the zone of
interests protected by Section 8005’s proviso for the
same reasons the motions panel had given in denying a
stay—i.e., because the zone-of-interests requirement
either does not apply at all here or because the zone of
interests is determined based on the Appropriations
Clause rather than Section 8005. See id. at 31a-34a.
Judge Collins dissented. App., infra, 40a-77a. He
would have held that Sierra Club “lack[s] any cause of
action to challenge the transfers.” Id. at 41a. He explained that Sierra Club lacks a cause of action under
the APA because the APA “incorporates the familiar
zone-of-interests test,” id. at 53a, and the relevant zone
is set by Section 8005’s proviso, see id. at 56a (“All of
[Sierra Club’s] theories for challenging the transfers
* * * rise or fall based on whether DoD has transgressed the limitations on transfers set forth in
§ 8005.”). He further explained that Sierra Club’s “asserted recreational, aesthetic, and environmental interests clearly lie outside the zone of interests protected
by § 8005,” which “does not mention” such interests or
“require the Secretary to consider” them before transferring funds. Id. at 60a. And he would have rejected
Sierra Club’s effort to “evade” that limitation by invoking an implied constitutional or equitable cause of action
rather than the APA. Id. at 74a. In his view, Sierra
Club lacks any distinct constitutional claim because its
Appropriations Clause claim “is effectively the very
same § 8005-based claim dressed up in constitutional
garb.” Id. at 65a. And regardless, he would have held
that any implied constitutional or equitable cause of action “would still be governed by the same zone of interests defined by the relevant limitations in § 8005.” Ibid.;

13
see id. at 74a-76a. In all events, Judge Collins concluded that “the transfers were lawful,” as explained in
his parallel dissent in the States’ case. Id. at 41a; see
pp. 15-16, infra.
2. California v. Trump

a. In the companion case, a group of States challenged the same internal DoD transfers under the APA
and other theories. Two States—California and New
Mexico—asserted that construction of the projects
funded by the transfers within those States would harm
their environmental interests and their sovereign interests in the enforcement of state environmental laws.
App., infra, 90a, 94a. DHS had invoked Section 102(c)
of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996 (IIRIRA), Pub. L. No. 104-208,
Div. C, 110 Stat. 3009-555, as amended, to waive the application of any state environmental laws to these projects. See App., infra, 83a (noting DHS’s express authority under IIRIRA to “ ‘waive all legal requirements’
that would otherwise apply to the border wall construction projects”) (citation omitted). The district court entered a declaratory judgment in the States’ favor on
their challenge to the transfers based largely on the
reasoning of its prior order in Sierra Club, while declining to grant an injunction. Id. at 189a-203a.
b. The same panel of the court of appeals that had
affirmed on the merits in Sierra Club also affirmed in
the States’ case, with Judge Collins again dissenting.
App., infra, 78a-173a.
The panel majority held that the States have a cause
of action under the APA to challenge the Acting Secretary’s compliance with Section 8005 because their asserted interests in enforcing state environmental laws
are within the zone of interests protected by Section

14
8005. App., infra, 100a-106a. The majority recognized
that the proviso in Section 8005 limiting the Secretary’s
transfer authority is “primarily intended to benefit”
Congress. Id. at 102a. But it reasoned that “[t]he field
of suitable challengers must be construed broadly in
this context” in light of “restrictions on congressional
standing.” Id. at 103a. And it found that “California
and New Mexico are suitable challengers,” because it
viewed their interests as “congruent with those of Congress,” ibid., stressing the “unique” role of States in the
constitutional scheme and the fact that state environmental laws had been preempted for these projects, see
id. at 104a-105a. In light of that holding, the majority
declined to address the States’ alternative theory that
they have “an equitable ultra vires cause of action.” Id.
at 100a n.12.
The panel majority also held that Section 8005 did
not authorize the transfers at issue for the reasons
given by the district court—namely, that DoD’s need to
provide support to DHS was not “unforeseen” in light
of the “history of the President’s efforts to build a border wall,” App., infra, 109a-110a, and that Congress had
“denied” the relevant “item” when it declined to appropriate the full amount of funds the President had requested for the 2019 fiscal year for DHS to construct
border barriers, id. at 116a-117a. The majority also
concluded that providing counterdrug support to DHS
did not qualify as a “military requirement” within the
meaning of Section 8005’s proviso, see id. at 112a-116a,
notwithstanding that Congress authorized the military
to provide such support, see 10 U.S.C. 284(b)(7).
Judge Collins dissented. App., infra, 119a-173a. He
would have held that the States’ “asserted environmen-

15
tal interests clearly lie outside the zone of interests protected by § 8005,” which, again, “does not mention environmental interests.” Id. at 138a; see id. at 139a (observing that Section 8005 did not require the Acting
Secretary “to give even the slightest consideration to
whether [the challenged transfers] would result in the
death of more flat-tailed horned lizards”). As to the
States’ asserted interest in the enforcement of state environmental law, Judge Collins explained that “the ultimate preemption of state law occurred, not as a result
of § 8005, but rather as a result of DHS’s separate determination” to waive any application of those laws to
these projects under IIRIRA, “a completely separate
statute.” Id. at 140a; see p. 13, supra.
Judge Collins also would have held that the challenged transfers complied with Section 8005, when correctly interpreted in light of the backdrop of federal appropriations law. App., infra, 156a-173a (Collins, J.,
dissenting). He explained that, in Section 8005’s proviso forbidding a transfer to fund an “item” that has
“been denied by the Congress,” 132 Stat. 2999, the term
“item” refers to the “itemizations * * * as set forth in
the already existing budgetary documents exchanged
and generated during the appropriations process for
DoD.” App., infra, 161a. Under that reading, he observed that “this case is easy” because, during the budgeting process, DoD never proposed and Congress never
denied any item of expenditure for DoD to provide assistance to DHS under Section 284. Id. at 162a-163a.
He further explained that the transfers at issue were
“based on unforeseen military requirements.” DoD Appropriations Act § 8005, 132 Stat. 2999. He reasoned
that the requirements were “military” in nature be-

16
cause Congress assigned the task of providing counterdrug support to the armed forces, App., infra, 165a169a, and that the requirements were “unforeseen”
because “funding for the DoD assistance” was never
“requested, proposed, or considered during DoD’s appropriations process,” id. at 171a. *
REASONS FOR GRANTING THE PETITION

The court of appeals erred in concluding that respondents are proper parties to challenge whether the
Acting Secretary of Defense exceeded his authority in
making internal transfers of appropriated funds under
Section 8005 of the DoD Appropriations Act. As this
Court already preliminarily concluded with respect to
Sierra Club, respondents “have no cause of action to obtain review of the Acting Secretary’s compliance with
Section 8005.” 140 S. Ct. 1, 1. The APA does not permit
such a suit because respondents’ asserted recreational,
aesthetic, environmental, or sovereign interests are not
even arguably within the zone of interests protected by
Section 8005’s proviso, which concerns the intergovernmental budgetary process between DoD and Congress.
Nor can respondents evade the zone-of-interests limitation by “dress[ing] up” their statutory claims “in constitutional garb.” App., infra, 65a (Collins, J., dissenting).
That is the lesson of this Court’s decisions in Dalton v.
Specter, 511 U.S. 462 (1994), and Armstrong v. Exceptional Child Center, Inc., 575 U.S. 320 (2015), which the
Ninth Circuit disregarded.

After the court of appeals’ decisions, Sierra Club moved for this
Court to lift its prior stay of the district court’s injunction. The Court
denied that motion. See Order, Trump v. Sierra Club, No. 19A60
(July 31, 2020). Justices Breyer, Ginsburg, Sotomayor, and Kagan
would have granted the motion. Ibid.
*

17
In any event, the court of appeals further erred in
finding any violation of Section 8005. The Acting Secretary determined that the challenged transfers were
“necessary in the national interest,” DoD Appropriations Act § 8005, 132 Stat. 2999, to respond to a request
from DHS for assistance with drug interdiction efforts
at the southern border. And the transfers were fully
consistent with Section 8005’s proviso regarding “unforeseen military requirements” and “item[s]” not previously “denied” by Congress. Ibid. Indeed, the nonpartisan Government Accountability Office (GAO)—
which is headed by the Comptroller General, “an agent
of the Congress,” Bowsher v. Synar, 478 U.S. 714, 731
(1986) (citation omitted)—reached that same conclusion
in response to an inquiry from lawmakers during the
pendency of this litigation. Department of Defense—
Availability of Appropriations for Border Fence Construction, B-330862, 2019 WL 4200949, at *1 (Comp.
Gen. Sept. 5, 2019) (GAO Opinion).
At a minimum, the decisions below concern a matter
of exceptional national importance. This Court regularly grants certiorari to address interference with Executive Branch conduct that is of “importance * * * to
national security.” Department of the Navy v. Egan,
484 U.S. 518, 520 (1988). That standard is plainly met
by this injunction against the transfer of military funds
to assist in the construction of fences on the southern
border to stanch the flow of illegal drugs. Indeed, the
Court’s earlier orders granting a stay and declining to
lift it reflect that the Court has already found “a reasonable probability” that certiorari is warranted. Maryland v. King, 567 U.S. 1301, 1301 (2012) (Roberts, C.J.,
in chambers) (citation omitted).

18
I. THE DECISIONS BELOW ARE INCORRECT
A. Respondents Lack Any Cause Of Action To Obtain
Judicial Review Of Whether The Acting Secretary
Exceeded His Transfer Authority Under Section 8005

Respondents are not proper parties to bring suit
claiming that the Acting Secretary exceeded his transfer authority under Section 8005. Respondents cannot
invoke any express or implied cause of action to do so
because their asserted interests are not even arguably
within the zone of interests protected by Section 8005’s
proviso, which governs DoD’s internal transfers of
already appropriated funds as part of Congress’s regulation of DoD’s budget. The recreational, aesthetic, environmental, and sovereign interests that respondents
assert are entirely outside the contemplation of Section
8005. Nor can respondents avoid that conclusion by invoking the Appropriations Clause. Respondents have no
constitutional claim distinct from their challenge to
whether the Acting Secretary exceeded the statutory authority conferred in Section 8005. In any event, the zoneof-interests requirement applies no differently to an implied equitable cause of action asserting a violation of the
Appropriations Clause premised on non-compliance with
Section 8005’s proviso.
1. The “zone-of-interests” requirement limits the
plaintiffs who “may invoke [a] cause of action” authorized by Congress. Lexmark Int’l, Inc. v. Static Control
Components, Inc., 572 U.S. 118, 129-130 (2014). It reflects the common-sense intuition that Congress does
not intend to extend a cause of action to “plaintiffs who
might technically be injured in an Article III sense but
whose interests are unrelated to the statutory prohibitions” they seek to enforce. Thompson v. North Am.
Stainless, LP, 562 U.S. 170, 178 (2011). “Congress is

19
presumed to ‘legislate against the background of ’ the
zone-of-interests limitation,” which excludes putative
plaintiffs whose interests do not “ ‘fall within the zone of
interests protected by the law invoked.’ ” Lexmark,
572 U.S. at 129 (brackets and citations omitted).
Under this Court’s interpretation of the APA’s express cause of action, 5 U.S.C. 702, a plaintiff ’s asserted
interest need only be “arguably within the zone of interests” of the provision to be enforced; suit is foreclosed
only where the asserted interest is “marginally related
to or inconsistent with the purposes implicit in the [provision].” Match-E-Be-Nash-She-Wish Band of Pottawatomi Indians v. Patchak, 567 U.S. 209, 224, 225
(2012) (citations omitted). But where a plaintiff asserts
an implied cause of action in equity, see Armstrong,
575 U.S. at 327-328, this Court has suggested that a
heightened zone-of-interests standard applies, requiring the plaintiff to be the intended beneficiary of the
provision to be enforced. See Clarke v. Securities Indus. Ass’n, 479 U.S. 388, 400 n.16 (1987).
Here, under either the APA or an implied cause of
action, respondents are not proper plaintiffs because
their asserted interests are entirely unrelated to the
proviso in Section 8005 that they claim the Acting Secretary violated. Sierra Club has asserted that construction of fencing and roads in drug-smuggling corridors
along the southern border, using funds transferred pursuant to Section 8005, will impair its members’ “scientific, recreational, and aesthetic activities” in the project areas, such as birdwatching. App., infra, 12a. The
States have asserted that construction of the projects
funded by the challenged transfers will cause harm to
the environment in California and New Mexico and will

20
impair those States’ sovereign interests in the enforcement of state environmental law. Id. at 90a-98a. As
Judge Collins recognized in dissent, Section 8005 “does
not mention” any such interests, “nor does it require the
Secretary” to consider them before transferring funds.
Id. at 60a; see id. at 138a.
Instead, Section 8005 protects the interests of DoD
and Congress. The provision authorizes the Secretary
of Defense to transfer up to $4 billion of certain funds
between “appropriations or funds * * * to be merged
with and to be available for the same purposes, and for
the same time period, as the appropriation or fund to
which” the transfer is made, if the Secretary determines that the transfer “is necessary in the national interest.” 132 Stat. 2999. The proviso at issue here states
that the Secretary’s transfer authority “may not be
used unless for higher priority items, based on unforeseen military requirements, than those for which [the
transferred funds were] originally appropriated and in
no case where the item for which funds are requested
has been denied by the Congress.” Ibid. The statute
additionally requires the Secretary to “notify the Congress promptly of all transfers made pursuant to this
authority or any other authority” in the DoD Appropriations Act. Ibid.
Nothing about Section 8005’s text or context suggests that Congress intended to permit enforcement of
the proviso by parties who, like respondents here, assert that a transfer would indirectly result in harm to
their recreational, aesthetic, environmental, scientific,
or sovereign interests based on the otherwise authorized activity on which transferred funds are ultimately
spent. Section 8005 does not require the Secretary to
consider those kinds of interests before transferring

21
funds. To the contrary, it empowers the Secretary to
make transfers in order to fund any type of activities
that Congress has authorized DoD to perform. And
Congress conditioned the Secretary’s transfer authority on judgments about national security that are
uniquely within the Executive Branch’s expertise and
that courts and third parties are ill-suited to second
guess—e.g., that the transfer is “necessary” for the “national interest” and for a “higher priority” item of defense spending. DoD Appropriations Act § 8005, 132
Stat. 2999; see Ziglar v. Abbasi, 137 S. Ct. 1843, 1861
(2017) (cautioning that courts should be “reluctant to intrude upon the authority of the Executive in military
and national security affairs”) (citation omitted).
Section 8005’s congressional-notification requirement confirms that the proviso is primarily if not exclusively intended to protect Congress’s interests in the
appropriations process. For example, if Congress disagrees with a particular transfer after receiving notice of
it, Congress may enact legislation to override the transfer or to modify DoD’s transfer authority. The history
of Section 8005 further confirms that the proviso principally safeguards the interests of Congress. When
DoD was first given this transfer authority, a committee
report explained that legislators imposed conditions on
it in order to “tighten congressional control of the reprogramming process.” H.R. Rep. No. 662, 93d Cong.,
1st Sess. 16-17 (1973) (House Report) (emphasis added).
Permitting any private party who meets the bare
minimum of Article III injury to bring suit to challenge
a transfer under Section 8005 could often be antithetical
to the interests of Congress. Opportunistic litigation by
private parties (or States) may frustrate the desirable

22
“flexibility,” GAO Red Book 2-38, that Congress intended to confer in granting transfer authority—as illustrated by this case, where the GAO determined that
the challenged transfers were permissible. See p. 17,
supra. Private enforcement of Section 8005’s proviso
also runs the risk of excessive court-ordered remedies
even for minor or technical violations—which Congress
itself may well have viewed as inconsequential, or at
least insufficient to warrant the wastefulness of bringing to a halt statutorily authorized projects for which
funds have already been expended.
2. The court of appeals erred in holding that the
States satisfy the zone-of-interests requirement for
Section 8005. App., infra, 100a. The panel majority began by reasoning that the “field of suitable challengers
must be construed broadly in this context” in light of
“restrictions on congressional standing [that] make it
difficult for Congress to enforce these obligations itself.” Id. at 103a. But the majority should not have
taken it upon itself to relax the zone-of-interests requirement to achieve what it perceived to be the optimal
number of “suitable challengers.” Ibid.
The federal courts “are not entitled to bend the otherwise applicable—and already lenient—standards to
ensure that someone will be able to sue in this case or
others like it.” App., infra, 145a (Collins, J., dissenting).
As this Court has repeatedly admonished in the standing context, “the assumption that if respondents have
no standing to sue, no one would have standing, is not a
reason to find standing.” Clapper v. Amnesty Int’l
USA, 568 U.S. 398, 420 (2013) (citation omitted); cf.
United States v. Richardson, 418 U.S. 166, 179 (1974)
(“[T]he absence of any particular individual or class to
litigate these claims gives support to the argument that

23
the subject matter is committed to the surveillance of
Congress, and ultimately to the political process.”).
The panel majority additionally held that the States’
asserted interests are “congruent” with the interests
protected by Section 8005. App., infra, 103a. But this
too was error.
First, the panel majority reasoned that “this challenge actively furthers Congress’s intent to ‘tighten
congressional control of the reprogramming process,’ ”
because two congressional committees “expressly disapproved of DoD’s use of the [Section 8005] authority”
after the Acting Secretary made the transfers challenged here. App., infra, 103a (citation omitted); see id.
at 86a. That reasoning—which has nothing to do with
the environmental or sovereign interests asserted by
the States—is effectively “tautological.” Id. at 144a
(Collins, J., dissenting). Any plaintiff with Article III
injury who asserts a violation of Section 8005 could be
said to have the same congruence of interests with Congress in avoiding Section 8005 violations. The majority
was also wrong to equate the actions of two committees
with the interests of Congress as a whole; as explained
above, Congress has the necessary legislative tools to
protect its own interests, without any need for proxy litigation by States or private parties, whose interests
may well diverge from Congress’s position. See pp. 2122, supra.
Second, the panel majority reasoned that the States
are proper parties to sue to enforce Section 8005’s proviso because of their “unique” interest in enforcing the
“structural separation of powers”—an interest the majority found to apply with “particular force” here because of the preemption of state environmental laws.
App., infra, 104a-105a. But the States do not have any

24
“unique” interest in enforcing the limits of Section 8005,
which does not mention States or otherwise require the
Secretary to take their interests into account before
transferring funds. The majority also erred in relying
on the preemption of state law as a basis for finding
the zone-of-interests requirement satisfied. The Section 8005 transfers did not themselves preempt any
state law, and Section 8005 does not reflect any interest
in protecting States from lawful federal preemption.
DHS—not DoD—invoked an entirely separate statute
to waive the application of any state environmental laws
to the construction of the projects funded by the challenged transfers. See id. at 140a (Collins, J., dissenting); p. 13, supra (discussing IIRIRA).
3. No court has found that Sierra Club’s asserted
recreational and aesthetic interests in the project areas
are within the zone of interests protected by Section
8005. The district court declined to apply any zone-ofinterests requirement at all. See App., infra, 347a. The
panel majority likewise excused Sierra Club from having to satisfy the zone-of-interests requirement with respect to Section 8005. The majority first reasoned that
Sierra Club has “a constitutional cause of action” under
the Appropriations Clause as well as “an equitable ultra
vires cause of action,” id. at 20a, 25a; it then further reasoned that, under either theory, the Appropriations
Clause prescribes the relevant zone of interests, “[i]f
the zone of interests test applies at all,” id. at 33a. The
earlier panel that denied a stay pending appeal had
adopted essentially the same reasoning, which this
Court already rejected. 140 S. Ct. at 1. For good reason, as it is flawed at every level.

25
a. To start, respondents do not allege any distinct
constitutional violation. The Appropriations Clause prohibits expenditures only if not “made by Law,” U.S.
Const. Art. I, § 9, Cl. 7, and thus the gravamen of respondents’ claim is necessarily that the transfers “amounted to
drawing funds from the Treasury without authorization
by statute” in light of Section 8005’s proviso. App., infra,
18a (emphasis added; citation and internal quotation
marks omitted). Any putative constitutional claim in
these circumstances is “effectively the very same
§ 8005-based claim dressed up in constitutional garb.”
Id. at 65a (Collins, J., dissenting).
Indeed, the panel majority’s attempt to recast Sierra
Club’s claim as sounding in the Constitution is contrary
to this Court’s decision in Dalton v. Specter, supra.
There, the plaintiffs “sought to enjoin the Secretary of
Defense * * * from carrying out a decision by the President” to close a military facility pursuant to a federal
statute. 511 U.S. at 464. The court of appeals had permitted the suit to proceed on the assumption that the
plaintiffs were effectively seeking “review [of ] a presidential decision.” Id. at 467 (citation omitted). After
this Court held that the President is not an “agency” for
APA purposes, see id. at 468-469, the court of appeals
adhered to its decision on constitutional grounds—
reasoning, based on Youngstown Sheet & Tube Co. v.
Sawyer, 343 U.S. 579 (1952), “that whenever the President acts in excess of his statutory authority, he also violates the constitutional separation-of-powers doctrine.” Dalton, 511 U.S. at 471.
This Court unanimously rejected that theory. The
Court explained that not “every action by the President,
or by another executive official, in excess of his statu-

26
tory authority is ipso facto in violation of the Constitution.” Dalton, 511 U.S. at 472. Instead, this Court has
carefully “distinguished between claims of constitutional violations and claims that an official has acted in
excess of his statutory authority.” Ibid. (collecting
cases). The Constitution is implicated if an executive
official relies on it as an independent source of authority
to act, as in Youngstown, or if the official relies on a
statute that itself violates the Constitution. See id. at
473 & n.5. But claims alleging simply that an official has
“exceeded his statutory authority are not ‘constitutional’ claims.” Id. at 473.
The same reasoning fully applies here. This dispute
concerns whether the Acting Secretary “exceeded his
statutory authority” in authorizing the disputed transfers under Section 8005, and “no ‘constitutional question whatever’ is raised,” “ ‘only issues of statutory interpretation.’ ” Dalton, 511 U.S. at 473-474 & n.6 (citation omitted). The Acting Secretary did not invoke the
Constitution as a basis to transfer funds, and Sierra
Club does not challenge the constitutionality of Section
8005. Sierra Club’s claim is therefore “properly classified as ‘a statutory one.’ ” App., infra, 67a (Collins, J.,
dissenting) (quoting Dalton, 511 U.S. at 474).
The panel majority’s effort to distinguish Dalton is
unavailing. The majority stated that “Dalton suggests
that a constitutional violation may occur when an officer
violates an express prohibition of the Constitution,” citing the Court’s discussion of Bivens claims. App., infra,
23a (citing Dalton, 511 U.S. at 472). But Sierra Club’s
claim does not remotely resemble a Bivens claim. On
Sierra Club’s own theory of the case, no violation of the
Appropriations Clause has occurred unless the Acting
Secretary exceeded his authority under Section 8005.

27
That claim is necessarily and unavoidably statutory, not
constitutional.
b. In any event, the Appropriations Clause itself
“certainly does not create a cause of action,” Armstrong,
575 U.S. at 325, much less one that lacks a zone-ofinterests requirement. Like the Supremacy Clause—the
provision at issue in Armstrong—the Appropriations
Clause “is silent regarding who may enforce [it] in court,
and in what circumstances they may do so.” Ibid. Rather than flowing from the Appropriations Clause itself,
“[t]he ability to sue to enjoin unconstitutional actions by
* * * federal officers is the creation of courts of equity.”
Id. at 327. Although the panel majority suggested that
this Court has held that “certain structural constitutional provisions” themselves “give rise to causes of action,” the cited cases all instead involved either the assertion of a constitutional defense to a government enforcement action or a statutory cause of action. See
App., infra, 20a; see also id. at 69a-71a (Collins, J., dissenting).
Nor was the panel majority correct to suggest that
the zone-of-interests requirement may not apply at all
to judicially implied causes of action. App., infra, 31a33a. The zone-of-interests requirement is “ ‘of general
application,’ ” reflecting a limitation on appropriate
plaintiffs that “Congress is presumed” to intend in authorizing suit in federal court. Lexmark, 572 U.S. at 129
(quoting Bennett v. Spear, 520 U.S. 154, 163 (1997)).
This Court’s statement in Lexmark that the requirement applies to all “statutorily created” causes of action, ibid., encompasses judicially implied equitable
causes of action, because the equitable powers of federal district courts are themselves conferred by statute,
see Grupo Mexicano de Desarrollo, S. A. v. Alliance

28
Bond Fund, Inc., 527 U.S. 308, 318 (1999). Lexmark
therefore did not silently abrogate this Court’s precedents recognizing that the zone-of-interests requirement applies to equitable actions seeking to enjoin constitutional violations. See, e.g., Valley Forge Christian
Coll. v. Americans United for Separation of Church &
State, Inc., 454 U.S. 464, 469, 475 (1982) (Establishment
Clause); Boston Stock Exch. v. State Tax Comm’n,
429 U.S. 318, 320 n.3 (1977) (Dormant Commerce
Clause).
Implied equitable suits are instead subject to “express and implied statutory limitations,” Armstrong,
575 U.S. at 327, and the zone-of-interests requirement
reflects Congress’s refusal to accept the “absurd consequences [that] would follow” “[i]f any person injured in
the Article III sense by a [statutory or constitutional]
violation could sue,” even where the person’s interests
are entirely unrelated to the provision being enforced,
Thompson, 562 U.S. at 176-177. Congress would no
more accept such absurd results under its statutory
grant of equity jurisdiction than under the APA. See
Hernandez v. Mesa, 140 S. Ct. 735, 747 (2020) (“It would
be ‘anomalous to impute . . . a judicially implied cause
of action beyond the bounds Congress has delineated
for a comparable express cause of action.’ ”) (brackets
and citation omitted). If anything, this Court has indicated that, in light of the heightened separation-of-powers
concerns with judicially implied causes of action, see
Abbasi, 137 S. Ct. at 1855-1858, it would be appropriate
to apply a more rigorous zone-of-interests standard requiring that the provision at issue be intended for the
“especial benefit” of the plaintiff seeking to enforce it,
Clarke, 479 U.S. at 400 n.16 (citation omitted); see Gonzaga Univ. v. Doe, 536 U.S. 273, 283-285 (2002).

29
c. Finally, neither the Appropriations Clause nor an
equitable “ultra vires” theory alters the conclusion that
the focus of the zone-of-interests requirement is Section
8005’s proviso. The zone-of-interests requirement must
be applied “by reference to the particular provision of
law upon which the plaintiff relies.” Bennett, 520 U.S.
at 175-176. The Appropriations Clause provides that
appropriations must be “made by Law,” U.S. Const.
Art. I, § 9, Cl. 7, and respondents do not dispute that the
obligation of funds properly transferred under Section
8005 would satisfy that requirement. Because a violation of Section 8005’s proviso is thus a necessary element of their claim, that is the “provision whose violation forms the legal basis for [the] complaint.” Bennett,
520 U.S. at 176 (quoting Lujan v. National Wildlife
Fed’n, 497 U.S. 871, 883 (1990)) (emphasis omitted).
In concluding otherwise, the panel majority dismissed Section 8005 as “relevant only because, to the
extent it applies, it authorizes executive action that otherwise would be unconstitutional or ultra vires.” App.,
infra, 33a. But that is precisely the point: whether the
Acting Secretary’s conduct was unlawful turns entirely
on the applicability of Section 8005’s proviso, not the
Appropriations Clause. Sierra Club’s (and the States’)
asserted interests must fall within the zone of interests
protected by Section 8005’s proviso to maintain this
suit. They do not.
B. The Acting Secretary Fully Complied With Section 8005

The court of appeals also erred in finding a violation
of Section 8005. That provision authorizes the Secretary to transfer, “[u]pon determination * * * that such
action is necessary in the national interest,” up to $4 billion from certain appropriations made available in the

30
DoD Appropriations Act. 132 Stat. 2999. The panel majority did not dispute that the Acting Secretary made
the requisite national-interest determination. The majority instead held that the transfers violated the proviso in Section 8005 stating “[t]hat such authority to
transfer may not be used unless for higher priority
items, based on unforeseen military requirements, than
those for which originally appropriated and in no case
where the item for which funds are requested has been
denied by the Congress.” Ibid.; see App., infra, 17a,
105a-118a. That conclusion—which the GAO rejected,
see p. 17, supra—is inconsistent with the statutory text,
history, and purpose of the proviso.
Item not denied by Congress. For purposes of the
proviso, Congress has not previously “denied” the
“item” for which funds are requested. DoD never requested appropriations for the item of providing this
counterdrug assistance to DHS, and Congress never
denied any request for that item of expenditure. GAO
Opinion, 2019 WL 4200949, at *8.
The panel majority reached a contrary conclusion
only by interpreting the term “item” to refer to additional funding for a “border wall” writ large, which the
majority understood Congress to have “denied” when it
appropriated only $1.375 billion to another agency—
DHS—for construction of fencing in other sectors of the
border pursuant to DHS’s own distinct statutory authorities. App., infra, 116a-117a. That interpretation is
inconsistent with the context of Section 8005. “[T]he
‘items’ at issue under § 8005 must be understood against
the backdrop of the sort of familiar item-level analysis”
that has long been part of the budgeting process. Id. at
162a (Collins, J., dissenting). During that process, DoD
identifies particular items for which it proposes to use

31
each appropriation; Congress appropriates funds in
light of those budget requests; and Congress may decline to fund specific items. See p. 5, supra. Congress
never did so with respect to these particular projects.
The history of the proviso confirms its roots in the
exchange of itemized budget documents. Congress first
imposed limitations on DoD’s transfer authority for
“denied” items in 1974, to ensure that DoD would not
transfer funds for items in its budget that “ha[d] been
specifically deleted in the legislative process.” House
Report 16 (emphasis added). The proviso thus functions
to protect the choices Congress makes in “delet[ing]”
(ibid.) items requested by DoD during the appropriations process. But Congress never considered, let alone
deleted, any request by DoD to use counterdrug appropriations to assist DHS in this manner.
Unforeseen. DoD’s need to provide counterdrug
support to DHS was an “unforeseen” military requirement within the meaning of the proviso because, when
DoD made its budget requests to Congress for the 2019
fiscal year, DoD did not know and could not have anticipated that DHS would later request its support under
Section 284 for these projects. GAO Opinion, 2019 WL
4200949, at *6. The panel majority asserted that “[n]either the problem” of illegal narcotics crossing the
southern border “nor the President’s purported solution[]” of physical barriers “was unanticipated or unexpected.” App., infra, 108a. But the specific requirement that prompted DoD to transfer these funds was a
request from DHS for assistance under Section 284
with a discrete set of identified projects—a request that
came only six months after the enactment of the DoD
Appropriations Act. See pp. 4, 7, supra. Whether the
“President’s efforts to build a border wall” (App., infra,

32
109a) were foreseeable is irrelevant. See id. at 170a172a (Collins, J., dissenting).
Military requirement. Responding to a request
from DHS for counterdrug assistance under Section 284
also qualified as a “military requirement” under the
proviso. In this context, “military requirement” is a
term of art referring generally to an “established need
justifying the timely allocation of resources to achieve a
capability to accomplish approved military objects, missions, or tasks.” GAO Opinion, 2019 WL 4200949, at *7
(citation omitted). When DoD “accepted DHS’s request, the provision of support constituted a military requirement.” Ibid. The panel majority asserted that the
projects at issue are not “military requirement[s]” because they were undertaken “to support a civilian
agency” and are not, in the majority’s view, “needed or
essential to the armed forces, soldiers, arms, or any sort
of war effort.” App., infra, 113a, 115a-116a. That judgment was not one for the majority to make. Providing
counterdrug assistance under Section 284 is a “military” undertaking because Congress expressly assigned the task to the military. See id. at 165a-169a
(Collins, J., dissenting). As the title of the relevant
chapter of the U.S. Code makes clear, Section 284 is one
of a number of provisions authorizing “Military Support
for Civilian Law Enforcement Agencies.” Id. at 115a.
II. THE QUESTIONS PRESENTED WARRANT REVIEW

In granting a stay, this Court necessarily determined
that, at that stage of the litigation, a reasonable probability of certiorari existed. See, e.g., King, 567 U.S. at
1301 (Roberts, C.J., in chambers). The same considerations counsel in favor of now granting review, as suggested by this Court’s decision not to lift the stay after
the decisions below were issued.

33
First, the decisions below conflict with relevant decisions of this Court. Sup. Ct. R. 10(c). Like the earlier
stay panel’s decision, the merits panel’s effort to transform Sierra Club’s statutory claim into a constitutional
violation is “flatly contradicted” by this Court’s decision
in Dalton, App., infra, 278a (N.R. Smith, J., dissenting),
which teaches that garden-variety claims that an official
acted in excess of his delegated statutory authority
should not be treated as constitutional in nature. Recognizing a cause of action under the Appropriations
Clause itself would also be contrary to this Court’s decision in Armstrong, which confirmed that implied suits
to enjoin alleged constitutional violations by public officials are “the creation of courts of equity” and are therefore subject to “express and implied statutory limitations.” 575 U.S. at 327. As to the States, the panel majority effectively held that they satisfy the zone-ofinterests requirement merely because they allege that
Section 8005 was violated. App., infra, 103a-104a. Nothing in this Court’s precedent supports such a “tautological” approach. Id. at 144a (Collins, J., dissenting).
Second, the questions presented are important for all
federal agencies with transfer authority. Transfer statutes like Section 8005 are commonplace. See Michelle D.
Christensen, Cong. Research Serv., R43098, Transfer
and Reprogramming of Appropriations 3-4 (June 6,
2013); GAO Red Book 2-39 to 2-40. They reflect Congress’s longstanding judgment that the Executive
Branch must have some flexibility to redirect appropriations during “the lengthy and overlapping cycles of the
budget process,” GAO Redbook 2-44 (citation omitted),
in light of unforeseen events or changed priorities. If a
private party could sue to enjoin the exercise of such a
transfer provision without demonstrating that the party

34
falls within the zone of interests protected by the provision’s limitations, the courthouse doors would be open
to a wide variety of challenges that Congress neither
contemplated nor authorized.
Third, if allowed to stand, the decisions below would
frustrate steps that the Acting Secretary determined to
be “necessary in the national interest,” DoD Appropriations Act § 8005, 132 Stat. 2999, to stanch the flow of
illegal drugs across the southern border. The challenged transfers have allowed DoD to undertake the
construction of more than 100 miles of fencing (and associated roads and lighting) in areas identified by DHS
as drug-smuggling corridors, where DHS has seized
thousands of pounds of heroin, cocaine, and methamphetamine between ports of entry in recent years. See
C.A. E.R. 237-280. Whether the Acting Secretary exceeded his authority under Section 8005 when he made
the transfers at issue is a question of significant practical importance to the Executive Branch’s nationalsecurity efforts at the southern border. Cf. Hernandez,
140 S. Ct. at 745-746; Egan, 484 U.S. at 520.

35
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
HASHIM M. MOOPPAN
Counselor to the Solicitor
General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
MATTHEW GUARNIERI
Assistant to the Solicitor
General
H. THOMAS BYRON III
ANNE MURPHY
COURTNEY L. DIXON
Attorneys

AUGUST 2020

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Nos. 19-16102, 19-16300
D.C. No. 4:19-cv-00892-HSG
SIERRA CLUB; SOUTHERN BORDER COMMUNITIES
COALITION, PLAINTIFFS-APPELLEES
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES; MARK T. ESPER,
IN HIS OFFICIAL CAPACITY AS SECRETARY OF THE
DEFENSE; CHAD F. WOLF, IN HIS OFFICIAL CAPACITY
AS ACTING SECRETARY OF HOMELAND SECURITY;
STEVEN TERNER MNUCHIN, IN HIS OFFICIAL
CAPACITY AS SECRETARY OF THE DEPARTMENT OF
THE TREASURY, DEFENDANTS-APPELLANTS
Argued and Submitted: Nov. 12, 2019
San Francisco, California
Filed: June 26, 2020
Appeal from the United States District Court
for the Northern District of California
Haywood S. Gilliam, Jr., District Judge Presiding
OPINION

(1a)

2a
Before: SIDNEY R. THOMAS, Chief Judge, and KIM
MCLANE WARDLAW and DANIEL P. COLLINS, Circuit
Judges.
Opinion by Chief Judge THOMAS; Dissent by Judge COLLINES

THOMAS, Chief Judge:
We consider in this appeal challenges by the Sierra
Club and the Southern Border Communities Coalition
(“SBCC”) 1 to the Department of Defense’s budgetary
transfers to fund construction of the wall on the southern border of the United States in California, New Mexico, and Arizona. Specifically, we consider whether
Section 8005 and Section 9002 of the Department of Defense Appropriations Act of 2019, Pub. L. No. 115-245,
132 Stat. 2981 (2018) (“Section 8005”) 2 authorized the
budgetary transfers. In a companion appeal, State of
California, et al. v. Trump et al., Nos. 19-16299 and
19-16336, we considered similar challenges filed by a collective group of States. However, because Sierra Club
asserts different legal theories, and this case, when presented, was in a different procedural posture, we treat
this appeal separately. We conclude that the transfers
were not authorized, and that plaintiffs have a cause of
action. We affirm the judgment of the district court.

We refer throughout this opinion to Sierra Club and SBCC together as “Sierra Club,” unless otherwise noted.
2
For simplicity, because the transfer authorities are both subject to Section 8005’s substantive requirements, this opinion refers
to these authorities collectively as Section 8005, as did the district
court and the motions panel. Our holding in this case therefore
extends to both the transfer of funds pursuant to Section 8005 and
Section 9002.
1

3a
I
We recounted the essential underlying facts in the
companion case. However, we briefly outline them here
for convenience of reference.
The President has long supported the construction of
a border wall on the southern border between the
United States and Mexico. Since the President took
office in 2017, however, Congress has repeatedly declined to provide the amount of funding requested by the
President.
The debate over border wall funding came to a head
in December of 2018. During negotiations to pass an
appropriations bill for the remainder of the fiscal year,
the President announced that he would not sign any legislation that did not allocate substantial funds to border
wall construction. On January 6, 2019, the White
House requested $5.7 billion to fund the construction of
approximately 234 miles of new physical barrier. 3
Budget negotiations concerning border wall funding
reached an impasse, triggering the longest partial government shutdown in United States history.
After 35 days, the government shutdown ended without an agreement to provide increased border wall funding in the amount requested by the President. On February 14, 2019, Congress passed the Consolidated Appropriations Act of 2019 (“CAA”), which included the
Department of Homeland Security Appropriations Act
for Fiscal Year 2019, Pub. L. No. 116-6, div. A, 133 Stat.
13 (2019). The CAA appropriated only $1.375 billion
Some form of a physical barrier already exists at the site of some
of the construction projects. In those places, construction would
reinforce or rebuild the existing portions.
3

4a
for border wall construction, specifying that the funding
was for “the construction of primary pedestrian fencing
. . . in the Rio Grande Valley Sector.” Id. § 230(a)(1).
The President signed the CAA into law the following
day.
The President concurrently issued a proclamation
under the National Emergencies Act, 50 U.S.C. §§ 16011651, “declar[ing] that a national emergency exists at
the southern border of the United States.” Proclamation No. 9,844, 84 Fed. Reg. 4949 (Feb. 15, 2019). 4 An
accompanying White House Fact Sheet explained that
the President was “using his legal authority to take Executive action to secure additional resources” to build a
border wall, and it specified that “the Administration
[had] so far identified up to $8.1 billion that [would] be
available to build the border wall once a national emergency [was] declared and additional funds [were] reprogrammed.” The Fact Sheet identified several funding
sources, including $2.5 billion of Department of Defense
(“DoD”) funds that could be transferred to provide support for counterdrug activities of other federal government agencies under 10 U.S.C. § 284 (“Section 284”). 5
Subsequently, Congress adopted two joint resolutions terminating the President’s emergency declaration pursuant to its authority
under 50 U.S.C. § 1622(a)(1). The President vetoed each resolution, and Congress failed to override these vetoes.
5
Section 284 authorizes the Secretary of Defense to “provide
support for the counterdrug activities . . . of any other department or agency of the Federal Government” if it receives a request
from “the official who has responsibility for the counterdrug activities.” 10 U.S.C. §§ 284(a), 284(a)(1)(A). The statute permits,
among other things, support for “[c]onstruction of roads and fences
and installation of lighting to block drug smuggling corridors across
international boundaries of the United States.” Id. § 284(b)(7).
4

5a
Executive Branch agencies began using the funds identified by the Fact Sheet to fund border wall construction. On February 25, the Department of Homeland
Security (“DHS”) submitted to DoD a request for Section 284 assistance to block drug smuggling corridors.
In particular, it requested that DoD fund “approximately 218 miles” of wall using this authority, comprised
of numerous projects. On March 25, Acting Secretary
of Defense Patrick Shanahan approved three border
wall construction projects: Yuma Sector Projects 1
and 2 in Arizona and El Paso Sector Project 1 in New
Mexico. On May 9, Shanahan approved four more border wall construction projects: El Centro Sector Project 1 in California and Tucson Sector Projects 1-3 in Arizona.
At the time Shanahan authorized Section 284 support
for these border wall construction projects, the counternarcotics support account contained only $238,306,000 in
unobligated funds, or less than one tenth of the $2.5 billion needed to complete those projects. To provide the
support requested, Shanahan invoked the budgetary
transfer authority found in Section 8005 of the 2019 DoD
Appropriations Act to transfer funds from other DoD
appropriations accounts into the Section 284 Drug Interdiction and Counter-Drug Activities-Defense appropriations account.
For the first set of projects, Shanahan transferred $1
billion from Army personnel funds. For the second set
of projects, Shanahan transferred $1.5 billion from “var-

DoD’s provision of support for other agencies pursuant to Section
284 does not require the declaration of a national emergency.

6a
ious excess appropriations,” which contained funds originally appropriated for purposes such as modification of
in-service missiles and support for U.S. allies in Afghanistan.
As authority for the transfers, DoD invoked Section
8005, which provides, in relevant part that:
Upon determination by the Secretary of Defense that
such action is necessary in the national interest, he
may, with the approval of the Office of Management
and Budget, transfer not to exceed $4,000,000,000 of
working capital funds of the Department of Defense
or funds made available in this Act to the Department
of Defense for military functions (except military
construction) between such appropriations or funds
or any subdivision thereof, to be merged with and to
be available for the same purposes, and for the same
time period, as the appropriation or fund to which
transferred. 6
Section 8005 also explicitly limits when its authority
can be invoked: “Provided, That such authority to transfer may not be used unless for higher priority items, based
The other authority invoked by the Federal Defendants, Section
9002 provides that: “Upon the determination of the Secretary of
Defense that such action is necessary in the national interest, the
Secretary may, with the approval of the Office of Management and
Budget, transfer up to $2,000,000,000 between the appropriations or
funds made available to the Department of Defense in this title:
Provided, That the Secretary shall notify the Congress promptly of
each transfer made pursuant to the authority in this section: Provided further, That the authority provided in this section is in addition to any other transfer authority available to the Department of
Defense and is subject to the same terms and conditions as the authority provided in section 8005 of this Act.”
6

7a
on unforeseen military requirements, than those for which
originally appropriated and in no case where the item
for which funds are requested has been denied by the
Congress.”
Although Section 8005 does not require formal congressional approval of transfers, historically DoD had
adhered to a “gentleman’s agreement,” by which it sought
approval from the relevant congressional committees
before transferring the funds. DoD deviated from this
practice here—it did not request congressional approval
before authorizing the transfer. Further, the House
Committee on Armed Services and the House Committee on Appropriations both wrote letters to DoD formally disapproving of the reprogramming action after
the fact. Moreover, with respect to the second transfer, Shanahan expressly directed that the transfer of
funds was to occur “without regard to comity-based policies that require prior approval from congressional committees.”
In the end, Section 8005 was invoked to transfer $2.5
billion of DoD funds appropriated for other purposes to
fund border wall construction.
II
On February 19, 2019, Sierra Club filed a lawsuit
challenging the Executive Branch’s funding of the border wall. 7 Sierra Club pled theories of violation of the
California, New Mexico, and fourteen other states had filed a
lawsuit the previous day challenging the same border wall funding.
Both lawsuits named as defendants Donald J. Trump, President of
the United States, Patrick M. Shanahan, former Acting Secretary of
Defense, Kirstjen M. Nielsen, former Secretary of Homeland Security, and Steven Mnuchin, Acting Secretary of the Treasury in their
7

8a
2019 CAA, violation of the constitutional separation of
powers, violation of the Appropriations Clause, violation
of the Presentment Clause, violation of the National Environmental Policy Act (“NEPA”), and ultra vires action.
Sierra Club subsequently filed a motion requesting a
preliminary injunction to enjoin the transfer of funds
pursuant to Section 8005 to construct a border wall in
Arizona’s Yuma Sector and New Mexico’s El Paso Sector. The district court held that Sierra Club had standing to assert its Section 8005 claims, and granted the
preliminary injunction motion. The Federal Defendants timely appealed the preliminary injunction order.
Sierra Club subsequently sought a supplemental preliminary injunction to block additional construction planned in
California’s El Centro Sector and Arizona’s Tucson Sector.
Sierra Club also filed a motion requesting partial
summary judgment, a declaratory judgment, and a permanent injunction to enjoin the transfer of funds pursuant to Section 8005 to construct a border wall in Arizona’s Yuma and Tucson Sectors, California’s El Centro
Sector, and New Mexico’s El Paso Sector. The Federal Defendants cross-moved for summary judgment
and opposed Sierra Club’s motion. The district court
granted Sierra Club’s motion for partial summary judgment and granted its request for a declaratory judgment
and a permanent injunction. The Federal Defendants
requested that the district court certify the judgment
for appeal under Fed. R. Civ. P. 54(b). The district court
official capacities, along with numerous other Executive Branch officials (collectively referenced as “the Federal Defendants”).

9a
considered the appropriate factors, made appropriate
findings, and certified the order as final pursuant to
Rule 54(b). See Pakootas v. Teck Cominco Metals, Ltd.,
905 F.3d 565, 574-75 (9th Cir. 2018) (explaining when
certification is appropriate under Rule 54). The Federal Defendants timely appealed the district court decision.
The Federal Defendants initially filed a motion to
stay the district court’s preliminary injunction, and in
their later briefing on summary judgment, they requested that the district court stay any permanent injunction granted pending appeal. The district court
denied both requests. The Federal Defendants filed an
emergency motion for stay of the preliminary injunction
pending appeal in this Court and subsequently sought a
stay of the permanent injunction, relying on the same
arguments. Sierra Club v. Trump, 929 F.3d 670, 685
(9th Cir. 2019). An emergency motions panel of this
Court considered whether to stay the injunction pending appeal, and held that a stay was not warranted. Id.
at 677. The Federal Defendants then filed an application for a stay pending appeal with the Supreme Court.
The Supreme Court granted the application, noting that
“[a]mong the reasons is that the Government has made
a sufficient showing at this stage that the plaintiffs have
no cause of action to obtain review of the Acting Secretary’s compliance with Section 8005.” Trump v. Sierra
Club, 140 S. Ct. 1 (2019) (mem.).
We now consider the merits of the Federal Defendants’ appeal of the district court’s grant of partial summary judgment, grant of a declaratory judgment, and

10a
grant of a permanent injunction to Sierra Club. 8 We
review the existence of Article III standing de novo.
See California v. U.S. Dep’t of Health & Human Servs.,
941 F.3d 410, 420 (9th Cir. 2019). We review questions
of statutory interpretation de novo. See United States
v. Kelly, 874 F.3d 1037, 1046 (9th Cir. 2017).
III
Sierra Club has Article III standing to pursue its
claims. To establish Article III standing, a plaintiff
must have (1) suffered an injury in fact, (2) that is fairly
traceable to the challenged conduct of the defendant,
and (3) that is likely to be redressed by a favorable judicial decision. Lujan v. Defs. of Wildlife, 504 U.S. 555,
560-61 (1992). 9 An organization has standing to sue on
behalf of its members when “its members would otherwise have standing to sue in their own right,” and when
“the interests it seeks to protect are germane to the organization’s purpose.” United Food and Commercial
Workers Union Local 751 v. Brown Grp., Inc., 517 U.S.

We dismiss the Federal Defendants’ appeal of the district court’s
grant of the preliminary injunction as moot. See Planned Parenthood Ariz. Inc. v. Betlach, 727 F.3d 960, 963 (9th Cir. 2013) (“The district court’s entry of final judgment and a permanent injunction
moots Arizona’s appeal of the preliminary injunction.”); see also
Planned Parenthood of Cent. & N. Ariz. v. Arizona, 718 F.2d 938,
949-50 (9th Cir. 1983); SEC v. Mount Vernon Mem’l Park, 664 F.2d
1358, 1361-62 (9th Cir. 1982).
9
The Federal Defendants do not challenge Sierra Club’s Article
III standing in these appeals. However, “the court has an independent obligation to assure that standing exists, regardless of
whether it is challenged by any of the parties.” Summers v. Earth
Island Inst., 555 U.S. 488, 499 (2009).
8

11a
544, 553 (1996) (quoting Hunt v. Wash. State Apple Advert. Comm’n, 434 U.S. 333, 343 (1977)). 10 An organization has standing to sue on its own behalf when it suffers
“both a diversion of its resources and a frustration of its
mission.” La Asociacion de Trabajadores de Lake Forest v. City of Lake Forest, 624 F.3d 1083, 1088 (9th Cir.
2010) (quoting Fair Housing of Marin v. Combs, 285
F.3d 899, 905 (9th Cir. 2002)). It must “show that it
would have suffered some other injury if it had not diverted resources to counteracting the problem.” Id.
At summary judgment, a plaintiff cannot rest on mere
allegations, but “must set forth by affidavit or other evidence specific facts.” Clapper v. Amnesty Int’l. USA,
568 U.S. 398, 412 (2013) (quotations and citation omitted). However, these specific facts “for purposes of the
summary judgment motion will be taken to be true.”
Lujan, 504 U.S. at 561.
Here, Sierra Club and SBCC have alleged facts that
support their standing to sue on behalf of their members. Sierra Club has alleged that the actions of the
Federal Defendants will cause particularized and concrete injuries to its members, and SBCC has shown that
it has suffered a concrete injury itself.

United Food and Commercial Workers held that those two requirements were based on constitutional demands, but held that the
third prong of Hunt’s test for organizational standing, whether the
claim or relief requested requires the participation of individual
members in the lawsuit, was prudential only. Id. at 555. In any
case, because the claim and relief requested here do not require the
participation of Sierra Club or SBCC members, even this prudential
consideration supports plaintiffs’ standing here.
10

12a
Sierra Club has more than 400,000 members in California, over 9,700 of whom belong to its San Diego Chapter. Sierra Club’s Grand Canyon Chapter, which covers the State of Arizona, has more than 16,000 members. Sierra Club’s Rio Grande Chapter includes over
10,000 members in New Mexico and West Texas.
These members visit border areas such as the Tijuana
Estuary (California), the Otay Mountain Wilderness
(California), the Jacumba Wilderness Area (California),
the Sonoran Desert (Arizona), Cabeza Prieta National
Wildlife Refuge (Arizona), and the Chihuahan Desert
(New Mexico).
Sierra Club’s thousands of members live near and
frequently visit these areas along the U.S.-Mexico border for hiking, birdwatching, photography, and other
professional, scientific, recreational, and aesthetic activities. They obtain recreational, professional, scientific,
educational, and aesthetic benefits from their activities
in these areas, and from the wildlife dependent upon the
habitat in these areas. The construction of a border
wall and related infrastructure will acutely injure these
interests because DHS is proceeding with border wall
construction without ensuring compliance with any federal or state environmental regulations designed to protect these interests.
Sierra Club has adequately set forth facts and other
evidence by declaration, which taken as true, support
these allegations for the purpose of Article III standing.
Sierra Club members Orson Bevins and Albert Del
Val have alleged that they will be injured by construction of Yuma Project 1. Bevins avers that he visits the
area several times per year and is concerned that the
wall “would disrupt the desert views and inhibit [him]

13a
from fully appreciating [the] area,” and that the additional presence of U.S. Customs and Border Protection
agents “would further diminish[] [his] enjoyment of
these areas” and “deter[] [him] from further exploring
certain areas.” Del Val worries that “construction and
maintenance of the border wall will limit or entirely cut
off [his] access to [] fishing spots” along the border,
where he has fished for more than 50 years.
Sierra Club member Elizabeth Walsh has alleged
that construction of El Paso Sector Project 1 would injure her because “[a]s part of [her] professional and academic work [she] routinely visit[s] and stud[ies]” the
area where the project would be built to “supervise several ongoing and long-term biology studies in this area
with graduate students on the aquatic diversity of ephemeral wetlands known locally as playas.” Among other
things, she is worried that border wall construction
would “negatively impact the scientific playa studies
. . . because a wall could impede vital natural drainage patterns for the playas.”
Sierra Club member Carmina Ramirez has alleged
that she “will be harmed culturally and aesthetically” if
El Centro Sector Project 1 is built because she has spent
her entire life in the area surrounding the U.S.-Mexico
Border, including the El Centro Sector, and she believes
that border wall construction would “drastically impact
[her] ability to enjoy the local natural environment,” because she would “see a high border wall instead of [the]
beautiful landscape,” and “drastically impact [her] cultural identity by fragmenting [her] community.” Construction will make her “less likely to hike Mount Signal
and enjoy outdoor recreational activities; and when [she

14a
does] undertake those activities, [her] enjoyment of
them will be irreparably diminished.”
Sierra Club member Ralph Hudson “recreat[es] in
the wilderness areas along the U.S.-Mexico border” in
the area referred to as the Tucson Sector and has done
so for 20 years. He uses the land “to hike, take photos,
and explore the natural history.” He is “extremely
concerned that Tucson Projects 1 and 2 will greatly detract from [his] ability to enjoy hiking, camping, and
photographing these landscapes.”
Sierra Club member Margaret Case lives a few miles
from the border, and she asserts that she will be injured
by the construction of Tucson Sector Project 3. “With
each increase and escalation in enforcement along the
border, [her] and other border residents’ quality of life
decreases” and “[t]he proposed wall will . . . extend
an already unwanted eyesore in the middle of a landscape whose beauty [she] treasure[s], irrevocably harming [her] enjoyment of that landscape.”
Additionally, the interests of Sierra Club’s members
in this lawsuit are germane to the organization’s purpose. Sierra Club is a national organization “dedicated
to exploring, enjoying, and protecting the wild places of
the earth; to educating and enlisting humanity to protect
and restore the quality of the natural and human environment; and to using all lawful means to carry out these
objectives.” Sierra Club’s organizational purpose is at
the heart of this lawsuit, and it easily satisfies this secondary requirement.
SBCC has also alleged facts that support that it has
standing to sue on behalf of itself and its member organ-

15a
izations. SBCC alleged that since the Federal Defendants proposed border wall construction, it has had to
“mobilize[] its staff and its affiliates to monitor and respond to the diversion of funds and the construction
caused by and accompanying the national emergency
declaration.” These “activities have consumed the majority of SBCC staff ’s time, thereby interfering with
SBCC’s core advocacy regarding border militarization,
Border Patrol law-enforcement activities, and immigration reform,” but it has had no choice because it “must
take these actions in furtherance of its mission to protect and improve the quality of life in border communities.”
SBCC Director Vicki Gaubeca confirms these allegations. She has stated that a “border wall, as a physical
structure and symbol, is contrary to the goals of SBCC
and the needs of border communities.” She avers that
the “emergency declaration and the threat and reality
of construction have caused [SBCC] to reduce the time
[it] spend[s] on [its] core projects, including public education about border policies, community engagement on
local issues, and affirmative advocacy for Border Patrol
accountability and immigration reform.” SBCC and its
member organizations have instead “been forced to devote substantial time to analyze and respond to the declaration and the promise to build border walls across the
southern border” “at a substantial monetary and opportunity cost.”
These allegations are sufficient to establish that, if
funds are transferred to the border wall construction
projects, Sierra Club members and SBCC will each suffer injuries in fact.

16a
Sierra Club and SBCC have also shown that such injuries are “fairly traceable to the challenged action of
the [Federal Defendants], and [are] not the result of the
independent action of some third party not before the
court.” Mendia v. Garcia, 768 F.3d 1009, 1012 (9th
Cir. 2014) (quoting Bennett v. Spear, 520 U.S. 154, 167
(1997)). It makes no difference that the border wall
construction is the product of other statutory provisions,
such as Section 284, in addition to Section 8005. “Causation may be found even if there are multiple links in
the chain connecting the defendant’s unlawful conduct
to the plaintiff ’s injury, and there’s no requirement that
the defendant’s conduct comprise the last link in the
chain.” Id. The Federal Defendants could not build
the border wall projects challenged by Sierra Club without invoking Section 8005’s transfer authority—without
this authority, there was no money to build these portions of the border wall; therefore, construction is fairly
traceable to the Section 8005 transfers.
The injury to Sierra Club members and SBCC is likely
to be redressed by a favorable judicial decision. A judicial order prohibiting the Federal Defendants from
spending the money transferred pursuant to Section
8005 would stop construction, thereby preventing the
harm alleged by Plaintiffs. Thus, Sierra Club and
SBCC have established that their members satisfy the
demands of Article III standing to challenge the Federal Defendants’ actions.
IV
First, we consider whether Section 8005 or any constitutional provision authorized DoD to transfer the funds
at issue. We hold they did not.

17a
A
Section 8005 provides DoD with limited authority to
transfer funds between different appropriations accounts,
but it provides no such authority “unless for higher priority items, based on unforeseen military requirements,
than those for which originally appropriated and in no
case where the item for which funds are requested has
been denied by the Congress.” In the opinion filed today in the companion case, State of California, et al. v.
Trump, et al., Nos. 19-16299 and 19-16336, slip op. at 37
(9th Cir. filed June 26, 2020), we hold that Section 8005
did not authorize the transfer of funds at issue here because “the border wall was not an unforeseen military
requirement,” and “funding for the wall had been denied
by Congress.” We reaffirm this holding here and conclude that Section 8005 did not authorize the transfer of
funds.
B
The “straightforward and explicit command” of the
Appropriations Clause 11 “means simply that no money
can be paid out of the Treasury unless it has been appropriated by an act of Congress.” Office of Pers.
Mgmt. v. Richmond, 496 U.S. 414, 424 (1990) (quotation
and citation omitted). The Clause is “a bulwark of the
Constitution’s separation of powers.” U.S. Dep’t. Of
Navy v. Fed. Labor Relations Auth., 665 F.3d 1339, 1347
(D.C. Cir. 2012); see also United States v. McIntosh, 833
F.3d 1163, 1174-75 (9th Cir. 2016). It “assure[s] that
public funds will be spent according to the letter of the
“No money shall be drawn from the Treasury, but in Consequence of Appropriations made by Law. . . . ” U.S. Const. art.
I, § 9, cl. 7.
11

18a
difficult judgments reached by Congress as to the common good and not according to the individual favor of
Government agents.” Office of Pers. Mgmt., 496 U.S.
at 427-28. Without it, “the executive would possess an
unbounded power over the public purse of the nation;
and might apply all its moneyed resources at his pleasure.” Id. at 427 (quoting Joseph Story, 2 Commentaries
on the Constitution of the United States § 1348 (3d ed.
1858)).
Accordingly, “[t]he United States Constitution exclusively grants the power of the purse to Congress, not the
President.” City and Cty. of San Francisco v. Trump,
897 F.3d 1225, 1231 (9th Cir. 2018) (citing U.S. Const.
art. I, § 9, cl. 7). “[W]hen it comes to spending, the
President has none of ‘his own constitutional powers’ to
‘rely’ upon.” Id. at 1233-34 (quoting Youngstown Sheet
& Tube Co. v. Sawyer, 343 U.S. 579, 637 (1952) (Jackson,
J., concurring)).
Here, the Executive Branch lacked independent constitutional authority to authorize the transfer of funds.
These funds were appropriated for other purposes, and
the transfer amounted to “drawing funds from the
Treasury without authorization by statute and thus violating the Appropriations Clause.” McIntosh, 833 F.3d
at 1175.
Therefore, the transfer of funds here was unlawful.
V
All that is left for us to decide, then, is whether Sierra
Club is a proper party to challenge the Section 8005 transfers. Sierra Club asserts that it has a number of viable

19a
causes of action—including a constitutional cause of action and an ultra vires cause of action—while the Federal Defendants assert that Sierra Club has none.
The Supreme Court stay order suggests that Sierra
Club may not be a proper challenger here. See Sierra
Club, 140 S. Ct. at 1. We heed the words of the Court,
and carefully analyze Sierra Club’s arguments. Having done so, we conclude that Sierra Club has both a constitutional and an ultra vires cause of action.
In reaching this result, we realize that this is a rare
case in which the “judiciary may . . . have to intervene in determining where the authority lies as between
the democratic forces in our scheme of government.”
Youngstown, 343 U.S. at 597 (1952) (Frankfurter, J. concurring). In doing so, we remain “wary and humble,”
id., for “[i]t is not a pleasant judicial duty to find that the
President has exceeded his powers,” id. at 614. But
where, as here, “Congress could not more clearly and
emphatically have withheld [the] authority,” id. at 602,
exercised by DoD, “with full consciousness of what it
was doing and in the light of much recent history,” id.,
and Sierra Club satisfies the rigors of Article III standing, our “obligation to hear and decide [this] case is virtually unflagging,” Sprint Commc’ns, Inc. v. Jacobs, 571
U.S. 69, 77 (2013) (quotations and citation omitted).
“All we can do is, to exercise our best judgment, and conscientiously to perform our duty.” Cohens v. State of
Virginia, 19 U.S. 264, 404 (1821).

20a
A
First, we consider whether Sierra Club has a constitutional cause of action to challenge the Federal Defendants’ transfer. We hold that it does.
Certain provisions of the Constitution give rise to equitable causes of action. Such causes of action are most
plainly available with respect to provisions conferring
individual rights, such as the Establishment Clause or
the Free Exercise Clause. See Trump v. Hawaii, 138
S. Ct. 2392, 2416 (2018); Flast v. Cohen, 392 U.S. 83
(1968). But certain structural provisions give rise to
causes of action as well. See Nat. Labor Relations. Bd.
v. Noel Canning, 573 U.S. 513, 556-57 (2014) (cause of
action based on the Recess Appointments Clause); Bond
v. United States, 564 U.S. 211, 225-26 (2011) (cause of
action based on structural principles of federalism);
Clinton v. City of New York, 524 U.S. 417, 434-36 (1998)
(cause of action based on the Presentment Clause); INS
v. Chadha, 462 U.S. 919, 943-44 (1983) (cause of action
based on the constitutional requirement of bicameralism
and presentment); McIntosh, 833 F.3d at 1174-75 (cause
of action based on the Appropriations Clause).
In Bond, the Supreme Court articulated why certain
structural constitutional provisions give rise to causes of
action. The Court considered “whether a person indicted for violating a federal statute has standing to
challenge its validity on the grounds that, by enacting it,
Congress exceeded its powers under the Constitution,
thus intruding upon the sovereignty and authority of the
States.” 564 U.S. at 214. The Court held that “[j]ust
as it is appropriate for an individual, in a proper case, to
invoke separation-of-powers or checks-and-balances constraints, so too may a litigant, in a proper case, challenge

21a
a law as enacted in contravention of constitutional principles of federalism.” Id. at 223-24. It reasoned that
the challenge was permissible because “structural principles secured by the separation of powers protect the
individual as well,” and “[a]n individual has a direct interest in objecting to laws that upset the constitutional
balance . . . when the enforcement of those laws
causes injury that is concrete, particular, and redressable.” Id. at 222. In other words, an individual who
otherwise meets the requirements of Article III standing may challenge government action that violates structural constitutional provisions intended to protect individual liberties.
We have held that the Appropriations Clause contains such a cause of action. See McIntosh, 833 F.3d at
1173-74. In McIntosh, defendants moved to enjoin
their prosecutions for federal marijuana offenses on the
grounds that a congressional appropriations rider prohibited the Department of Justice from spending federal
funds on such prosecutions. Id. at 1168. We held that
“[the Appropriations Clause] constitutes a separationof-powers limitation that Appellants can invoke to challenge their prosecutions.” Id. at 1175. The opinion
reasoned that so long as a litigant satisfies the Article
III standing requirements, he or she can challenge Appropriations Clause violations because “[o]nce Congress, exercising its delegated powers, has decided the
order of priorities in a given area, it is for . . . the
courts to enforce them when enforcement is sought.”
Id. at 1172 (quoting Tenn. Valley Auth. v. Hill, 437 U.S.
153, 194 (1978)). In McIntosh, we also reaffirmed the
Supreme Court’s statement in Bond that “both federalism and separation-of-powers constraints in the Constitution serve to protect individual liberty, and a litigant

22a
in a proper case can invoke such constraints ‘[w]hen government acts in excess of its lawful powers.’ ” Id. at
1174 (quoting Bond, 564 U.S. at 222). 12
The cause of action available to the plaintiffs in McIntosh is available to Sierra Club here. Congress decided
the order of priorities for border security. In doing
so, it chose to allocate $1.375 billion to fund the construction of pedestrian fencing in Texas. See 2019 CAA
§ 230(a)(1). It declined to provide additional funding
for projects in other areas, and it declined to provide the
full $5.7 billion sought by the President: it is for the
courts to enforce Congress’s priorities, and we do so
here. Where plaintiffs, like Sierra Club, establish that
they satisfy the requirements of Article III standing,
they may invoke separation-of-powers constraints, like
the Appropriations Clause, to challenge agency spending in excess of its delegated authority.
The Federal Defendants argue that Dalton v. Specter, 511 U.S. 462 (1994) forecloses this result. They assert that Dalton’s proposition that not “every action by
the President, or by another executive official, in excess
of his statutory authority is ipso facto in violation of the
Constitution,” means that when there is a claim that an
The Federal Defendants incorrectly characterize McIntosh’s
constitutional holding as dicta. The McIntosh Court discussed the
availability of a constitutional cause of action, analogizing to Bond
and Canning, and stating that “Appellants have standing to invoke
separation-of-powers provisions of the Constitution to challenge
their criminal convictions.” 833 F.3d at 1174. Because the Court
“confront[ed] an issue germane to the eventual resolution of the
case,” and “resolve[d] it after reasoned consideration in a published
opinion,” McIntosh’s constitutional holding is “the law of the circuit.” Cetacean Cmty. v. Bush, 386 F.3d 1169, 1173 (9th Cir. 2004)
(quotations and citation omitted).
12

23a
Executive Branch official acted in excess of his statutory
authority, there is no constitutional violation. Id. at
472. But Dalton does not hold that every action in excess of statutory authority is not a constitutional violation. 13 Rather, Dalton suggests that some actions in
excess of statutory authority may be constitutional violations, while others may not. Specifically, Dalton suggests that a constitutional violation may occur when an
officer violates an express prohibition of the Constitution. Id. (citing Bivens v. Six Unknown Named Agents
of Fed. Bureau of Narcotics, 403 U.S. 388, 396-97 (1971)
for the distinction between “actions contrary to [a] constitutional prohibition,” and those “merely said to be in
excess of the authority delegated . . . by the Congress”). The Appropriations Clause contains such a
constitutional prohibition, declaring that “[n]o Money
shall be drawn from the Treasury, but in Consequence
of Appropriations made by Law. . . . ” U.S. Const.
art. 1, § 9, cl. 7. Under Dalton, then, violations of the
Notably, the plaintiffs in Dalton never alleged that the President violated the Constitution and sought review “exclusively under the [Administrative Procedure Act (“APA”)].” Id. at 471.
Only the Court of Appeals “sought to determine whether non-APA
review, based on either common law or constitutional principles,
was available.” Id. The Supreme Court did not consider whether
the President had violated a specific constitutional prohibition; instead, it took issue only with the Court of Appeals’ contention that
“whenever the President acts in excess of his statutory authority,
he also violates the constitutional separation-of-powers doctrine.”
Id. The Supreme Court’s objection to this conclusion is unsurprising in the context of the Defense Base Closure and Realignment Act of 1990 at issue in Dalton. The Constitution divides authority with respect to the military between Congress and the President. Here, in contrast, the Constitution delegates exclusively to
Congress the power of the purse.
13

24a
Appropriations Clause may give rise to viable causes of
action.
Dalton’s discussion of Youngstown only underscores
this point. The Court determined that Youngstown could
not stand for the proposition “that an action taken by
the President in excess of his statutory authority necessarily violates the Constitution” because in Youngstown
“no statutory authority was claimed.” Dalton, 511 U.S.
at 473 (emphasis added). The Court concluded only
that “claims simply alleging that the President has exceeded his statutory authority are not ‘constitutional’
claims, subject to judicial review.” Id. Thus, Dalton
and its discussion of Youngstown do not address situations in which the President exceeds his or her statutory
authority, and in doing so, also violates a specific constitutional prohibition, as is the case here.
Neither does Armstrong v. Exceptional Child Center, Inc., 575 U.S. 320 (2015), require an opposite result
here. In Armstrong, the Supreme Court rejected the
argument that the Supremacy Clause created a private
right of action. Id. at 325-27. But the Supremacy
Clause is not the Appropriations Clause: while the Supremacy Clause “only declares a truth, which flows immediately and necessarily from the institution of a Federal Government,” id. at 325 (citing The Federalist No.
33, p. 207 (J. Cooke ed. 1961)), the Appropriations Clause
contains an explicit prohibition, which protects individual liberty, because “[a]ny exercise of a power granted
by the Constitution to one of the other branches of Government is limited by a valid reservation of congressional control over funds in the Treasury,” McIntosh,
833 F.3d at 1175. “The individual loses liberty in a real

25a
sense if [the appropriations power] is not subject to traditional constitutional constraints.” Clinton v. City of
New York, 524 U.S. at 451 (Kennedy, J., concurring).
Thus, while it might be “strange” “to give a clause that
makes federal law supreme a reading that limits Congress’s power to enforce that law,” Armstrong, 575 U.S.
at 326, it is entirely sensible to give a clause that restricts the power of the federal government as a whole a
reading that safeguards individual liberty.
Therefore, because the Federal Defendants not only
exceeded their delegated authority, but also violated an
express constitutional prohibition designed to protect
individual liberties, we hold that Sierra Club has a constitutional cause of action here.
B
Second, we consider whether Sierra Club has an equitable ultra vires cause of action to challenge the Federal Defendants’ transfer. We hold that it does.
Whether Sierra Club can assert an equitable ultra
vires cause of action turns on “whether the relief [it] request[s] . . . was traditionally accorded by courts of
equity.” Grupo Mexicano de Desarrollo S.A. v. All.
Bond Fund, Inc., 527 U.S. 308, 319 (1999). Equitable
actions to enjoin ultra vires official conduct do not depend upon the availability of a statutory cause of action;
instead, they seek a “judge-made remedy” for injuries
stemming from unauthorized government conduct, and
they rest on the historic availability of equitable review.
Armstrong, 575 U.S. at 327. “The substantive prerequisites for obtaining an equitable remedy . . . depend on traditional principles of equity jurisdiction.”

26a
Grupo Mexicano, 527 U.S. at 318-19 (quotations and citation omitted).
The relief Sierra Club requests has been traditionally
available. “The ability to sue to enjoin unconstitutional
actions by state and federal officers is the creation of
courts of equity, and reflects a long history of judicial
review of illegal executive action, tracing back to England.” Armstrong, 575 U.S. at 327 (citing Jaffe & Henderson, Judicial Review and the Rule of Law: Historical Origins, 72 L.Q. Rev. 345 (1956)); see also Harmon
v. Brucker, 355 U.S. 579, 581-82 (1958) (“Generally, judicial relief is available to one who has been injured by
an act of a government official which is in excess of his
express or implied powers.”). Such causes of action
have been traditionally available in American courts:
“[w]hen Congress limits its delegation of power, courts
infer (unless the statute clearly directs otherwise) that
Congress expects this limitation to be judicially enforced.” Dart v. United States, 848 F.2d 217, 223 (D.C.
Cir. 1988).
The passage of the APA has not altered this presumption. “Prior to the APA’s enactment . . . courts had
recognized the right of judicial review of agency actions
that exceeded authority,” and “[n]othing in the subsequent enactment of the APA altered [that] doctrine of
review,” to “repeal the review of ultra vires actions.”
Id. at 224. “When an executive acts ultra vires, courts
are normally available to reestablish the limits on his authority.” Id.
That Sierra Club has a cause of action to enjoin the
unconstitutional actions at issue here is best illustrated
by Youngstown. There, Congress passed numerous
statutes authorizing the President to take personal and

27a
real property under specific conditions. 343 U.S. at
585-86. During the Korean War, however, President
Truman signed an executive order seizing most of the
nation’s steel mills, even though the conditions of the
statutes had not been satisfied as a matter of fact. Id.
at 582, 586. It fell to the Supreme Court to determine
whether the President had constitutional authority to
seize the steel mills—it held he did not and affirmed the
district court injunction. Id. at 588-589. The Court
never questioned that it had the authority to provide the
requested relief.
Such is the case here. Section 8005 authorizes DoD
to transfer funds under certain conditions; however, as
explained previously, DoD failed to satisfy those conditions. Likewise, as explained previously, the Executive Branch lacks independent constitutional authority
to fund border wall construction. If an equitable ultra
vires action was available to the plaintiffs in Youngstown, it surely must be available to Sierra Club here.
A number of D.C. Circuit cases reaffirm that review
is ordinarily available when an agency exceeds its delegation of authority. In Chamber of Commerce of the
United States v. Reich, the D.C. Circuit considered
whether the Chamber of Commerce had a cause of action to challenge an executive order barring the federal
government from contracting with employers who hire
permanent replacements during a lawful strike. 74
F.3d 1322, 1325-26 (D.C. Cir. 1996). The government
argued that the Chamber of Commerce lacked a statutory cause of action and that APA review was not available because the challenge was directed at the President’s statutory authority to issue the executive order,
and the President is not an agency within the meaning

28a
of the APA. See id. The court agreed that APA review was not available, but it held that non-statutory review remained available. See id. at 1327. The court
held that “[i]f a plaintiff is unable to bring his case predicated on either a specific or a general statutory review
provision, he may still be able to institute a non-statutory
review action.” Id. The court reasoned in part that
“[t]he responsibility of determining the limits of statutory
grants of authority . . . is a judicial function entrusted to the courts by Congress by the statutes establishing courts and marking their jurisdiction.” Id.
(quoting Stark v. Wickard, 321 U.S. 288, 310 (1944)).
Likewise, in Dart v. United States, the D.C. Circuit
considered whether the plaintiff could challenge the
Secretary of Commerce’s decision to impose civil sanctions for a violation of the Export Administration Act
(“EAA”). See 848 F.2d at 219. The court held that
even though the EAA expressly limited judicial review,
the court retained the ability to review whether the Secretary exceeded the authority delegated by the statute.
See id. at 223-34. It explained that “the presumption
of judicial review is particularly strong where an agency
is alleged to have acted beyond its authority.” Id. at
223. It ultimately concluded that the Secretary had
done just that and invalidated the sanctions he imposed.
These cases support our holding here that Sierra
Club has an equitable ultra vires cause of action to challenge DoD’s transfer of funds. Where it is alleged that
DoD has exceeded the statutory authority delegated by
Section 8005, plaintiffs like Sierra Club can challenge
this agency action.

29a
The Federal Defendants contend that an equitable
cause of action is not available to Sierra Club here because equitable remedies are available only when they
have been “traditionally available in the specific circumstances presented,” and that the remedies sought here
have not been traditionally available in the specific circumstances presented by this case.
The Federal Defendants cite Grupo Mexicano in
support of this argument, but that case provides little
support for their position. In Grupo Mexicano, the
Court considered whether a district court had the power
to issue a preliminary injunction to prevent the transfer
of assets in which no lien or equitable interest was
claimed. See 527 U.S. at 318. The Court concluded it
did not. See id. at 333. It held that a district court
cannot grant relief that “has never been available before
—and especially (as here) a type of relief that has been
specifically disclaimed by longstanding judicial precedent,” particularly when “there is absolutely nothing
new about debtors’ trying to avoid paying their debts, or
seeking to favor some creditors over others.” Id. at
322; see id. at 333.
Here, however, the plaintiffs request a type of relief
that is consistent with our longstanding precedent. Indeed, as explained above, the Supreme Court has actually granted injunctive relief in circumstances very similar to these. See, e.g., Youngstown, 343 U.S. at 589.
Further, unlike attempts to avoid paying debts, instances of Executive Branch ultra vires action are, fortunately, relatively rare, and unlikely to occur in contexts likely to repeat themselves precisely. Thus, the

30a
justifications for limiting equitable relief in Grupo Mexicano are not present here, and courts are able to grant
the relief sought by Sierra Club.
We therefore hold that Sierra Club may assert an equitable ultra vires cause of action to challenge DoD’s
transfer of funds.
C
The Federal Defendants raise a number of additional
arguments. We address them here.
First, the Federal Defendants assert that Sierra
Club’s challenge must be construed as an APA claim, rather than as a constitutional or ultra vires cause of action. But neither of the two cases cited by the Federal
Defendants compel this conclusion. The Federal Defendants cite Hoef ler v. Babbitt, 139 F.3d 726, 728 (9th
Cir. 1998) for the proposition that “[t]he APA is the sole
means for challenging the legality of federal agency action,” but there, we did not consider whether plaintiffs
had a constitutional or ultra vires cause of action; rather, we considered whether the action was properly
considered under the APA or the Quiet Title Act. See
id. at 728-29. We ultimately held that the former was
appropriate. See id. at 729. To extrapolate from a general statement made in this context, as the Federal Defendants do here, goes too far.
Likewise, in Bennett v. Spear, 520 U.S. 154, 175 (1997),
the Court did not consider whether plaintiffs had a constitutional cause of action; rather, the Court considered
whether the citizen-suit provision of the Endangered
Species Act (“ESA”) provided an exclusive statutory
remedy, or whether a cause of action was also available
under the APA. The Court ultimately determined that

31a
“[n]othing in the ESA’s citizen-suit provision expressly
precludes review under the APA, nor do we detect anything in the statutory scheme suggesting a purpose to
do so.” Id. If anything, this case underscores that the
APA is not to be construed as an exclusive remedy.
Thus, the APA does not displace all constitutional and
equitable causes of action.
Second, the Federal Defendants assert that the zone
of interests test must apply to any challenge brought by
Sierra Club, and that Section 8005 prescribes the relevant zone of interests. We reject this argument.
The zone of interests test limits which plaintiffs can
invoke statutorily created causes of action. Although
earlier cases, such as Association of Data Processing
Services Organizations, Inc. v. Camp, 397 U.S. 150
(1970), suggested that the test applied to constitutional
causes of action, the Supreme Court’s most recent zone
of interests case, Lexmark International, Inc. v. Static
Control Components, Inc., 572 U.S. 118 (2014), clarifies
that the test applies only to statutory causes of action
and causes of action under the APA. See id. at 129
(“[T]he modern ‘zone of interests’ formulation originated . . . as a limitation on the cause of action for
judicial review conferred by the [APA],” but “[w]e have
since made clear, however, that it applies to all statutorily created causes of action.” (emphasis added)).
Common sense supports this approach. As Judge
Bork explained in Haitian Refugee Center v. Gracey,
Appellants need not, however, show that their interests fall within the zones of interests of the constitutional and statutory powers invoked by the President
in order to establish their standing to challenge the

32a
interdiction program as ultra vires. Otherwise, a
meritorious litigant, injured by ultra vires action,
would seldom have standing to sue since the litigant’s
interest normally will not fall within the zone of interests of the very statutory or constitutional provision that he claims does not authorize action concerning that interest. For example, were a case like
Youngstown, to arise today, the steel mill owners
would not be required to show that their interests fell
within the zone of interests of the President’s war
powers in order to establish their standing to challenge the seizure of their mills as beyond the scope of
those powers.
809 F.2d 794, 811 n.14 (D.C. Cir. 1987) (emphasis added).
We agree with Judge Bork. 14 It would make little sense
to require Sierra Club to demonstrate that it falls within
the zone of interests of Section 8005. Congress may not
have contemplated the environmental advocacy group
when it included Section 8005 in the defense budget, but
nevertheless, Sierra Club has asserted a legally cognizable injury. The fact Congress did not have Sierra Club

While the dissent asserts that we rely on the wrong portion of
Judge Bork’s opinion, we disagree. Section 8005 cannot merely
be read as a statutory provision limiting the authority conferred
when it is simultaneously a statutory power invoked by the President. In any case, as explained below, the relevant limitation here
is not the inapplicable statutory power invoked by the Executive—
Section 8005—but instead the restriction on unlawful action—the
Appropriations Clause. See also Ctr. for Biodiversity v. Trump,
No. 1:19-cv-00408, 2020 WL 1643657 at *25 (D.D.C. Apr. 2, 2020)
(quoting the same language from Haitian Refugee Center and
holding that plaintiffs “thus need not satisfy the zone of interests
test for their ultra vires claims.”).
14

33a
as a particular plaintiff in mind when it authorized Section 8005’s transfer authority does not make its injury
less real, nor DoD’s action more lawful.
If the zone of interests test applies at all, the Appropriations Clause of the Constitution defines the zone of
interests because it is the “particular provision of law
upon which [Sierra Club] relies” in seeking relief. Bennett, 520 U.S. at 175-76. Section 8005 is relevant only
because, to the extent it applies, it authorizes executive
action that otherwise would be unconstitutional or ultra
vires. That a statute is relevant does not transform a
constitutional claim into a statutory one. Sierra Club’s
cause of action stems from the Federal Defendants’ violation of the Appropriations Clause because it seeks to
enforce the limits mandated by the clause.
To the extent the zone of interests test ever applies
to constitutional causes of action, it asks only whether a
plaintiff is “arguably within the zone of interests to be
protected . . . by the . . . constitutional guarantee
in question.” Boston Stock Exch. v. State Tax Comm’n,
429 U.S. 318, 320 n.3 (1977) (quoting Data Processing,
397 U.S. at 153). This renders the test nearly superfluous: so long as a litigant is asserting an injury in fact
to his or her constitutional rights, he has a cause of action. See ERWIN CHEMERINKSY, FEDERAL JURISDICTION 112 (7th ed. 2016) (citing LAURENCE TRIBE, AMERICAN CONSTITUTIONAL LAW 446 (3d ed. 2000)).
Applying that generous formulation of the test here,
Sierra Club falls within the Appropriations Clause’s zone
of interests. Here, Sierra Club is an organization within the United States that is protected by the Constitution. The Appropriations Clause is a “bulwark of the
Constitution’s separation of powers,” U.S. Dep’t. of Navy

34a
v. Fed. Labor Relations Auth., 665 F.3d 1339, 1347 (D.C.
Cir. 2012), and the “separation of powers can serve to
safeguard individual liberty,” McIntosh, 833 F.3d at
1174 (quoting Noel Canning, 573 U.S. at 525). The unconstitutional transfer of funds here infringed upon Sierra Club’s members’ liberty interests, harming their
environmental, aesthetic, and recreational interests.
Thus, Sierra Club falls within the Clause’s zone of interests, and Sierra Club has a cause of action to challenge
the transfers.
VI
Finally, we consider whether the district court abused
its discretion in granting Sierra Club a permanent injunction enjoining the Federal Defendants from spending the funds at issue. We hold it did not, and we affirm
the district court injunction.
A permanent injunction is appropriate when: (1) a
plaintiff will suffer an irreparable injury absent injunction, (2) remedies available at law are inadequate, 15 (3)
the balance of hardships between the parties supports
an equitable remedy, and (4) the public interest would
not be disserved. eBay Inc. v. MercExchange, LLC,
547 U.S. 388, 391 (2006). When the government is a party
to the case, the court should consider the balance of hardships and public interests factors together. See Drakes
Bay Oyster Co. v. Jewell, 747 F.3d 1073, 1092 (9th Cir.
2014). Although injunctive relief “does not follow from
success on the merits as a matter of course,” Winter v.
NRDC, Inc., 555 U.S. 7, 32 (2008), we review a district

15

it.

The parties do not contest this factor and so we do not address

35a
court’s decision to grant a permanent injunction for
abuse of discretion, see eBay, 547 U.S. at 391.
The district court did not abuse its discretion in
weighing these factors and determining that injunctive
relief was warranted. First, we agree with the district
court that Sierra Club would suffer irreparable harm to
its recreational and aesthetic interests absent injunction. An organization can demonstrate irreparable
harm by showing that the challenged action will injure
its members’ enjoyment of public lands. See All. for
the Wild Rockies v. Cottrell, 632 F.3d 1127, 1135 (9th
Cir. 2011) (finding irreparable harm when the Forest
Service’s proposed project would harm the Alliance’s
members’ ability to “view, experience, and utilize” national forest areas in an undisturbed state). We conclude that Sierra Club sufficiently demonstrated that
the Federal Defendants’ proposed use of funds would
harm its members ability to recreate and enjoy public
lands along the border such that it will suffer irreparable harm absent injunction.
The Federal Defendants’ arguments to the contrary
are unpersuasive. The Federal Defendants submit
that Sierra Club will not be irreparably harmed because
its members have plenty of other space to enjoy. We
have already rejected the essence of the Federal Defendants’ argument. See All. for the Wild Rockies, 632
F.3d at 1135 (concluding that the Forest Service’s argument that plaintiffs can “view, experience, and utilize
other areas of the forest” “proves too much,” because its
logical extension is that a “plaintiff can never suffer irreparable injury resulting from environmental harm in
a forest as long as there are other areas of the forest
that are not harmed” (internal citations omitted)).

36a
Moreover, we agree with the district court that the
balance of equities and the public interest favor injunctive relief here. The public has an important interest
in “ensuring that statutes enacted by their representatives are not imperiled by executive fiat.” E. Bay
Sanctuary Covenant v. Trump, 932 F.3d 742, 779 (9th
Cir. 2018) (quotations and citation omitted). By passing the CAA, Congress made a calculated choice to fund
only one segment of border barrier. The public interest favors enforcing this decision. In contrast, the
Federal Defendants cannot suffer harm “from an injunction that merely ends an unlawful practice.” Rodriguez v. Robbins, 715 F.3d 1127, 1145 (9th Cir. 2013)
(citing Zepeda v. INS, 753 F.2d 719, 727 (9th Cir. 1983)
(“[T]he INS cannot reasonably assert that it is harmed
in any legally cognizable sense by being enjoined from
constitutional violations.”)). We agree with the district
court that the Federal Defendants’ position essentially
“boils down to an argument that the Court should not
enjoin conduct found to be unlawful because the ends
justify the means.” No matter how great the collateral
benefits of building a border wall may be, the transfer
of funds for construction remains unlawful. The equitable maxim “he who comes in equity must come with
clean hands” would be turned on its head if unlawful conduct by one party precluded a court from granting equitable relief to the opposing party. The district court
properly concluded that the balance of equities and the
public interest favor injunctive relief.
The Federal Defendants’ additional arguments do
not compel a different result. First, the Supreme Court’s
decision in Winter does not require us to vacate the injunction. In Winter, the Supreme Court reversed a
preliminary injunction enjoining the Navy from using a

37a
particular type of sonar that was essential to its training
exercises because it violated NEPA and a number of federal environmental laws. 555 U.S. at 16-17. Key distinctions between this case and Winter render it inapposite. There, plaintiffs’ “ultimate legal claim [was] that
the Navy must prepare an [environmental impact statement], not that it must cease sonar training” because the
use of the sonar had otherwise been sanctioned by law.
Id. at 32. Having determined that the “continuation of
the exercises . . . was ‘essential to national security,’ ” id. at 18, the President had used his statutory authority to “exempt from compliance those elements of
the Federal agency activity that [were] found by the
Federal court to be inconsistent with an approved State
program,” 16 U.S.C. § 1456(c)(1)(B). In addition, the
Council on Environmental Quality (“CEQ”) had authorized the Navy to implement alternative arrangements to
NEPA compliance that would allow the Navy to conduct
its training exercises under mitigation procedures, but it
imposed additional notice, research, and reporting requirements. Winter, 555 U.S. at 18-19.
By contrast, here, Sierra Club’s ultimate legal claim
is that DoD cannot legally use Section 8005 to fund construction of the border wall, and moreover, that no such
exemption applies. If anything, Section 8005 itself is a
defense against the Executive Branch’s unconstitutional
transfer of funds; however, as discussed previously, it
offers no such legal cover here. Therefore, while the
use of the sonar was not unlawful at the time the Supreme Court vacated the injunction in Winter, DoD’s
transfer of funds here is. While the injunction here
“merely ends an unlawful practice,” Rodriguez, 715 F.3d
at 1145, the injunction in Winter enjoined conduct that
had been sanctioned by law, see Winter, 555 U.S. at 32.

38a
Moreover, the public interest at issue in Winter more
clearly favored vacating the injunction. “Antisubmarine warfare [was] [] the Pacific Fleet’s top war-fighting
priority.” Winter, 555 U.S. at 12. Accordingly, the
use of MFA sonar during training missions was deemed
“mission-critical,” id. at 14, because it is not only the
“most effective technology,” id. at 13, but “the only
proven method of identifying submerged diesel-electric
submarines operating on battery power,” id. at 14. On
the other side of the equation, “the most serious possible
injury [to plaintiffs] would be harm to an unknown number of marine mammals.” Id. at 26. The Court reasonably concluded that the “balance of equities and consideration of the overall public interest . . . tip
strongly in favor of the Navy.” Id.
The balance of interests does not so starkly favor the
Federal Defendants here. Although they allege that
the injunction “frustrates the government’s ability to
stop the flow of drugs across the border,” unlike the government in Winter, the Federal Defendants have failed
to demonstrate that construction of the border wall would
serve this purpose, or alternatively, that an injunction
would inhibit this purpose. The Federal Defendants
cite drug trafficking statistics, but fail to address how
the construction of additional physical barriers would
further the interdiction of drugs. The Executive Branch’s
failure to show, in concrete terms, that the public interest favors a border wall is particularly significant given
that Congress determined fencing to be a lower budgetary priority and the Department of Justice’s own data

39a
points to a contrary conclusion. 16 The district court
properly accorded this interest little weight. 17 Therefore, we hold that the district court did not abuse its discretion, and we affirm the grant of the permanent injunction.

According to the U.S. Department of Justice’s Drug Enforcement Administration’s 2018 National Drug Threat Assessment Report, the “most common method employed by [Mexican Transnational
Criminal Organizations] involves transporting illicit drugs through
U.S. [ports of entry] in passenger vehicles with concealed compartments or commingled with legitimate goods on tractor trailers.”
2018 National Drug Threat Assessment, U.S. Dep’t of Just. Drug
Enforcement Admin. at 99 (2018). Opioids like heroin and fentanyl
are most commonly smuggled across the southwest border into the
U.S. through legal ports of entry. Id. at 19-20, 33; see also Joe
Ward & Anjali Singhvi, Trump Claims There is a Crisis at the Border. What’s the Reality?, NEW YORK TIMES (Jan. 11, 2019) (analyzing U.S. Customs and Border Patrol data and finding that “[m]ost
drugs are seized at ports of entry, not along the open border”).
17
We are likewise unconvinced by Defendants argument, citing
Maryland v. King, 567 U.S. 1301 (2012), that “there is ‘irreparable
harm’ whenever a government cannot enforce its own laws.” The
Ninth Circuit has recognized that there is “some authority” for the
idea that “a state may suffer an abstract form of harm whenever one
of its acts is enjoined,” but, “to the extent that is true . . . it is
not dispositive of the balance of harms analysis.” Latta v. Otter,
771 F.3d 496, 500 (9th Cir. 2014) (quoting Indep. Living Ctr. of So.
Cal., Inc. v. Maxwell-Jolly, 572 F.3d 644, 658 (9th Cir. 2009), vacated
and remanded on other grounds, 132 S. Ct. 1204 (2012) (alterations
adopted)); see also id. at 500 n.1 (noting that “[i]ndividual justices, in
orders issued from chambers, have expressed the view that a state
suffers irreparable injury when one of its laws is enjoined, [but] [n]o
opinion for the Court adopts this view” (citations omitted)).
16

40a
VII
In sum, we affirm the district court. We conclude
that Sierra Club and SBCC have Article III standing to
file their claims, that the Federal Defendants violated
Section 8005 in transferring DoD appropriations to fund
the El Paso, Yuma, El Centro, and Tucson Sectors of the
proposed border wall, and that Sierra Club and SBCC
have a constitutional cause of action under the Appropriations Clause and an ultra vires cause of action to
challenge the Section 8005 transfers. We also decline
to reverse the district court’s decision to impose a permanent injunction. Given our resolution of this case
founded upon the violations of Section 8005, we need
not—and do not—reach the merits of any other theory
asserted by Sierra Club, nor reach any other issues presented by the parties.
AFFIRMED.

COLLINS, Circuit Judge, dissenting:
This case involves similar claims to those presented
in California v. Trump, Nos. 19-16299 & 19-16336, __
F.3d
(9th Cir. 2020). In each case, a distinct group
of plaintiffs brought suit challenging the Acting Secretary of Defense’s invocation of § 8005 and § 9002 of the
Department of Defense Appropriations Act, 2019 (“DoD
Appropriations Act”), Pub. L. No. 115-245, Div. A, 132
Stat. 2981, 2999, 3042 (2018), to transfer $2.5 billion in
funds that Congress had appropriated for other purposes into a different Department of Defense (“DoD”) appropriation that could then be used by DoD for construction of border fencing and accompanying roads and

41a
lighting. In California v. Trump, the relevant plaintiffs are the States of California and New Mexico, who
challenged two such construction projects, and here the
plaintiffs are the Sierra Club and the Southern Border
Communities Coalition (“SBCC”) (collectively, the “Organizations”), who challenge six projects. The district
court granted declaratory relief to both sets of plaintiffs
invalidating the transfers, but it granted permanent injunctive relief only to the Organizations. The majority
concludes that the Organizations have Article III standing; that they have a cause of action to challenge the
transfers under the Appropriations Clause of the Constitution as well as a cause of action under an equitable
ultra vires theory; that the transfers were unlawful; and
that the district court properly determined that the Organizations are entitled to declaratory and injunctive relief. I agree that at least the Sierra Club has established Article III standing, but in my view the Organizations lack any cause of action to challenge the transfers. And even assuming that they had a cause of action, I conclude that the transfers were lawful. Accordingly, I would reverse the district court’s partial judgment for the Organizations and remand for entry of partial summary judgment in favor of the Defendants. I
respectfully dissent. 1
There is considerable overlap between the substantive issues
presented in this case and in California v. Trump, and my disagreements with the majority in this case largely parallel my disagreements in the other case. But rather than simply cross-reference all
of the discussion in my dissent in California v. Trump, I will follow
the majority and will rely on cross-reference only when it does.
The result is a fair amount of verbatim repetition between this dissent and my dissent in California v. Trump, but proceeding in this
way avoids the awkwardness of directing the reader to a separate
1

42a
I

The parties’ dispute over DoD’s funding transfers
comes to us against the backdrop of a complex statutory
framework and an equally complicated procedural history. Before turning to the merits, I will briefly review
both that framework and that history.
A

Upon request from another federal department, the
Secretary of Defense is authorized to “provide support
for the counterdrug activities” of that department by
undertaking the “[c]onstruction of roads and fences and
installation of lighting to block drug smuggling corridors across international boundaries of the United
States.” 10 U.S.C. § 284(a), (b)(7). On February 25,
2019, the Department of Homeland Security (“DHS”)
made a formal request to DoD for such assistance.
Noting that its counterdrug activities included the construction of border infrastructure, see Illegal Immigration Reform and Immigrant Responsibility Act of 1996
(“IIRIRA”), Pub. L. No. 104-208, Div. C, § 102(a), 110
Stat. 3009-546, 3009-554 (1996) (codified as amended as
a note to 8 U.S.C. § 1103), DHS requested that “DoD,
pursuant to its authority under 10 U.S.C. § 284(b)(7), assist with the construction of fences[,] roads, and lighting” in several specified “Project Areas” in order “to
block drug-smuggling corridors across the international
boundary between the United States and Mexico.”
On March 25, 2019, the Acting Defense Secretary invoked § 284 and approved the provision of support for
published opinion when that reader wants to see what my response
is to a particular point made by the majority in its opinion in this
case.

43a
DHS’s “El Paso Sector Project 1” (which would involve
DoD construction of border fencing, roads, and lighting
in Luna and Doña Ana Counties in New Mexico), as well
as for, inter alia, DHS’s “Yuma Sector Project 1” (which
would involve DoD construction of similar border infrastructure in Yuma County, Arizona). Thereafter, the
Secretary of Homeland Security invoked his authority
under § 102(c) of IIRIRA to waive a variety of federal
environmental statutes with respect to the planned construction of border infrastructure in the relevant portions of the El Paso Sector and the Yuma Sector, as well
as “all . . . state . . . laws, regulations, and legal
requirements of, deriving from, or related to the subject
of,” those federal laws. See 84 Fed. Reg. 17185, 17187
(Apr. 24, 2019); 84 Fed. Reg. 17187, 17188 (Apr. 24, 2019).
Subsequently, on May 9, 2019, the Acting Defense
Secretary again invoked § 284, this time to approve
DoD’s construction of similar border infrastructure to
support DHS’s “El Centro Sector Project 1” in Imperial
County, California, and DHS’s “Tucson Sector Projects
1, 2, and 3” in Pima and Cochise Counties in Arizona.
Less than a week later, the Secretary of Homeland Security again invoked his authority under IIRIRA
§ 102(c) to waive federal and state environmental laws,
this time with respect to the construction in the relevant
sections of the El Centro Sector and the Tucson Sector.
See 84 Fed. Reg. 21800, 21801 (May 15, 2019); 84 Fed.
Reg. 21798, 21799 (May 15, 2019).
Although § 284 authorized the Acting Defense Secretary to provide this support, there were insufficient funds
in the relevant DoD appropriation to do so. Specifically, for Fiscal Year 2019, Congress had appropriated
for “Drug Interdiction and Counter-Drug Activities,

44a
Defense” a total of only $670,271,000 that could be used
for counter-drug support. See DoD Appropriations
Act, Title VI, 132 Stat. at 2997 (appropriating, under Title governing “Other Department of Defense Programs,” a total of “$881,525,000, of which $517,171,000
shall be for counter-narcotics support”); id., Title IX,
132 Stat. at 3042 (appropriating $153,100,000 under the
Title governing “Overseas Contingency Operations”).
Accordingly, to support the El Paso Sector Project 1 and
Yuma Sector Project 1, the Acting Secretary on March
25, 2019 invoked his authority to transfer appropriations
under § 8005 of the DoD Appropriations Act and ordered the transfer of $1 billion from “excess Army military personnel funds” into the “Drug Interdiction and
Counter-Drug Activities, Defense” appropriation.
That transfer was accomplished by moving $993,627,000
from the “Military Personnel, Army” appropriation and
$6,373,000 from the “Reserve Personnel, Army” appropriation.
To support the El Centro Sector Project 1 and Tucson Sector Projects 1, 2, and 3, the Acting Secretary on
May 9, 2019 again invoked his transfer authority to
move an additional $1.5 billion into the “Drug Interdiction and Counter-Drug Activities, Defense” appropriation. Pursuant to § 8005 of the DoD Appropriations
Act, DoD transferred a total of $818,465,000 from 12 different DoD appropriations into the “Drug Interdiction
and Counter-Drug Activities, Defense” appropriation.
Invoking the Secretary’s distinct but comparable authority under § 9002 to transfer funds appropriated under the separate Title governing “Overseas Contingency
Operations,” DoD transferred $604,000,000
from the “Afghanistan Security Forces Fund” appropri-

45a
ation and $77,535,000 from the “Operation and Maintenance, Defense-Wide” appropriation into the “Drug Interdiction and Counter-Drug Activities, Defense” appropriation.
B

The complex procedural context of this case involves
two parallel lawsuits and four appeals to this court, and
it has already produced one published Ninth Circuit
opinion that was promptly displaced by the Supreme
Court.
1

The Organizations filed this action in the district
court against the Acting Defense Secretary, DoD, and a
variety of other federal officers and agencies. In their
March 18, 2019 First Amended Complaint, they sought
to challenge, inter alia, any transfer of funds by the Acting Secretary under § 8005 or § 9002. California and
New Mexico, joined by several other States, filed a similar action, and their March 13, 2019 First Amended
Complaint also sought to challenge any such transfers.
Both sets of plaintiffs moved for preliminary injunctions
in early April 2019. The portion of the States’ motion
that was directed at the § 8005 transfers was asserted
only on behalf of New Mexico and only with respect to
the construction on New Mexico’s border (i.e., El Paso
Sector Project 1). The Organizations’ motion was likewise directed at El Paso Sector Project 1, but it also
challenged Yuma Sector Projects 1 and one other project (“Yuma Sector Project 2”).
After concluding that the Organizations were likely
to prevail on their claims that the transfers under § 8005
were unlawful and that these organizational plaintiffs

46a
had demonstrated a “likelihood of irreparable harm to
their members’ aesthetic and recreational interests,”
the district court on May 24, 2019 granted a preliminary
injunction enjoining Defendants from using transferred
funds for “Yuma Sector Project 1 and El Paso Sector
Project 1.”2 In a companion order, however, the district court denied preliminary injunctive relief to the
States. Although the court held that New Mexico was
likely to succeed on its claim that the transfers under
§ 8005 were unlawful, the court concluded that, in light
of the grant of a preliminary injunction against El Paso
Sector Project 1 to the Organizations, New Mexico
would not suffer irreparable harm from the denial of its
duplicative request for such relief. On May 29, 2019,
Defendants appealed the preliminary injunction in favor
of the Organizations, and after the district court refused
to stay that injunction, Defendants moved in this court
for an emergency stay on June 3, 2019. New Mexico
did not appeal the district court’s denial of its duplicative request for a preliminary injunction.
2

While the Defendants’ emergency stay request was
being briefed and considered in this court, the Organizations moved for partial summary judgment on June
12, 2019. The motion was limited to the issue of whether
the transfers under § 8005 and § 9002 were lawful, and
it requested corresponding declaratory relief, as well as
a permanent injunction against the use of transferred
funds for all six projects (El Paso Sector Project 1, El
By the time the district court ruled, DoD had decided not to use
funds transferred under § 8005 for any construction in Yuma Sector
Project 2, and so the request for a preliminary injunction as to that
project was moot.
2

47a
Centro Sector Project 1, Yuma Sector Project 1, and
Tucson Sector Projects 1, 2, and 3). California and
New Mexico (but not the other States) filed a comparable summary judgment motion that same day, directed
only at El Paso Sector Project 1 and El Centro Sector
Project 1. Defendants filed cross-motions for summary
judgment on the legality of the transfers under § 8005
and § 9002 with respect to the corresponding projects at
issue in each case.
On June 28, 2019, the district court granted partial
summary judgment and declaratory relief to both sets
of plaintiffs, concluding that the transfers under § 8005
and § 9002 were unlawful. The court granted permanent injunctive relief to the Organizations against all six
projects, but it denied any such relief to California and
New Mexico. The district court concluded that California and New Mexico had failed to prove a threat of
future demonstrable environmental harm. The court
expressed doubts about the States’ alternative theory
that they had demonstrated injury to their sovereign interests, but the court ultimately concluded that it did not
need to resolve that issue. As before, the district court
instead held that California and New Mexico would not
suffer any irreparable harm in light of the duplicative
relief granted to the Organizations. The district court
denied Defendants’ cross-motions for summary judgment in both cases. Invoking its authority under Federal Rule of Civil Procedure 54(b), the district court entered partial judgments in favor of, respectively, the Sierra Club and SBCC, and California and New Mexico.
The district court denied Defendants’ request to stay
the permanent injunction pending appeal.

48a
3

On June 29, 2019, Defendants timely appealed in both
cases and asked this court to stay the permanent injunction based on the same briefing and argument that had
been presented in the preliminary injunction appeal.
California and New Mexico timely cross-appealed nine
days later. On July 3, 2019, this court consolidated Defendants’ appeal of the judgment and permanent injunction with Defendants’ pending appeal of the preliminary
injunction.3 That same day, a motions panel of this
court issued a 2-1 published decision denying Defendants’ motion for a stay of the permanent injunction (which
had overtaken the preliminary injunction). See Sierra
Club v. Trump, 929 F.3d 670 (9th Cir. 2019).
Defendants then applied to the Supreme Court for a
stay of the permanent injunction pending appeal, which
the Court granted on July 26, 2019. See Trump v. Sierra Club, 140 S. Ct. 1 (2019). That stay remains in effect “pending disposition of the Government’s appeal in
the United States Court of Appeals for the Ninth Circuit
and disposition of the Government’s petition for a writ
of certiorari, if such writ is timely sought.” Id. at 1.
In granting the stay, the Court concluded that “the Government has made a sufficient showing at this stage that
[the Sierra Club and SBCC] have no cause of action to
obtain review of the Acting Secretary’s compliance with
Section 8005.” Id.

This court later consolidated the appeal and cross-appeal in the
States’ case with the already-consolidated appeals in this case.
3

49a
II

Defendants have not contested the Article III standing of the Sierra Club and SBCC on appeal, but as the
majority notes, “ ‘the court has an independent obligation to assure that standing exists, regardless of
whether it is challenged by any of the parties.’ ” See
Maj. Opin. at 17 n.9 (quoting Summers v. Earth Island
Inst., 555 U.S. 488, 499 (2009)). As “an indispensable
part of the plaintiff ’s case, each element” of Article III
standing “must be supported in the same way as any
other matter on which the plaintiff bears the burden of
proof, i.e., with the manner and degree of evidence required at the successive stages of the litigation.”
Lujan v. Defenders of Wildlife (Lujan v. Defenders),
504 U.S. 555, 561 (1992). Thus, although well-pleaded
allegations are enough at the motion-to-dismiss stage,
they are insufficient to establish standing at the summaryjudgment stage. Id. “In response to a summary judgment motion, . . . the plaintiff can no longer rest on
such mere allegations, but must set forth by affidavit or
other evidence specific facts, which for purposes of the
summary judgment motion will be taken to be true.”
Id. (simplified).
In reviewing standing sua sponte in the context of
cross-motions for summary judgment, it is appropriate
to apply the more lenient standard that takes the plaintiffs’ evidence as true and then asks whether a reasonable trier of fact could find Article III standing. Lujan
v. Defenders, 504 U.S. at 563 (applying this standard in
evaluating whether Government’s cross-motion for summary judgment should have been granted). In their
briefs below concerning the parties’ cross-motions, the
Sierra Club and SBCC each asserted that Defendants’

50a
allegedly unlawful conduct caused harm to their members’ recreational, aesthetic, and environmental interests. Accepting the Organizations’ evidence as true,
and drawing all reasonable inferences in their favor, a
reasonable trier of fact could conclude that at least the
Sierra Club has associational standing under Hunt v.
Washington State Apple Advert. Comm’n, 432 U.S. 333
(1977).4 Under the Hunt test, an association has standing if “(a) its members would otherwise have standing to
sue in their own right; (b) the interests it seeks to protect are germane to the organization’s purpose; and (c)
neither the claim asserted nor the relief requested requires the participation of individual members in the
lawsuit.” Id. at 343. The Sierra Club has presented sufficient evidence as to each of these three requirements.
To establish that its members would suffer irreparable harm absent a permanent injunction, the Sierra Club
presented declarations from members who regularly
visit the respective project areas. These members described how the construction and the resulting border
barriers would interfere with their enjoyment of the
surrounding landscape and would impede their ability to
fish, to hunt, to monitor and document wildlife and vegetation for educational purposes, and to participate in
other activities near the project sites. These injuries
to the members’ recreational, aesthetic, and environmental interests are sufficient to constitute an injuryThe district court explicitly addressed Article III standing only
in connection with the preliminary injunction motion. Although
Article III standing was not revisited when the Organizations subsequently moved for summary judgment and a permanent injunction, the Organizations’ showing of injury in support of a permanent injunction provides a sufficient basis for evaluating their Article III standing.
4

51a
in-fact for Article III purposes. See Lujan v. Defenders, 504 U.S. at 562-63 (“Of course, the desire to use or
observe an animal species, even for purely esthetic purposes, is undeniably a cognizable interest for purpose of
standing.”). Moreover, these injuries are fairly traceable to the construction, and an injunction blocking the
transfers would redress those injuries by effectively
stopping that construction. See id. at 560-61. This
evidence is therefore sufficient to establish that these
members would have Article III standing to sue in their
own right.
The other Hunt requirements are also satisfied.
These members’ interests are clearly germane to the Sierra Club’s mission to protect the natural environment
and local wildlife and plant life. And in seeking declaratory and injunctive relief, the lawsuit does not require
the participation of individual members. See Hunt, 432
U.S. at 343.
Because the Sierra Club satisfies the applicable
standing requirements as to all of the challenged projects, we may proceed to the merits without having to
address SBCC’s standing. See Secretary of the Interior v. California, 464 U.S. 312, 319 n.3 (1984) (“Since
the State of California clearly does have standing, we
need not address the standing of the other [plaintiffs],
whose position here is identical to the State’s.”). And
given my view that the Organizations’ legal challenges
fail, I perceive no obstacle to entering judgment against
both the Sierra Club and SBCC without determining
whether the latter has standing. See Steel Co. v. Citizens for a Better Environment, 523 U.S. 83, 98 (1998).

52a
III

After examining the Article III standing of the Organizations, the majority then proceeds straight to the
merits of whether the transfers were unlawful. See
Maj. Opin. at 23. But we ought not address that issue
unless we have first determined that the Organizations
have asserted a viable cause of action that properly
brings that issue before us. See Air Courier Conf. v.
American Postal Workers Union AFL-CIO, 498 U.S.
517, 530-31 (1991). The majority belatedly gets to that
question in Section V of its opinion, holding that the Organizations have two viable causes of action: an equitable cause of action under the Constitution and an ultra
vires cause of action. See Maj. Opin. at 25. I disagree
with that conclusion, and I also disagree with the Organizations’ alternative argument that they have a valid
cause of action under the Administrative Procedure Act
(“APA”). See Trump v. Sierra Club, 140 S. Ct. at 1
(“[T]he Government has made a sufficient showing at
this stage that the plaintiffs have no cause of action to
obtain review of the Acting Secretary’s compliance with
Section 8005.”).5
In its merits analysis, the majority scarcely cites the motions
panel’s published decision, which addressed the Organizations’ likelihood of success on the merits of many of the same issues before us.
I agree with the majority’s implicit rejection of the Organizations’
contention that the motions panel’s opinion bars this merits panel
from examining these issues afresh. Although the motions panel
decision is a precedent, it remains subject to reconsideration by
this court until we issue our mandate. See United States v. Houser,
804 F.2d 565, 567-68 (9th Cir. 1986) (distinguishing, on this point,
between reconsideration of a prior panel’s decision “during the
course of a single appeal” and a decision “on a prior appeal”); cf.
Gonzalez v. Arizona, 677 F.3d 383, 389 n.4 (9th Cir. 2012) (en banc)
5

53a
A

Although the Organizations invoke the APA only as
a fallback to their preferred non-statutory claims, I
think it is appropriate to first consider whether they
have a statutory cause of action under the APA. Cf.
Chamber of Commerce v. Reich, 74 F.3d 1322, 1326-27
(D.C. Cir. 1996) (suggesting that, if a plaintiff relies on
both the APA and non-statutory-review claims, the APA
claim should be considered first). Even assuming arguendo that the APA does not displace reliance upon alternative non-statutory causes of action, see infra at 69,
the contours of any express cause of action under the
APA certainly provide appropriate context for the consideration of any non-statutory claim.
In authorizing suit by any person “adversely affected
or aggrieved by agency action within the meaning of a
relevant statute,” 5 U.S.C. § 702, the APA incorporates
the familiar zone-of-interests test, which reflects a background principle of law that always “applies unless it is
expressly negated,” Bennett v. Spear, 520 U.S. 154, 163
(1997); see also Lexmark Int’l, Inc. v. Static Control

(three-judge panel lacks authority to overrule a decision in a prior
appeal in the same case). To the extent that Lair v. Bullock, 798
F.3d 736, 747 (9th Cir. 2015), suggests otherwise, that suggestion
is dicta and directly contrary to our decision in Houser. See East
Bay Sanctuary Covenant v. Trump, 950 F.3d 1242, 1261-65 (9th
Cir. 2020). In all events, the precedential force of the motions
panel’s opinion was largely, if not entirely, vitiated by the Supreme
Court’s subsequent decision to grant the very stay that the motions
panel’s opinion denied. I do not agree, however, with the majority’s disregard of the Supreme Court’s order in this case—a disregard that hardly befits the “wary and humble” attitude the majority professes. See Maj. Opin. at 25-26.

54a
Components, Inc., 572 U.S. 118, 129 (2014).6 That test
requires a plaintiff to “establish that the injury he complains of (his aggrievement, or the adverse effect upon
him) falls within the ‘zone of interests’ sought to be protected by the statutory provision whose violation forms
the legal basis for his complaint.” Lujan v. NWF, 497
U.S. at 883 (quoting Clarke v. Securities Indus. Ass’n,
479 U.S. 388, 396-97 (1987)). This test “is not meant to
be especially demanding.” Clarke, 479 U.S. at 399.
Because the APA was intended to confer “generous review” of agency action, the zone-of-interests test is more
flexibly applied under that statute than elsewhere, and
it requires only a showing that the plaintiff is “arguably
within the zone of interests to be protected or regulated
by the statute or constitutional guarantee in question.”
Association of Data Processing Serv. Orgs., Inc. v.
Camp (Data Processing), 397 U.S. 150, 153, 156 (1970)
(emphasis added); see also Bennett, 520 U.S. at 163
(“what comes within the zone of interests of a statute for
purposes of obtaining judicial review of administrative
action under the generous review provisions of the APA
may not do so for other purposes”) (simplified). Because an APA plaintiff need only show that its interests
are “arguably” within the relevant zone of interests,
“the benefit of any doubt goes to the plaintiff.” MatchE-Be-Nash-She-Wish Band of Pottawatomi Indians v.

The Supreme Court has not squarely addressed whether the
zone-of-interests test applies to a plaintiff who claims to have “suffer[ed] legal wrong because of agency action,” which is the other
class of persons authorized to sue under the APA, 5 U.S.C. § 702.
See Lujan v. National Wildlife Fed. (Lujan v. NWF), 497 U.S. 871,
882-83 (1990). The Organizations have not invoked any such theory
here, so I have no occasion to address it.
6

55a
Patchak, 567 U.S. 209, 225 (2012). Although these standards are generous, the Organizations have failed to satisfy them.
1

In applying the zone-of-interests test, we must first
identify the “statutory provision whose violation forms
the legal basis for [the] complaint” or the “gravamen of
the complaint.” Lujan v. NWF, 497 U.S. at 883, 886; see
also Air Courier Conf., 498 U.S. at 529. That question is
easy here. The Organizations’ complaint alleges that
the challenged transfers are not authorized by § 8005
and § 9002 because “[t]he diversion of funding to build a
border wall or fence is not based on unforeseen military
requirements”; “the building of a permanent border wall
is not a ‘military requirement’ ”; and “Congress has denied funding for Defendants’ planned wall construction,
thus barring the Department of Defense from using
transfers to fund it.”7 The Organizations allege that,
because Congress thus “has not authorized the Department of Defense to transfer additional Defense funds
into the Drug Interdiction and Counter-Narcotics Activities account for the purpose of supporting another
agency, rather than for military requirements,” the Appropriations Clause bars the transfers and “Defendants
are acting ultra vires in seeking to transfer funds into
the Drug Interdiction and Counter-Narcotics Activities
account for the purpose of building a permanent border
wall.” Given that the case turns on whether the transfers met the criteria in § 8005, that statute is plainly the
Because the limitations on transfers set forth in § 8005 also apply to transfers under § 9002, see 132 Stat. at 3042, the parties use
“§ 8005” to refer to both provisions, and I will generally do so as
well.
7

56a
“gravamen of the complaint,” and it therefore defines
the applicable zone of interests. Lujan v. NWF, 497
U.S. at 886.
Although the Organizations invoke the Appropriations Clause and the constitutional separation of powers
in contending that Defendants’ actions are unlawful, any
such constitutional violations here can be said to have
occurred only if the transfers violated the limitations
set forth in § 8005: if Congress authorized DoD to transfer
the appropriated funds from one account to another, and
to spend them accordingly, then the money has been
spent “in Consequence of Appropriations made by Law,”
U.S. CONST. art. I, § 9, cl. 7, and the Executive has not
otherwise transgressed the separation of powers.8 All
of the Organizations’ theories for challenging the transfers—whether styled as constitutional claims or as statutory claims—thus rise or fall based on whether DoD
has transgressed the limitations on transfers set forth
in § 8005. As a result, § 8005 is obviously the “statute
whose violation is the gravamen of the complaint.”
Lujan v. NWF, 497 U.S. at 886. To maintain a claim
under the APA, therefore, the Organizations must establish that they are within the zone of interests of
§ 8005.9

The only possible exception is the Organizations’ argument that
§ 8005 itself violates the Presentment Clause. As explained below,
that contention is frivolous. See infra at 71-72.
9
The Organizations briefly contend that DoD has exceeded its authority under § 284 and has violated the National Environmental
Policy Act (“NEPA”), but even assuming arguendo that the Organizations have a cause of action to raise any such challenges, they are
patently without merit. The Organizations note that § 284 contains
8

57a
2

Having identified the relevant statute, our next task
is to “discern the interests arguably to be protected by
the statutory provision at issue” and then to “inquire
whether the plaintiff ’s interests affected by the agency
action in question are among them.” National Credit
Union Admin. v. First Nat’l Bank & Trust Co. (NCUA),
522 U.S. 479, 492 (1998) (simplified). Identifying the
interests protected by § 8005 is not difficult, and here
the Organizations’ asserted interests are not among
them.
Section 8005 is a grant of general transfer authority
that allows the Secretary of Defense, if he determines
“that such action is necessary in the national interest”
and if the Office of Management and Budget approves,
a special reporting requirement for “small scale construction” projects, which are defined as projects costing $750,000 or less, 10
U.S.C. § 284(h)(1)(B), (i)(3), and they argue that this shows that Congress did not authorize projects on the scale at issue here. The inference is a non sequitur: the fact that Congress requires special
reporting of these smaller projects does not mean that they are the
only projects authorized. Congress may have imposed such a unique
reporting requirement in order to capture the sort of smaller-scale
activities that might otherwise have escaped its notice. And the fact
that past expenditures under § 284 have happened to be for more
modest projects is irrelevant, because nothing in the text of § 284
imposes any such size limits on the projects authorized by that statute. The Organizations’ reliance on NEPA is likewise meritless.
We have upheld DHS’s waiver of NEPA under § 102(c) of IIRIRA,
see In re Border Infrastructure Envtl. Litig., 915 F.3d 1213, 1225
(9th Cir. 2019), and the district court correctly concluded that the
waiver applies to construction that DoD undertakes under § 284 to
“provide support” to DHS at DHS’s “request[],” 10 U.S.C. § 284.
See Sierra Club v. Trump, 379 F. Supp. 3d 883, 922-23 (N.D. Cal.
2019).

58a
to transfer from one DoD “appropriation” into another
up to $4 billion of the funds that have been appropriated
under the DoD Appropriations Act “for military functions (except military construction).” See 132 Stat. at
2999. Section 8005 contains five provisos that further
regulate this transfer authority, and the only limitations
on the Secretary’s authority that the Organizations claim
were violated here are all contained in the first such proviso. That proviso states that “such authority to transfer may not be used unless for higher priority items,
based on unforeseen military requirements, than those
for which originally appropriated and in no case where
the item for which funds are requested has been denied
by the Congress.” Id.10 The remaining provisos require prompt notice to Congress “of all transfers made
pursuant to this authority or any other authority in this
Act”; proscribe the use of funds to make requests to the
Committees on Appropriations for reprogrammings
that are inconsistent with the restrictions described in
the first proviso; set a time limit for making requests for
multiple reprogrammings; and exempt “transfers
among military personnel appropriations” from counting towards the $4 billion limit. Id.
Focusing on “the particular provision of law upon
which the plaintiff relies,” Bennett, 520 U.S. at 175-76,
makes clear that § 8005 as a whole, and its first proviso
in particular, are aimed at tightening congressional control over the appropriations process. The first proviso’s general prohibition on transferring funds for any
item that “has been denied by the Congress” is, on its
Similar language has been codified into permanent law. See
10 U.S.C. § 2214(b). No party contends that § 2214(b) alters the relevant analysis under the comparably worded provision in § 8005.
10

59a
face, a prohibition on using the transfer authority to effectively reverse Congress’s specific decision to deny
funds to DoD for that item. 132 Stat. at 2999. The
second major limitation imposed by the first proviso
states that the transfer authority is not to be used unless, considering the items “for which [the funds were]
originally appropriated,” there are “higher priority
items” for which the funds should now be used in light
of “military requirements” that were “unforeseen” in
DoD’s request for Fiscal Year 2019 appropriations. Id.
The obvious focus of this restriction is likewise to protect congressional judgments about appropriations by
(1) restricting DoD’s ability to reprioritize the use of
funds differently from how Congress decided to do so
and (2) precluding DoD from transferring funds appropriated by Congress for “military functions” for purposes that do not reflect “military requirements.” The
remaining provisos, including the congressional reporting requirement, all similarly aim to maintain congressional control over appropriations. And all of the operative restrictions in § 8005 that the Organizations invoke
here are focused solely on limiting DoD’s ability to use
the transfer authority to reverse the congressional judgments reflected in DoD’s appropriations.
In addition to preserving congressional control over
DoD’s appropriations, § 8005 also aims to give DoD some
measure of flexibility to make necessary changes. Notably, in authorizing the Secretary to make transfers
among appropriations, § 8005’s first proviso specifies
only one criterion that he must consider in exercising
that discretion: he must determine whether the item for
which the funds will be used is a “higher priority item[]”
in light of “unforeseen military requirements.” 132 Stat.
at 2999 (emphasis added). Under the statute, he need

60a
not consider any other factor concerning either the original use for which the funds were appropriated or the
new use to which they will now be put.
In light of these features of § 8005, the “interests”
that the Organizations claim are “affected by the agency
action in question” are not “among” the “interests arguably to be protected” by § 8005. NCUA, 522 U.S. at 492
(simplified). In particular, the Organizations’ asserted
recreational, aesthetic, and environmental interests
clearly lie outside the zone of interests protected by
§ 8005. The statute does not mention recreational, aesthetic, and environmental interests, nor does it require
the Secretary to consider such interests. On the contrary, the statute requires him only to consider whether
an item is a “higher priority” in light of “military requirements,” and it is otherwise entirely neutral as to
the uses to which the funds will be put. Indeed, that
neutrality is reflected on the face of the statute, which
says that, once the transfer is made, the funds are
“merged with and . . . available for the same purposes, and for the same time period, as the appropriation or fund to which transferred.” 132 Stat. at 2999
(emphasis added). Because the alleged recreational,
aesthetic, and environmental harms that the Organizations assert here play no role in the analysis that § 8005
requires the Secretary to conduct, and are not among
the harms that § 8005’s limitations seek to address or
protect, the Organizations’ interests in avoiding these
harms are not within § 8005’s zone of interests.
Moreover, focusing on the specific interests for which
the Organizations have presented sufficient evidentiary
support at the summary-judgment stage, see Lujan v.

61a
NWF, 497 U.S. at 884-85, further confirms that, in deciding whether to redirect excess military personnel
funds under § 8005 to assist DHS by building fencing to
stop international drug smuggling, the Acting Secretary
of Defense did not have to give even the slightest consideration to whether that reprogramming of funds
would disrupt views of the desert landscape or affect local flora and fauna. Put simply, the Organizations’ recreational, aesthetic, and environmental interests are
“ ‘so marginally related to . . . the purposes implicit
in the statute that it cannot reasonably be assumed that
Congress intended to permit the suit.’ ” Patchak, 567
U.S. at 225 (quoting Clarke, 479 U.S. at 399).
3

The Organizations nonetheless claim that they fall
within § 8005’s zone of interests because § 8005 was
“aimed at tightening congressional control over executive spending,” and the Organizations’ interests do not
“meaningfully diverge from Congress’s interests in enacting the statute.” This contention fails. As the Supreme Court made clear in Lujan v. NWF, the zone-ofinterests test requires the plaintiff to make a factual
showing that the plaintiff itself, or someone else whose
interests the plaintiff may properly assert, has a cognizable interest that falls within the relevant statute’s
zone of interests. 497 U.S. at 885-99 (addressing whether
the interests of NWF—or of any of its members, whose
interests NWF could validly assert under Hunt’s associational standing doctrine—had been shown to be
within the relevant zone of interests). I am aware of no
precedent that would support the view that these Organizations can represent the interests of Congress
(akin to NWF’s representation of the interests of its

62a
members), much less that they can do so merely because
they are sympathetic to Congress’s perceived policy objectives.11 But the Organizations do not actually rely
on such a novel theory. Instead, the Organizations
suggest that, merely because their overall litigation objectives here do not diverge from those of Congress,
they have thereby satisfied the zone-of-interests test
with respect to their own interests. This theory is
clearly wrong.
The critical flaw in the Organizations’ analysis is that
it rests, not on the interests they are asserting (preservation of landscape, flora, fauna, etc.), but on the legal
theory that the Organizations invoke to protect those interests here. But the zone-of-interests test focuses on
the former and not the latter. See Lujan v. NWF, 497
U.S. at 885-89. Indeed, if the Organizations were correct,
that would effectively eliminate the zone-of-interests test.
By definition, anyone who alleges a violation of a particular statute has thereby invoked a legal theory that does
not “meaningfully diverge” from the interests of those
other persons or entities who are within that statute’s
zone-of-interests. Such a tautological congruence be-

Even if the Organizations could assert Congress’s interests in
some representational capacity, they could do so only if the injury to
Congress’s interests satisfied the requirements of Article III standing. See Air Courier Conf., 498 U.S. at 523-24 (zone-of-interests
test is applied to those injuries-in-fact that meet Article III requirements). I express no view on that question. Cf. U.S. House of
Reps. v. Mnuchin, 379 F. Supp. 3d 8 (D.D.C. 2019) (holding that
House lacks Article III standing to challenge the transfers at issue
here), appeal ordered heard en banc, 2020 WL 1228477 (D.C. Cir.
2020).
11

63a
tween the Organizations’ legal theory and Congress’s institutional interests is not sufficient to satisfy the zoneof- interests test here.
The Organizations suggest that their approach is
supported by the D.C. Circuit’s decision in Scheduled
Airlines Traffic Offices, Inc. v. Department of Defense,
87 F.3d 1356 (D.C. Cir. 1996), but that is wrong. As the
opinion in that case makes clear, the D.C. Circuit was
relying on the same traditional zone-of-interests test,
under which a plaintiff ’s interests are “outside the statute’s ‘zone of interests’ only ‘if the plaintiff ’s interests
are so marginally related to or inconsistent with the purposes implicit in the statute that it cannot reasonably be
assumed that Congress intended to permit the suit.’ ”
87 F.3d at 1360 (quoting Clarke, 479 U.S. at 399). The
court mentioned “congruence” in the course of explaining why the plaintiff ’s interests in that case were “not
more likely to frustrate than to further statutory objectives,” i.e., why those interests were not inconsistent
with the purposes implicit in the statute. Id. (simplified). It did not thereby suggest—and could not properly
have suggested—that the mere lack of any such inconsistency is alone sufficient under the zone-of-interests
test. Here, the problem is not that the Organizations’ interests are inconsistent with the purposes of § 8005, but
rather that they are too “marginally related” to those
purposes. See supra at 66.
The Organizations also suggest that we must apply
the zone-of-interests test broadly here, because—given
Congress’s inability to enforce the limitations of § 8005
directly—the agency’s transfers would otherwise be effectively “unreviewable.” The assumption that no one
will ever be able to sue for any violation of § 8005 seems

64a
doubtful, cf. Sierra Club v. Trump, 929 F.3d at 715 (N.R.
Smith, J., dissenting) (suggesting that “those who would
have been entitled to the funds as originally appropriated” may be within the zone of interests of § 8005), but
in any event, we are not entitled to bend the otherwise
applicable—and already lenient—standards to ensure
that someone will be able to sue in this case or others
like it.
B

As noted earlier, the Organizations only invoke the
APA as a fallback option, and they instead insist that
they may assert claims under the Constitution, as well
as an equitable cause of action to enjoin “ultra vires”
conduct. The Organizations do not have a cause of action under either of these theories.
1

The Organizations contend that they are not required
to satisfy any zone-of-interests test to the extent that
they assert non-APA causes of action to enjoin Executive officials from taking unconstitutional action.12 Even
assuming that an equitable cause of action to enjoin unconstitutional conduct exists alongside the APA’s cause
It is not entirely clear that the Organizations are alternatively
contending that APA claims to enjoin unconstitutional conduct, see
5 U.S.C. § 706(2)(B), are exempt from the zone-of-interests test. To
the extent that they are so contending, the point seems doubtful.
See Data Processing, 397 U.S. at 153 (zone-of-interests test requires
APA claimant to show that its interest “is arguably within the zone
of interests to be protected or regulated by the statute or constitutional guarantee in question”). But in all events, any such APAbased claim to enjoin unconstitutional conduct would fail for the same
reasons as the Organizations’ purported free-standing equitable claim
to enjoin such conduct.
12

65a
of action, see Juliana v. United States, 947 F.3d 1159,
1167-68 (9th Cir. 2020); Navajo Nation v. Department
of the Interior, 876 F.3d 1144, 1172 (9th Cir. 2017); but
see Sierra Club v. Trump, 929 F.3d at 715-17 (N.R.
Smith, J., dissenting), it avails the Organizations nothing here. The Organizations have failed to allege the
sort of constitutional claim that might give rise to such
an equitable action, because their “constitutional” claim
is effectively the very same § 8005-based claim dressed
up in constitutional garb. And even if this claim counted
as a “constitutional” one, it would still be governed by
the same zone of interests defined by the relevant limitations in § 8005.
a

The Organizations assert three constitutional claims
in their operative complaint: (1) that Defendants have
violated the constitutional separation of powers by
“usurp[ing] Congress’s legislative authority”; (2) that
Defendants have violated the Presentment Clause by
“modify[ing] or repeal[ing] Congress’s appropriations
legislation by executive proclamation, rather than by
law”; and (3) that Defendants have violated the Appropriations Clause by “allocat[ing] money from the Department of the Treasury by executive proclamation, rather than by law, and in contravention of restrictions
contained in Congress’s appropriations’ laws.”
As clarified in their subsequent briefing, the Organizations assert both what I will call a “strong” form of
these constitutional arguments and a more “limited”
form. In its strong form, the Organizations’ argument
is that, even if § 8005 authorized the transfers in question here, those transfers nonetheless violated the Pre-

66a
sentment Clause. In its more limited form, the Organizations’ argument is that the transfers violated the separation of powers, the Presentment Clause, and the Appropriations Clause because the transfers were not authorized by § 8005.
I need not address whether the Organizations have
an equitable cause of action to assert the strong form of
their constitutional argument, because in my view that
argument on the merits is so “wholly insubstantial and
frivolous” that it would not even give rise to federal jurisdiction. Bell v. Hood, 327 U.S. 678, 682-83 (1946);
see also Steel Co., 523 U.S. at 89. If § 8005 allowed the
transfers here, then that necessarily means that the Executive has properly spent funds that Congress, by statute, has appropriated and allowed to be spent for that
purpose. Cf. Lincoln v. Vigil, 508 U.S. 182, 192 (1993)
(“allocation of funds from a lump-sum appropriation is
another administrative decision traditionally regarded
as committed to agency discretion”). By transferring
funds after finding that the statutory conditions for doing so are met, an agency thereby “execut[es] the policy
that Congress had embodied in the statute” and does not
unilaterally alter or repeal any law in violation of the
Presentment Clause or the separation of powers. See
Clinton v. City of New York, 524 U.S. 417, 444 (1998).
If anything, it is the Organizations’ theory—that the
federal courts must give effect to an alleged broader
congressional judgment against border funding regardless of whether that judgment is embodied in binding
statutory language—that would offend separation-ofpowers principles.

67a
That leaves only the more limited form of the Organizations’ argument, which is that, if § 8005 did not authorize the transfers, then the expenditures violated the
Appropriations Clause, the Presentment Clause, and
the separation of powers. Under Dalton v. Specter, 511
U.S. 462 (1994), this theory—despite its constitutional
garb—is properly classified as “a statutory one,” id. at
474. It therefore does not fall within the scope of the
asserted non-APA equitable cause of action to enjoin
unconstitutional conduct.13
In Dalton, the Court addressed a non-APA claim to
enjoin Executive officials from implementing an allegedly unconstitutional Presidential decision to close certain military bases under the Defense Base Closure and
Realignment Act of 1990. 511 U.S. at 471.14 But the
claim in Dalton was not that the President had directly
transgressed an applicable constitutional limitation; rather, the claim was that, because Executive officials “violated the procedural requirements” of the statute on
which the President’s decision ultimately rested, the
President thereby “act[ed] in excess of his statutory authority” and therefore “violate[d] the constitutional
separation-of-powers doctrine.” Id. at 471-72. The
Supreme Court rejected this effort to “eviscerat[e]” the

13
There remains the Organizations’ claim that statutory violations may be enjoined under a non-APA ultra vires cause of action
for equitable relief, but that also fails for the reasons discussed below. See infra at 79-80.
14
The plaintiffs in Dalton also asserted a claim under the APA
itself, but that claim failed for the separate reason that the challenged final action was taken by the President personally, and the
President is not an “agency” for purposes of the APA. See 511 U.S.
at 469.

68a
well-established “distinction between claims that an official exceeded his statutory authority, on the one hand,
and claims that he acted in violation of the Constitution,
on the other.” Id. at 474 (emphasis added). As the
Court explained, its “cases do not support the proposition that every action by the President, or by another
executive official, in excess of his statutory authority is
ipso facto in violation of the Constitution.” Id. at 472.
The Court distinguished Youngstown Sheet & Tube Co.
v. Sawyer, 343 U.S. 579 (1952), on the ground that there
“the Government disclaimed any statutory authority for
the President’s seizure of steel mills,” and as a result the
Constitution itself supplied the rule of decision for determining the legality of the President’s actions. Dalton, 511 U.S. at 473. Because the “only basis of authority asserted was the President’s inherent constitutional
power as the Executive and the Commander in Chief of
the Armed Forces,” Youngstown thus “necessarily turned
on whether the Constitution authorized the President’s
actions.” Id. (emphasis added). By contrast, given
that the claim in Dalton was that the President had violated the Constitution because Executive officials had
“violated the terms of the 1990 Act,” the terms of that
statute provided the applicable rule of decision and the
claim was therefore “a statutory one.” Id. at 474.
And because those claims sought to enjoin conduct on
the grounds that it violated statutory requirements, it
was subject to the “longstanding” limitation that nonAPA “review is not available when the statute in question commits the decision to the discretion of the President.” Id.
Under Dalton, the Organizations’ purported “constitutional” claims—at least in their more limited version
—are properly classified as statutory claims that do not

69a
fall within any non-APA cause of action to enjoin unconstitutional conduct. 511 U.S. at 474. Here, as in Dalton, Defendants have “claimed” the “statutory authority” of § 8005, and any asserted violation of the Constitution would occur only if, and only because, Defendants’ conduct is assertedly not authorized by § 8005.
Id. at 473. The rule of decision for this dispute is thus
not supplied, as in Youngstown, by the Constitution; rather, it is supplied only by § 8005. Id. at 473-74. Because these claims by the Organizations are thus “statutory” under Dalton, they may only proceed, if at all,
under an equitable cause of action to enjoin ultra vires
conduct, and they would be subject to any limitations applicable to such claims. Id. at 474. The Organizations
do assert such a fallback claim here, but it fails for the
reasons I explain below. See infra at 79-80.
b

But even if the Organizations’ claims may properly
be classified as constitutional ones for purposes of the
particular equitable cause of action they invoke here,
those claims would still fail.
To the extent that the Organizations argue that the
Constitution itself grants a cause of action allowing any
plaintiff with an Article III injury to sue to enjoin an
alleged violation of the Appropriations Clause, the Presentment Clause, or the separation of powers, there is
no support for such a theory. None of the cases cited
by the Organizations involved putative plaintiffs, such
as the Organizations here, who are near the outer perimeter of Article III standing. On the contrary, these
cases involved either allegedly unconstitutional agency
actions directly targeting the claimants, see Bond v.

70a
United States, 564 U.S. 211, 225-26 (2011) (criminal defendant challenged statute under which she was convicted on federalism and separation-of-powers grounds);
United States v. McIntosh, 833 F.3d 1163, 1174-75 (9th
Cir. 2016) (criminal defendants sought to enjoin, based
on an appropriations rider and the Appropriations Clause,
the Justice Department’s expenditure of funds to prosecute them), or they involved a suit based on an express
statutory cause of action, see Clinton v. City of New
York, 524 U.S. at 428 (noting that right of action was expressly conferred by 2 U.S.C. § 692(a)(1) (1996 ed.)).
Moreover, the majority’s novel contention that the
Constitution requires recognizing, in this context, an equitable cause of action that extends to the outer limits of
Article III cannot be squared with the Supreme Court’s
decision in Armstrong v. Exceptional Child Ctr., Inc.,
575 U.S. 320 (2015). There, the Court rejected the view
that the Supremacy Clause itself created a private right
of action for equitable relief against preempted statutes,
and instead held that any such equitable claim rested on
“judge-made” remedies that are subject to “express and
implied statutory limitations.” Id. at 325-27. The Supremacy Clause provides a particularly apt analogy here,
because (like the Appropriations Clause) the asserted
“unconstitutionality” of the challenged action generally
depends upon whether it falls within or outside the
terms of a federal statute: a state statute is “unconstitutional under the Supremacy Clause” only if it is “contrary to federal law,” Burbank-Glendale-Pasadena Airport Auth. v. City of Burbank, 136 F.3d 1360, 1361-62
(9th Cir. 1998), and here, the transfers violated the Appropriations Clause only if they were barred by the limitations in § 8005. And just as the Supremacy Clause
protects Congress’s “broad discretion with regard to the

71a
enactment of laws,” Armstrong, 575 U.S. at 325-26, so
too the Appropriations Clause protects “congressional
control over funds in the Treasury,” McIntosh, 833 F.3d
at 1175. It is “unlikely that the Constitution gave Congress such broad discretion” to enact appropriations
laws only to simultaneously “require[] Congress to permit the enforcement of its laws” by any “private actor[]”
with even minimal Article III standing, thereby “limit[ing] Congress’s power” to decide how “to enforce” the
spending limitations it enacts. Armstrong, 575 U.S. at
325-26.15
The Appropriations Clause thus does not itself create
a constitutionally required cause of action that extends
to the limits of Article III. On the contrary, any equitable cause of action to enforce that clause would rest on
a “judge-made” remedy: as Armstrong observed, “[t]he
ability to sue to enjoin unconstitutional actions by state
and federal officers is the creation of courts of equity,
and reflects a long history of judicial review of illegal
executive action, tracing back to England.” 575 U.S. at
The majority asserts that Armstrong is distinguishable on the
grounds that the Appropriations Clause is supposedly more protective of individual liberty than the Supremacy Clause. See Maj.
Opin. at 30-31. Nothing is cited to support this comparative assertion, which seems highly doubtful: there is no reason to think
that Congress’s ability, in the exercise of its enumerated powers,
to preempt potentially oppressive state laws is any less protective
of individual liberty than is Congress’s ability to insert riders in
appropriations bills. Moreover, to the extent that these clauses
protect individual liberty, they both do so only as a consequence of
protecting congressional authority within our overall constitutional
structure. Armstrong’s core point—that it would be “strange indeed” to construe a clause that protects congressional power as
simultaneously saddling Congress with a particular enforcement
method—remains equally applicable to both. 575 U.S. at 326.
15

72a
327. At least where, as here, the contours of the applicable constitutional line (under the Appropriations Clause)
are defined by and parallel a statutory line (under
§ 8005), any such judge-made equitable cause of action
would be subject to “express and implied statutory limitations,” as well as traditional limitations governing
such equitable claims. Id.
One long-established “ ‘judicially self-imposed limit[]
on the exercise of federal jurisdiction’ ”—including federal equitable jurisdiction—is the requirement “that a
plaintiff ’s grievance must arguably fall within the zone
of interests protected or regulated by the statutory provision or constitutional guarantee invoked in the suit.”
Bennett, 520 U.S. at 162 (quoting Allen v. Wright, 468
U.S. 737, 751 (1984)). This limitation is not confined to
the APA, but rather reflects a “prudential standing requirement[] of general application” that always “applies
unless it is expressly negated” by Congress. Id. at
163.16 Because Congress has not expressly negated that

The majority wrongly contends that, by quoting this language
from Bennett, and stating that the zone-of-interests test therefore
“applies to all statutorily created causes of action,” Lexmark, 572
U.S. at 129 (emphasis added), the Court in Lexmark thereby intended to signal that the test only applies to statutory claims and not
to non-statutory equitable claims. See Maj. Opin. at 36-37. Nothing
in Lexmark actually suggests any such negative pregnant; instead,
the Court’s reference to “statutorily created causes of action” reflects nothing more than the fact that only statutory claims were before the Court in that case. See 572 U.S. at 129. Moreover, Lexmark notes that the zone-of-interests test’s roots lie in the common
law, id. at 130 n.5, and Bennett (upon which Lexmark relied) states
that the test reflects a “prudential standing requirement[] of general
application” that applies to any “exercise of federal jurisdiction,”
520 U.S. at 162-63.
16

73a
test in any relevant respect, the Organizations’ equitable cause of action to enforce the Appropriations Clause
here remains subject to the zone-of-interests test. Cf.
Thompson v. North American Stainless, LP, 562 U.S.
170, 176-77 (2011) (construing a cause of action as extending to “any person injured in the Article III sense”
would often produce “absurd consequences” and is for
that reason rarely done). And given the unique nature
of an Appropriations Clause claim, as just discussed, the
line between constitutional and unconstitutional conduct here is defined entirely by the limitations in § 8005,
and therefore the relevant zone of interests for the Organizations’ Appropriations-Clause-based equitable claim
remains defined by those limitations. Thus, contrary
to the majority’s conclusion, see Maj. Opin. at 39-40, the
Organizations are outside the applicable zone of interests for this claim as well.
In arguing for a contrary view, the Organizations
rely heavily on United States v. McIntosh, asserting
that there we granted non-APA injunctive relief based
on the Appropriations Clause without inquiring whether
the claimants were within the zone of interests of the
underlying appropriations statute. McIntosh cannot bear
the considerable weight that the Organizations place on
it.
In McIntosh, we asserted interlocutory jurisdiction
over the district courts’ refusal to enjoin the expenditure of funds to prosecute the defendants—an expenditure that allegedly violated an appropriations rider barring the Justice Department from spending funds to
prevent certain States from “ ‘implementing their own
laws that authorize the use, distribution, possession, or
cultivation of medical marijuana.’ ” 833 F.3d at 1175;

74a
see also id. at 1172-73. We held that the defendants had
Article III standing and that, if the Department was in
fact “spending money in violation” of that rider in prosecuting the defendants, that would produce a violation
of the Appropriations Clause that could be raised by the
defendants in challenging their prosecutions. Id. at
1175. After construing the meaning of the rider, we
then remanded the matter for a determination whether
the rider was being violated. Id. at 1179. Contrary to
the Organizations’ dog-that-didn’t-bark theory, nothing
can be gleaned from the fact that the zone-of-interests
test was never discussed in McIntosh. See Cooper Indus., Inc. v. Aviall Servs, Inc., 543 U.S. 157, 170 (2004)
(“ ‘Questions which merely lurk in the record, neither
brought to the attention of the court nor ruled upon, are
not to be considered as having been so decided as to constitute precedents.’ ”) (quoting Webster v. Fall, 266 U.S.
507, 511 (1925)). Moreover, any such silence seems
more likely to have been due to the fact that it was so
overwhelmingly obvious that the defendants were within
the rider’s zone of interests that the point was incontestable and uncontested. An asserted interest in not going to prison for complying with state medical-marijuana
laws seems well within the zone of interests of a statute
prohibiting interference with the implementation of
such state laws.
2

The only remaining question is whether the Organizations may evade the APA’s zone-of-interests test by
asserting a non-APA claim for ultra vires conduct in excess of statutory authority. Even assuming that such
a cause of action exists alongside the APA, cf. Trudeau
v. Federal Trade Comm’n, 456 F.3d 178, 189-90 (D.C.

75a
Cir. 2006), I conclude that it would be subject to the
same zone-of-interests limitations as the Organizations’
APA claims and therefore likewise fails.
For the same reasons discussed above, any such equitable cause of action rests on a judge-made remedy
that is subject to the zone-of-interests test. See supra
at 74-79. The Organizations identify no case from the
Supreme Court or this court affirmatively holding that
the zone-of-interests test does not apply to a non-APA
equitable cause of action to enjoin conduct allegedly in
excess of express statutory limitations on statutory authority, and I am aware of none. Indeed, it makes little
sense, when evaluating a claim that Executive officials
exceeded the limitations in a federal statute, not to ask
whether the plaintiff is within the zone of interests protected by those statutory limitations. Cf. Haitian Refugee Ctr. v. Gracey, 809 F.2d 794, 811 n.14 (D.C. Cir.
1987) (although plaintiff asserting ultra vires claim may
not need to show that its interests “fall within the zones
of interests of the constitutional and statutory powers
invoked” by Executive officials, when “a particular constitutional or statutory provision was intended to protect persons like the litigant by limiting the authority
conferred,” then “the litigant’s interest may be said to
fall within the zone protected by the limitation”) (emphasis added).17 Here, those limitations are supplied

The majority thus relies on the wrong portion of Judge Bork’s
opinion in Haitian Refugee Center. See Maj. Opin. at 37-39.
This case turns on a “statutory provision” that “limit[s] the authority conferred.” 809 F.2d at 811 n.14. If the Executive had contended that it had power to transfer the funds regardless of § 8005,
then this case would look more like Youngstown, but no such extravagant claim has been pressed in this case. On the contrary,
17

76a
by § 8005, and the Organizations are not within the zone
of interests of that statute.18
* * *
Given that each of the Organizations’ asserted theories fail, the Organizations lack any cause of action to
challenge the DoD’s transfer of funds under § 8005.
IV

Alternatively, even if the Organizations had a cause
of action, their claims would fail on the merits, because
the challenged transfers did not violate § 8005 or § 9002.
In the companion appeal, California v. Trump, the majority concluded that § 8005 and § 9002 did not authorize
the transfers at issue, and I concluded that these provisions did authorize the transfers. Just as the majority
“reaffirm[s] this holding here and conclude[s] that Section 8005 did not authorize the transfer of funds,” Maj.
Opin. at 24, I reaffirm my previous conclusion that
§ 8005 and § 9002 authorized the transfers.
V

Based on the foregoing, I conclude that at least the
Sierra Club has Article III standing, but that the Organizations lack any cause of action to challenge these
Defendants concede that, if the requirements of § 8005 were not
met, then the transfers were unlawful.
18
Even if the Organizations were correct that the zone-of-interests
test does not apply to a non-APA equitable cause of action, that would
not necessarily mean that such equitable jurisdiction extends, as
the Organizations suggest, to the outer limits of Article III. Declining to apply the APA’s generous zone-of-interests test might
arguably render applicable the sort of narrower review of agency
action that preceded the APA standards articulated in Data Processing, 397 U.S. at 153. See also Clarke, 479 U.S. at 400 n.16.

77a
§ 8005 and § 9002 transfers. Alternatively, if the Organizations did have a cause of action, their claims fail
on the merits as a matter of law because the transfers
complied with the limitations in § 8005 and § 9002. I
therefore would reverse the district court’s partial grant
of summary judgment to the Organizations and would
remand the matter with instructions to grant Defendants’ motion for summary judgment on this set of claims.
Because the majority concludes otherwise, I respectfully dissent.

78a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 19-16299
D.C. No. 4:19-cv-00872-HSG
STATE OF CALIFORNIA; STATE OF COLORADO; STATE
OF CONNECTICUT; STATE OF DELAWARE; STATE OF
HAWAII; STATE OF MAINE; STATE OF MINNESOTA;
STATE OF NEW JERSEY; STATE OF NEW MEXICO; STATE
OF NEVADA; STATE OF NEW YORK; STATE OF
OREGON; COMMONWEALTH OF VIRGINIA; STATE OF
ILLINOIS; STATE OF MARYLAND; DANA NESSEL,
ATTORNEY GENERAL, ON BEHALF OF THE PEOPLE
OF MICHIGAN; STATE OF WISCONSIN; STATE OF
MASSACHUSETTS; STATE OF VERMONT; STATE OF
RHODE ISLAND, PLAINTIFFS-APPELLEES
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES OF AMERICA;
UNITED STATES OF AMERICA; UNITED STATES
DEPARTMENT OF DEFENSE; MARK T. ESPER,
IN HIS OFFICIAL CAPACITY AS ACTING SECRETARY OF
DEFENSE; RYAN D. MCCARTHY, SENIOR OFFICIAL
PERFORMING THE DUTIES OF THE SECRETARY OF THE
ARMY; RICHARD V. SPENCER, IN HIS OFFICIAL
CAPACITY AS SECRETARY OF THE NAVY; HEATHER
WILSON, IN HER OFFICIAL CAPACITY AS SECRETARY OF
THE AIR FORCE; UNITED STATES DEPARTMENT
OF THE TREASURY; STEVEN TERNER MNUCHIN,
IN HIS OFFICIAL CAPACITY AS SECRETARY OF THE
DEPARTMENT OF THE TREASURY; U.S. DEPARTMENT
OF THE INTERIOR; DAVID BERNHARDT,
IN HIS OFFICIAL CAPACITY AS SECRETARY OF THE
INTERIOR; U.S. DEPARTMENT OF HOMELAND

79a
SECURITY; CHAD F. WOLF, IN HIS OFFICIAL CAPACITY
AS ACTING SECRETARY OF HOMELAND SECURITY,
DEFENDANTS-APPELLANTS
Filed:

June 26, 2020

No. 19-16336
D.C. No. 4:19-cv-00872-HSG
STATE OF CALIFORNIA; STATE OF NEW MEXICO,
PLAINTIFFS-APPELLANTS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES OF AMERICA;
UNITED STATES OF AMERICA; UNITED STATES
DEPARTMENT OF DEFENSE; MARK T. ESPER,
IN HIS OFFICIAL CAPACITY AS ACTING SECRETARY OF
DEFENSE; RYAN D. MCCARTHY, SENIOR OFFICIAL
PERFORMING THE DUTIES OF THE SECRETARY OF THE
ARMY; RICHARD V. SPENCER, IN HIS OFFICIAL
CAPACITY AS SECRETARY OF THE NAVY; HEATHER
WILSON, IN HER OFFICIAL CAPACITY AS SECRETARY OF
THE AIR FORCE; UNITED STATES DEPARTMENT
OF THE TREASURY; STEVEN TERNER MNUCHIN,
IN HIS OFFICIAL CAPACITY AS SECRETARY OF THE
DEPARTMENT OF THE TREASURY; U.S. DEPARTMENT
OF THE INTERIOR; DAVID BERNHARDT,
IN HIS OFFICIAL CAPACITY AS SECRETARY OF THE
INTERIOR; U.S. DEPARTMENT OF HOMELAND
SECURITY; CHAD F. WOLF, IN HIS OFFICIAL CAPACITY
AS ACTING SECRETARY OF HOMELAND SECURITY,
DEFENDANTS-APPELLEES
Argued and Submitted: Nov. 12, 2019
San Francisco, California

80a
Filed:

June 26, 2020

Appeal from the United States District Court
for the Northern District of California
Haywood S. Gilliam, Jr., District Judge, Presiding
OPINION

Before: SIDNEY R. THOMAS, Chief Judge, and KIM
MCLANE WARDLAW and DANIEL P. COLLINS, Circuit
Judges.
Opinion by Chief Judge SIDNEY R. THOMAS; Dissent
by Judge COLLINS
THOMAS, Chief Judge:
This appeal presents the question of whether the Department of Defense Appropriations Act of 2019 authorized the Department of Defense (“DoD”) to make budgetary transfers from funds appropriated by Congress to
it for other purposes in order to fund the construction of
a wall on the southern border of the United States in
California and New Mexico. We conclude that the
transfers were not authorized by the terms of the Act,
and we affirm the judgment of the district court. 1
I
The President has long supported the construction of
a border wall on the southern border between the

There are companion appeals concerning some of the same issues
in Sierra Club, et. al. v. Trump et. al., Nos. 19-16102 and 19-16300.
Those appeals will be the subject of a separate opinion.
1

81a
United States and Mexico. Since the President took office in 2017, however, Congress has repeatedly declined
to provide the amount of funding requested by the President.
The debate over border wall funding came to a head
in December of 2018. During negotiations to pass an
appropriations bill for the remainder of the fiscal year,
the President announced that he would not sign any legislation that did not allocate substantial funds to border
wall construction. On January 6, 2019, the White House
requested $5.7 billion to fund the construction of approximately 234 miles of new physical barrier. 2 Budget negotiations concerning border wall funding reached an
impasse, triggering the longest partial government
shutdown in United States history.
After 35 days, the government shutdown ended without an agreement to provide increased border wall funding in the amount requested by the President. On February 14, 2019, Congress passed the Consolidated Appropriations Act of 2019 (“CAA”), which included the
Department of Homeland Security Appropriations Act
for Fiscal Year 2019, Pub. L. No. 116-6, div. A, 133 Stat.
13 (2019). The CAA appropriated only $1.375 billion
for border wall construction, specifying that the funding
was for “the construction of primary pedestrian fencing
. . . in the Rio Grande Valley Sector.” Id. § 230(a)(1).
The President signed the CAA into law the following
day.

Some form of a physical barrier already exists at the site of some
of the construction projects. In those places, construction would
reinforce or rebuild the existing portions.
2

82a
The President concurrently issued a proclamation
under the National Emergencies Act, 50 U.S.C. §§ 16011651, “declar[ing] that a national emergency exists at
the southern border of the United States.” Proclamation No. 9844, 84 Fed. Reg. 4949 (Feb. 15, 2019). 3 An
accompanying White House Fact Sheet explained that
the President was “using his legal authority to take Executive action to secure additional resources” to build a
border wall, and it specified that “the Administration
[had] so far identified up to $8.1 billion that [would] be
available to build the border wall once a national emergency [was] declared and additional funds [were] reprogrammed.” The Fact Sheet identified several funding
sources, including $2.5 billion of Department of Defense
(“DoD”) funds that could be transferred to provide support for counterdrug activities of other federal government agencies under 10 U.S.C. § 284 (“Section 284”). 4
Executive Branch agencies began using the funds identified by the Fact Sheet to fund border wall construction.
On February 25, the Department of Homeland Security

3
Subsequently, Congress adopted two joint resolutions terminating the President’s emergency declaration pursuant to its authority
under 50 U.S.C. § 1622(a)(1). The President vetoed each resolution, and Congress failed to override these vetoes.
4
Section 284 authorizes the Secretary of Defense to “provide support for the counterdrug activities . . . of any other department
or agency of the Federal Government” if it receives a request from
“the official who has responsibility for the counterdrug activities.”
10 U.S.C. §§ 284(a), 284(a)(1)(A). The statute permits, among other
things, support for “[c]onstruction of roads and fences and installation of lighting to block drug smuggling corridors across international boundaries of the United States.” Id. § 284(b)(7). DoD’s provision of support for other agencies pursuant to Section 284 does not
require the declaration of a national emergency.

83a
(“DHS”) submitted to DoD a request for Section 284 assistance to block drug smuggling corridors. In particular, it requested that DoD fund “approximately 218
miles” of wall using this authority, comprised of numerous projects, including the El Centro Sector Project 1 in
California and the El Paso Sector Project 1 in New Mexico, as relevant to this case. On March 25, Acting Secretary of Defense Patrick Shanahan approved three
border wall construction projects: Yuma Sector Projects 1 and 2 in Arizona and El Paso Sector Project 1 in
New Mexico. On May 9, Shanahan approved four more
border wall construction projects: El Centro Sector
Project 1 in California and Tucson Sector Projects 1-3 in
Arizona.
Because these projects were undertaken to construct
barriers and roads in furtherance of border security,
Acting Secretary of Homeland Security Kevin McAleenan
invoked the authority granted to him by Section 102(c)
of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996 (“IIRIRA”), Pub. L. No. 104208, Div. C, § 102(c), 110 Stat. 3009-546, 3009-554 (1996)
(codified as amended as a note to 8 U.S.C. § 1103), to
“waive all legal requirements” that would otherwise apply to the border wall construction projects “to ensure
. . . expeditious construction.” 84 Fed. Reg. 1718501 (April 24, 2019). On April 24, with respect to the El
Paso Sector, he “waive[d] in their entirety, with respect
to the construction of physical barriers and roads” a
long list of statutes, “including all federal, state, or other
laws, regulations, and legal requirements of, deriving
from, or related to the subject of ” “[t]he National Environmental Policy Act” “(42 U.S.C. 4321 et seq.),” “the
Endangered Species Act” “(16 U.S.C. 1531 et seq.),”
“the Federal Water Pollution Control Act (commonly

84a
referred to as the Clean Water Act (33 U.S.C. 1251
et seq.)),” and “the Clean Air Act (42 U.S.C. 7401
et seq.).” Id. He executed a similar Section 102(c)
waiver with respect to the El Centro Sector on May 15.
84 Fed. Reg. 21800-01 (May 15, 2019).
At the time Shanahan authorized these border wall
construction projects, the counter-narcotics support account contained only $238,306,000 in unobligated funds,
or less than one tenth of the $2.5 billion needed to complete those projects. To provide the support requested,
Shanahan invoked the budgetary transfer authority found
in Section 8005 of the 2019 DoD Appropriations Act to
transfer funds from other DoD appropriations accounts
into the Section 284 Drug Interdiction and CounterDrug Activities-Defense appropriations account.
For the first set of projects, Shanahan transferred $1
billion from Army personnel funds. For the second set
of projects, Shanahan transferred $1.5 billion from “various excess appropriations,” which contained funds originally appropriated for purposes such as modification of
in-service missiles and support for U.S. allies in Afghanistan.
As authority for the transfers, DoD specifically relied
on Section 8005 and Section 9002 of the Department of
Defense Appropriations Act of 2019, Pub. L. No. 115245, 132 Stat. 2981 (2018) (“Section 8005”). 5
Section 8005 provides, in relevant part, that:
For simplicity, because the transfer authorities are both subject
to Section 8005’s substantive requirements, this opinion refers to these
authorities collectively as Section 8005, as did the district court and
the motions panel. Our holding in this case therefore extends to both
the transfer of funds pursuant to Section 8005 and Section 9002.
5

85a
Upon determination by the Secretary of Defense that
such action is necessary in the national interest, he
may, with the approval of the Office of Management
and Budget, transfer not to exceed $4,000,000,000 of
working capital funds of the Department of Defense
or funds made available in this Act to the Department
of Defense for military functions (except military construction) between such appropriations or funds or
any subdivision thereof, to be merged with and to be
available for the same purposes, and for the same
time period, as the appropriation or fund to which
transferred. 6
Section 8005 also explicitly limits when its authority
can be invoked: “Provided, That such authority to transfer may not be used unless for higher priority items, based
on unforeseen military requirements, than those for
which originally appropriated and in no case where the
item for which funds are requested has been denied by
the Congress.”
Although Section 8005 does not require formal congressional approval of transfers, historically DoD had
adhered to a “gentleman’s agreement,” by which it sought
approval from the relevant congressional committees
Section 9002 provides that: “Upon the determination of the Secretary of Defense that such action is necessary in the national interest, the Secretary may, with the approval of the Office of Management and Budget, transfer up to $2,000,000,000 between the appropriations or funds made available to the Department of Defense in
this title: Provided, That the Secretary shall notify the Congress
promptly of each transfer made pursuant to the authority in this section: Provided further, That the authority provided in this section
is in addition to any other transfer authority available to the Department of Defense and is subject to the same terms and conditions as
the authority provided in section 8005 of this Act.”
6

86a
before transferring the funds. DoD deviated from this
practice here—it did not request congressional approval
before authorizing the transfer. Further, the House
Committee on Armed Services and the House Committee on Appropriations both wrote letters to DoD formally disapproving of the reprogramming action after
the fact. Moreover, with respect to the second transfer, Shanahan expressly directed that the transfer of
funds was to occur “without regard to comity-based policies that require prior approval from congressional
committees.”
In the end, Section 8005 was invoked to transfer $2.5
billion of DoD funds appropriated for other purposes to
fund border wall construction.
II
On February 18, 2019, sixteen states,7 including California and New Mexico, filed a lawsuit challenging the
Executive Branch’s funding of the border wall. The
States pled theories of violation of the constitutional
separation of powers, violation of the Appropriations
Clause, ultra vires action, violations of the Administrative Procedure Act (“APA”), and violations of the National Environmental Policy Act (“NEPA”). The next
day, Sierra Club and the Southern Border Communities

Specifically, the action was filed by the following states: California, Colorado, Connecticut, Delaware, Hawai’i, Illinois, Maine,
Maryland, Minnesota, Nevada, New Jersey, New Mexico, New York,
Oregon, the Commonwealth of Virginia, and Attorney General Dana
Nessel on behalf of the People of Michigan. The complaint was later
amended to add the following states: Rhode Island, Vermont, Wisconsin, and the Commonwealth of Massachusetts. State parties
are collectively referenced as “the States.”
7

87a
Coalition filed a separate action challenging the same
border wall funding. 8
The States subsequently filed a motion requesting a
preliminary injunction to enjoin the transfer of funds to
construct a border wall in New Mexico’s El Paso Sector.
The district court held that New Mexico had standing,
but it denied without prejudice the preliminary injunction motion. The court based part of its reasoning on
the fact that it had already imposed a preliminary injunction in the Sierra Club action such that the grant of
a preliminary injunction in favor of the States would be
duplicative. California subsequently filed another motion requesting a preliminary injunction to enjoin the
transfer of funds to construct a border wall in California’s El Centro Sector.
California and New Mexico then moved for partial
summary judgment on their declaratory judgment action as to the El Centro and El Paso Sectors, and additionally moved for a permanent injunction to enjoin
funding the construction of these sectors. The Federal
Defendants filed a cross-motion for summary judgment
on all claims. The district court granted California and
New Mexico’s motion for partial summary judgment,
and issued declaratory relief, holding the Section 8005
transfer of funds as to the El Centro and El Paso sectors
unlawful. The district court denied the Federal Defendants’ motion for summary judgment.
Both lawsuits named as defendants Donald J. Trump, President
of the United States, Patrick M. Shanahan, former Acting Secretary
of Defense, Kirstjen M. Nielsen, former Secretary of Homeland Security, and Steven Mnuchin, Secretary of the Treasury in their official capacities, along with numerous other Executive Branch officials
(collectively referenced as “the Federal Defendants”).
8

88a
The court also denied California and New Mexico’s
motion for a permanent injunction, this time basing its
reasoning, in part, on the permanent injunction ordered
by the district court in the companion Sierra Club case. 9
The Federal Defendants requested that the district
court certify its order as a final judgment for immediate
appeal pursuant to Fed. R. Civ. P. 54(b). In response,
the district court considered the appropriate factors,
made appropriate findings, and certified the order as
final pursuant to Rule 54(b). See Pakootas v. Teck
Cominco Metals, Ltd., 905 F.3d 565, 574 (9th Cir. 2018)
(listing factors). The Federal Defendants timely appealed the district court’s judgment, and the States
timely cross-appealed the district court’s denial of injunctive relief. The district court’s Rule 54(b) certification was proper; therefore, we have jurisdiction under
28 U.S.C. § 1291. See Durfey v. E.I. DuPont De Nemours
& Co., 59 F.3d 121, 124 (9th Cir. 1995) (appeal is proper
upon certification as a final judgment pursuant to Rule
54(b)).
We review the existence of Article III standing de
novo. See California v. U.S. Dep’t of Health & Human
Servs., 941 F.3d 410, 420 (9th Cir. 2019). We review questions of statutory interpretation de novo. See United
States v. Kelly, 874 F.3d 1037, 1046 (9th Cir. 2017).
III
California and New Mexico have Article III standing
to pursue their claims. In order to establish Article III
standing, a plaintiff must have (1) suffered an injury in
The Supreme Court subsequently granted a stay of the district
court’s permanent injunction in the separate companion case, Trump
v. Sierra Club, 140 S. Ct. 1 (2019) (mem.).
9

89a
fact, (2) that is fairly traceable to the challenged conduct
of the defendant, and (3) that is likely to be redressed by
a favorable judicial decision. Lujan v. Defs. of Wildlife,
504 U.S. 555, 560-61 (1992). 10 At summary judgment, a
plaintiff cannot rest on mere allegations, but “must set
forth by affidavit or other evidence specific facts.”
Clapper v. Amnesty Int’l USA, 568 U.S. 398, 412 (2013)
(internal quotations and citations omitted). These specific facts, set forth “for purposes of the summary judgment motion[,] will be taken to be true.” Lujan, 504
U.S. at 561.
States are “entitled to special solicitude in our standing analysis.” Massachusetts v. EPA, 549 U.S. 497, 520
(2007). As a quasi-sovereign, a state “has an interest
independent of and behind the titles of its citizens, in all
the earth and air within its domain.” Georgia v. Tenn.
Copper Co., 206 U.S. 230, 237 (1907). Thus, a state may
sue to assert its “quasi-sovereign interests in the health
and well-being—both physical and economic—of its residents in general.” Alfred L. Snapp & Son, Inc. v. Puerto
Rico, 458 U.S. 592, 607 (1982). In addition, “[d]istinct
from but related to the general well-being of its residents, the State has an interest in securing observance

10
The Federal Defendants do not challenge California’s and New
Mexico’s Article III standing in these appeals. However, “the court
has an independent obligation to assure that standing exists, regardless of whether it is challenged by any of the parties.” Summers v.
Earth Island Inst., 555 U.S. 488, 499 (2009).
The Federal Defendants challenged New Mexico’s standing before the district court, but conflated its challenge with the APA “zone
of interest” requirement, which we will discuss later. The district
court held that New Mexico had established Article III standing.

90a
of the terms under which it participates in the federal
system.” Id. at 607-08.
A
Here, California and New Mexico have alleged that
the actions of the Federal Defendants will cause particularized and concrete injuries in fact to the environment
and wildlife of their respective states as well as to their
sovereign interests in enforcing their environmental
laws.
1
The El Centro Sector Project 1 involves the Jacumba
Wilderness area. California contends that this area is
home to a large number of sensitive plant and animal
species that are listed as “endangered,” “threatened,” or
“rare” under the federal Endangered Species Act of
1973, 16 U.S.C. § 1531 et seq., or the California Endangered Species Act, Cal. Fish & Game Code § 2050 et seq.
California alleges that “[t]he construction of border barriers within or near the Jacumba Wilderness Area . . .
will have significant adverse effects on environmental
resources, including direct and indirect impacts to endangered or threatened wildlife.” One such species is
the federally and state-endangered peninsular desert
bighorn sheep. Another is the flat-tailed horned lizard,
a California species of special concern. 11

A species of special concern is “a species, subspecies, or distinct
population of an animal native to California that currently satisfies
one or more of the following (but not necessarily mutually exclusive)
criteria: is extirpated from the State . . . ; is listed as Feder11

91a
California has adequately set forth facts and other
evidence, which taken as true, support these allegations
for the purpose of Article III standing. According to
the California Department of Fish and Wildlife 2018 annual report addressing sheep monitoring in the Jacumba
Wilderness area, “[t]he Jacumba ewe group is dependent on resources both within the US and Mexico. A
fence along the US-Mexico border would prohibit movement to, and use of, prelambing and lamb-rearing habitat and summer water sources,” and the development of
energy projects adjacent to the Jacumba Mountains
“combined with disturbance by border security activities” “will have significant adverse impacts on this ewe
group.” California contends that road construction;
grading and construction of equipment storage and parking areas; and off road movement of vehicle and equipment involved in construction will alter the normal behavior of peninsular bighorn sheep, with the most significant effect on the endangered peninsular bighorn
sheep being the permanent reduction of its north-south
movement across the U.S.-Mexico border. California
further avers that the effects of a border wall will place
additional pressure on the survival and recovery of the
bighorn sheep because the unimpeded movement of the
ally-, but not State-, threatened or endangered; meets the State definition of threatened or endangered but has not formally been listed;
is experiencing, or formerly experienced, serious (noncyclical) population declines or range retractions (not reversed) that, if continued
or resumed, could qualify it for State threatened or endangered status; has naturally small populations exhibiting high susceptibility of
to risk from any factor(s), that if realized, could lead to declines that
would qualify it for State threatened or endangered status.” CAL.
DEPT. OF FISH AND WILDLIFE, SPECIES OF SPECIES CONCERN,
https://wildlife.ca.gov/Conservation/SSC#394871324-what-is-therelationship-between-sscs-and-the-california-wildlife-action-plan.

92a
peninsular bighorn sheep between the United States
and Mexico is important for increasing and maintaining
their genetic diversity. It contends that as the number
of animals that move between these two countries declines or ceases, the species will begin to suffer the deleterious effects of inbreeding and reduced genetic diversity.
Likewise, California asserts that the flat-tailed
horned lizard lives within the project footprint and surrounding area, and that the extensive trenching, construction of roads, and staging of materials proposed in
the area will harm or kill lizards that are either active or
in underground burrows within the project footprint.
It claims that the construction of the border wall will
also greatly increase the predation rate of lizards adjacent to the wall by providing a perch for birds of prey
and will effectively sever the linkage that currently exists between populations on both sides of the border.
New Mexico alleges that “[t]he construction of a border wall in the El Paso Sector along New Mexico’s southern border will have adverse effects on the State’s environmental resources, including direct and indirect impacts to endangered or threatened wildlife.” Such
harm “would include the blocking of wildlife migration,
flooding, and habitat loss.” It notes that the Chihuahuan desert is bisected by the New Mexico-Mexico border, and this “bootheel” region is the most biologically
diverse desert in the Western Hemisphere, containing
numerous endangered or threatened species. Such species include the Mexican gray wolf and the jaguar, both
of which coexist in this region along the U.S.-Mexico
border.

93a
New Mexico has adequately set forth facts and other
evidence, which taken as true, support these allegations
for the purpose of Article III standing. It contends
that the construction of El Paso Sector Project 1 may
have a number of adverse effects on the Mexican wolf,
including injury, death, harm, and harassment due to
construction and related activities, as well as abandonment of the area for essential behaviors such as feeding,
resting, and mating due to night lighting and the elimination of food sources and habitat in the area. Moreover, New Mexico avers that the construction of El Paso
Sector Project 1 would interrupt the movement of the
Mexican wolf across the U.S.-Mexico border, putting additional pressure on the species’ survival and recovery
in the wild because the unimpeded movement of Mexican wolves between the United States and Mexico is important for increasing and maintaining their genetic diversity. New Mexico notes that the documented movement of a radio-collared Mexican wolf across the border
in the areas where border wall construction is planned
demonstrates that construction will indeed cause such
an interruption.
Additionally, the jaguar is considered endangered by
the U.S. Fish and Wildlife Service (“USFWS”). New
Mexico avers that jaguars were formerly widespread in
the southwest United States, but were extirpated by
hunting. It claims that, in recent decades, small numbers of individuals have dispersed north from breeding
populations in northern Mexico, with some reaching the
mountains in southwestern New Mexico west of Luna
County. New Mexico contends that, if further long-term
recolonization of jaguars continues, areas in Doña Ana
and Luna counties include suitable habitat, but construction of El Paso Sector Project 1 would stop jaguar

94a
movement through the region, potentially limiting recolonization.
For these reasons, we conclude that California and
New Mexico have each provided sufficient evidence
which, if taken as true, would allow a reasonable factfinder to conclude that both states will suffer injuries in
fact to their environmental interests, and in particular,
to protected species within their borders.
2
In addition, California and New Mexico have alleged
that the Federal Defendants’ actions have interfered
with their respective abilities to enforce their environmental laws, thus interfering with the terms under
which they participate in the federal system. They alleged that they have suffered, and will continue to suffer, injuries to their concrete, quasi-sovereign interests
relating to the preservation of wildlife resources within
their boundaries, including but not limited to wildlife on
state properties.
California and New Mexico have adequately set forth
facts and other evidence, which taken as true, support
these allegations for the purpose of Article III standing.
They have demonstrated that border wall construction
injures their quasi-sovereign interests by preventing
them from enforcing their environmental laws.
Under California law, the California Water Resources
Control Board and nine regional boards establish water
quality objectives and standards, and for construction
projects like El Centro Sector Project 1, where dredge
and fill activities are expected to occur, a regional board
must ordinarily certify compliance with water quality

95a
standards. The record indicates that, absent the Secretary of Homeland Security’s Section 102(c) IIRIRA
waiver of the Clean Water Act requirements for the project, El Centro Project 1 could not proceed without completing certification issued by a regional water board because the El Centro Project 1 will occur within or near
the Pinto Wash and will traverse at least six ephemeral
washes that have been identified as waters of the United
States. The record further indicates that, due to the
nature and location of construction, El Centro Project 1
would also require enrollment in the State Water Board’s
statewide National Pollutant Discharge Elimination
General Permit for Storm Water Discharges Associated
with Construction and Land Disturbance Activities.
Likewise, the Section 102(c) waiver of the Clean Air
Act’s requirements undermines California’s enforcement of its air quality standards for complying with the
Clean Air Act as set forth in California’s State Implementation Plan (“SIP”). In particular, but for the
waiver, in order to move forward with El Centro Project
1, the Federal Defendants “would be obligated to comply with Rule 801 [of the SIP], which requires the development and implementation of a dust-control plan for
construction projects to prevent, reduce, and mitigate
[fine particulate matter] emissions.”
Moreover, the Section 102(c) waiver exempts the
Federal Defendants from complying with laws designed
to protect endangered or threatened species. For instance, it exempts the Federal Defendants from consulting with the USFWS to ensure that El Centro Sector
Project 1 “is not likely to jeopardize the continued existence of any endangered species or threatened species or

96a
result in the destruction or adverse modification of habitat of such species” that are identified as endangered under California and federal law. 16 U.S.C. § 1536(a)(2).
As we have noted, California contends that the El Centro Sector Project 1 is likely to harm federal and California endangered species such as the peninsular bighorn sheep and the flat-tailed horned lizard. The presence of these species led the USFWS, Bureau of Land
Management (“BLM”), California Department of Fish
and Wildlife, and California State Parks to develop and
implement the “Flat-Tailed Horned Lizard Rangewide
Management Strategy,” which imposes restrictions on
projects resulting in large-scale soil disturbances in the
project area and prohibits activities that restrict the lizards’ interchange with lizard populations across the border. Without the Section 102(c) waiver, this management strategy would impose certain restrictions and
mitigation measures on the border wall construction
projects.
Under New Mexico law, the Federal Defendants, absent the Section 102(c) waiver of the Clean Air Act’s requirements, would normally be required to comply with
New Mexico’s fugitive dust control rule and High Wind
Fugitive Dust Mitigation Plan that New Mexico adopted
under the Clean Air Act. See N.M. Admin. Code
§§ 20.2.23.109-.112 (mandating that “[n]o person . . .
shall cause or allow visible emissions from fugitive dust
sources that: pose a threat to public health; interfere
with public welfare, including animal or plant injury or
damage, visibility or the reasonable use of property”
and “[e]very person subject to this part shall utilize one
or more control measures . . . as necessary to meet

97a
the requirements of [this section]”). The waiver, however, prevents New Mexico from enforcing these air
quality rules.
New Mexico further contends that, absent the Section 102(c) waiver, the Federal Defendants would also
normally be required to consult with the USFWS to protect species such as the Mexican wolf that are endangered under both federal and New Mexico Law. Moreover, the USFWS’s management plan for the species—
the “Mexican Wolf Recovery Plan-First Revision”—
which is designed to “facilitate the wolf ’s revival,” “calls
for a minimum of 320 wolves in the United States and
200 in Mexico to meet recovery goals.” The “binational
recovery strategy” of this plan was developed by the
USFWS “in coordination with federal agencies in Mexico and state, federal, and Tribal agencies in the United
States,” and “[e]ffective recovery requires participation
by multiple parties within Federal, state, and local governments.”
USFWS, MEXICAN WOLF RECOVERY
PLAN-FIRST REVISION at 10, 16 (2017). Construction
undermines this plan because it inhibits the “utilization
of habitat” and does not promote “meta-population connectivity.”
The Section 102(c) waiver likewise prevents New
Mexico from enforcing its Wildlife Corridors Act. Portions of El Paso Project 1 cross New Mexico State Trust
Lands, and New Mexico contends that the planned
pedestrian fencing disrupts habitat corridors in New
Mexico—contravening to the Wildlife Corridors Act.
The Act “requires New Mexico state agencies to create
a ‘wildlife corridors action plan’ to protect species’ habitat.” New Mexico further avers that New Mexico’s
State Trust Lands in and around the El Paso Project 1

98a
site form an important wildlife corridor for numerous
species such as mule deer, javelina, pronghorn, bighorn
sheep, mountain lion, bobcat, coyote, bats, quail, and
other small game like rabbits.
In sum, we conclude that California and New Mexico
have each provided sufficient evidence which, if taken as
true, would allow a reasonable fact-finder to conclude
that they have both suffered injuries in fact to their sovereign interests.
B
Turning to the causation requirement, we conclude
that California has alleged environmental and sovereign
injuries “fairly traceable” to the Federal Defendants’
conduct. To satisfy this requirement, California and
New Mexico “need not show that [Section 8005 is] ‘the
very last step in the chain of causation.’ ” Ass’n of Pub.
Agency Customers v. Bonneville Power Admin., 733
F.3d 939, 953 (9th Cir. 2013) (quoting Bennett v. Spear,
520 U.S. 154, 169 (1997)). “A causal chain does not fail
simply because it has several ‘links,’ provided those
links are ‘not hypothetical or tenuous’ and remain ‘plausib[le].’ ” Maya v. Centex Corp., 658 F.3d 1060, 1070
(9th Cir. 2011) (quoting Nat’l Audubon Soc., Inc. v. Davis, 307 F.3d 835, 849 (9th Cir. 2002)).
With respect to most of the environmental injuries,
causation is apparent—for instance, as explained above,
the construction and presence of the border wall will
separate the peninsular bighorn sheep and Mexican wolf
populations, decreasing biodiversity, and harming these
species.
Although slightly more attenuated, we also conclude
that the causation requirement is likewise satisfied

99a
for the injuries to California’s and New Mexico’s quasisovereign interests. It makes no difference that the
Section 102(c) waiver is most directly responsible for
these injuries because without Section 8005, there is no
waiver. That is, without the Section 8005 funding to
construct El Centro Sector Project 1 and El Paso Sector
Project 1, there would be no basis to invoke Section
102(c), and therefore, no resulting harm to California’s
and New Mexico’s sovereign interests. Thus, we conclude that these injuries too are fairly traceable to the
Section 8005 transfers of funds.
C
A ruling in California and New Mexico’s favor would
redress their harms. Without the Section 8005 funds,
DoD had inadequate funding to finance construction of
these projects; presumably, without this funding, construction of El Centro Sector Project 1 and El Paso Sector Project 1 would cease. This would prevent both the
environmental injuries and the sovereign injuries alleged.
Thus, these facts would allow a reasonable fact-finder
to conclude that, if funds are diverted to construct border wall projects in the El Centro and El Paso Sectors,
California and New Mexico will each suffer environmental and quasi-sovereign injuries in fact that are fairly
traceable to the challenged conduct of the Federal Defendants and likely to be redressed by a favorable judicial decision. California and New Mexico have established the requisite Article III standing to challenge the
Federal Defendants’ actions.

100a

IV
The Federal Defendants argue that California and
New Mexico lack the right to challenge the transfer of
funds under the APA. We disagree. 12
The APA provides for judicial review of “final agency
action for which there is no other adequate remedy in a
court.” 5 U.S.C. § 704. Where a statute imposes obligations on a federal agency but the obligations do not
“give rise to a ‘private’ right of action against the federal
government[,] [a]n aggrieved party may pursue its remedy under the APA.” San Carlos Apache Tribe v.
United States, 417 F.3d 1091, 1099 (9th Cir. 2005). California and New Mexico must, however, establish that
they fall within the zone of interests of the relevant statute to bring an APA claim. See Match-E-Be-Nash-SheWish Band of Pottawatomi Indians v. Patchak, 567
U.S. 209, 224 (2012) (“This Court has long held that a
person suing under the APA must satisfy not only Article III’s standing requirements, but an additional test:
The interest he asserts must be ‘arguably within the
zone of interests to be protected or regulated by the
statute’ that he says was violated.” (quoting Ass’n of
The States argue that they have both an equitable ultra vires
cause of action and a cause of action under the APA. Although each
of the claims can proceed separately, see Navajo Nation v. Dep’t of
the Interior, 876 F.3d 1144, 1170 (9th Cir. 2017), we do not need to
address the ultra vires claims here. The States seek the same
scope of relief under both causes of action and they prevail under the
APA.
12

101a
Data Processing Serv. Org., Inc. v. Camp, 397 U.S. 150,
153 (1970))).
Section 8005 does not confer a private right of action.
Instead, it delegates a narrow slice of Congress’s appropriation power to DoD to allow the agency to respond
flexibly to unforeseen circumstances implicating the national interest. In doing so, the statute imposes certain
obligations upon DoD—i.e., DoD cannot invoke Section
8005 unless there is an unforeseen military requirement
and unless Congress did not previously deny the item
requested. California and New Mexico argue that DoD
did not satisfy these obligations. We agree. Therefore, as aggrieved parties, California and New Mexico
may pursue a remedy under the APA, so long as they
fall within Section 8005’s zone of interests.
As a threshold matter, Section 8005 is the relevant
statute for the zone of interests test. “Whether a plaintiff ’s interest is ‘arguably . . . protected . . . by
the statute’ within the meaning of the zone-of-interests
test is to be determined not by reference to the overall
purpose of the Act in question . . . but by reference
to the particular provision of law upon which the plaintiff relies.” Bennett, 520 U.S. at 175-76 (emphasis
added). Here, for purposes of their APA claim, California and New Mexico rely on Section 8005’s limitations.
Thus, Section 8005 is the relevant statute for the zone of
interests test.
The Supreme Court has clarified that, in the APA
context, the zone of interests test does “not require any
‘indication of congressional purpose to benefit the wouldbe plaintiff.’ ” Patchak, 567 U.S. at 225 (quoting Clarke
v. Sec. Indus. Ass’n, 479 U.S. 388, 399-400 (1987)). It
has repeatedly emphasized that the zone of interests

102a
test is “not ‘especially demanding’ ” in the APA context.
Lexmark Int’l, Inc. v. Static Control Components, Inc.,
572 U.S. 118, 130 (2014) (quoting Patchak, 567 U.S. at
225). Instead, for APA challenges, a plaintiff can satisfy the test in either one of two ways: (1) “if it is among
those [who] Congress expressly or directly indicated
were the intended beneficiaries of a statute,” or (2) “if it
is a suitable challenger to enforce the statute—that is, if
its interests are sufficiently congruent with those of the
intended beneficiaries that the litigants are not more
likely to frustrate than to further . . . statutory objectives.” Scheduled Airlines Traffic Offices, Inc. v.
Dep’t of Def., 87 F.3d 1356, 1359 (D.C. Cir. 1996) (alterations in original) (quotations and citations omitted).
“The test forecloses suit only when a plaintiff ’s ‘interests are so marginally related to or inconsistent with the
purposes implicit in the statute that it cannot reasonably
be assumed that Congress intended to permit the suit.’ ”
Patchak, 567 U.S. at 225 (quoting Clarke, 479 U.S. at
399). “We apply the test in keeping with Congress’s
‘evident intent’ . . . ‘to make agency action presumptively reviewable[,]’ ” and note that “the benefit of any
doubt goes to the plaintiff.” Id. (quoting Clarke, 479
U.S. at 399).
In enacting Section 8005, Congress primarily intended to benefit itself and its constitutional power to
manage appropriations. The obligations imposed by
the section limit the scope of the authority delegated to
DoD, reserving to Congress in most instances the power
to appropriate funds to particular DoD accounts for specific purposes. This conclusion is reinforced by the legislative history. Congress first imposed limits on DoD’s
transfer authority in order to “tighten congressional

103a
control of the reprogramming process.” H.R. Rep. No.
93-662, at 16 (1973).
The field of suitable challengers must be construed
broadly in this context because, although Section 8005’s
obligations were intended to protect Congress, restrictions on congressional standing make it difficult for
Congress to enforce these obligations itself. See Goldwater v. Carter, 617 F.2d 697, 702 (D.C. Cir. 1979), vacated and remanded on other grounds, 44 U.S. 996
(1979) (explaining that a member of Congress has standing only if “the alleged diminution in congressional influence . . . amount[s] to a disenfranchisement, a
complete nullification or withdrawal of a voting opportunity”). Indeed, the House of Representatives filed its
own lawsuit in the U.S. District Court for the District of
Columbia challenging this same transfer of funds, but
the court held that the House lacked standing to sue.
See U.S. House of Reps. v. Mnuchin, 379 F. Supp. 3d 8,
11 (D.D.C. 2019) (“And while the Constitution bestows
upon Members of the House many powers, it does not
grant them standing to hale the Executive Branch into
court claiming a dilution of Congress’s legislative authority.”).
California and New Mexico are suitable challengers
because their interests are congruent with those of Congress and are not “inconsistent with the purposes implicit in the statute.” Patchak, 567 U.S. at 225. First,
this challenge actively furthers Congress’s intent to
“tighten congressional control of the reprogramming
process.” H.R. Rep. No. 93-662, at 16 (1973). In particular, this challenge furthers this intent because, even
though Section 8005 does not require formal congressional approval to reprogram funds, the congressional

104a
committees expressly disapproved of DoD’s use of the
authority here.
Second, California and New Mexico’s challenge
strives to reinforce the same structural constitutional
principle Congress sought to protect through Section
8005: congressional power over appropriations. See
U.S. Const. art. I, § 9, cl. 7 (“No Money shall be drawn
from the Treasury, but in Consequence of Appropriations made by Law. . . . ”); see also Office of Pers.
Mgmt. v. Richmond, 496 U.S. 414, 424 (1990) (explaining
that this “straightforward and explicit command” “ ‘means
simply that no money can be paid out of the Treasury
unless it has been appropriated by an act of Congress’ ”
(quoting Cincinnati Soap Co. v. United States, 301 U.S.
308, 321 (1937))). California and New Mexico’s interest
in reinforcing these structural separation of powers
principles is unique but aligned with that of Congress
because just as those principles are intended “to protect
each branch of [the federal] government from incursion
by the others,” the “allocation of powers in our federal
system [also] preserves the integrity, dignity, and residual sovereignty of the States,” because “[f]ederalism has
more than one dynamic.” Bond v. United States, 564
U.S. 211, 221-22 (2011). This interest applies with particular force here because the use of Section 8005 here
impacts California’s and New Mexico’s ability to enforce
their state environmental laws. See Massachusetts v.
EPA, 549 U.S. at 518-19 (“ ‘[T]he State has an interest
independent of and behind the titles of its citizens, in all
the earth and air within its domain. It has the last word
as to whether its mountains shall be stripped of their
forests and its inhabitants shall breathe pure air.’ ”
(quoting Tenn. Copper Co., 206 U.S. at 237)); see also

105a
Maine v. Taylor, 477 U.S. 131, 151 (1986) (“[A state] retains broad regulatory authority to protect the health
and safety of its citizens and the integrity of its natural
resources.”). Here, the use of Section 8005 allows the
government to invoke Section 102(c) of IIRIRA to waive
state environmental law requirements for purposes of
building the border wall. 13 Thus, Section 8005’s limitations protect California’s and New Mexico’s sovereign
interests, just as they protect Congress’s constitutional
interests, because they ensure that, ordinarily, Executive action cannot override these interests without congressional approval and funding. Therefore, just as
Section 8005’s limitations serve Congress to preserve
the “equilibrium the Constitution sought to establish—
so that ‘a gradual concentration of the several powers in
the same department,’ can effectively be resisted,” they
likewise serve California and New Mexico as well.
Morrison v. Olson, 487 U.S. 654, 699 (1988) (Scalia, J.,
dissenting) (quoting Federalist No. 51, p. 321 (J. Madison)).
Moreover, that the states regularly benefit from
DoD’s use of Section 8005 reinforces that California and
New Mexico’s interests are not “so marginally related”
that “it can[] reasonably be assumed that Congress intended to permit suit.” Patchak, 567 U.S. at 225. For
instance, in 2004 DoD invoked Section 8005 to transfer
funds to pay for storm damages incurred by airforce bases across Florida during Hurricane Charley. Office of
As we explained with respect to Article III standing, California
and New Mexico have provided sufficient evidence by declaration to
establish that they have suffered cognizable injuries to their sovereign interests and that this injury is fairly traceable to the Federal
Defendants’ use of Section 8005.
13

106a
the Under Sec’y of Def. (Comptroller), FY 04-37 PA, Reprogramming Action (2004). Likewise, in 2008 DoD invoked Section 8005 to finance costs incurred by the National Guard in responding to Hurricane Gustav in Louisiana, Texas, Mississippi, and Alabama, as well as operations related to Hurricane Ike in Texas and Louisiana.
Office of the Under Sec’y of Def. (Comptroller), FY
08-43 PA, Reprogramming Action (2008). The historical use of Section 8005 supports that states are “reasonable” and “predictable” challengers to its use, and this
instance is no anomaly. Patchak, 567 U.S. at 227.
For these reasons, California and New Mexico easily
fall within the zone of interests of Section 8005 and are
suitable challengers to enforce its obligations. We
therefore affirm the grant of summary judgment to the
States. To conclude otherwise would effectively hold
that no entity could fall within Section 8005’s zone of interests, and that no agency action taken pursuant to
Section 8005 could ever be challenged under the APA.
Such a conclusion is not tenable, and a result Congress
surely did not intend.
V
The district court correctly held that Section 8005 did
not authorize DoD’s budgetary transfer to fund construction of the El Paso and El Centro Sectors.
In construing a statute, we begin, as always, with the
language of the statute. UMG Recordings, Inc. v. Shelter Capital Partners LLC, 718 F.3d 1006, 1026 (9th Cir.
2013). “When terms are not defined within a statute,
they are accorded their plain and ordinary meaning,
which can be deduced through reference sources such as
general usage dictionaries.” Id. Of course, “[s]tatutory

107a
language must always be read in its proper context,” id.
(quotations and citation omitted), as courts must look to
the “design of the statute as a whole and to its object and
policy,” id. (quotations and citation omitted), and “the
words of a statute must be read in their context and with
a view to their place in the overall statutory scheme,”
Home Depot U.S.A., Inc. v. Jackson, 139 S. Ct. 1743,
1748 (2019) (quotations and citation omitted).
Section 8005’s transfer authority cannot be invoked
“unless for higher priority items, based on unforeseen
military requirements, than those for which originally
appropriated and in no case where the item for which
funds are requested has been denied by the Congress.”
Two limitations are important to our analysis: (1) that
the transfer must be “based on unforeseen military requirements,” and (2) that the transfer authority cannot
be invoked if the “item for which funds are requested
ha[d] been denied by the Congress.” We conclude that
the district court correctly determined that the border
wall was not an unforeseen military requirement, that
funding for the wall had been denied by Congress, and
therefore, that the transfer authority granted by Section 8005 was not permissibly invoked.
A
Section 8005 authorizes the transfer of funds only in
response to an “unforeseen military requirement.”
The district court properly concluded that the need for
a border wall was not unforeseen. We also conclude
that the need was unrelated to a military requirement.
1
Section 8005 does not define “unforeseen.” Therefore, we start by considering the ordinary meaning of

108a
the word. Something is unforeseen when it is “not anticipated or expected.” Unforeseen, MERRIAM-WEBSTER
ONLINE DICTIONARY (2020). By contrast, to foresee is
“to see (something, such as a development) beforehand.”
Foresee, MERRIAM-WEBSTER ONLINE DICTIONARY
(2020) (emphasis added). Prior use of this authority
confirms this meaning. Previously, DoD has invoked
its Section 8005 authority to transfer funds to repair hurricane and typhoon damage to military bases— natural
disasters that inflict damage that may not be anticipated
or expected ahead of time. We conclude that an unforeseen requirement is one that DoD did not anticipate or
expect.
Neither the problem, nor the President’s purported
solution, was unanticipated or unexpected here. The
smuggling of drugs into the United States at the southern border is a longstanding problem. U.S. CUSTOMS
AND BORDER PATROL, BORDER PATROL HISTORY, https://
www.cbp.gov/border-security/along-us-borders/history
(last visited June 16, 2020) (“By [the early 1960’s] the
business of alien smuggling began to involve drug smuggling also. The Border Patrol assisted other agencies
in intercepting illegal drugs from Mexico.”); United
States v. Flores-Montano, 541 U.S. 149, 153 (2004) (“That
interest in protecting the borders is illustrated in this
case by the evidence that smugglers frequently attempt
to penetrate our borders with contraband secreted in
their automobiles’ fuel tank. Over the past 5 1/2 fiscal
years, there have been 18,788 vehicle drug seizures at
the southern California ports of entry.”). Indeed, the
federal Drug Enforcement Administration was created
over four decades ago in 1974 in large part to address
the smuggling of illegal drugs into the United States.

109a
See Reorganization Plan No. 2 of 1973, 87 Stat. 1091, as
amended Pub. L. 93-253, § 1, 88 Stat. 50 (1974).
Congress’s joint resolution terminating the President’s declaration of a national emergency only reinforces this point: there was no unanticipated crisis at
the border. Nothing prevented Congress from funding
solutions to this problem through the ordinary appropriations process—Congress simply chose not to fund this
particular solution.
The long, well-documented history of the President’s
efforts to build a border wall demonstrates that he
considered the wall to be a priority from the earliest
days of his campaign in 2015. See, e.g., Here’s Donald
Trump’s Presidential Announcement Speech, TIME
(June 16, 2015) (“I would build a great wall . . . I will
build a great, great wall on our southern border.”);
Transcript of Donald Trump’s Immigration Speech,
NEW YORK TIMES (Sept. 1, 2016) (“On day one, we will
begin working on an impenetrable, physical, tall, power,
beautiful southern border wall.”). Moreover, his repeated pronouncements on the subject made clear that
federal agencies like DoD might be tasked with the
wall’s funding and construction. Congress’s repeated
denials of funding only drew national attention to the issue and put agencies on notice that they might be asked
to finance construction. See Securing America’s Future Act of 2018, H.R. 4760, 115th Cong. § 1111 (2018);
Border Security and Immigration Reform Act of 2018,
H.R. 6136, 115th Cong. § 5101 (2018); American Border
Act, H.R. 6415, 115th Cong. § 4101 (2018); Fund and
Complete the Border Wall Act, H.R. 6657, 115th Cong.
§ 2 (2018); Build the Wall, Enforce the Law Act of 2018,
H.R. 7059, 115th Cong. § 9 (2018); 50 Votes for the Wall

110a
Act, H.R. 7073, 115th Cong. § 2 (2018); WALL Act of
2018, S. 3713, 115th Cong. § 2 (2018). In short, neither
the conditions at the border nor the President’s position
that a wall was needed to address those conditions was
unanticipated or unexpected by DoD.
The Federal Defendants’ arguments to the contrary
are unpersuasive. They assert that “an agency’s request” “will be foreseen” only “when it is received by
DoD in time to include in the submission to Congress
[for the yearly budget],” and that therefore, the transfer
at issue here complied with the text of the statute. (emphasis added). There are two problems with the Federal Defendants’ position.
First, Section 8005 permits transfers based only on
unforeseen military requirements—not unforeseen budgetary requests. A requirement that gives rise to a funding request is distinct from the request itself. Here,
the requirement that gave rise to the Section 284 requests is a border wall. Thus, to invoke the statute, the
need for a border wall must have been unforeseen. To
hold otherwise—i.e., to conclude that transfers are permitted under Section 8005 if they are based on unforeseen budgetary requests—would undermine the narrowness of the statute and potentially encourage DoD
and other agencies to submit budgetary requests after
DoD has submitted its final budget to Congress in order
to skirt the congressional appropriations process. This
result is inconsistent with the purpose of Section 8005:
to “tighten congressional control of the reprogramming
process.” H.R. Rep. No. 93-662, at 16 (1973). If this
interpretation prevailed, the exception would swallow
the rule and undermine Congress’s constitutional appropriations power.

111a
Second, even if we were to accept the government’s
definition of “requirement” as equivalent to “request,”
DHS’s specific Section 284 requests were both anticipated and expected, even within the confines of the appropriations context. Nearly six months before the enactment of the 2019 DoD Appropriations Act, the President wrote the following in a memorandum to the Secretary of Defense, the Attorney General, and the Secretary of Homeland Security: “The Secretary of Defense
shall support the Department of Homeland Security in
securing the southern border and taking other necessary actions to stop the flow of deadly drugs and other
contraband . . . into this country.” Further, in a response to a request for information from the House
Armed Services Committee, DoD wrote that the “DoD
Comptroller with[held] over 84% ($947 million) of [counterdrug] appropriated funds for distribution until the 4th
Quarter for possible use in supporting Southwest Border construction last fiscal year.” As explained by the
Staff Director of the House Armed Services Committee,
this “suggests that DoD was considering using its counterdrug authority under 10 U.S.C. § 284 for southern border construction in early 2018.” Further still, because
Section 284 only allows DoD to provide support that is
requested by other agencies, DoD’s retention of funds
suggests it likely anticipated such a request. See 10
U.S.C. § 284(a)(1) (“The Secretary of Defense may provide support . . . if . . . such support is requested.”).
The Federal Defendants also unpersuasively equate
“foreseen” with “known.” “[T]o know” means “to perceive
directly: have direct cognition of.” Know, MERRIAMWEBSTER ONLINE DICTIONARY (2020). This interpretation effectively eliminates any element of anticipation

112a
or expectation. “ ‘Congress’ choice of words is presumed to be deliberate’ and deserving of judicial respect.” SAS Inst., Inc. v. Iancu, 138 S. Ct. 1348, 1355
(2018) (quoting Univ. of Tex. Sw. Med. Ctr. v. Nassar,
570 U.S. 338, 353 (2013)). Thus, we must presume that
Congress’s use of the word “unforeseen” is deliberate.
Congress could have easily specified that a transfer is
permitted only when based on “unknown” requirements,
but it did not. Instead, Congress specified that Section
8005 permits a transfer only where a requirement was
unforeseen—i.e., unanticipated or unexpected. We decline to read into the text a lower standard based on actual knowledge. 14
In sum, both the requirement to build a wall on the
southern border as well as the DHS request to DoD to
build that wall were anticipated and expected. Thus,
neither was “unforeseen” within the meaning of Section
8005.
2
Section 8005 not only mandates that the requirement
be unforeseen, but also that it be a military requirement. Under relevant definitions, the construction of
El Centro and El Paso projects does not satisfy any definition of a “military requirement.”
The 2019 Appropriations Act does not define “military.” Therefore, we start by considering its ordinary
Indeed, in DoD parlance, the possibility that border funding
from the DoD budget might be requested was a “known unknown,”
as opposed to “unforeseeable,” which would be an “unknown unknown,” a category which former Secretary of Defense Rumsfeld described as including a “genuine surprise.” DONALD RUMSFELD,
KNOWN AND UNKNOWN: A MEMOIR, p. xiv. (2011).
14

113a
meaning: “of or relating to soldiers, arms, or war.”
Military, MERRIAM-WEBSTER ONLINE DICTIONARY
(2020). The border wall construction projects here
plainly fail to satisfy this definition because the Federal
Defendants have argued neither that the border wall
construction projects are related to the use of soldiers
or arms, nor that there is a war on the southern border.
The administrative record underscores this point,
and supports that the border wall construction projects
are not military ones. The record demonstrates that
the diverted funding is primarily intended to support
DHS—a civilian agency entirely separate from any
branch of the armed forces. The Assistant Secretary of
Defense stated that the funds were transferred “to provide assistance to DHS to construct fencing to block
drug-smuggling corridors in three project areas along
the southern border of the United States.” He also explained that the purpose of the transfer was to “support
DHS’s efforts to secure the southern border.” By contrast, the transfer of funds for border wall construction
does little to assist DoD with any of its operations.
Even to the extent it might, it does so only insofar as it
helps DoD assist DHS: as summarized by the Chairman of the Joint Chiefs of Staff and DHS, border wall
projects “allow DoD to provide support to DHS more efficiently and effectively.” (emphasis added). In short,
the fact that construction is intended to support a civilian agency, as opposed to DoD itself or any branch of
the armed forces, emphasizes that the transfer fails to
meet the plain meaning of “military.”
The border wall construction projects do not even
satisfy a statutory definition specifically invoked by the
Federal Defendants. See also WILLIAM N. ESKRIDGE

114a
ET AL.,

LEGISLATION AND STATUTORY INTERPRETATION
273 (2d ed. 2006) (“A word or clause that is ambiguous
at first glance might be clarified if ‘the same terminology is used elsewhere in a context that makes its meaning clear’ ” and such coherence arguments may be invoked “across as well as within statutes” (quoting
United Savings Ass’n of Tex. v. Timbers of Inwood Forest Assocs., Ltd., 484 U.S. 365, 371 (1988))).
The Federal Defendants have also invoked 10 U.S.C.
§ 2808 (“Section 2808”) to fund other border wall construction projects on the southern border. Section
2808 incorporates the definition of “military construction” provided by 10 U.S.C. § 2801(a): it defines “military construction” as construction associated with a
“military installation” or “defense access road.” Section 2801(c)(4) further defines “military installation” as
“a base, camp, post, station, yard, center, or other activity under the jurisdiction of the Secretary of a military
department.” 15

To be sure, Section 8005 states that it applies only to transfers
between appropriations for “military functions,” as opposed to the
phrase “military construction” used in Section 2808. However, the
statutes address similar subject matter, and it is of some significance
that the Federal Defendants have invoked Section 2808 for functionally identical projects, claiming that such projects constitute “military construction” within the meaning of that statute, while also asserting that such projects satisfy the term “military” within the
meaning of Section 8005. And, as we know, “ ‘statutes addressing the
same subject matter’ should be construed in pari materia.” Fed.
Trade Comm’n v. AMG Capital Mgmt., LLC, 910 F.3d 417, 433 n.2
(9th Cir. 2018) (O’Scannlain, J., concurring) (quoting Wachovia
Bank v. Schmidt, 546 U.S. 303, 315 (2006)). Under that doctrine,
related statutes should “be construed as if they were one law.” Erlenbaugh v. United States, 409 U.S. 239, 243 (1972) (quotations and
15

115a
The border wall construction projects at issue in this
appeal are not carried out with respect to a “military installation.” The projects themselves are not a base,
camp, station, yard, or center, and unlike the projects
considered by the Federal Defendants’ related Section
2808 appeal, the projects at issue in this appeal have not
been brought under military jurisdiction. Moreover,
there are no military installations in the El Centro or El
Paso project areas, nor any claim of a requirement for a
defense access road; instead, as we have noted, the projects affect open wilderness areas—the El Centro Sector project involves the Jacumba Wilderness areas, and
the El Paso Sector project involves the Chihuahuan desert. The fact that the construction projects fail to
meet Section 2808’s definition of military construction
supports that these projects fail to satisfy any meaningful definition of “military.”
Even if we were to afford some consideration to the
subchapter title for Section 284 authorizing “Military
Support for Civilian Law Enforcement Agencies,” there
is a distinction to be drawn between “military support,”
and what the statute requires: a “military requirement.”
Requirement ordinarily means “something wanted or
needed,” or “something essential to the existence or occurrence of something else.” Requirement, MERRIAMWEBSTER ONLINE DICTIONARY (2020). The border
wall construction projects are not something needed or
essential to the armed forces, soldiers, arms, or any sort
citation omitted). Further, even apart from in pari material considerations, the Supreme Court “has previously compared nonanalogous statutes to aid its interpretation of them.” Nat’l Fed’n of
Fed. Emps., Local 1309 v. Dep’t of Interior, 526 U.S. 86, 105 (1999)
(O’Connor, J., dissenting) (citing Overstreet v. North Shore Corp.,
318 U.S. 125, 131-32 (1943)).

116a
of war effort. Rather, as explained above, they are designed to “provide assistance” and “support” to DHS, a
civilian agency. While providing such support may be
appropriate under Section 284, a request for this support without connection to any military function fails to
rise to the level of a military requirement for purposes
of Section 8005. Simply because a civilian agency requests support in furtherance of a particular objective,
even when such support is authorized by statute, does
not mean that the military itself requires that objective.
To conclude that supporting projects unconnected to
any military purpose or installation satisfies the meaning of “military requirement” would effectively write the
term out of Section 8005. Therefore, we conclude that
the transfers at issue here do not satisfy Section 8005’s
military purpose requirement.
B
In addition, Section 8005 authorizes the transfer of
funds only when “the item for which funds are requested
has [not] been denied by the Congress.” The question
here is whether by declining to provide sufficient funding for the border wall, Congress denied the item for
which funds were requested within the meaning of the
statute.
As we have explained, Congress declined to fund the
border wall numerous times in a variety of ways. Congress failed to pass seven different bills, see supra at 3738, that were proposed specifically to fund the wall.
Congress also refused to appropriate the $5.7 billion requested by the White House in the CAA; instead, Congress appropriated $1.375 billion, less than a quarter of
the funds requested, for “the construction of primary

117a
pedestrian fencing . . . in the Rio Grande Valley Sector.” CAA at § 230(a)(1).
The Federal Defendants assert that the Section 8005
transfer would be invalid only if Congress had denied a
Section 284 budgetary line item request to fund the border wall. But “[i]n common usage, a general denial of
something requested can, and in this case does, encompass more specific or narrower forms of that request.”
Sierra Club v. Trump, 929 F.3d 670, 691 (9th Cir. 2019).
Here, Congress refused to provide the funding requested by the President for border wall construction:
a general denial. This general denial necessarily encompasses narrower forms of denial—such as the denial
of a Section 284 budgetary line item request. We decline to impose upon Congress an obligation to deny every
possible source of funding when it refuses to fund a particular project—surely when Congress withheld additional funding for the border wall, it intended to withhold additional funding for the wall, regardless of its
source. “No” means no.
To hold that Congress did not previously deny the
Executive Branch’s request for funding to construct a
border wall would be to “find secreted in the interstices
of legislation the very grant of power which Congress
consciously withheld.” Youngstown Sheet & Tube Co.
v. Sawyer, 343 U.S. 579, 609 (1952) (Frankfurter, J., concurring). Regardless of how specific a denial may be in
some circumstances, Congress’s broad and resounding
denial resulting in a 35-day partial government shutdown must constitute a previous denial for purposes of
Section 8005. This history precludes the use of Section
8005’s transfer authority.

118a
C
In sum, Section 8005 did not authorize the transfer of
funds challenged by California and New Mexico. Absent such statutory authority, the Executive Branch
lacked independent constitutional authority to transfer
the funds at issue here. See City and Cty. of San Francisco v. Trump, 897 F.3d 1225, 1233-34 (9th Cir. 2018)
(“[W]hen it comes to spending, the President has none
of ‘his own constitutional powers’ to ‘rely’ upon.” (quoting Youngstown, 343 U.S. at 637 (Jackson, J., concurring))). Therefore, the transfer of funds at issue here
was unlawful. We affirm the district court’s declaratory judgment to California and New Mexico.
VI
Finally, we consider the district court’s denial of California and New Mexico’s request for injunctive relief, a
decision we review for an abuse of discretion. See
Midgett v. Tri-Cty. Metro. Transp. Dist. of Or., 254 F.3d
846, 849 (9th Cir. 2001). The district court denied the
States’ request for a permanent injunction primarily because the relief sought was duplicative of the relief the
district court had already granted in the Sierra Club
matter. That decision, which is the only one before us
in this appeal, was certainly not an abuse of discretion.
As we have noted, however, subsequent to the district
court’s decision, the Supreme Court stayed the Sierra
Club permanent injunction. See Sierra Club, 140 S. Ct.
at 1.
Nevertheless, given the totality of the considerations
at issue in this case, we continue to see no abuse of discretion in the district court’s order, even though at this
moment, the injunction in Sierra Club no longer affords

119a
the States protection. We emphasize, however, that
depending on further developments in these cases, the
States are free to seek further remedies in the district
court or this Court.
VII
In sum, we affirm the district court. We conclude
that California and New Mexico have Article III standing to file their claims, that California and New Mexico
are sufficiently within Section 8005’s zone of interests to
assert an APA claim, and that the Federal Defendants
violated Section 8005 in transferring DoD appropriations to fund the El Centro and El Paso Sectors of the
proposed border wall. We also decline to reverse the
district court’s decision against imposing a permanent
injunction, without prejudice to renewal. Given our
resolution of this case founded upon the violations of
Section 8005, we need not—and do not—reach the merits of any other theory asserted by the States, nor reach
any other issues presented by the parties.
AFFIRMED.

COLLINS, Circuit Judge, dissenting:
In the judgment under review, the district court
granted summary judgment and declaratory relief to
California and New Mexico on their claims challenging
the Acting Secretary of Defense’s invocation of § 8005
and § 9002 of the Department of Defense Appropriations
Act, 2019 (“DoD Appropriations Act”), Pub. L. No. 115245, Div. A, 132 Stat. 2981, 2999, 3042 (2018), to transfer
$2.5 billion in funds that Congress had appropriated for
other purposes into a different Department of Defense
(“DoD”) appropriation that could then be used by DoD

120a
for construction of border fencing and accompanying
roads and lighting. The States allege that the transfers
were not authorized under § 8005 and § 9002 and that,
as a result of the construction activities made possible
by the unlawful transfers, the States have suffered injuries to their sovereign and environmental interests.
The majority concludes that the States have Article III
standing; that they have a cause of action to challenge
the transfers under the Administrative Procedure Act
(“APA”); that the transfers were unlawful; and that the
district court properly determined that the States are
not entitled to any relief beyond a declaratory judgment.
I agree that at least California has established Article
III standing, but in my view the States lack any cause of
action to challenge the transfers, under the APA or otherwise. And even assuming that they had a cause of action, I conclude that the transfers were lawful. Accordingly, I would reverse the district court’s partial judgment for the States and remand for entry of partial summary judgment in favor of the Defendants. I respectfully dissent.
I

The parties’ dispute over DoD’s funding transfers
comes to us against the backdrop of a complex statutory
framework and an equally complicated procedural history. Before turning to the merits, I will briefly review
both that framework and that history.
A

Upon request from another federal department, the
Secretary of Defense is authorized to “provide support
for the counterdrug activities” of that department by
undertaking the “[c]onstruction of roads and fences and

121a
installation of lighting to block drug smuggling corridors across international boundaries of the United
States.” 10 U.S.C. § 284(a), (b)(7). On February 25,
2019, the Department of Homeland Security (“DHS”)
made a formal request to DoD for such assistance.
Noting that its counterdrug activities included the construction of border infrastructure, see Illegal Immigration Reform and Immigrant Responsibility Act of 1996
(“IIRIRA”), Pub. L. No. 104-208, Div. C, § 102(a), 110
Stat. 3009-546, 3009-554 (1996) (codified as amended as
a note to 8 U.S.C. § 1103), DHS requested that “DoD,
pursuant to its authority under 10 U.S.C. § 284(b)(7), assist with the construction of fences[,] roads, and lighting” in several specified “Project Areas” in order “to
block drug-smuggling corridors across the international
boundary between the United States and Mexico.”
On March 25, 2019, the Acting Defense Secretary invoked § 284 and approved the provision of support for,
inter alia, DHS’s “El Paso Sector Project 1,” which
would involve DoD construction of border fencing,
roads, and lighting in Luna and Doña Ana Counties in
New Mexico. Thereafter, the Secretary of Homeland
Security invoked his authority under § 102(c) of IIRIRA
to waive a variety of federal environmental statutes with
respect to the planned construction of border infrastructure in the El Paso Sector, as well as “all . . . state
. . . laws, regulations, and legal requirements of, deriving from, or related to the subject of,” those federal
laws. See 84 Fed. Reg. 17185, 17187 (Apr. 24, 2019).
Subsequently, on May 9, 2019, the Acting Defense
Secretary again invoked § 284, this time to approve
DoD’s construction of similar border infrastructure to
support, inter alia, DHS’s “El Centro Sector Project 1”

122a
in Imperial County, California. Less than a week later,
the Secretary of Homeland Security again invoked his
authority under IIRIRA § 102(c) to waive federal and
state environmental laws, this time with respect to the
construction in the relevant section of the El Centro
Sector. See 84 Fed. Reg. 21800, 21801 (May 15, 2019).
Although § 284 authorized the Acting Defense Secretary to provide this support, there were insufficient
funds in the relevant DoD appropriation to do so. Specifically, for Fiscal Year 2019, Congress had appropriated for “Drug Interdiction and Counter-Drug Activities, Defense” a total of only $670,271,000 that could be
used for counter-drug support. See DoD Appropriations Act, Title VI, 132 Stat. at 2997 (appropriating, under Title governing “Other Department of Defense Programs,” a total of “$881,525,000, of which $517,171,000
shall be for counter-narcotics support”); id., Title IX,
132 Stat. at 3042 (appropriating $153,100,000 under the
Title governing “Overseas Contingency Operations”).
Accordingly, to support the El Paso Sector Project 1,
the Acting Secretary on March 25, 2019 invoked his authority to transfer appropriations under § 8005 of the
DoD Appropriations Act and ordered the transfer of $1
billion from “excess Army military personnel funds”
into the “Drug Interdiction and Counter-Drug Activities, Defense” appropriation. That transfer was accomplished by moving $993,627,000 from the “Military
Personnel, Army” appropriation and $6,373,000 from
the “Reserve Personnel, Army” appropriation.
To support the El Centro Sector Project 1, the Acting
Secretary on May 9, 2019 again invoked his transfer authority to move an additional $1.5 billion into the “Drug

123a
Interdiction and Counter-Drug Activities, Defense” appropriation. Pursuant to § 8005 of the DoD Appropriations Act, DoD transferred a total of $818,465,000 from
12 different DoD appropriations into the “Drug Interdiction and Counter-Drug Activities, Defense” appropriation. Invoking the Secretary’s distinct but comparable authority under § 9002 to transfer funds appropriated under the separate Title governing “Overseas Contingency Operations,” DoD transferred $604,000,000
from the “Afghanistan Security Forces Fund” appropriation and $77,535,000 from the “Operation and Maintenance, Defense-Wide” appropriation into the “Drug Interdiction and Counter-Drug Activities, Defense” appropriation.
B

The complex procedural context of this case involves
two parallel lawsuits and four appeals to this court, and
it has already produced one published Ninth Circuit
opinion that was promptly displaced by the Supreme
Court.
1

California and New Mexico, joined by several other
States, filed this action in the district court against the
Acting Defense Secretary, DoD, and a variety of other
federal officers and agencies. In their March 13, 2019
First Amended Complaint, they sought to challenge, inter alia, any transfer of funds by the Acting Secretary
under § 8005 or § 9002. The Sierra Club and the Southern Border Communities Coalition (“SBCC”) filed a similar action, and their March 18, 2019 First Amended
Complaint also sought to challenge any such transfers.
Both sets of plaintiffs moved for preliminary injunctions

124a
in early April 2019. The portion of the States’ motion
that was directed at the § 8005 transfers was asserted
only on behalf of New Mexico and only with respect to
the construction on New Mexico’s border (i.e., El Paso
Sector Project 1). The Sierra Club motion was likewise
directed at El Paso Sector Project 1, but it also challenged two other projects in Arizona (“Yuma Sector
Projects 1 and 2”).
After concluding that the Sierra Club and SBCC
were likely to prevail on their claims that the transfers
under § 8005 were unlawful and that these organizational plaintiffs had demonstrated a “likelihood of irreparable harm to their members’ aesthetic and recreational interests,” the district court on May 24, 2019
granted a preliminary injunction enjoining Defendants
from using transferred funds for “Yuma Sector Project
1 and El Paso Sector Project 1.” 1 In a companion order, however, the district court denied preliminary injunctive relief to the States. Although the court held
that New Mexico was likely to succeed on its claim that
the transfers under § 8005 were unlawful, the court concluded that, in light of the grant of a preliminary injunction against El Paso Sector Project 1 to the Sierra Club
and SBCC, New Mexico would not suffer irreparable
harm from the denial of its duplicative request for such
relief. On May 29, 2019, Defendants appealed the preliminary injunction in favor of the Sierra Club and
SBCC, and after the district court refused to stay that

By the time the district court ruled, DoD had decided not to use
funds transferred under § 8005 for any construction in Yuma Sector
Project 2, and so the request for a preliminary injunction as to that
project was moot.
1

125a
injunction, Defendants moved in this court for an emergency stay on June 3, 2019. New Mexico did not appeal
the district court’s denial of its duplicative request for a
preliminary injunction.
2

While the Defendants’ emergency stay request was
being briefed and considered in this court, California
and New Mexico (but not the other States) moved for
partial summary judgment on June 12, 2019. The motion was limited to the issue of whether the transfers under § 8005 and § 9002 were lawful, and it requested corresponding declaratory relief, as well as a permanent injunction against the use of transferred funds for El Paso
Sector Project 1 and El Centro Sector Project 1. The
Sierra Club and SBCC filed a comparable summary
judgment motion that same day, directed at those two
projects, as well as at Yuma Sector Project 1 and three
other Arizona projects (“Tucson Projects 1, 2, and 3”).
Defendants filed cross-motions for summary judgment
on the legality of the transfers under § 8005 and § 9002
with respect to the corresponding projects at issue in
each case.
On June 28, 2019, the district court granted partial
summary judgment and declaratory relief to both sets
of plaintiffs, concluding that the transfers under § 8005
and § 9002 were unlawful. The court granted permanent injunctive relief to the Sierra Club and SBCC
against all six projects, but it denied any such relief to
California and New Mexico. The district court concluded that California and New Mexico had failed to
prove a threat of future demonstrable environmental
harm. The court expressed doubts about the States’ alternative theory that they had demonstrated injury to

126a
their sovereign interests, but the court ultimately concluded that it did not need to resolve that issue. As before, the district court instead held that California and
New Mexico would not suffer any irreparable harm in
light of the duplicative relief granted to the Sierra Club
and SBCC. The district court denied Defendants’
cross-motions for summary judgment in both cases.
Invoking its authority under Federal Rule of Civil Procedure 54(b), the district court entered partial judgments in favor of, respectively, the Sierra Club and
SBCC, and California and New Mexico. The district
court denied Defendants’ request to stay the permanent
injunction pending appeal.
3

On June 29, 2019, Defendants timely appealed in both
cases and asked this court to stay the permanent injunction in the Sierra Club case based on the same briefing
and argument that had been presented in the preliminary injunction appeal in that case. California and New
Mexico timely cross-appealed nine days later. On July
3, 2019, this court consolidated Defendants’ appeal of
the judgment and permanent injunction in the Sierra
Club case with Defendants’ pending appeal of the preliminary injunction. 2 That same day, a motions panel
of this court issued a 2-1 published decision denying Defendants’ motion for a stay of the permanent injunction
(which had overtaken the preliminary injunction). See
Sierra Club v. Trump, 929 F.3d 670 (9th Cir. 2019).

This court later consolidated the appeal and cross-appeal in the
States’ case with the already-consolidated appeals in the Sierra Club
case.
2

127a
Defendants then applied to the Supreme Court for a
stay of the permanent injunction pending appeal, which
the Court granted on July 26, 2019. See Trump v. Sierra Club, 140 S. Ct. 1 (2019). That stay remains in effect “pending disposition of the Government’s appeal in
the United States Court of Appeals for the Ninth Circuit
and disposition of the Government’s petition for a writ
of certiorari, if such writ is timely sought.” Id. at 1. In
granting the stay, the Court concluded that “the Government has made a sufficient showing at this stage that
[the Sierra Club and SBCC] have no cause of action to
obtain review of the Acting Secretary’s compliance with
Section 8005.” Id.
II

The Government has not contested the Article III
standing of California and New Mexico on appeal, but as
the majority notes, “ ‘the court has an independent obligation to assure that standing exists, regardless of
whether it is challenged by any of the parties.’ ” See
Maj. Opin. at 19 n.10 (quoting Summers v. Earth Island
Inst., 555 U.S. 488, 499 (2009)). As “an indispensable
part of the plaintiff ’s case, each element” of Article III
standing “must be supported in the same way as any
other matter on which the plaintiff bears the burden of
proof, i.e., with the manner and degree of evidence required at the successive stages of the litigation.” Lujan
v. Defenders of Wildlife (Lujan v. Defenders), 504 U.S.
555, 561 (1992). Thus, although well-pleaded allegations are enough at the motion-to-dismiss stage, they
are insufficient to establish standing at the summaryjudgment stage. Id. “In response to a summary judgment motion, . . . the plaintiff can no longer rest on
such mere allegations, but must set forth by affidavit or

128a
other evidence specific facts, which for purposes of the
summary judgment motion will be taken to be true.”
Id. (simplified). 3
In reviewing standing sua sponte in the context of
cross-motions for summary judgment, it is appropriate
to apply the more lenient standard that takes the plaintiffs’ evidence as true and then asks whether a reasonable trier of fact could find Article III standing. Lujan
v. Defenders, 504 U.S. at 563 (applying this standard in
evaluating whether Government’s cross-motion for summary judgment should have been granted). In their
briefs below concerning the parties’ cross-motions, California and New Mexico asserted that Defendants’ allegedly unlawful conduct caused both harm to the States’
sovereign interests in enforcing their environmental
laws as well as actual environmental harm to animals
and plants within the States. I agree that at least the
second of these two asserted injuries—the threatened
occurrence of actual environmental harm—is sufficient
to establish Article III standing in this case, at least as
to California. 4 Although the district court correctly
I favor the general practice of reciting the language of the quoted
source as if that source were stating those exact words for the first
time, thereby disregarding any indicia of quotations within quotations (such as brackets, ellipses, and multiple layers of quotation
marks). Going forward, I will use the word “simplified” rather than
“cleaned up,” because it seems less colloquial and it avoids suggesting that the more precise quotation format needed “cleaning.” Of
course, if I make any changes to the simplified quotation, then those
would be shown with brackets or ellipses.
4
As the majority notes, see Maj. Opin. at 19 n.10, the district court
explicitly addressed Article III standing to challenge the transfers
only in the context of New Mexico’s request for a preliminary injunction. Although Article III standing was not revisited when both
3

129a
recognized that the States’ evidence of injury was very
thin, see infra note 6, California’s evidence is sufficient
to establish standing at the summary-judgment stage.
Even assuming arguendo that the States must show
a threat of injury to a protected species within their borders, rather than merely injury to individual animals or
plants belonging to such a species, 5 I think that California has made a sufficient showing. Accepting the States’
evidence as true, and drawing all reasonable inferences
in their favor, a reasonable trier of fact could conclude
that the construction activities associated with El Centro Sector Project 1 in California could materially adversely affect the local population of flat-tailed horned
lizards, which California has classified as a “Species of
Special Concern.” Specifically, California presented declarations from two biologists explaining how DoD’s construction activities, and the resulting border barrier,
would materially harm the lizard population by increasing opportunities for natural predators to catch lizards,
by creating a “genetic break” between the populations
within the species’ small range area on either side of the
barrier, and by accidentally killing a potentially significant number of lizards during the construction itself.
California and New Mexico subsequently moved for summary judgment and a permanent injunction, the States’ showing of injury in
support of a permanent injunction provides a sufficient basis for
evaluating their Article III standing.
5
There are aspects to the States’ arguments below—and of the
majority opinion here—that seem implicitly to rest on the expansive
view that the States would suffer cognizable injury-in-fact if there is
harm to a single protected animal or to any of the plants in the construction area. Such theories push the outermost limits of plausible injury-in-fact, cf. Lujan v. Defenders, 504 U.S. at 566-67, but it is
unnecessary to rely on them here.

130a
This evidence is sufficient to establish an injury-in-fact
to California’s environmental interests. Cf. Massachusetts v. EPA, 549 U.S. 497, 521 (2007) (significant harm
to ecosystem is an injury to the State for Article III
standing purposes). 6
California’s showing of a material risk to a “Species
of Special Concern” is fairly traceable to the challenged
funding transfers and would be redressed by a favorable
decision. Lujan v. Defenders, 504 U.S. at 560-61. It
therefore suffices to give us Article III jurisdiction to
address the merits of the States’ causes of action. We
thus may proceed to do so without having to address
New Mexico’s standing. See Secretary of the Interior
v. California, 464 U.S. 312, 319 n.3 (1984) (“Since the
State of California clearly does have standing, we need
not address the standing of the other [plaintiffs], whose
position here is identical to the State’s.”). And given
my view that the States’ legal challenges fail, I perceive
At the permanent-injunction stage, the district court found unpersuasive California’s evidence of potential harm to this lizard species, especially when weighed against the Government’s countervailing evidence of mitigation efforts. I do not necessarily disagree
with that weighing of the competing evidence, but it addresses the
injury issue in a different posture under different standards. The
district court’s denial of permanent injunctive relief reflected an exercise of remedial discretion after the court had found the transfers
invalid as a matter of law. Accordingly, in weighing the States’ evidence of injury in deciding how to exercise that discretion, the district court was not required to, and did not, evaluate the States’ evidence of injury in the light most favorable to them (as we must do as
to the standing issue here). See Continental Airlines, Inc. v. Intra
Brokers, Inc., 24 F.3d 1099, 1102 (9th Cir. 1994) (where district court
granted summary judgment and permanent injunction, power to issue injunction was reviewed de novo, but “the district court’s exercise of that power” was reviewed “for abuse of discretion”).
6

131a
no obstacle to entering judgment against both California
and New Mexico without determining whether the latter
has standing. See Steel Co. v. Citizens for a Better Environment, 523 U.S. 83, 98 (1998). 7
III

Our first task is to determine whether the States
have asserted a viable cause of action that properly
brings the lawfulness of the transfers before us. See
By contrast, New Mexico’s standing is relevant to the scope of
relief that can be afforded if, as the majority concludes, the § 8005
and § 9002 transfers are invalid. California suffers no injury from
the construction activities concerning the El Paso Sector Project 1,
and so California lacks standing to request or obtain relief that extends to that separate project. Lewis v. Casey, 518 U.S. 343, 357
(1996) (“The remedy must of course be limited to the inadequacy that
produced the injury in fact that the plaintiff has established.”). Accordingly, before affirming the district court’s declaratory judgment
that the use of funds transferred under § 8005 and § 9002 “for El
Paso Sector Project 1 . . . is unlawful,” the majority properly examines New Mexico’s standing. I express no view as to whether
the majority is correct in concluding that New Mexico’s evidence of
environmental harm was sufficient, notwithstanding the district
court’s conclusion that this evidence rested largely on unsupported
speculation. See Maj. Opin. at 23-24; cf. California v. Trump, 2019
WL 2715421, at *4 (N.D. Cal. June 28, 2019) (“New Mexico’s speculation that a border barrier might prevent interbreeding, which
might hamper genetic diversity, which might render Mexican wolves
more susceptible to diseases falls far short of the necessary demonstrable evidence of harm to a protected species”). However, for the
reasons expressed below, I disagree with the majority’s conclusion
that New Mexico and California have standing based on their inability to enforce their environmental laws. Maj. Opin. at 24-28. Given
that this asserted injury is due to the Secretary of Homeland Security’s waiver under § 102 of IIRIRA, and not to the funding transfers, it would not be redressed by an injunction aimed only at the
transfers. See infra at 68-70.
7

132a
Air Courier Conf. v. American Postal Workers Union
AFL-CIO, 498 U.S. 517, 530-31 (1991). The majority
holds that California and New Mexico have a valid cause
of action under the APA. See Maj. Opin. at 30. I disagree with that conclusion, and I also disagree with the
States’ alternative arguments that they may assert either an equitable cause of action under the Constitution
or an “ultra vires” cause of action. 8
A

In authorizing suit by any person “adversely affected
or aggrieved by agency action within the meaning of a
relevant statute,” 5 U.S.C. § 702, the APA incorporates

In its merits analysis, the majority scarcely cites the motions
panel’s published decision, which addressed the Sierra Club’s and
SBCC’s likelihood of success on the merits of many of the same issues before us. I agree with the majority’s implicit conclusion that
the motions panel’s opinion does not prevent this merits panel from
examining these issues afresh. Although the motions panel decision
is a precedent, it remains subject to reconsideration by this court
until we issue our mandate. See United States v. Houser, 804 F.2d
565, 567-68 (9th Cir. 1986) (distinguishing, on this point, between reconsideration of a prior panel’s decision “during the course of a single appeal” and a decision “on a prior appeal”); cf. Gonzalez v. Arizona, 677 F.3d 383, 389 n.4 (9th Cir. 2012) (en banc) (three-judge
panel lacks authority to overrule a decision in a prior appeal in the
same case). To the extent that Lair v. Bullock, 798 F.3d 736, 747
(9th Cir. 2015), suggests otherwise, that suggestion is dicta and directly contrary to our decision in Houser. See East Bay Sanctuary
Covenant v. Trump, 950 F.3d 1242, 1261-65 (9th Cir. 2020). In all
events, the precedential force of the motions panel’s opinion was
largely, if not entirely, vitiated by the Supreme Court’s subsequent
decision to grant the very stay that the motions panel’s opinion denied.
8

133a
the familiar zone-of-interests test, which reflects a background principle of law that always “applies unless it is
expressly negated,” Bennett v. Spear, 520 U.S. 154, 163
(1997); see also Lexmark Int’l, Inc. v. Static Control
Components, Inc., 572 U.S. 118, 129 (2014). 9 That test
requires a plaintiff to “establish that the injury he complains of (his aggrievement, or the adverse effect upon
him) falls within the ‘zone of interests’ sought to be protected by the statutory provision whose violation forms
the legal basis for his complaint.” Lujan v. NWF, 497
U.S. at 883 (quoting Clarke v. Securities Indus. Ass’n,
479 U.S. 388, 396-97 (1987)). This test “is not meant to
be especially demanding.” Clarke, 479 U.S. at 399.
Because the APA was intended to confer “generous review” of agency action, the zone-of-interests test is more
flexibly applied under that statute than elsewhere, and
it requires only a showing that the plaintiff is “arguably
within the zone of interests to be protected or regulated
by the statute or constitutional guarantee in question.”
Association of Data Processing Serv. Orgs., Inc. v.
Camp (Data Processing), 397 U.S. 150, 153, 156 (1970)
(emphasis added); see also Bennett, 520 U.S. at 163
(“what comes within the zone of interests of a statute for
purposes of obtaining judicial review of administrative
action under the generous review provisions of the APA
may not do so for other purposes”) (simplified). Because an APA plaintiff need only show that its interests
The Supreme Court has not squarely addressed whether the zoneof-interests test applies to a plaintiff who claims to have “suffer[ed]
legal wrong because of agency action,” which is the other class of
persons authorized to sue under the APA, 5 U.S.C. § 702. See Lujan
v. National Wildlife Fed. (Lujan v. NWF), 497 U.S. 871, 882-83 (1990).
The States have not invoked any such theory here, so I have no occasion to address it.
9

134a
are “arguably” within the relevant zone of interests,
“the benefit of any doubt goes to the plaintiff.” MatchE-Be-Nash-She-Wish Band of Pottawatomi Indians v.
Patchak, 567 U.S. 209, 225 (2012). Although these
standards are generous, the States have failed to satisfy
them.
1

In applying the zone-of-interests test, we must first
identify the “statutory provision whose violation forms
the legal basis for [the] complaint” or the “gravamen of
the complaint.” Lujan v. NWF, 497 U.S. at 883, 886;
see also Air Courier Conf., 498 U.S. at 529. That question is easy here. The States’ complaint alleges that the
transfers made by DoD “do not satisfy the criteria under
section 8005”; that Defendants therefore “have acted ultra vires in seeking to transfer funding pursuant to section 8005”; that DoD consequently “acted unconstitutionally and in excess of [its] statutory authority in diverting federal funds” pursuant to § 8005; and that
therefore “these actions are unlawful and should be set
aside under 5 U.S.C. section 706.” 10 Section 8005 is
plainly the “gravamen of the complaint,” and it therefore defines the applicable zone of interests. Lujan v.
NWF, 497 U.S. at 886.
Although the States invoke the Appropriations
Clause and the constitutional separation of powers in
contending that Defendants’ actions are “unlawful”
within the meaning of the APA, any such constitutional
violations here can be said to have occurred only if the
Because the limitations on transfers set forth in § 8005 also apply to transfers under § 9002, see 132 Stat. at 3042, the parties use
“§ 8005” to refer to both provisions, and I will generally do so as well.
10

135a
transfers violated the limitations set forth in § 8005: if
Congress authorized DoD to transfer the appropriated
funds from one account to another, and to spend them
accordingly, then the money has been spent “in Consequence of Appropriations made by Law,” U.S. CONST.
art. I, § 9, cl. 7, and the Executive has not otherwise
transgressed the separation of powers. 11 All of California’s theories for challenging the transfers under the
APA—whether styled as constitutional claims or as statutory claims—thus rise or fall based on whether DoD
has transgressed the limitations on transfers set forth
in § 8005. As a result, § 8005 is obviously the “statute
whose violation is the gravamen of the complaint.”
Lujan v. NWF, 497 U.S. at 886. To maintain a claim
under the APA, therefore, California must establish that
it is within the zone of interests of § 8005. On this point,
the majority and I are in apparent agreement. See
Maj. Opin. at 30-31. 12
11
The only possible exception is the States’ argument that § 8005
itself violates the Appropriations Clause and the constitutional separation of powers. As explained below, that contention is frivolous.
See infra at 76-77.
12
The States briefly contend that DoD has exceeded its authority
under § 284, but even assuming arguendo that the States have a
cause of action to raise such a challenge, it is patently without merit.
The States note that § 284 contains a special reporting requirement
for “small scale construction” projects, which are defined as projects
costing $750,000 or less, 10 U.S.C. § 284(h)(1)(B), (i)(3), and they argue that this shows that Congress did not authorize projects on the
scale at issue here. The inference is a non sequitur: the fact that
Congress requires special reporting of these smaller projects does
not mean that they are the only projects authorized. Congress may
have imposed such a unique reporting requirement in order to capture the sort of smaller-scale activities that might otherwise have
escaped its notice.

136a
2

Having identified the relevant statute, our next task
is to “discern the interests arguably to be protected by
the statutory provision at issue” and then to “inquire
whether the plaintiff ’s interests affected by the agency
action in question are among them.” National Credit
Union Admin. v. First Nat’l Bank & Trust Co. (NCUA),
522 U.S. 479, 492 (1998) (simplified). Identifying the interests protected by § 8005 is not difficult, and here the
States’ asserted interests are not among them.
Section 8005 is a grant of general transfer authority
that allows the Secretary of Defense, if he determines
“that such action is necessary in the national interest”
and if the Office of Management and Budget approves,
to transfer from one DoD “appropriation” into another
up to $4 billion of the funds that have been appropriated
under the DoD Appropriations Act “for military functions (except military construction).” See 132 Stat. at
2999. Section 8005 contains five provisos that further
regulate this transfer authority, and the only limitations
on the Secretary’s authority that the States claim were
violated here are all contained in the first such proviso.
That proviso states that “such authority to transfer may
not be used unless for higher priority items, based on
unforeseen military requirements, than those for which
originally appropriated and in no case where the item
for which funds are requested has been denied by
the Congress.” Id. 13 The remaining provisos require
prompt notice to Congress “of all transfers made pursuant to this authority or any other authority in this Act”;
Similar language has been codified into permanent law. See
10 U.S.C. § 2214(b). No party contends that § 2214(b) alters the
relevant analysis under the comparably worded provision in § 8005.
13

137a
proscribe the use of funds to make requests to the Committees on Appropriations for reprogrammings that are
inconsistent with the restrictions described in the first
proviso; set a time limit for making requests for multiple
reprogrammings; and exempt “transfers among military personnel appropriations” from counting towards
the $4 billion limit. Id.
Focusing on “the particular provision of law upon
which the plaintiff relies,” Bennett, 520 U.S. at 175-76,
makes clear that § 8005 as a whole, and its first proviso
in particular, are aimed at tightening congressional control over the appropriations process. The first proviso’s general prohibition on transferring funds for any
item that “has been denied by the Congress” is, on its
face, a prohibition on using the transfer authority to effectively reverse Congress’s specific decision to deny
funds to DoD for that item. 132 Stat. at 2999. The second major limitation imposed by the first proviso states
that the transfer authority is not to be used unless, considering the items “for which [the funds were] originally
appropriated,” there are “higher priority items” for
which the funds should now be used in light of “military
requirements” that were “unforeseen” in DoD’s request
for Fiscal Year 2019 appropriations. Id. The obvious
focus of this restriction is likewise to protect congressional judgments about appropriations by (1) restricting
DoD’s ability to reprioritize the use of funds differently
from how Congress decided to do so and (2) precluding
DoD from transferring funds appropriated by Congress
for “military functions” for purposes that do not reflect
“military requirements.” The remaining provisos, including the congressional reporting requirement, all
similarly aim to maintain congressional control over appropriations. And all of the operative restrictions in

138a
§ 8005 that the States invoke here are focused solely on
limiting DoD’s ability to use the transfer authority to reverse the congressional judgments reflected in DoD’s
appropriations.
In addition to preserving congressional control over
DoD’s appropriations, § 8005 also aims to give DoD
some measure of flexibility to make necessary changes.
Notably, in authorizing the Secretary to make transfers
among appropriations, § 8005’s first proviso specifies
only one criterion that he must consider in exercising
that discretion: he must determine whether the item
for which the funds will be used is a “higher priority
item[]” in light of “unforeseen military requirements.”
132 Stat. at 2999 (emphasis added). Under the statute,
he need not consider any other factor concerning either
the original use for which the funds were appropriated
or the new use to which they will now be put.
In light of these features of § 8005, the “interests”
that the States claim are “affected by the agency action
in question” are not “among” the “interests arguably to
be protected” by § 8005. NCUA, 522 U.S. at 492 (simplified). In particular, the States’ asserted environmental interests clearly lie outside the zone of interests
protected by § 8005. The statute does not mention environmental interests, nor does it require the Secretary
to consider such interests. On the contrary, the statute
requires him only to consider whether an item is a
“higher priority” in light of “military requirements,”
and it is otherwise entirely neutral as to the uses to
which the funds will be put. Indeed, that neutrality is
reflected on the face of the statute, which says that, once
the transfer is made, the funds are “merged with and
. . . available for the same purposes, and for the same

139a
time period, as the appropriation or fund to which
transferred.” 132 Stat. at 2999 (emphasis added). Because the alleged environmental harms that the States
assert here play no role in the analysis that § 8005 requires the Secretary to conduct, and are not among the
harms that § 8005’s limitations seek to address or protect, the States’ interests in avoiding these harms are
not within § 8005’s zone of interests.
Moreover, focusing on the specific interests for which
the States have presented sufficient evidentiary support
at the summary-judgment stage, see Lujan v. NWF, 497
U.S. at 884-85, further confirms that, in deciding whether
to redirect excess military personnel funds under § 8005
to assist DHS by building fencing to stop international
drug smuggling, the Acting Secretary of Defense did not
have to give even the slightest consideration to whether
that reprogramming of funds would result in the death
of more flat-tailed horned lizards. 14 Put simply, the
States’ environmental interests are “ ‘so marginally related to . . . the purposes implicit in the statute that
it cannot reasonably be assumed that Congress intended
to permit the suit.’ ” Patchak, 567 U.S. at 225 (quoting
Clarke, 479 U.S. at 399).
For similar reasons, the States’ invocation of their
sovereign interests is also insufficient. The majority
finds that these interests “app[ly] with particular force”
because the Secretary’s transfer of funds ultimately
It is unnecessary to exhaustively review whether California or
New Mexico has provided the requisite factual support with respect
to their claims of potential harms to other species of animals or
plants, see supra note 7, because there is no basis in law or logic for
concluding that it would make any difference to the zone-of-interests
analysis under § 8005.
14

140a
had an effect on “California’s and New Mexico’s ability
to enforce their state environmental laws,” see Maj.
Opin. at 34, but that consideration plays no role—not
even indirectly—in the analysis that § 8005 requires.
Section 8005 authorizes the Secretary to move funds
from one appropriation to another if (1) that transfer is
consistent with the appropriations-process-based constraints discussed earlier; and (2) the transfer is for
items that the Secretary deems to be “higher priority”
in light of “military requirements.” 132 Stat. at 2999.
The statute does not itself mention or contemplate the
displacement of state laws as a result of the transfer, nor
does it require that any such derogation from state sovereignty be considered in evaluating the proposed transfer. Moreover, here the ultimate preemption of state
law occurred, not as a result of § 8005, but rather as a
result of DHS’s separate determination, under a completely separate statute (viz., IIRIRA § 102(c)), that
state (and federal) environmental laws would be waived.
The States might perhaps be within the zone of interests
with respect to that statute, but they do not challenge
the validity of that waiver under § 102(c) in this case,
and in any event, California has already brought (and
lost) a challenge to an earlier § 102(c) waiver with respect to a similar border fencing project. See In re
Border Infrastructure Envtl. Litig., 915 F.3d 1213 (9th
Cir. 2019).
The States nonetheless insist that they are within
§ 8005’s zone of interests because the actual activities
that are taking place under the valid waiver, in derogation of their sovereignty, are only occurring because the
§ 8005 transfer was approved. This argument fails.
Once a valid § 102(c) waiver has been issued, the States’
laws have been definitively set aside as a de jure matter

141a
under the Supremacy Clause, and halting construction
will not bring those laws back into force or redress that
injury to the States’ sovereignty. The residual interest
on which the States rely, therefore, is not an injury to
their sovereignty, but merely the interest in ensuring
that activities that the States consider undesirable do
not occur. But the Supreme Court has consistently
held that “assertion of a right to a particular kind of Government conduct, which the Government has violated by
acting differently, cannot alone satisfy the requirements
of Art. III without draining those requirements of meaning,” Lujan v. Defenders, 504 U.S. at 576 (simplified),
and an interest that is not cognizable for Article III purposes is irrelevant for zone-of-interests purposes as
well, Sierra Club v. Morton, 405 U.S. 727, 733 (1972).
Similarly, to the extent that the States rely on an interest in “hav[ing] the Government act in accordance with
law” such as § 8005, see Lujan v. Defenders, 504 U.S. at
575, such an interest is not cognizable under Article III
and cannot satisfy the zone-of-interests test here.
3

The majority makes two main arguments as to why
the States nonetheless fall within § 8005’s zone of interests, but neither has merit.
First, the majority contends that “the states regularly benefit from DoD’s use of Section 8005,” and it
cites several past examples in which the statute was
used to transfer funds that allowed the military to assist
in addressing storm damage from hurricanes that occurred in various States. See Maj. Opin. at 35-36. This
argument is foreclosed by the Supreme Court’s decision
in Lujan v. NWF. The Court in that case held that, be-

142a
cause satisfaction of the zone-of-interests test is an element of the cause of action that the plaintiff seeks to invoke, the plaintiff at the summary-judgment stage has
the burden “to set forth specific facts (even though they
may be controverted by the Government) showing that
he has satisfied its terms,” i.e., that “the injury he complains of (his aggrievement, or the adverse effect upon
him)” falls within the relevant statute’s zone of interests. 497 U.S. at 883-84. Here, in opposing summary
judgment, California and New Mexico made no showing
whatsoever that, in the absence of these transfers to the
“Drug Interdiction and Counter-Drug Activities, Defense” appropriation, the funds in question would otherwise have been transferred for the direct benefit of either State. Absent such an evidentiary showing, the
States have failed to show that they satisfy the zone-ofinterests test under such a theory. Id. at 882-99 (exhaustively analyzing the evidence presented at summary judgment and concluding that the plaintiffs had
failed to carry their burden under the zone-of-interests
test).
Second, the majority asserts that California and New
Mexico fall within § 8005’s zone of interests because
§ 8005 was “primarily intended to benefit [Congress]
and its constitutional power to manage appropriations,”
and the States’ “interests are congruent with those of
Congress.” See Maj. Opin. at 32-33 (emphasis added).
This theory also fails. As the Supreme Court made
clear in Lujan v. NWF, the zone-of-interests test requires the plaintiff to make a factual showing that the
plaintiff itself, or someone else whose interests the
plaintiff may properly assert, has a cognizable interest
that falls within the relevant statute’s zone of interests.
497 U.S. at 885-99 (addressing whether the interests of

143a
NWF—or of any of its members, whose interests NWF
could validly assert under the associational standing
doctrine of Hunt v. Washington State Apple Advert.
Comm’n, 432 U.S. 333 (1977)—had been shown to be
within the relevant zone of interests). I am aware of no
precedent that would support the view that California
and New Mexico can represent the interests of Congress
(akin to NWF’s representation of the interests of its
members), much less that the States can do so merely
because they are sympathetic to Congress’s perceived
policy objectives. 15 But I do not read the majority opinion as actually relying on such a novel theory. Instead,
the majority suggests that, merely because the States’
overall litigation objectives here are sufficiently congruent with those of Congress, the States have thereby satisfied the zone-of-interests test with respect to the
States’ own interests. This contention is clearly wrong.
The critical flaw in the majority’s analysis is that it
rests, not on the interests asserted by the States (preservation of the flat-tailed horned lizard, etc.), but on the
legal theory that the States invoke to protect those interests here. But the zone-of-interests test focuses on
the former and not the latter. See Lujan v. NWF, 497
U.S. at 885-89. Indeed, if the majority were correct,
that would effectively eliminate the zone-of-interests
Even if the States could assert Congress’s interests in some representational capacity, they could do so only if the injury to Congress’s interests satisfied the requirements of Article III standing.
See Air Courier Conf., 498 U.S. at 523-24 (zone-of-interests test
is applied to those injuries-in-fact that meet Article III requirements). I express no view on that question. Cf. U.S. House of Reps.
v. Mnuchin, 379 F. Supp. 3d 8 (D.D.C. 2019) (holding that House
lacks Article III standing to challenge the transfers at issue here),
appeal ordered heard en banc, 2020 WL 1228477 (D.C. Cir. 2020).
15

144a
test. By definition, anyone who alleges a violation of a
particular statute has thereby invoked a legal theory
that is “congruent” with the interests of those other persons or entities who are within that statute’s zone-ofinterests. Such a tautological congruence between the
States’ legal theory and Congress’s institutional interests is not sufficient to satisfy the zone-of-interests test
here.
The majority suggests that its approach is supported
by the D.C. Circuit’s decision in Scheduled Airlines
Traffic Offices, Inc. v. Department of Defense, 87 F.3d
1356 (D.C. Cir. 1996), see Maj. Opin. at 32, but that is
wrong. As the opinion in that case makes clear, the
D.C. Circuit was relying on the same traditional zoneof-interests test, under which a plaintiff ’s interests are
“outside the statute’s ‘zone of interests’ only ‘if the plaintiff ’s interests are so marginally related to or inconsistent with the purposes implicit in the statute that it
cannot reasonably be assumed that Congress intended
to permit the suit.’ ” 87 F.3d at 1360 (quoting Clarke,
479 U.S. at 399). The court mentioned “congruence” in
the course of explaining why the plaintiff ’s interests in
that case were “not more likely to frustrate than to further statutory objectives,” i.e., why those interests were
not inconsistent with the purposes implicit in the statute. Id. (simplified). It did not thereby suggest—and
could not properly have suggested—that the mere lack
of any such inconsistency is alone sufficient under the
zone-of-interests test. Here, the problem is not that
the States’ interests are inconsistent with the purposes
of § 8005, but rather that they are too “marginally related” to those purposes. See supra at 68-69.

145a
Lastly, the majority suggests that we must apply
the zone-of-interests test “broadly in this context,”
because—given the difficulties that congressional
plaintiffs have in establishing Article III standing—
otherwise “no agency action taken pursuant to Section
8005 could ever be challenged under the APA.” See
Maj. Opin. at 33, 36. The assumption that no one will
ever be able to sue for any violation of § 8005 seems
doubtful, cf. Sierra Club v. Trump, 929 F.3d at 715 (N.R.
Smith, J., dissenting) (suggesting that “those who would
have been entitled to the funds as originally appropriated” may be within the zone of interests of § 8005), but
in any event, we are not entitled to bend the otherwise
applicable—and already lenient—standards to ensure
that someone will be able to sue in this case or others
like it.
B

In addition to asserting claims under the APA, California and New Mexico also purport to assert claims under the Constitution, as well as an equitable cause of action to enjoin “ultra vires” conduct. The States do not
have a cause of action under either of these theories.
1

The States contend that they are not required to satisfy any zone-of-interests test to the extent that they assert non-APA causes of action to enjoin Executive officials from taking unconstitutional action. 16 Even as-

It is not entirely clear that the States are contending that
their APA claims to enjoin unconstitutional conduct, see 5 U.S.C.
§ 706(2)(B), are exempt from the zone-of-interests test. To the extent that they are so contending, the point seems doubtful. See
16

146a
suming that an equitable cause of action to enjoin unconstitutional conduct exists alongside the APA’s cause of
action, see Juliana v. United States, 947 F.3d 1159,
1167-68 (9th Cir. 2020); Navajo Nation v. Department
of the Interior, 876 F.3d 1144, 1172 (9th Cir. 2017); but
see Sierra Club v. Trump, 929 F.3d at 715-17 (N.R. Smith,
J., dissenting), it avails the States nothing here. The
States have failed to allege the sort of constitutional
claim that might give rise to such an equitable action,
because their “constitutional” claim is effectively the
very same § 8005-based claim dressed up in constitutional garb. And even if this claim counted as a “constitutional” one, it would still be governed by the same zone
of interests defined by the relevant limitations in
§ 8005.
a

The States assert two constitutional claims in their
operative complaint: (1) that Defendants have violated
the Presentment Clause, and the constitutional separation of powers more generally, by “unilaterally diverting
funding that Congress already appropriated for other
purposes to fund a border wall for which Congress has
provided no appropriations”; and (2) that Defendants
have violated the Appropriations Clause “by funding
construction of the border wall with funds that were not
appropriated for that purpose.” As clarified in their
Data Processing, 397 U.S. at 153 (zone-of-interests test requires
APA claimant to show that its interest “is arguably within the zone
of interests to be protected or regulated by the statute or constitutional guarantee in question”). But in all events, any such APAbased claim to enjoin unconstitutional conduct would fail for the
same reasons as the States’ purported free-standing equitable claim
to enjoin such conduct.

147a
subsequent briefing, the States assert both what I will
call a “strong” form of these constitutional arguments
and a more “limited” form. In its strong form, the States’
argument is that, even if § 8005 authorized the transfers
in question here, those transfers nonetheless violated
the separation of powers, the Presentment Clause, and
the Appropriations Clause. In its more limited form,
the States’ argument is that the transfers violated the
separation of powers, the Presentment Clause, and the
Appropriations Clause because the transfers were not
authorized by § 8005.
I need not address whether the States have an equitable cause of action to assert the strong form of their
constitutional argument, because in my view that argument on the merits is so “wholly insubstantial and frivolous” that it would not even give rise to federal jurisdiction. Bell v. Hood, 327 U.S. 678, 682-83 (1946); see also
Steel Co., 523 U.S. at 89. If § 8005 allowed the transfers
here, then that necessarily means that the Executive
has properly spent funds that Congress, by statute, has
appropriated and allowed to be spent for that purpose.
The States cite no authority for the extraordinary proposition that the Appropriations Clause itself constrains
Congress’s ability to give agencies latitude in how to
spend appropriated funds, and I am aware of no such
authority. Cf. Lincoln v. Vigil, 508 U.S. 182, 192 (1993)
(“allocation of funds from a lump-sum appropriation is
another administrative decision traditionally regarded
as committed to agency discretion”). And by transferring funds after finding that the statutory conditions for
doing so are met, an agency thereby “execut[es] the policy that Congress had embodied in the statute” and does
not unilaterally alter or repeal any law in violation of the
Presentment Clause or the separation of powers. See

148a
Clinton v. City of New York, 524 U.S. 417, 444 (1998).
If anything, it is the States’ theory—that the federal
courts must give effect to an alleged broader congressional judgment against border funding regardless of
whether that judgment is embodied in binding statutory
language—that would offend separation-of-powers principles.
That leaves only the more limited form of the States’
argument, which is that, if § 8005 did not authorize the
transfers, then the expenditures violated the Appropriations Clause, the Presentment Clause, and the separation of powers. Under Dalton v. Specter, 511 U.S. 462
(1994), this theory—despite its constitutional garb—is
properly classified as “a statutory one,” id. at 474. It
therefore does not fall within the scope of the asserted
non-APA equitable cause of action to enjoin unconstitutional conduct. 17
In Dalton, the Court addressed a non-APA claim to
enjoin Executive officials from implementing an allegedly unconstitutional Presidential decision to close certain military bases under the Defense Base Closure and
Realignment Act of 1990. 511 U.S. at 471. 18 But the
claim in Dalton was not that the President had directly
transgressed an applicable constitutional limitation; ra-

17
There remains the States’ claim that statutory violations may be
enjoined under a non-APA ultra vires cause of action for equitable
relief, but that also fails for the reasons discussed below. See infra
at 84-85.
18
The plaintiffs in Dalton also asserted a claim under the APA itself, but that claim failed for the separate reason that the challenged
final action was taken by the President personally, and the President
is not an “agency” for purposes of the APA. See 511 U.S. at 469.

149a
ther, the claim was that, because Executive officials “violated the procedural requirements” of the statute on
which the President’s decision ultimately rested, the
President thereby “act[ed] in excess of his statutory
authority” and therefore “violate[d] the constitutional
separation-of-powers doctrine.” Id. at 471-72. The
Supreme Court rejected this effort to “eviscerat[e]” the
well-established “distinction between claims that an official exceeded his statutory authority, on the one hand,
and claims that he acted in violation of the Constitution,
on the other.” Id. at 474 (emphasis added). As the
Court explained, its “cases do not support the proposition that every action by the President, or by another
executive official, in excess of his statutory authority is
ipso facto in violation of the Constitution.” Id. at 472.
The Court distinguished Youngstown Sheet & Tube Co.
v. Sawyer, 343 U.S. 579 (1952), on the ground that there
“the Government disclaimed any statutory authority for
the President’s seizure of steel mills,” and as a result the
Constitution itself supplied the rule of decision for determining the legality of the President’s actions. Dalton, 511 U.S. at 473. Because the “only basis of authority asserted was the President’s inherent constitutional
power as the Executive and the Commander in Chief of
the Armed Forces,” Youngstown thus “necessarily turned
on whether the Constitution authorized the President’s
actions.” Id. (emphasis added). By contrast, given
that the claim in Dalton was that the President had violated the Constitution because Executive officials had
“violated the terms of the 1990 Act,” the terms of that
statute provided the applicable rule of decision and the
claim was therefore “a statutory one.” Id. at 474. And
because those claims sought to enjoin conduct on the
grounds that it violated statutory requirements, it was

150a
subject to the “longstanding” limitation that non-APA
“review is not available when the statute in question
commits the decision to the discretion of the President.”
Id.
Under Dalton, the States’ purported “constitutional”
claims—at least in their more limited version—are
properly classified as statutory claims that do not fall
within any non-APA cause of action to enjoin unconstitutional conduct. 511 U.S. at 474. Here, as in Dalton,
Defendants have “claimed” the “statutory authority” of
§ 8005, and any asserted violation of the Constitution
would occur only if, and only because, Defendants’ conduct is assertedly not authorized by § 8005. Id. at 473.
The rule of decision for this dispute is thus not supplied,
as in Youngstown, by the Constitution; rather, it is supplied only by § 8005. Id. at 473-74. Because these
claims by the States are thus “statutory” under Dalton,
they may only proceed, if at all, under an equitable cause
of action to enjoin ultra vires conduct, and they would be
subject to any limitations applicable to such claims. Id.
at 474. The States do assert such a fallback claim here,
but it fails for the reasons I explain below. See infra at
84-85.
b

But even if the States’ claims may properly be classified as constitutional ones for purposes of the particular
equitable cause of action they invoke here, those claims
would still fail.
To the extent that the States argue that the Constitution itself grants a cause of action allowing any plaintiff with an Article III injury to sue to enjoin an alleged
violation of the Appropriations Clause, the Presentment

151a
Clause, or the separation of powers, there is no support
for such a theory. None of the cases cited by the States
involved putative plaintiffs, such as the States here, who
are near the outer perimeter of Article III standing.
On the contrary, these cases involved either allegedly
unconstitutional agency actions directly targeting the
claimants, see Bond v. United States, 564 U.S. 211, 22526 (2011) (criminal defendant challenged statute under
which she was convicted on federalism and separationof-powers grounds); United States v. McIntosh, 833
F.3d 1163, 1174-75 (9th Cir. 2016) (criminal defendants
sought to enjoin, based on an appropriations rider and
the Appropriations Clause, the Justice Department’s expenditure of funds to prosecute them), or they involved
a suit based on an express statutory cause of action, see
Clinton v. City of New York, 524 U.S. at 428 (noting that
right of action was expressly conferred by 2 U.S.C.
§ 692(a)(1) (1996 ed.)).
Moreover, any claim that the Constitution requires
recognizing, in this context, an equitable cause of action
that extends to the outer limits of Article III seems difficult to square with the Supreme Court’s decision in
Armstrong v. Exceptional Child Ctr., Inc., 575 U.S. 320
(2015). There, the Court rejected the view that the Supremacy Clause itself created a private right of action
for equitable relief against preempted statutes, and instead held that any such equitable claim rested on
“judge-made” remedies that are subject to “express and
implied statutory limitations.” Id. at 325-27. The Supremacy Clause provides a particularly apt analogy
here, because (like the Appropriations Clause) the asserted “unconstitutionality” of the challenged action
generally depends upon whether it falls within or outside the terms of a federal statute: a state statute is

152a
“unconstitutional under the Supremacy Clause” only
if it is “contrary to federal law,” Burbank-GlendalePasadena Airport Auth. v. City of Burbank, 136 F.3d
1360, 1361-62 (9th Cir. 1998), and here, the transfers violated the Appropriations Clause only if they were
barred by the limitations in § 8005. And just as the Supremacy Clause protects Congress’s “broad discretion
with regard to the enactment of laws,” Armstrong,
575 U.S. at 325-26, so too the Appropriations Clause protects “congressional control over funds in the Treasury,” McIntosh, 833 F.3d at 1175. It is “unlikely that
the Constitution gave Congress such broad discretion”
to enact appropriations laws only to simultaneously “require[] Congress to permit the enforcement of its laws”
by any “private actor[]” with even minimal Article III
standing, thereby “limit[ing] Congress’s power” to decide how “to enforce” the spending limitations it enacts.
Armstrong, 575 U.S. at 325-26.
The Appropriations Clause thus does not itself create
a constitutionally required cause of action that extends
to the limits of Article III. On the contrary, any equitable cause of action to enforce that clause would rest on
a “judge-made” remedy: as Armstrong observed, “[t]he
ability to sue to enjoin unconstitutional actions by state
and federal officers is the creation of courts of equity,
and reflects a long history of judicial review of illegal
executive action, tracing back to England.” 575 U.S. at
327. At least where, as here, the contours of the applicable constitutional line (under the Appropriations
Clause) are defined by and parallel a statutory line (under § 8005), any such judge-made equitable cause of action would be subject to “express and implied statutory
limitations,” as well as traditional limitations governing
such equitable claims. Id.

153a
One long-established “ ‘judicially self-imposed limit[]
on the exercise of federal jurisdiction’ ”—including federal equitable jurisdiction—is the requirement “that a
plaintiff ’s grievance must arguably fall within the zone
of interests protected or regulated by the statutory provision or constitutional guarantee invoked in the suit.”
Bennett, 520 U.S. at 162 (quoting Allen v. Wright, 468
U.S. 737, 751 (1984)). This limitation is not confined to
the APA, but rather reflects a “prudential standing requirement[] of general application” that always “applies
unless it is expressly negated” by Congress. Id. at 163. 19
Because Congress has not expressly negated that test in
any relevant respect, the States’ equitable cause of action to enforce the Appropriations Clause here remains
subject to the zone-of-interests test. Cf. Thompson v.
North American Stainless, LP, 562 U.S. 170, 176-77
(2011) (construing a cause of action as extending to “any
person injured in the Article III sense” would often produce “absurd consequences” and is for that reason rarely
done). And given the unique nature of an Appropriations Clause claim, as just discussed, the line between
The States wrongly contend that, by quoting this language from
Bennett, and stating that the zone-of-interests test therefore “applies to all statutorily created causes of action,” Lexmark, 572 U.S.
at 129 (emphasis added), the Court in Lexmark thereby intended to
signal that the test only applies to statutory claims and not to nonstatutory equitable claims. Nothing in Lexmark actually suggests
any such negative pregnant; instead, the Court’s reference to “statutorily created causes of action” reflects nothing more than the fact
that only statutory claims were before the Court in that case. See
id. at 129. Moreover, Lexmark notes that the zone-of-interests test’s
roots lie in the common law, id. at 130 n.5, and Bennett (upon which
Lexmark relied) states that the test reflects a “prudential standing
requirement[] of general application” that applies to any “exercise
of federal jurisdiction,” 520 U.S. at 162-63.
19

154a
constitutional and unconstitutional conduct here is defined entirely by the limitations in § 8005, and therefore the
relevant zone of interests for the States’ AppropriationsClause-based equitable claim remains defined by those
limitations. The States are thus outside the applicable
zone of interests for this claim as well.
In arguing for a contrary view, the States rely heavily
on United States v. McIntosh, asserting that there we
granted non-APA injunctive relief based on the Appropriations Clause without inquiring whether the claimants were within the zone of interests of the underlying
appropriations statute. McIntosh cannot bear the considerable weight that the States place on it.
In McIntosh, we asserted interlocutory jurisdiction
over the district courts’ refusal to enjoin the expenditure of funds to prosecute the defendants—an expenditure that allegedly violated an appropriations rider barring the Justice Department from spending funds to prevent certain States from “ ‘implementing their own laws
that authorize the use, distribution, possession, or cultivation of medical marijuana.’ ” 833 F.3d at 1175; see
also id. at 1172-73. We held that the defendants had
Article III standing and that, if the Department was in
fact “spending money in violation” of that rider in prosecuting the defendants, that would produce a violation
of the Appropriations Clause that could be raised by the
defendants in challenging their prosecutions. Id. at
1175. After construing the meaning of the rider, we
then remanded the matter for a determination whether
the rider was being violated. Id. at 1179. Contrary to
the States’ dog-that-didn’t-bark theory, nothing can be
gleaned from the fact that the zone-of-interests test was
never discussed in McIntosh. See Cooper Indus., Inc.

155a
v. Aviall Servs, Inc., 543 U.S. 157, 170 (2004) (“ ‘Questions which merely lurk in the record, neither brought
to the attention of the court nor ruled upon, are not to
be considered as having been so decided as to constitute
precedents.’ ”) (quoting Webster v. Fall, 266 U.S. 507,
511 (1925)). Moreover, any such silence seems more
likely to have been due to the fact that it was so overwhelmingly obvious that the defendants were within the
rider’s zone of interests that the point was incontestable
and uncontested. An asserted interest in not going to
prison for complying with state medical-marijuana laws
seems well within the zone of interests of a statute prohibiting interference with the implementation of such
state laws.
2

The only remaining question is whether the States
may evade the APA’s zone-of-interests test by asserting
a non-APA claim for ultra vires conduct in excess of statutory authority. Even assuming that such a cause of
action exists alongside the APA, cf. Trudeau v. Federal
Trade Comm’n, 456 F.3d 178, 189-90 (D.C. Cir. 2006), I
conclude that it would be subject to the same zone-ofinterests limitations as the States’ APA claims and
therefore likewise fails.
For the same reasons discussed above, any such equitable cause of action rests on a judge-made remedy
that is subject to the zone-of-interests test. See supra
at 79-84. The States identify no case from this court affirmatively holding that the zone-of-interests test does
not apply to a non-APA equitable cause of action to enjoin conduct allegedly in excess of statutory authority,
and I am aware of none. Indeed, it makes little sense,
when evaluating a claim that Executive officials exceeded

156a
the limitations in a federal statute, not to ask whether
the plaintiff is within the zone of interests protected by
those statutory limitations. Cf. Haitian Refugee Ctr. v.
Gracey, 809 F.2d 794, 811 n.14 (D.C. Cir. 1987) (although
plaintiff asserting ultra vires claim may not need to
show that its interests “fall within the zones of interests
of the constitutional and statutory powers invoked” by
Executive officials, when “a particular constitutional or
statutory provision was intended to protect persons like
the litigant by limiting the authority conferred,” then
“the litigant’s interest may be said to fall within the zone
protected by the limitation”) (emphasis added). 20
* * *
Given that each of the States’ asserted theories fail,
the States lack any cause of action to challenge the DoD’s
transfer of funds under § 8005.
IV

Alternatively, even if the States had a cause of action,
their claims would fail on the merits, because the challenged transfers did not violate § 8005 or § 9002. The
States argue that the transfers violated the first proviso
of § 8005, which states that the transfer authority granted
by that section “may not be used unless for higher priority items, based on unforeseen military requirements,
Even if the States were correct that the zone-of-interests test
does not apply to a non-APA equitable cause of action, that would
not necessarily mean that such equitable jurisdiction extends, as the
States suggest, to the outer limits of Article III. Declining to apply
the APA’s generous zone-of-interests test might arguably render applicable the sort of narrower review of agency action that preceded
the APA standards articulated in Data Processing, 397 U.S. at 153.
See also Clarke, 479 U.S. at 400 n.16.
20

157a
than those for which originally appropriated and in no
case where the item for which funds are requested has
been denied by the Congress.” 132 Stat. at 2999. The
requirements of this proviso likewise limit the transfer
authority under § 9002. See id. at 3042 (stating that the
transfer authority in § 9002 is in addition to that specified in § 8005, but “is subject to the same terms and conditions as the authority provided in section 8005 of this
Act”). The States argue, and the majority agrees, that
two of the requirements in this proviso are not met, because (1) the transfers were for an item for which Congress has denied funding; and (2) they were not for “unforeseen military requirements.” See Maj. Opin. at
37-47. I disagree.
A
The proviso states that the Secretary may not transfer funds for an admittedly “higher priority item[] . . .
than those for which originally appropriated” if “the
item for which funds are requested has been denied by
the Congress.” 132 Stat. at 2999. In my view, the Secretary’s transfers did not violate this condition.
Determining whether Congress “denied” the relevant
“item” at issue here turns on the meaning of the phrase
“the item for which funds are requested.” According to
the States, the relevant “item” should be broadly defined
to include any “border barrier construction,” and Congress should be held to have “denied” that item except
to the extent that it appropriated funds for “primary pedestrian fencing” in § 230(a)(1) of the Department of
Homeland Security Appropriations Act, 2019, see Pub.
L. No. 116-6, Div. A, § 230(a)(1), 133 Stat. 13, 28 (2019).
The States’ reading is implausible, because it ignores

158a
the context of the appropriations process that § 8005 addresses.
As a provision designed to preserve Congress’s authority over the appropriations process, § 8005’s restriction on
transfers can only be understood against the backdrop
of that process and of the role of transfers and reprogrammings in it. Home Depot U.S.A., Inc. v. Jackson,
139 S. Ct. 1743, 1748 (2019) (“It is a fundamental canon
of statutory construction that the words of a statute
must be read in their context and with a view to their
place in the overall statutory scheme.”) (simplified).
That process is usefully set forth in Chapter 2 of the
GAO’s authoritative Principles of Federal Appropriations Law, otherwise known as the “Red Book,” and I
borrow heavily from that treatise in setting forth that
relevant context. See Lincoln, 508 U.S. at 192 (citing
Red Book in addressing suit challenging reallocation of
funds).
While Congress ordinarily appropriates funds annually for agencies to use in specified amounts for enumerated purposes, Congress has also recognized that “a
certain amount of flexibility” is sometimes warranted.
See 2 U.S. GOV ’T ACCOUNTABILITY OFF. (“GAO”), PRINCIPLES OF FEDERAL APPROPRIATIONS LAW (4th ed.
2016 rev.) (“RED BOOK”), pt. B, § 7, 2016 WL 1275442,
at *1. Two ways in which such flexibility may be
achieved are through “transfer and reprogramming.”
Id. A “transfer”—which is the specific subject of
§ 8005—refers to “the shifting of funds between appropriations,” and it is generally prohibited in the absence
of specific statutory authority. Id.; see also 31 U.S.C. §
1532. By contrast, a “reprogramming shifts funds
within a single appropriation,” and in the absence of

159a
specific statutory limitations on reprogramming, agencies have broad discretion to do so “as long as the resulting obligations and expenditures are consistent with the
purpose restrictions applicable to the appropriation.”
See RED BOOK, 2016 WL 1275442, at *6 (emphasis
added) (citing Lincoln, 508 U.S. at 192). In contrast to
a transfer—which is easy to identify, because it shifts
funds between separate appropriations that are “welldefined and delineated with specific language in an appropriations act”—it is more difficult to identify what
counts as a reprogramming within an appropriation, because the appropriations act itself “does not set forth the
subdivisions that are relevant to determine whether an
agency has reprogrammed funds.” See id. at *6. There
is only a need to identify a “reprogramming” when Congress has sought to place limits on an agency’s ability to
do so. See, e.g., Pub. L. No. 111-80, § 712, 123 Stat. 2090,
2120-21 (2009) (requiring 15-days advance notice to Congress before certain “reprogramming[s] of funds” may
be made by various agriculture-related agencies). In
such cases, whether a shift of funds within an appropriation counts as a reprogramming is ordinarily determined by considering how the reallocation of funds compares to the allocation of funds that was contemplated
during the appropriations process: “Typically, the
itemizations and categorizations in the agency’s budget
documents as well as statements in committee reports
and the President’s budget submission, contain the subdivisions within an agency’s appropriation that are relevant to determine whether an agency has reprogrammed
funds.” RED BOOK, 2016 WL 1275442, at *7 (emphasis
added). GAO’s Red Book illustrates the point with an example, drawn from a prior opinion letter:

160a
For instance, for FY 2012, the Commodity Futures
Trading Commission (CFTC) received a single lumpsum appropriation. Id. CFTC’s FY 2012 budget
request included an item within that lump sum to
fund an Office of Proceedings. A reprogramming
would occur if CFTC shifted amounts that it had previously designated to carry out the functions of the
Office of Proceedings to carry out different functions.
Id. (citing GAO, B-323792, Commodity Futures Trading
Commission—Reprogramming Notification (Jan. 23,
2013)) (emphasis added).
Against this backdrop, the import of § 8005’s first
proviso is clear. In evaluating a transfer from one appropriation to another, the Secretary must justify the
transfer, not at the broad level of each overall appropriation itself (i.e., not by comparing the statutory appropriation category for “Drug Interdiction and CounterDrug Activities, Defense” versus that for “Military Personnel, Army”), but rather at the same “item” level at
which the Secretary would have to justify a reprogramming within an appropriation. See Pub. L. No. 115-245,
Div. A, § 8005, 132 Stat. at 2999 (requiring Secretary to
compare whether the item to which the transferred
funds will be directed is a “higher priority” than the
items “for which originally appropriated”). The point
of reference for determining whether the destination
“item” justifies the transfer is therefore, as with a reprogramming, “the itemizations and categorizations in
the agency’s budget documents as well as statements in
committee reports and the President’s budget submission.” RED BOOK, 2016 WL 1275442, at *7.
Several features of the language of § 8005 confirm
this reading. The statutory reference to “those [items]

161a
for which originally appropriated,” 132 Stat. at 2999
(emphasis added), is unmistakably a reference to the familiar concept of the itemizations contained within the
current appropriation, as set forth in the already existing budgetary documents exchanged and generated during the appropriations process for DoD. Air Wisconsin
Airlines Corp. v. Hoeper, 571 U.S. 237, 248 (2014) (“It is
a cardinal rule of statutory construction that, when Congress employs a term of art, it presumably knows and
adopts the cluster of ideas that were attached to each
borrowed word in the body of learning from which it is
taken.”) (simplified). And because those “original[]”
items are to be compared with the new “items” for which
the transfer authority is to “be used,” 132 Stat. at 2999,
these latter “items” must likewise be understood as a
reference to the destination items within the transferee
DoD appropriation. Law v. Siegel, 571 U.S. 415, 422
(2014) (“[W]ords repeated in different parts of the same
statute generally have the same meaning”).
The destination item is also referred to in the statute
as “the item for which funds are requested,” which is an
unusual way to refer to a transfer that an agency approves on its own. 132 Stat. at 2999 (emphasis added).
But the use of that term makes perfect sense when the
language is again construed against the background of
the appropriations process, because it is a common practice for agencies—despite the decision in INS v. Chadha,
462 U.S. 919 (1983)—to “request” the appropriations
committees’ approval for transfers and reprogrammings as a matter of comity. See Lincoln, 508 U.S. at
193 (“[W]e hardly need to note that an agency’s decision
to ignore congressional expectations [concerning the
use of appropriations] may expose it to grave political
consequences”). That reading is confirmed by § 8005’s

162a
third proviso, which enforces the exclusivity of the first
proviso by barring DoD from using any appropriated
funds to “prepare or present a request to the Committees on Appropriations for reprogramming of funds,”
unless it meets the requirements of the first proviso.
132 Stat. at 2999 (emphasis added). This language also
confirms what is already otherwise apparent, which is
that any transfer under § 8005 is to be analyzed, and papered, as a request for “reprogramming of funds.” Id.
(emphasis added). Indeed, although DoD made a conscious decision to depart from the comity-based practice
of making a request in this case, the House Committee
on Appropriations nonetheless proceeded to construe
DoD’s notification of the transfer as a “requested reprogramming action” and “denie[d] the request.” See House
Comm. on Appropriations, Press Release: Visclosky
Denies Request to Use Defense Funds for Unauthorized
Border Wall (Mar. 27, 2019), https://appropriations.house.
gov/news/press-releases/visclosky-denies-request-to-usedefense-funds-for-unauthorized-border-wall.
For all of these reasons, the “items” at issue under
§ 8005 must be understood against the backdrop of the
sort of familiar item-level analysis required in a budgetary reprogramming, and the benchmark for evaluating
the proposed destination item is therefore, as with any
reprogramming, the original allocation among items
that is reflected in the records of the DoD appropriations process. Accordingly, when § 8005 requires a consideration of whether “the item for which funds are requested has been denied by the Congress,” it is referring to whether Congress, during DoD’s appropriations process, denied an “item” that corresponds to the
“item for which funds are requested.” Under that
standard, this case is easy. The States do not contend

163a
(and could not contend) that Congress ever “denied”
such an item to DoD during DoD’s appropriations process.
Instead, the States argue that a grant of funds to another agency (DHS) in its appropriations, in an amount
less than that agency requested, should be construed as
a denial of an analogous item to DoD under its entirely
separate authorities and appropriations. This disregards the appropriations-law context against which
§ 8005 must be construed, which makes clear that the
relevant clause refers only to denials that are applicable
to DoD within the context of its appropriations process.
Taking into account the broader context of the political
struggle between the President and the Congress over
DHS’s requests for border-barrier funding, the majority concludes that Congress thereby issued a “general
denial” of “border wall” funding, which should be construed as “necessarily encompass[ing] narrower forms
of denial—such as the denial of a Section 284 budgetary
line item request.” See Maj. Opin. at 46-47. But
§ 8005’s proviso only applies if, during the DoD appropriations process, such an item “has been denied by the
Congress,” 132 Stat. at 2999, and that manifestly did not
occur here, given that (1) no such request was presented
and denied during that process; and (2) indeed, that process ended several months before the ultimate “denial”
that the majority claims we should now retroactively apply to DoD’s transfer authority.
More fundamentally, the majority is quite wrong in
positing that § 8005 assigns to us the task of discerning
the contours of the larger political struggle between the
President and the Congress over border-barrier funding (including by reviewing campaign speeches and the

164a
like), see Maj. Opin. at 39, and then giving legal effect to
what we think, based on that review, is “Congress’s broad
and resounding denial resulting in a 35-day partial government shutdown,” id. at 47. Our job under § 8005 is
the more modest one of determining whether a proposed
item of DoD spending was presented to Congress, and
“denied” by it, during DoD’s appropriations process,
and all agree that that did not occur here. Any action
that Congress took in the separate appropriations process concerning DHS would create a “denial” as to DoD
only if there is some language in the DHS Appropriations Act that somehow extends that Act’s denial vis-àvis DHS to other agencies. 21 But the only relevant limitation in that Act that even arguably extends beyond
DHS is a prohibition on the construction of “pedestrian
fencing” in five designated parks and refuge areas, see
Pub. L. No. 116-6, Div. A, § 231, 133 Stat. at 28 (“None
of the funds made available by this Act or prior Acts are
available” for such construction) (emphasis added), but
no one contends that this limitation is being violated
here. Beyond that, it is not our role under § 8005 to
give effect to a perceived big-picture “denial” that we
think is implicit in the “real-world events in the months
and years leading up to the 2019 appropriations bills.”
Sierra Club v. Trump, 929 F.3d at 691.

Nor is this a situation in which DoD is invoking the transfer authority to move funds into DHS’s appropriations. The destination
item here involves the authority under § 284 for DoD to undertake
“[c]onstruction of roads and fences” along the border. 10 U.S.C.
§ 284(b)(7). Indeed, § 8045(a) of the DoD Appropriations Act specifically forbids DoD from “transferr[ing] to any other department”
any funds available to it for “counter-drug activities,” except “as specifically provided in an appropriations law.” 132 Stat. at 3012.
21

165a
B

The majority alternatively holds that, even if Congress did not deny the “item” in question, the transfers
were still unlawful because the requirements invoked by
the Secretary here to justify the transfers were neither
“military” in nature nor “unforeseen.” See Maj. Opin.
at 37-46. The majority is wrong on both counts.
1

The DoD’s provision of support for counterdrug activities under § 284 is plainly a “military” requirement
within the meaning of § 8005. As the majority notes,
§ 8005 does not define the term “military,” see Maj.
Opin. at 42, and so the word should be given its ordinary
meaning. Asgrow Seed Co. v. Winterboer, 513 U.S. 179,
187 (1995). In common parlance, the word “military”
simply means “[o]f, relating to, or involving the armed
forces.” Military, BLACK’S LAW DICTIONARY (11th ed.
2019); see also Military, AMERICAN HERITAGE DICTIONARY (5th ed. 2018) (“Of, relating to, or characteristic of members of the armed forces”; “Performed or supported by the armed forces”); Military, WEBSTER’ S
THIRD NEW INTERNATIONAL DICTIONARY (1961)
(“WEBSTER’ S THIRD”) (“of or relating to soldiers, arms,
or war”; “performed or made by armed forces”). Because Congress, by statute, has formally assigned to
DoD the task of providing “support for the counterdrug
activities” of other departments through the “[c]onstruction of roads and fences and installation of lighting
to block drug smuggling corridors across international
boundaries of the United States,” 10 U.S.C. § 284(a),
(b)(7), that task “relat[es] to” and “involv[es] the armed

166a
forces,” and is “[p]erformed or supported by the armed
forces.” As such, it is a “military” task. 22
Two other textual clues support this conclusion.
First, the chapter heading for the chapter of Title 10
that includes § 284 is entitled, “Military Support for Civilian Law Enforcement Agencies,” thereby further
confirming that the support authorized to be provided
under § 284 counts as military support. See Henderson v. Shinseki, 562 U.S. 428, 439 (2011) (title of subchapter aided in resolving ambiguity concerning provision in that subchapter). Second, the DoD Appropriations Act itself classifies the activities carried out under
§ 284 as “military” activities. The Act recognizes, on its
face, that funds appropriated for “Drug Interdiction and
Counter-Drug Activities, Defense,” may be transferred
out of that appropriation under § 8005. See DoD Appropriations Act, § 8007(b)(6), 132 Stat. at 3000 (exempting transfers of funds out of this appropriation from an
otherwise applicable prohibition on transferring funds
under § 8005). Given that the transfer authority granted
by § 8005 applies only to “funds made available in this
Act to the Department of Defense for military functions
(except military construction),” 132 Stat. at 2999 (emphasis added), the Act necessarily deems funds in the
The majority is wrong in suggesting that the Government has
never argued that the construction projects “are related to the use
of soldiers.” See Maj. Opin. at 42. The Government affirmatively
argues in its brief that “the military may be, and here is, required
to assist in combatting” drug trafficking under § 284 (emphasis added). Moreover, the evidence submitted to the district court showed
that the construction was to be carried out by the U.S. Army Corps
of Engineers. Even granting that most of that agency’s employees
are civilians, the agency remains within the Department of the Army
and is led by a military officer. See 10 U.S.C. §§ 7011, 7036, 7063.
22

167a
“Drug Interdiction and Counter-Drug Activities, Defense” appropriation to be for “military functions.”
The majority’s insistence that such counter-drug functions are not “military” activities thus flatly contradicts
the statute itself.
The majority is also wrong in relying on the distinctive definition given in 10 U.S.C. § 2801 for the phrase
“military construction.” See Maj. Opin. at 44-45. At
the outset, this makes little sense, because § 8005 states
on its face that it applies only to transfers between appropriations for “military functions” and not for “military construction.” 132 Stat. at 2999 (emphasis added).
Indeed, Congress has long handled appropriations for
“military construction” separately from those for military functions, and it did so again for Fiscal Year 2019:
appropriations for “military construction” were made in
a separate appropriations statute enacted one week before the DoD Appropriations Act. See Pub. L. No. 115244, Div. C, Title I, 132 Stat. 2897, 2946 (2018). Of all
the terms to consider in construing “military” for purposes of the DoD Appropriations Act, “military construction” may be the least appropriate.
Moreover, the majority fails to recognize that “military construction” is a term of art, with its own unique
definition, and it therefore provides an inapt guide for
trying to discern the meaning of “military” in a different
phrase in a different context. Absent a special definition, one would have thought that the phrase “military
construction” embraces any “construction” that is performed by or for the “military.” See supra at 94 (quoting definitions of “military”). But § 2801 more narrowly defines “military construction” as generally refer-

168a
ring only to “construction . . . carried out with respect to a military installation . . . or any acquisition
of land or construction of a defense access road,” and it
defines a “military installation” as a “base, camp, post,
station, yard, center, or other activity under the jurisdiction of the Secretary of a military department.”
10 U.S.C. § 2801(a), (c)(4). Nothing about this distinctive definition of “military construction” creates or reflects a general gloss on the word “military,” much less
does it suggest that the ordinary meaning of “military”
in other contexts carries all of this baggage with it. The
majority’s effort to import the specific features of this
term of art (“military construction”) into one of the component words of that phrase makes neither linguistic
nor logical sense, and it is therefore irrelevant whether
or not the § 284 activities at issue here meet that definition. 23

The majority notes that the phrase “military construction” is
used in 10 U.S.C. § 2808, which “[t]he Federal Defendants have also
invoked . . . to fund other border wall construction projects on
the southern border.” Maj. Opin. at 44. But that statute was invoked only with respect to a different set of funds to be used for activities that Defendants contend do qualify as “military construction” for purposes of DoD’s additional construction authority after a
declaration of a national emergency. See 10 U.S.C. § 2808(a). The
States also challenged the use of that separate set of funds in their
suit below, but these challenges form no part of the Rule 54(b) partial judgment now before us, and any issue concerning them has no
bearing on the distinct questions presented here. Relatedly, the
President’s proclamation declaring such an emergency is relevant
only to that other set of funds and has no legal bearing on the Secretary’s transfers here. Cf. Maj. Opin. at 12-13, 39 (discussing the
declaration). And Congress’s joint resolutions attempting to terminate the emergency declaration, see id. at 39, are irrelevant for
the further reason that they were vetoed and never became law.
23

169a
The majority also contends that, even if the activities
involved here are “military” ones, they still did not involve “military requirements.” See Maj. Opin. at 45-45
(emphasis added). That is wrong. The term “requirement” is not limited to those tasks that DoD is compelled
to undertake, nor is it limited to those actions that DoD
undertakes for itself. The term also includes “something that is wanted or needed” or “something called for
or demanded,” see Requirement, WEBSTER’ S THIRD; see
also Requirement, BLACK’S LAW DICTIONARY (11th ed.
2019) (listing, as an alternative definition, “[s]omething
that someone needs or asks for”), and that readily applies to the request for assistance that was made to DoD
in this case under § 284. We should be cautious before
adopting an unduly crabbed reading of what constitutes
a military “requirement,” especially when Congress has
explicitly assigned a task to the military, as it did in §
284. Cf. Winter v. Natural Res. Def. Council, 555 U.S.
7, 24 (2008) (“great deference” is generally given to the
military’s judgment of the importance of a military interest).
Accordingly, DoD’s provision of support to DHS under § 284 involves a “military requirement[]” within the
meaning of § 8005. The majority errs in concluding
otherwise.

See id. at 12 n.3; see also 50 U.S.C. § 1622(a)(1) (congressional termination requires “enact[ing] into law a joint resolution terminating
the emergency”); Chadha, 462 U.S. at 946-48.

170a
2

The majority is likewise wrong in contending that
DoD’s need to provide assistance to DHS for these projects under § 284 was not “unforeseen” within the meaning of § 8005. See Maj. Opin. at 37-42.
Once again, the majority fails to construe § 8005
against the backdrop of the appropriations process. In
ordinary usage, “foresee” means “to see (as a future occurrence or development) as certain or unavoidable:
look forward to with assurance.” Foresee, WEBSTER’ S
THIRD (emphasis added). In the context of the appropriations process, an “item” has been seen as certain or
unavoidable only if it is reflected in DoD’s budgetary
submissions or in Congress’s review and revision of
those submissions. Conversely, it is “unforeseen” if it
is not reflected as an item in any of those materials.
The Red Book confirms this understanding. In explaining the need for reprogramming, it quotes the Deputy Defense Secretary’s statement that reprogramming
allows agencies to respond to “unforeseen changes” that
are not reflected in the “budget estimates” on which the
final appropriations are based:
“The defense budget does not exist in a vacuum.
There are forces at work to play havoc with even the
best of budget estimates. The economy may vary in
terms of inflation; political realities may bring external forces to bear; fact-of-life or programmatic changes
may occur. The very nature of the lengthy and overlapping cycles of the budget process poses continual
threats to the integrity of budget estimates. Reprogramming procedures permit us to respond to these
unforeseen changes and still meet our defense requirements.”

171a
RED BOOK, 2016 WL 1275442, at *5 (citation omitted).
As the GAO has explained, the question is not whether
a particular item “was unforeseen in general”; “[r]ather,
the question under section 8005 is whether it was unforeseen at the time of the budget request and enactment of appropriations.” U.S. GAO, B-330862, Department of Defense—Availability of Appropriations for
Border Fence Construction at 7-8 (Sept. 5, 2019) (emphasis added), https://www.gao.gov/assets/710/701176.
pdf. Under this standard, the items at issue here were
“unforeseen”; indeed, the States do not contend that
funding for the DoD assistance at issue here was ever
requested, proposed, or considered during DoD’s appropriations process.
In reaching a contrary conclusion, the majority makes
two legal errors. First, it makes precisely the mistake the
GAO identified, namely, it examines whether the “problem” (drug smuggling) and the “solution” (a border barrier) were foreseen in general, rather than whether they
were foreseen within the appropriations process. See
Maj. Opin. at 40-41. Thus, in concluding that DoD’s
need to provide assistance under § 284 was not “unforeseen,” the majority relies on the general premises that
“the conditions at the border” have been known to be a
problem since at least the 1960s and that “the President’s position that a wall was needed to address those
conditions” was publicly known well before he took office. Id. at 35, 37. Second, by rejecting the view that
“foreseen” is equivalent to “known” or that it requires
“actual knowledge,” id. at 39-40, the majority effectively
rewrites the statute as if it said “foreseeable” rather
than “foreseen.” Contrary to the majority’s view that
requiring foreknowledge would “effectively eliminate[]
any element of anticipation or expectation,” see id. at 39,

172a
“foreseen” is commonly understood to be interchangeable with “foreknown.” See, e.g., Foresee, WEBSTER’ S
THIRD (listing “foreknow” as a synonym). By wrongly
shifting the focus away from whether a current need
matches up with the assumptions on which the budget
and appropriations were based, the majority’s errors
would preclude DoD from making transfers based on
any factors that were anticipated within the larger society and, as a result, would essentially reduce the transfer power in § 8005 to a nullity.
3

DoD’s transfers here were thus based on “military”
“requirements” that were “unforeseen” within the meaning of § 8005. The States do not otherwise contest the
Secretary’s determination that the items in question
were “higher priority” items than “those for which originally appropriated.” This element of § 8005’s first proviso was therefore also satisfied here.
C

The States contend that, even if the transfers complied with the conditions in § 8005, the particular transfer that was made under § 9002, see supra at 52-53, did
not satisfy that section’s additional requirement that
transfers under that section be made only “between the
appropriations or funds made available to the Department of Defense in this title.” 132 Stat. at 3042 (emphasis added). According to the States, the appropriations under that title are only for “Overseas Contingency Operations,” and the transferee appropriation
does not count. This argument is plainly incorrect.
The separate title in the DoD Appropriations Act that is
entitled “Overseas Contingency Operations” contains

173a
within it a specific appropriation for “Drug Interdiction and
Counter-Drug Activities, Defense,” 132 Stat. at 3042, which
is the appropriation to which the funds were transferred.
The fact that the amounts in that fund are designated as
funds for “Overseas Contingency Operations/Global War
on Terrorism” for purposes of calculating budgetary
caps under § 251(b)(2)(A)(ii) of the Balanced Budget and
Emergency Deficit Control Act of 1985, 2 U.S.C.
§ 901(b)(2)(A)(ii), does not thereby impose an additional
limitation on the purposes for which such funds may be
expended.
V

Based on the foregoing, I conclude that at least California has Article III standing, but that the States lack
any cause of action to challenge these § 8005 and § 9002
transfers. Alternatively, if the States did have a cause
of action, their claims fail on the merits as a matter of
law because the transfers complied with the limitations
in § 8005 and § 9002. I therefore would reverse the district court’s partial grant of summary judgment to the
States and would remand the matter with instructions
to grant the Government’s motion for summary judgment on this set of claims. Because the majority concludes otherwise, I respectfully dissent.

174a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA

Case No. 19-cv-00892-HSG
SIERRA CLUB, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, ET AL., DEFENDANTS
Filed:

June 28, 2019

ORDER GRANTING IN PART AND DENYING IN
PART PLAINTIFFS’ MOTION FOR PARTIAL
SUMMARY JUDGMENT, DENYING DEFENDANTS’
MOTION FOR PARTIAL SUMMARY JUDGMENT,
CERTIFYING JUDGMENT FOR APPEAL,
AND DENYING REQUEST TO STAY
Re: Dkt. Nos. 168, 181

Pending before the Court are cross-motions for partial summary judgment filed by Plaintiffs Sierra Club
and Southern Border Communities Coalition, and Defendants Donald J. Trump, in his official capacity as
President of the United States; Mark T. Esper, in his
official capacity as Acting Secretary of Defense 1; Kevin

Acting Secretary Esper is automatically substituted for former
Acting Secretary Patrick M. Shanaham. See Fed. R. Civ. P. 25(d).
1

175a
K. McAleenan, in his official capacity as Acting Secretary of Homeland Security 2; and Steven T. Mnuchin, in
his official capacity as Secretary of the Department of
the Treasury, briefing for which is complete. Dkt. Nos.
168 (“Pls.’ Mot.”), 181 (“Defs.’ Mot.”), 192 (“Pls.’ Reply”). The only issue presently before the Court concerns Defendants’ intended reprogramming of funds under Sections 8005 and 9002 of the Department of Defense Appropriations Act, 2019, Pub. L. No. 115-245, 132
Stat. 2981 (2018), and subsequent use of such funds under 10 U.S.C. § 284 (“Section 284”) for border barrier
construction. 3
After carefully considering the parties’ arguments,
the Court GRANTS IN PART and DENIES IN PART
Plaintiffs’ motion, and DENIES Defendants’ motion. 4
The Court also certifies this judgment for immediate appeal pursuant to Rule 54(b) of the Federal Rules of Civil
Procedure. Last, the Court DENIES Defendants’ request for a stay of any injunction pending appeal.
I.

LEGAL STANDARD

Summary judgment is proper when a “movant shows
that there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
Acting Secretary McAleenan is automatically substituted for
former Secretary Kirstjen M. Nielsen. See Fed. R. Civ. P. 25(d).
3
The relevant background for this motion is essentially unchanged
since the Court’s preliminary injunction order. The Court thus
incorporates in full here the factual background and statutory
framework as set forth in that order. See Dkt. No. 144.
4
In light of the extended oral argument regarding these issues
at the preliminary injunction hearing, see Dkt. No. 138, the Court
finds these matters appropriate for disposition without oral argument and the matters are deemed submitted, see Civil L.R. 7-1(b).
2

176a
law.” Fed. R. Civ. P. 56(a). A fact is “material” if it
“might affect the outcome of the suit under the governing law.” Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248 (1986). And a dispute is “genuine” if there is
evidence in the record sufficient for a reasonable trier of
fact to decide in favor of the nonmoving party. Id.
But in deciding if a dispute is genuine, the court must
view the inferences reasonably drawn from the materials in the record in the light most favorable to the nonmoving party, Matsushita Elec. Indus. Co. v. Zenith
Radio Corp., 475 U.S. 574, 587-88 (1986), and “may not
weigh the evidence or make credibility determinations,”
Freeman v. Arpaio, 125 F.3d 732, 735 (9th Cir. 1997),
overruled on other grounds by Shakur v. Schriro, 514
F.3d 878, 884-85 (9th Cir. 2008). If a court finds that
there is no genuine dispute of material fact as to only a
single claim or defense or as to part of a claim or defense, it may enter partial summary judgment. Fed.
R. Civ. P. 56(a).
The parties agree that the issue presently before the
Court is properly resolved on their cross-motions for
partial summary judgment. Pls.’ Mot. at 8-9; Defs.’ Mot.
at 9.
II.

DISCUSSION

In their motion, Plaintiffs request that the Court (1)
enter final judgment in their favor “declaring unlawful
Defendants’ transfer of Fiscal Year 2019 appropriated
funds to the Department of Defense’s [(“DoD’s”)] Section 284 account, the use of those funds for construction
of a border wall, and Defendants’ failure to comply with
NEPA for this construction”; (2) issue a permanent injunction prohibiting Defendants from so funding border
barrier construction “prior to complying with NEPA”;

177a
and (3) enjoin such unlawful use of funds generally.
Pls.’ Mot. at 1. Defendants’ motion seeks a final determination that their intended use of funds under Sections
8005, 9002, and 284 for border barrier construction is
lawful. Defs.’ Mot. at 2. Defendants also request that
the Court certify this judgment for appeal under Rule
54(b). Id. at 24-25.
A.

Declaratory Relief

Plaintiffs seek a declaratory judgment finding unlawful Defendants’ (1) reprogramming of funds under Sections 8005 and 9002, (2) use of those funds for border
barrier construction under Section 284, and (3) failure
to comply with NEPA before pursuing any such construction. See Pls.’ Mot. at 1.
1.

Sections 8005, 9002, and 284

Starting with Section 8005, the Court previously held
that Plaintiffs were likely to succeed on their arguments
that Defendants’ intended reprogramming of funds under Section 8005 to the Section 284 account to fund border barrier construction in El Paso Sector 1 and Yuma
Sector 1 is unlawful. In particular, the Court found
that Plaintiffs were likely to show that (1) the item for
which funds are requested has been denied by Congress;
(2) the transfer is not based on “unforeseen military requirements”; and (3) accepting Defendants’ proposed interpretation of Section 8005’s requirements would raise
serious constitutional questions. 5 Dkt. No. 144 (“PI
Order”) at 31-42.

The Court did not consider whether Defendants’ reprogramming of funds was for a “higher priority item”—an independently
necessary requirement under Section 8005—because Defendants’
5

178a
The Court previously only considered Defendants’
reprogramming and subsequent use of funds for border
barrier construction for El Paso Sector Project 1 and
Yuma Sector Project 1. It did not consider Defendants’
more-recently announced reprogramming and subsequent diversion of funds for border barrier construction
for the El Centro Sector Project and Tucson Sector Projects 1-3, pending further development of the record as
to those projects. See id. at 12. To fund these projects, Defendants again invoked Section 8005, as well as
DoD’s “special transfer authority under section 9002 of
the Department of Defense Appropriations Act, 2019,
and section 1512 of the John S. McCain National Defense Authorization Act for Fiscal Year 2019.” See
Dkt. No. 118-1 (“Rapuano Second Decl.”) ¶ 7. Defendants’ Section 9002 authority, however, is subject to Section 8005’s limitations. See Department of Defense Appropriations Act, 2019, Pub. L. No. 115-245, § 9002, 132
Stat. 2981, 3042 (2018) (providing that “the authority provided in this section is in addition to any other transfer
authority available to the Department of Defense and is
subject to the same terms and conditions as the authority provided in section 8005 of this Act”); see also Defs.’
Mot. at 10 n.4 (acknowledging that Section 9002 is subject to Section 8005’s requirements). Because Defendants agree that all such authority is subject to Section
8005’s substantive requirements, the Court refers to these
requirements collectively by reference to Section 8005.
In their pending motion, “Defendants acknowledge
that the Court previously rejected [their] arguments
planned use of such reprogrammed funds failed multiple other Section 8005 requirements. The Court similarly does not consider
the “higher priority item” requirement here.

179a
about the proper interpretation of § 8005 in its [preliminary injunction] order.” Defs.’ Mot. at 10. Defendants contend that the Court’s findings were wrong for
two reasons: (1) “Plaintiffs fall outside the zone of interests of § 8005 and thus cannot sue to enforce it”; and
(2) “DoD has satisfied the requirements set forth in
§ 8005.” Id. at 10-13. But Defendants here offer no
evidence or argument that was not already considered
in the Court’s preliminary injunction order. For example, Defendants continue to argue that under Lexmark
International, Inc. v. Static Control Components, Inc.,
572 U.S. 118 (2014), the zone-of-interests test applies to
Plaintiffs’ claims. Compare Opp. at 10, with Dkt. No.
64 at 14-15. And the Court continues to find that the
test has no application in an ultra vires challenge, which
operates outside of the APA framework, and the Court
incorporates here its prior reasoning on this point. PI
Order at 29-30.
Defendants also continue to assert that DoD did not
transfer funds for an item previously denied by Congress and that the transfer was for an “unforeseen” requirement. Compare Opp. at 11-13, with Dkt. No. 64
at 16-18. But Defendants again present no new evidence or argument for why the Court should depart
from its prior decision, and it will not. The Court thus
stands by its prior finding that Defendants’ proposed interpretation of the statute is unreasonable, and agrees
with Plaintiffs that Defendants’ intended reprogramming of funds under Section 8005—and necessarily under Section 9002 as well—to the Section 284 account for
border barrier construction is unlawful. See PI Order
at 31-42. Because no new factual or legal arguments
persuade the Court that its analysis in the preliminary

180a
injunction order was wrong, Plaintiffs’ likelihood of success on the merits has ripened into actual success. The
Court accordingly GRANTS Plaintiffs’ request for declaratory judgment that such use of funds reprogrammed under Sections 8005 and 9002 for El Paso Sector Project 1, Yuma Sector Project 1, El Centro Sector
Project, and Tucson Sector Projects 1-3 is unlawful. 6
Turning to Section 284, the Court finds that it need
not determine whether Plaintiffs are entitled to declaratory judgment that Defendants’ invocation of Section
284 is also unlawful. When a party requests declaratory judgment, “the question in each case is whether the
facts alleged, under all the circumstances, show that
there is a substantial controversy, between parties having adverse legal interests, of sufficient immediacy and
reality to warrant the issuance of a declaratory judgment.” Md. Cas. Co. v. Pac. Coal & Oil Co., 312 U.S.
270, 273 (1941). Having determined that Defendants’
proposed reprogramming of funds under Sections 8005
and 9002 is unlawful, no immediate adverse legal interests warrant a declaratory judgment concerning Section
284. Defendants acknowledge that all of the money
they plan to spend on border barrier construction under
Section 284 is money transferred into the relevant account under Sections 8005 and 9002. See Dkt. No. 131
at 4. Given this acknowledgment, the Court’s ruling as

Plaintiffs’ motion seeks a broader declaratory judgment that any
use of reprogrammed funds for border barrier construction, even
outside of these particular sectors, is unlawful. See Mot. at 23-24.
Given that Defendants have not yet authorized any border barrier
construction outside of the contested sectors, the Court declines to
issue such a declaratory judgment.
6

181a
to Sections 8005 and 9002 obviates the need to independently assess the lawfulness of Defendants’ invocation of Section 284.
2.

NEPA

Separate and apart from whether Defendants’ invocations of Sections 8005, 9002, and 284 to fund border
barrier construction conform with respective statutory
requirements, Plaintiffs seek a declaratory judgment
deeming unlawful Defendants’ failure to comply with
NEPA before pursuing such construction. See, e.g.,
Pls.’ Mot. at 24. Plaintiffs acknowledge that they present identical arguments previously raised and rejected
by the Court in its preliminary injunction order. See
id. at 18 n.3. Presented with no new evidence or argument that was not already considered in the Court’s preliminary injunction order, the Court continues to find
that the pertinent waivers issued by DHS are dispositive of the NEPA claims, for the reasons detailed in the
Court’s previous order. See PI Order at 46-48.
B.

INJUNCTIVE RELIEF

It is a well-established principle of equity that a permanent injunction is appropriate when: (1) a plaintiff
will “suffer[] an irreparable injury” absent an injunction; (2) available remedies at law are “inadequate;” (3)
the “balance of hardships” between the parties supports
an equitable remedy; and (4) the public interest is “not
disserved.” eBay Inc. v. MercExchange, LLC, 547 U.S.
388, 391 (2006). Defendants do not dispute that available remedies at law are inadequate. The Court thus
only considers the remaining factors.

182a
1.

Plaintiffs Have Shown They Will Suffer
Irreparable Harm Absent a Permanent Injunction.

Plaintiffs contend that absent an order permanently
enjoining the contemplated border barrier construction
in the areas designated El Paso Sector 1, Yuma Sector
1, El Centro Sector, and Tucson Sectors 1-3, its members “will suffer irreparable harm to their recreational
and aesthetic interests.” Mot. at 20-22. The Court
agrees and finds that Plaintiffs have shown that they
will suffer irreparable harm to their members’ aesthetic
and recreational interests in the identified areas absent
injunctive relief. As the Court previously noted, it is
well-established in the Ninth Circuit that an organization can demonstrate irreparable harm by showing that
the challenged action will injure its members’ enjoyment
of public land. See PI Order at 49. And Plaintiffs here
provide declarations from their members detailing how
Defendants’ proposed use of funds reprogrammed under Sections 8005 and 9002 will harm their ability to recreate in and otherwise enjoy public land along the border. See Pls.’ Mot. at 21-22 (citing Dkt. No. 168-1 Ex.
1 (Bevins Decl.) ¶ 7; id. Ex. 2 (Del Val Decl.) ¶¶ 9-10; id.
Ex. 3 (Bixby Decl.) ¶ 6; id. Ex. 4 (Munro Decl.) ¶¶ 9, 11;
id. Ex. 5 (Walsh Decl.) ¶¶ 12, 15; id. Ex. 6 (Evans Decl.)
¶ 8; id. Ex. 7 (Armenta Decl.) ¶¶ 6-8; id. Ex. 8 (Ramirez
Decl.) ¶¶ 5, 8; id. Ex. 9 (Hartmann Decl.) ¶¶ 8, 9; id. Ex.
10 (Hudson Decl.) ¶¶ 10-11; id. Ex. 11 (Dahl Decl.) ¶ 8;
id. Ex. 13 (Gerrodette Decl.) ¶¶ 6, 8; id. Ex. 14 (Case
Decl.) ¶¶ 10-12; id. Ex. 17 (Tuell Decl.) ¶¶ 7, 10; Ex. 18
(Ardovino Decl.) ¶ 6).
Defendants do not contest the truthfulness of Plaintiffs’ declarants’ assertions that the challenged border

183a
barrier construction will harm their recreational interests. Defendants instead contend that Plaintiffs’ alleged recreational harms are insufficient because even
with the proposed border barrier construction, Plaintiffs’ members have plenty of other space to enjoy. See
Defs.’ Mot. at 21-22. In their words, border barrier
construction “will not impact land uses in the thousands
of acres surrounding the limited project areas, where
the forms of recreation Plaintiffs enjoy will remain possible.” Id. at 22. Defendants’ argument—unsupported
by any case law—proves too much. See All. for Wild
Rockies v. Cottrell, 632 F.3d 1127, 1135 (9th Cir. 2011)
(holding this argument’s “logical extension is that a plaintiff can never suffer irreparable injury resulting from
environmental harm in [one] area as long as there are
other areas [] that are not harmed”). Given that Plaintiffs’ declarants’ characterization of the harm they will
suffer is undisputed as a factual matter, the result under
Ninth Circuit law is that Plaintiffs have shown they will
suffer irreparable harm absent a permanent injunction.
2.

Balance of Hardships and Public Interest
Support a Permanent Injunction

The parties agree that the Court should consider the
balance of the equities and public interest factors together, because the government is a party to the case.
See Pls.’ Mot. at 22; Defs.’ Mot. at 23-24; see also Drakes
Bay Oyster Co. v. Jewell, 747 F.3d 1073, 1092 (9th Cir.
2014). As they did at the preliminary injunction stage,
Defendants here contend that these factors tilt in their
favor because the Government has a strong interest in
border security. Defs.’ Br. at 23. Defendants also contend that an injunction would “permanently deprive

184a
DoD of its authorization to use the funds at issue to complete the projects, because the funding will lapse at the
end of the fiscal year” and that DoD will “incur unrecoverable fees and penalties” while construction is suspended. Id. at 23-24.
As the Court explained in its preliminary injunction
order, the Ninth Circuit has recognized that “the public
has a ‘weighty’ interest ‘in efficient administration of the
immigration laws at the border,’ ” and the Court does
not minimize this interest. See E. Bay Sanctuary Covenant v. Trump, 909 F.3d 1219, 1255 (9th Cir. 2018)
(quoting Landon v. Plasencia, 459 U.S. 21, 34 (1982)).
But “the public also has an interest in ensuring that statutes enacted by their representatives are not imperiled
by executive fiat.” Id. (internal quotation marks and
brackets omitted). And the Court notes that Congress
considered all of Defendants’ proffered needs for border
barrier construction, weighed the public interest in such
construction against Defendants’ request for taxpayer
money, and struck what it considered to be the proper
balance—in the public’s interest—by making available
only $1.375 billion in funding, which was for certain border barrier construction not at issue here. See Consolidated Appropriations Act of 2019, Pub. L. No. 116-6,
§ 230(a)(1), 133 Stat. 13, 28 (2019). Most important,
Defendants overlook that these factors are informed by
the Court’s finding that Defendants do not have the purported statutory authority to reprogram and use funds
for the planned border barrier construction. Absent
such authority, Defendants’ position on these factors
boils down to an argument that the Court should not enjoin conduct found to be unlawful because the ends justify the means. No case supports this principle.

185a
Because the Court finds Defendants’ proposed use of
funds reprogrammed under Sections 8005 and 9002 unlawful, the Court finds that the balance of hardships and
public interest favors Plaintiffs, and counsels in favor of
a permanent injunction.
C.

Certification for Appeal

Finally, Defendants request that the Court certify
this judgment for appeal under Rule 54(b). Appellate
courts generally only have jurisdiction to hear appeals
from final orders. See 28 U.S.C. § 1291. Rule 54(b)
allows for a narrow exception to this final judgment rule,
permitting courts to “direct entry of a final judgment as
to one or more, but fewer than all, claims or parties only
if the court expressly determines that there is no just
reason for delay.” Entry of judgment under Rule 54(b)
thus requires: (1) a final judgment; and (2) a determination that there is no just reason for delay of entry.
See Pakootas v. Teck Cominco Metals, Ltd., 905 F.3d
565, 574 (9th Cir. 2018) (quoting Curtiss-Wright Corp. v.
Gen. Elec. Co., 446 U.S. 1, 7-8 (1980)).
1.

Finality of Judgment

A final judgment is “a decision upon a cognizable
claim for relief ” that is “an ultimate disposition of an individual claim entered in the course of a multiple claims
action.” Curtiss-Wright Corp., 446 U.S. at 7 (citing
Sears, Roebuck & Co. v. Mackey, 351 U.S. 427 (1956)).
The Court finds this requirement satisfied because the
Court’s award of partial summary judgment in this order is “an ultimate disposition” of Plaintiffs’ claims related to Defendants’ purported reliance on Sections
8005, 9002, and 284 for border barrier construction.

186a
2.

No Just Reason for Delay

As the Ninth Circuit has explained, “[j]udgments under Rule 54(b) must be reserved for the unusual case in
which the costs and risks of multiplying the number of
proceedings and of overcrowding the appellate docket
are outbalanced by pressing needs of the litigants for an
early and separate judgment as to some claims or parties.” Morrison-Knudsen Co. v. Archer, 655 F.2d 962,
965 (9th Cir. 1981). Accordingly, an explanation of
findings “should include a determination whether, upon
any review of the judgment entered under the rule, the
appellate court will be required to address legal or factual issues that are similar to those contained in the
claims still pending before the trial court.” Id. at 965.
“The greater the overlap the greater the chance that
[the Court of Appeals] will have to revisit the same facts
—spun only slightly differently—in a successive appeal.” Wood v. GCC Bend, LLC, 422 F.3d 873, 882 (9th
Cir. 2005). “[P]lainly, sound judicial administration
does not require that Rule 54(b) requests be granted routinely.” Id. at 879 (internal quotation marks omitted).
The Court finds there is no just reason for delay under the circumstances. In their motion, Defendants
contend that “[t]he legal and factual issues do not ‘intersect and overlap’ with the outstanding claims in this
case, which focus on separate statutory authorities, and
final judgment on these claims will not result in piecemeal appeals on the same sets of facts.” Defs.’ Mot. at
25. The Court agrees. Whether Defendants’ actions
comport with the statutory requirements of Sections
8005 and 9002 and whether Defendants’ actions comport
with the remaining statutory requirements related to
outstanding claims are distinct inquiries, largely based

187a
on distinct law. The Court also recognizes that Defendants’ appeal of the Court’s preliminary injunction
order is currently pending before the Court of Appeals,
which recently issued an order holding the briefing on
that appeal in abeyance pending this order. See Sierra
Club v. Trump, No. 19-16102 (9th Cir. 2019), ECF Nos.
65-66. This suggests to the Court that the Court of Appeals agrees that “sound judicial administration” is best
served by the Court certifying this judgment for appeal,
in light of the undisputedly significant interests at stake
in this case. See Wood, 422 F.3d at 879.
III. CONCLUSION

For the foregoing reasons, the Court GRANTS IN
PART and DENIES IN PART Plaintiffs’ motion for partial summary judgment and DENIES Defendants’ mo-

tion for partial summary judgment. Specifically, the
Court GRANTS Plaintiffs’ request for declaratory judgment that Defendants’ intended use of funds reprogrammed under Sections 8005 and 9002 of the Department of Defense Appropriations Act, 2019, for border
barrier construction in El Paso Sector 1, Yuma Sector 1,
El Centro Sector, and Tucson Sectors 1-3, is unlawful.
The Court DENIES Plaintiffs’ request for declaratory
judgment concerning Defendants’ (1) invocation of Sections 8005 and 9002 beyond these sectors, (2) invocation
of Section 284, and (3) compliance with NEPA.
The terms of the permanent injunction are as follows 7: Defendants Mark T. Esper, in his official capacity
as Acting Secretary of Defense, Kevin K. McAleenan, in
The Court finds that an injunction against the President personally is not warranted here. See Cty. of Santa Clara, 250 F. Supp.
3d at 549-40.
7

188a
his official capacity as Acting Secretary of Homeland
Security, Steven T. Mnuchin, in his official capacity as
Secretary of the Department of the Treasury, and all
persons acting under their direction, are enjoined from
taking any action to construct a border barrier in the
areas Defendants have identified as El Paso Sector 1,
Yuma Sector 1, El Centro Sector, and Tucson Sectors 13 using funds reprogrammed by DoD under Sections
8005 and 9002 of the Department of Defense Appropriations Act, 2019.
The Clerk is directed to enter final judgment in favor
of Plaintiffs and against Defendants with respect to Defendants’ purported reliance on Sections 8005, 9002, and
284 to fund border barrier construction. This judgment
will be certified for immediate appeal pursuant to Rule
54(b) of the Federal Rules of Civil Procedure.
Last, for these reasons and those set out in the
Court’s May 30, 2019 order, the Court declines Defendants’ request to stay the injunction pending appeal.
See Dkt. No. 152.
IT IS SO ORDERED.

Dated:

6/28/2019
/s/ HAYWOOD S. GILLIAM, JR.
HAYWOOD S. GILLIAM, JR.
United States District Judge

189a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA

Case No. 19-cv-00872-HSG
STATE OF CALIFORNIA, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, ET AL., DEFENDANTS
Filed:

June 28, 2019

ORDER GRANTING IN PART AND DENYING IN
PART PLAINTIFFS’ MOTION FOR PARTIAL
SUMMARY JUDGMENT, DENYING DEFENDANTS’
MOTION FOR PARTIAL SUMMARY JUDGMENT,
AND CERTIFYING JUDGMENT FOR APPEAL
Re: Dkt. Nos. 176, 182

Pending before the Court are cross-motions for partial summary judgment filed by Plaintiff States California and New Mexico, and Defendants Donald J. Trump,
in his official capacity as President of the United States;
the U.S. Department of Defense (“DoD”); Mark T. Es-

190a
per, in his official capacity as Acting Secretary of Defense 1; Ryan D. McCarthy, in his official capacity as Acting Secretary of the Army 2; Richard V. Spencer, in his
official capacity as Secretary of the Navy; Heather Wilson, in her official capacity as Secretary of the Air
Force; the U.S. Department of the Treasury; Steven T.
Mnuchin, in his official capacity as Secretary of the Department of the Treasury; the U.S. Department of the
Interior; David Bernhardt, in his official capacity as Secretary of the Interior 3; the U.S. Department of Homeland Security (“DHS”); and Kevin K. McAleenan, in his
official capacity as Acting Secretary of Homeland Security, 4 briefing for which is complete. Dkt. Nos. 176
(“Pls.’ Mot.”), 182 (“Defs.’ Mot.”), 183 (“Pls.’ Reply”).
The only issue presently before the Court concerns Defendants’ intended reprogramming of funds under Sections 8005 and 9002 of the Department of Defense Appropriations Act, 2019, Pub. L. No. 115-245, 132 Stat.
2981 (2018), and subsequent use of such funds under 10
U.S.C. § 284 (“Section 284”) for border barrier construction. 5

Acting Secretary Esper is automatically substituted for former
Acting Secretary Patrick M. Shanaham. See Fed. R. Civ. P. 25(d).
2
Acting Secretary McCarthy is automatically substituted for former Secretary Esper. See Fed. R. Civ. P. 25(d).
3
Secretary Bernhardt was named in his then-capacity as Acting
Secretary, but was subsequently confirmed as Secretary by the
U.S. Senate on April 11, 2019.
4
Acting Secretary McAleenan is automatically substituted for
former Secretary Kirstjen M. Nielsen. See Fed. R. Civ. P. 25(d).
5
The relevant background for this motion is essentially unchanged
since the Court’s preliminary injunction orders in this and the related case, Sierra Club v. Trump, No. 4:19-cv-00892-HSG (N.D.
1

191a
After carefully considering the parties’ arguments,
the Court GRANTS IN PART and DENIES IN PART
Plaintiffs’ motion, and DENIES Defendants’ motion. 6
The Court also certifies this judgment for immediate appeal pursuant to Rule 54(b) of the Federal Rules of Civil
Procedure.
I.

LEGAL STANDARD

Summary judgment is proper when a “movant shows
that there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a). A fact is “material” if it
“might affect the outcome of the suit under the governing law.” Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248 (1986). And a dispute is “genuine” if there is
evidence in the record sufficient for a reasonable trier of
fact to decide in favor of the nonmoving party. Id.
But in deciding if a dispute is genuine, the court must
view the inferences reasonably drawn from the materials in the record in the light most favorable to the nonmoving party, Matsushita Elec. Indus. Co. v. Zenith
Radio Corp., 475 U.S. 574, 587-88 (1986), and “may not
weigh the evidence or make credibility determinations,”
Freeman v. Arpaio, 125 F.3d 732, 735 (9th Cir. 1997),
overruled on other grounds by Shakur v. Schriro, 514
F.3d 878, 884-85 (9th Cir. 2008). If a court finds that
Cal.). The Court thus incorporates in full here the factual background and statutory framework as set forth in the preliminary injunction order in the related case. See Order, Sierra Club v. Trump,
No. 4:19-cv-00892-HSG (N.D. Cal. May 24, 2019), ECF No. 144.
6
In light of the extended oral argument regarding these issues
at the preliminary injunction hearing, see Dkt. No. 159, the Court
finds these matters appropriate for disposition without oral argument and the matters are deemed submitted, see Civil L.R. 7-1(b).

192a
there is no genuine dispute of material fact as to only a
single claim or defense or as to part of a claim or defense, it may enter partial summary judgment. Fed.
R. Civ. P. 56(a).
The parties agree that the issue presently before the
Court is properly resolved on their cross-motions for
partial summary judgment. Pls.’ Mot. at 9; Defs.’ Mot.
at 9.
II.

DISCUSSION

In their motion, Plaintiffs request that the Court (1)
enter final judgment in their favor declaring unlawful
Defendants’ transfer of Fiscal Year 2019 appropriated
funds to the DoD’s Section 284 account and those funds’
subsequent use for border barrier construction; and (2)
enjoin such unlawful use of funds. Pls.’ Mot. at 1. Defendants’ motion seeks a final determination that their
intended use of funds under Sections 8005, 9002, and 284
for border barrier construction is lawful. Defs.’ Mot.
at 2. Defendants also request that the Court certify
this judgment for appeal under Rule 54(b). Id. at 2425.
A.

Declaratory Relief

Plaintiffs seek a declaratory judgment finding unlawful Defendants’ (1) reprogramming of funds under Sections 8005 and 9002, and (2) use of those funds for border
barrier construction under Section 284. See Pls.’ Mot.
at 1. Plaintiffs contend that Defendants’ actions “(1)
are ultra vires; (2) violate the United States Constitution’s separation of powers principles, including the Appropriations and Presentment Clauses; and (3) violate
the Administrative Procedure Act (APA).” Id.

193a
Starting with Section 8005, the Court previously held
that Plaintiffs were likely to succeed on their arguments
that Defendants’ intended reprogramming of funds under Section 8005 to the Section 284 account to fund border barrier construction in El Paso Sector 1 is unlawful.
In particular, the Court found that Plaintiffs were likely
to show that (1) the item for which funds are requested
has been denied by Congress; (2) the transfer is not
based on “unforeseen military requirements”; and (3)
accepting Defendants’ proposed interpretation of Section 8005’s requirements would raise serious constitutional questions. 7 Dkt. No. 165 (“PI Order”) at 13-24.
The Court previously only considered Defendants’
reprogramming and subsequent use of funds for border
barrier construction for El Paso Sector Project 1. It
did not consider Defendants’ more-recently announced
reprogramming and subsequent diversion of funds for
border barrier construction for the El Centro Sector
Project, pending further development of the record as
to this project. See id. at 13 n.9. To fund this project,
Defendants again invoked Section 8005, as well as DoD’s
“special transfer authority under section 9002 of the Department of Defense Appropriations Act, 2019, and section 1512 of the John S. McCain National Defense Authorization Act for Fiscal Year 2019.” See Dkt. No.
118-1 (“Rapuano Second Decl.”) ¶ 7. Defendants’ Section 9002 authority, however, is subject to Section 8005’s
The Court did not consider whether Defendants’ reprogramming of funds was for a “higher priority item”—an independently
necessary requirement under Section 8005—because Defendants’
planned use of such reprogrammed funds failed multiple other Section 8005 requirements. The Court similarly does not consider the
“higher priority item” requirement here.
7

194a
limitations. See Department of Defense Appropriations Act, 2019, Pub. L. No. 115-245, § 9002, 132 Stat.
2981, 3042 (2018) (providing that “the authority provided in this section is in addition to any other transfer
authority available to the Department of Defense and is
subject to the same terms and conditions as the authority provided in section 8005 of this Act”); see also Defs.’
Mot. at 9 n.3 (acknowledging that Section 9002 is subject
to Section 8005’s requirements). Because Defendants
agree that all such authority is subject to Section 8005’s
substantive requirements, the Court refers to these requirements collectively by reference to Section 8005.
In their pending motion, “Defendants acknowledge
that the Court previously rejected [their] arguments
about the proper interpretation of § 8005 in its [preliminary injunction order].” Defs.’ Mot. at 9. Defendants
contend that the Court’s findings were wrong for two
reasons: (1) “Plaintiffs fall outside the zone of interests of § 8005 and thus cannot sue to enforce it”; and (2)
“DoD has satisfied the requirements set forth in § 8005.”
Id. at 9-12. But Defendants here offer no evidence or
argument that was not already considered in the Court’s
preliminary injunction order. For example, Defendants
continue to argue that under Lexmark International,
Inc. v. Static Control Components, Inc., 572 U.S. 118
(2014), the zone-of-interests test applies to Plaintiffs’
claims. Compare Opp. at 9-10, with Dkt. No. 89 at 1819. And the Court continues to find that the test has
no application in an ultra vires challenge, which operates outside of the APA framework, and the Court incorporates here its prior reasoning on this point. PI
Order at 11-12.

195a
Defendants also continue to assert that DoD did not
transfer funds for an item previously denied by Congress and that the transfer was for an “unforeseen” requirement. Compare Opp. at 10-11, with Dkt. No. 89
at 19-20. But Defendants again present no new evidence or argument for why the Court should depart
from its prior decision, and it will not. The Court thus
stands by its prior finding that Defendants’ proposed interpretation of the statute is unreasonable, and agrees
with Plaintiffs that Defendants’ intended reprogramming of funds under Section 8005—and necessarily under Section 9002 as well—to the Section 284 account for
border barrier construction is unlawful. See PI Order
at 13-24. Because no new factual or legal arguments
persuade the Court that its analysis in the preliminary
injunction order was wrong, Plaintiffs’ likelihood of success on the merits has ripened into actual success. The
Court accordingly GRANTS Plaintiffs’ request for declaratory judgment that such use of funds reprogrammed under Sections 8005 and 9002 for El Paso Sector Project 1 and El Centro Sector Project is unlawful. 8
Turning to Section 284, the Court finds that it need
not determine whether Plaintiffs are entitled to declaratory judgment that Defendants’ invocation of Section
284 is also unlawful. When a party requests declaratory judgment, “the question in each case is whether the
facts alleged, under all the circumstances, show that
Plaintiffs’ motion seeks a declaratory judgment that any use of
reprogrammed funds for border barrier construction is unlawful as
(1) ultra vires; (2) unconstitutional, and (3) in violation of the APA.
Given that the Court determines Defendants’ use of such funds is
ultra vires, which resolves Plaintiffs’ claim concerning such use of
funds, the Court declines to issue a broader declaratory judgment.
8

196a
there is a substantial controversy, between parties having adverse legal interests, of sufficient immediacy and
reality to warrant the issuance of a declaratory judgment.” Md. Cas. Co. v. Pac. Coal & Oil Co., 312 U.S.
270, 273 (1941). Having determined that Defendants’
proposed reprogramming of funds under Sections 8005
and 9002 is unlawful, no immediate adverse legal interests warrant a declaratory judgment concerning Section
284. Defendants acknowledge that all of the money
they plan to spend on border barrier construction under
Section 284 is money transferred into the relevant account under Sections 8005 and 9002. See Dkt. No. 151
at 4. Given this acknowledgment, the Court’s ruling as
to Sections 8005 and 9002 obviates the need to independently assess the lawfulness of Defendants’ invocation of Section 284.
B.

INJUNCTIVE RELIEF

It is a well-established principle of equity that a permanent injunction is appropriate when: (1) a plaintiff
will “suffer[] an irreparable injury” absent an injunction; (2) available remedies at law are “inadequate;” (3)
the “balance of hardships” between the parties supports
an equitable remedy; and (4) the public interest is “not
disserved.” eBay Inc. v. MercExchange, LLC, 547
U.S. 388, 391 (2006). Defendants do not dispute that
available remedies at law are inadequate. The Court
thus need only consider the remaining factors. But because the Court finds that Plaintiffs have not established irreparable injury—an independently necessary
burden for Plaintiffs—the Court does not consider the
balance of hardships and public interest factors.
Plaintiffs present two theories of irreparable injury:
(1) that California and New Mexico will be irreparably

197a
harmed by their inability to enforce state laws concerning the protection of environmental and natural resources; and (2) that border barrier construction will
harm California and New Mexico’s animals and plants.
See Pls.’ Mot. at 19-24.
The Court begins with Plaintiffs’ second theory.
With respect to the El Centro Sector Project, California
contends that border barrier construction will threaten
various animal and plant species. Pls.’ Mot. at 21-22.
Of particular concern to California is that construction
in this sector potentially could hinder the migration of
Peninsular bighorn sheep across the southern border
and that pregnant ewes might be scared away by construction activities. Id. But Plaintiffs’ supporting
declarations do not indicate that Defendants’ challenged
action poses the requisite “threat of future demonstrable harm to a protected species.” See PI Order at 31.
To start, Plaintiffs only contend that Peninsular bighorn
sheep have crossed the southern border “west of the
project area,” and that pregnant ewe populations may
seek a critical area “adjacent” to the project site. Pls’
Mot. at 21-22. In other words, Plaintiffs do not even
allege that the protected species crosses the southern
border where the challenged construction would occur.
Finally, as to the potential disturbance caused by construction activities, Plaintiffs only allege that pregnant
ewes may be “adversely affected.” Id. But reference
to a tenuous adverse effect is insufficient to explain why
temporary construction would pose a threat of demonstrable harm to the species. All told, California has
failed to carry its burden of presenting evidence that the

198a
challenged action would pose a threat of future demonstrable harm to the Peninsular bighorn sheep. 9
New Mexico similarly fails to prove a threat of future
demonstrable harm. With respect to the El Paso Sector Project, New Mexico primarily contends that construction might hamper repopulation efforts of the Mexican wolf because genetic interchange benefits the species. See Pls.’ Mot. at 23-24. As an initial matter, the
Court has some doubt that New Mexico’s purported interest in the international travels of a few animals between its state and another sovereign nation could ever
justify a permanent injunction against the U.S. government. But even setting that aside, New Mexico only
identifies two instances of Mexican wolves crossing the
border, one of which returned to Mexico, and neither of
which Plaintiffs contend are known to have bred with
Mexican wolves on the other side of the border. Id. at
23. New Mexico’s speculation that a border barrier
might prevent interbreeding, which might hamper genetic diversity, which might render Mexican wolves
more susceptible to diseases falls far short of the neces-

California’s other purported harms to its wildlife are similarly
unavailing. It is not enough, for example, for California to argue
that construction could possibly disrupt plant life or harm Flattailed horned lizards and burrowing owls, especially when Defendants present evidence that relevant agencies regularly implement
mitigation measures that successfully prevent such harm. See
Defs.’ Mot. at 21-22.
9

199a
sary demonstrable evidence of harm to a protected species, and thus does not entitle New Mexico to a permanent injunction. 10
Turning to Plaintiffs’ first theory, the crux of the parties’ dispute concerns whether Defendants’ issuance of
IIRIRA waivers related to the challenged border barrier construction projects nullifies the States’ interest in
enforcing their laws concerning the protection of the environment. Defendants contend that California and
New Mexico cannot establish irreparable injury to their
enforcement of state laws because the IIRIRA waivers
set aside all such legal requirements, such that California and New Mexico lack a legal interest capable of being irreparably harmed. See Defs.’ Mot. at 19-20; see
also Determination Pursuant to Section 102 of the Illegal Immigration Reform and Immigrant Responsibility
Act of 1996, as Amended, 84 Fed. Reg. 17,185-01 (Apr.
24, 2019) (waiving state laws related to the El Paso Sector Project); Determination Pursuant to Section 102 of
the Illegal Immigration Reform and Immigrant Responsibility Act of 1996, as Amended, 84 Fed. Reg. 21,800
(May 15, 2019) (waiving state laws related to the El Centro Sector Project); REAL ID Act of 2005, Pub. L. No.
109-13, § 102, 119 Stat. 231, 306 (May 11, 2005) (amending Section 102(c) to reflect that the Secretary “ha[s] the
authority to waive all legal requirements” that, in the
“Secretary’s sole discretion,” are “necessary to ensure
expeditious construction” of barriers and roads). Plaintiffs counter that the waivers’ effectiveness depends on

New Mexico’s purported harm to other wildlife from construction activity fails for the same reasons that California’s similar allegations fail. See supra note 9.
10

200a
Defendants first having authority to use funds in a certain manner. See Pls.’ Reply at 12-13. As Plaintiffs
put it, “without the funds to proceed with construction,
[an] IIRIRA waiver is meaningless.” Id. at 12.
Whether the relevant waivers deprive states of their
sovereign interests in enforcing state laws for purposes
of an irreparable injury analysis, or merely deprive
states of their ability to bring suit to vindicate those interests, is unclear as a legal matter. The Court need
not resolve this issue, however, because whether or not
the border barrier construction at issue in this order
could harm California and New Mexico’s sovereign interests, the contested use of funds for such construction
will not occur in the absence of injunctive relief. This
is because the Court has permanently enjoined the relevant Defendants in the related action from proceeding
with such construction. See Order at 10, Sierra Club v.
Trump, No. 4:19-cv-00892-HSG (N.D. Cal. June 28,
2019), ECF No. 185 (permanently enjoining the use of
reprogrammed funds for border barrier construction for
El Paso Sector Project 1 and the El Centro Sector Project). Accordingly, no irreparable harm to California
and New Mexico will result from the denial (without
prejudice) of their duplicative requested injunction.
C.

Certification for Appeal

Finally, Defendants request that the Court certify
this judgment for appeal under Rule 54(b). Appellate
courts generally only have jurisdiction to hear appeals
from final orders. See 28 U.S.C. § 1291. Rule 54(b) allows for a narrow exception to this final judgment rule,
permitting courts to “direct entry of a final judgment as
to one or more, but fewer than all, claims or parties only
if the court expressly determines that there is no just

201a
reason for delay.” Entry of judgment under Rule 54(b)
thus requires: (1) a final judgment; and (2) a determination that there is no just reason for delay of entry.
See Pakootas v. Teck Cominco Metals, Ltd., 905 F.3d
565, 574 (9th Cir. 2018) (quoting Curtiss-Wright Corp. v.
Gen. Elec. Co., 446 U.S. 1, 7-8 (1980)).
1.

Finality of Judgment

A final judgment is “a decision upon a cognizable
claim for relief ” that is “an ultimate disposition of an individual claim entered in the course of a multiple claims
action.” Curtiss-Wright Corp., 446 U.S. at 7 (citing
Sears, Roebuck & Co. v. Mackey, 351 U.S. 427 (1956)).
The Court finds this requirement satisfied because the
Court’s award of partial summary judgment in this order is “an ultimate disposition” of Plaintiffs’ claims related to Defendants’ purported reliance on Sections
8005, 9002, and 284 for border barrier construction.
2.

No Just Reason for Delay

As the Ninth Circuit has explained, “[j]udgments under Rule 54(b) must be reserved for the unusual case in
which the costs and risks of multiplying the number of
proceedings and of overcrowding the appellate docket
are outbalanced by pressing needs of the litigants for an
early and separate judgment as to some claims or parties.” Morrison-Knudsen Co. v. Archer, 655 F.2d 962,
965 (9th Cir. 1981). Accordingly, an explanation of
findings “should include a determination whether, upon
any review of the judgment entered under the rule, the
appellate court will be required to address legal or factual issues that are similar to those contained in the
claims still pending before the trial court.” Id. at 965.
“The greater the overlap the greater the chance that

202a
[the Court of Appeals] will have to revisit the same
facts—spun only slightly differently—in a successive
appeal.” Wood v. GCC Bend, LLC, 422 F.3d 873, 882
(9th Cir. 2005). “[P]lainly, sound judicial administration does not require that Rule 54(b) requests be
granted routinely.”
Id. at 879 (internal quotation
marks omitted).
The Court finds there is no just reason for delay under the circumstances. In their motion, Defendants
contend that “[t]he legal and factual issues do not ‘intersect and overlap’ with the outstanding claims in this
case, which focus on separate statutory authorities, and
final judgment on these claims will not result in piecemeal appeals on the same sets of facts.” Defs.’ Mot. at
25. The Court agrees. Whether Defendants’ actions
comport with the statutory requirements of Sections
8005 and 9002 and whether Defendants’ actions comport
with the remaining statutory requirements related to
outstanding claims are distinct inquiries, largely based
on distinct law. The Court also recognizes that Defendants’ appeal of the Court’s preliminary injunction
order in the related case, Sierra Club v. Trump, is currently pending before the Court of Appeals, which recently issued an order holding the briefing on that appeal in abeyance pending partial summary judgment orders. See Sierra Club v. Trump, No. 19-16102 (9th Cir.
2019), ECF Nos. 65-66. This suggests to the Court
that the Court of Appeals agrees that “sound judicial administration” is best served by the Court certifying this
judgment for appeal, in light of the undisputedly significant interests at stake in this case. See Wood, 422
F.3d at 879.

203a
III. CONCLUSION

For the foregoing reasons, the Court GRANTS IN
PART and DENIES IN PART Plaintiffs’ motion for partial summary judgment and DENIES Defendants’ motion for partial summary judgment. Specifically, the
Court GRANTS Plaintiffs’ request for declaratory judgment that Defendants’ intended use of funds reprogrammed under Sections 8005 and 9002 of the Department of Defense Appropriations Act, 2019, for border
barrier construction in El Paso Sector 1 and El Centro
Sector is unlawful. The Court DENIES Plaintiffs’ requests for (1) any broader declaratory judgment, and (2)
a permanent injunction.
The Clerk is directed to enter final judgment in favor
of Plaintiffs and against Defendants with respect to Defendants’ purported reliance on Sections 8005, 9002, and
284 to fund border barrier construction. This judgment will be certified for immediate appeal pursuant to
Rule 54(b) of the Federal Rules of Civil Procedure.
IT IS SO ORDERED.

Dated:

6/28/2019
/s/ HAYWOOD S. GILLIAM, JR.
HAYWOOD S. GILLIAM, JR.
United States District Judge

204a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Nos. 19-16102, 19-16300
D.C. No. 4:19-cv-00892-HSG
Northern District of California, Oakland
SIERRA CLUB; SOUTHERN BORDER COMMUNITIES
COALITION, PLAINTIFFS-APPELLEES
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES; ET AL,
DEFENDANTS-APPELLANTS
Nos. 19-16299, 19-16336
D.C. No. 4:19-cv-00872-HSG
Northern District of California, Oakland
STATE OF CALIFORNIA; ET AL., PLAINTIFFS-APPELLEES
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES; ET AL,
DEFENDANTS-APPELLANTS
[Filed:

July 15, 2019]
ORDER

Before: CLIFTON, N.R. SMITH, and FRIEDLAND, Circuit Judges.

205a
We grant Defendants’ Unopposed Motion to Consolidate Appeals and Establish Briefing Schedule. Appeal
Nos. 19-16102, 19-16300, 19-16299, and 19-16336 are consolidated.
In accordance with Defendants’ proposed briefing
schedule: Defendants’ opening brief is due July 31,
2019. Sierra Club Case plaintiffs’ response brief, and
States Case plaintiffs’ response brief and opening brief
on cross-appeal, are due August 30, 2019. Defendants’
reply brief and response brief to States Case plaintiffs’
cross-appeal is due September 20, 2019. States Case
plaintiffs’ reply brief on cross-appeal is due October 11,
2019.
We request that the parties promptly inform this
Court of any developments affecting this appeal. In
particular, if there are developments that may moot any
or all of the issues, this Court should be notified immediately.

206a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Nos. 19-16102, 19-16300
D.C. No. 4:19-cv-00892-HSG
Northern District of California, Oakland
SIERRA CLUB; SOUTHERN BORDER COMMUNITIES
COALITION, PLAINTIFFS-APPELLEES
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES; ET AL.,
DEFENDANTS-APPELLANTS
[Filed:

July 3, 2019]

ORDER

Before: CLIFTON, N.R. SMITH, and FRIEDLAND, Circuit Judges.
Order by Judges CLIFTON and FRIEDLAND
Dissent by Judge N.R. SMITH
CLIFTON and FRIEDLAND, Circuit Judges:
This emergency proceeding arises from a challenge
to a decision by the President and certain of his cabinet
members (collectively, “Defendants”) 1 to “reprogram”
When federal officials are parties to litigation, we usually refer
to them collectively as “the Government.” That terminology seems
1

207a
funds appropriated by Congress to the Department of
Defense (“DoD”) for Army personnel needs and to redirect those funds toward building a barrier along portions of our country’s southern border.
This reprogramming decision was made after President Trump had repeatedly sought appropriations from
Congress for the construction of a border barrier.
Although Congress provided some funding for those
purposes, it consistently refused to pass any measures
that met the President’s desired funding level, creating
a standoff that led to a 35-day partial government shutdown. The President signed the budget legislation that
ended the shutdown, but he then declared a national
emergency and pursued other means to get additional
funding for border barrier construction beyond what
Congress had appropriated. One of those means, and
the one at issue in this emergency request for a stay,
was a reprogramming of funds by DoD in response to a
request by the Department of Homeland Security
(“DHS”).
Specifically, DoD relied on section 8005 of the Department of Defense Appropriations Act of 2019 and related provisions to reprogram approximately $2.5 billion, moving the funds from DoD to DHS, for the purpose of building border barriers in certain locations
inapt in this proceeding given that the question before us is whether
the Executive Branch of the federal government is attempting to exercise authority that is allocated by the Constitution to the Legislative Branch of the federal government, and whether the Executive
Branch is doing so without authorization from the Legislative Branch.
And the House of Representatives, which is part of the Legislative
Branch, has filed an amicus brief opposing the Executive Branch’s
position. To avoid confusion, we therefore refer to the President
and the cabinet members sued here collectively as “Defendants.”

208a
within Arizona, California, and New Mexico. Section
8005 authorizes the Secretary of Defense to transfer
funds for military purposes if the Secretary determines
that the transfer is “for higher priority items, based on
unforeseen military requirements” and “the item for
which funds are requested has [not] been denied by the
Congress.” Pub. L. No. 115-245, § 8005, 132 Stat. 2981,
2999 (2018) (hereinafter “section 8005”).
The Sierra Club and the Southern Border Communities Coalition (collectively, “Plaintiffs”) sued Defendants to enjoin the reprogramming and the funds’ expenditure. They argued that the requirements of section 8005 had not been satisfied and that the use of the
funds to build a border barrier was accordingly unsupported by any congressional appropriation and thus unconstitutional. A federal district court agreed with
Plaintiffs and enjoined Defendants from using reprogrammed funds to construct a border barrier. Defendants now move for an emergency stay of the district
court’s injunction.
To rule on Defendants’ motion, we consider several
factors, including whether Defendants have shown that
they are likely to succeed on the merits of their appeal,
the degree of hardship to each side that would result
from a stay or its denial, and the public interest in granting or denying a stay.
We conclude, first, that Defendants are not likely to
succeed on the merits of their appeal. The Appropriations Clause of the Constitution provides that “No Money
shall be drawn from the Treasury, but in Consequence
of Appropriations made by Law.” U.S. Const. art I.,
§ 9, cl. 7. Defendants assert that, through section 8005,

209a
Congress authorized DoD to reprogram the funds at issue. We agree with Plaintiffs, however, that the requirements of section 8005 have not been met. Specifically, the need for which the funds were reprogrammed
was not “unforeseen,” and it was an item for which funds
were previously “denied by the Congress.” Defendants
do not argue that their contrary interpretation of section 8005 is entitled to any form of administrative deference, and we hold that no such deference would be appropriate in any event.
Because section 8005 did not authorize DoD to reprogram the funds—and Defendants do not and cannot argue that any other statutory or constitutional provision
authorized the reprogramming—the use of those funds
violates the constitutional requirement that the Executive Branch not spend money absent an appropriation
from Congress.
Defendants contend that these Plaintiffs are unlikely
to prevail because they lack a cause of action through
which to challenge the reprogramming. We disagree.
Plaintiffs either have an equitable cause of action to enjoin a constitutional violation, or they can proceed on
their constitutional claims under the Administrative
Procedure Act, or both. To the extent any zone of interests test were to apply to Plaintiffs’ constitutional
claims, we hold that it would be satisfied here.
Considering the remaining factors relevant to Defendants’ request for a stay—the degree of hardship
that may result from a stay or its denial, and the public
interest at stake—we are not persuaded that a stay
should be entered. There is a strong likelihood that
Plaintiffs will prevail in this litigation, and Defendants

210a
have a correspondingly low likelihood of success on appeal. As for the public interest, we conclude that it is
best served by respecting the Constitution’s assignment
of the power of the purse to Congress, and by deferring
to Congress’s understanding of the public interest as reflected in its repeated denial of more funding for border
barrier construction. We therefore hold that a stay of
the district court’s order granting Plaintiffs an injunction is not warranted.
I.

Factual & Procedural Background

President Trump has made numerous requests to
Congress for funding for construction of a barrier on the
U.S.-Mexico border. In his proposed budget for Fiscal
Year 2018, for example, the President requested $2.6
billion for border security, including “funding to plan,
design, and construct a physical wall along the southern
border.” Office of Mgmt. & Budget, Exec. Office of the
President, Budget of the United States Government,
Fiscal Year 2018, at 18 (2017). Congress partially
obliged, allocating in the 2018 Consolidated Appropriations Act $1.571 billion for border fencing, “border barrier planning and design,” and the “acquisition and deployment of border security technology.” Consolidated
Appropriations Act, 2018, Pub. L. No. 115-141, div. F, tit.
II, § 230(a), 132 Stat. 348, 616 (2018). Throughout 2018,
House and Senate lawmakers introduced numerous bills
that would have authorized or appropriated additional
billions for border barrier construction. Specifically,
Congress considered and rejected the Securing America’s Future Act of 2018, H.R. 4760, 115th Cong. § 1111
(2018) (instructing the Secretary of Homeland Security
to take necessary actions to build a physical barrier on

211a
the southern border); the Border Security and Immigration Reform Act of 2018, H.R. 6136, 115th Cong. § 5101
(2018) (appropriating $16.625 billion for a border wall);
the American Border Act, H.R. 6415, 115th Cong. § 4101
(2018) (same); the Fund and Complete the Border Wall
Act, H.R. 6657, 115th Cong. § 2 (2018) (creating a “Secure the Southern Border Fund” for appropriations for
border barrier construction); the Build the Wall, Enforce the Law Act of 2018, H.R. 7059, 115th Cong. § 9
(2018) (again, appropriating $16.625 billion for a “border
wall system”); the 50 Votes for the Wall Act, H.R. 7073,
115th Cong. § 2 (2018) (establishing a “Border Wall and
Security Trust Fund” of up to $25 billion to “construct a
wall (including physical barriers and associated detection technology, roads, and lighting)” along the U.S.Mexico border); and the WALL Act of 2018, S. 3713,
115th Cong. § 2 (2018) (appropriating $25 billion for the
construction of a border wall). Lawmakers spent
countless hours considering these various proposals, but
none ultimately passed.
The situation reached an impasse in December 2018.
During negotiations with Congress over an appropriations bill to fund various parts of the federal government
for the remainder of the fiscal year, the President announced his unequivocal position that “any measure that
funds the government must include border security.”
C-SPAN, Farm Bill Signing (Dec. 20, 2018), https://
www.cspan.org/video/?456189-1/president-governmentfunding-bill-include-moneyborder-wall. He declared that
he would not sign any funding bill that did not allocate
substantial funding for a physical barrier on the U.S.Mexico border. Erica Werner et al., Trump Says He
Won’t Sign Senate Deal to Avert Shutdown, Demands
Funds for Border Security, Wash. Post (Dec. 21, 2018),

212a
https://wapo.st/2EIpkHu?tid=ss_tw&utm_term=.6e7c
259f6857 (“Werner et al.”). The President also stated
that he was willing to declare a national emergency and
use other mechanisms to get the money he desired if
Congress refused to allocate it. Remarks by President
Trump in Meeting with Senate Minority Leader Chuck
Schumer and House Speaker-Designate Nancy Pelosi,
The White House (Dec. 11, 2018, 11:40 A.M.), https://www.
whitehouse.gov/briefings-statements/remarks-presidenttrump-meeting-senate-minority-leader-chuck-schumerhouse-speaker-designate-nancy-pelosi/. On December
20, 2018, the House of Representatives passed a continuing resolution that allocated $5.7 billion in border barrier funding. H.R. 695, 115th Cong. § 141 (2018)
(“[T]here is appropriated for ‘U.S. Customs and Border
Protection—Procurement, Construction, and Improvements’ $5,710,357,000 for fiscal year 2019.”). But the
Senate rejected the bill. The President could not reach
an agreement with lawmakers on whether the spending
bill would include border barrier funding, triggering
what would become the nation’s longest partial government shutdown. Werner et al., supra; Mihir Zaveri
et al., The Government Shutdown Was the Longest
Ever. Here’s the History., N.Y. Times (Jan. 25, 2019),
https://nyti.ms/2RATHG9.
On January 6, 2019, during the shutdown, the President “request[ed] $5.7 billion for construction of a steel
barrier for the Southwest border” in a letter to the Senate Committee on Appropriations, explaining that the
request “would fund construction of a total of approximately 234 miles of new physical barrier,” including in
the top ten priority areas in the Border Security Improvement Plan created by Customs and Border Protection (“CBP”). Letter from Russell T. Vought, Acting

213a
Dir. of the Office of Mgmt. and Budget, to Richard Shelby,
Chairman of the Senate Comm. on Appropriations (Jan.
6, 2019). This represented a $4.1 billion increase over
the President’s February 2018 request for $1.6 billion
for the Fiscal Year 2019 budget, which had been for the
construction of “65 miles of border wall in south Texas.”
Office of Mgmt. & Budget, Exec. Office of the President,
Budget of the U.S. Government, Fiscal Year 2019, 58
(2018).
After 35 days, the government shutdown ended without an agreement providing increased border barrier
funding. Remarks Delivered by President Trump on
the Government Shutdown (Jan. 25, 2019), https://www.
whitehouse.gov/briefings-statements/remarks-presidenttrump-government-shutdown/. Congress passed and
the President signed a stopgap spending measure to reopen for three weeks the parts of the Government that
had been shut down. H.R.J. Res. 28, 116th Cong.
(2019). But the President made clear that he still intended to build a border barrier, with or without funding
from Congress. As the Acting White House Chief of
Staff explained, the President was prepared to both reprogram money and declare a national emergency to obtain a total sum “well north of $5.7 billion.” Gregg Re,
Border Wall Talks Break Down Ahead of Second Possible Government Shutdown, Fox News (Feb. 10, 2019),
https://fxn.ws/2SmNK0I.
Congress passed the Consolidated Appropriations
Act of 2019 (“CAA”) on February 14, 2019, which included the Department of Homeland Security Appropriations Act for Fiscal Year 2019. Pub. L. No. 116-6, div.
A, 133 Stat. 13 (2019). The CAA appropriated only
$1.375 billion of the $5.7 billion the President had sought

214a
in border barrier funding and specified that the $1.375
billion was “for the construction of primary pedestrian
fencing . . . in the Rio Grande Valley Sector.” Id. §
230(a)(1), 133 Stat. at 28. Congress also imposed several limitations on the use of those funds, including by
not allowing construction within certain wildlife refuges
and parks. Id. § 231, 133 Stat. at 28.
The President signed the CAA into law the following
day. Statement by the President, The White House
(Feb. 15, 2019), https://www.whitehouse.gov/briefingsstatements/statement-by-the-president-28/. He concurrently issued a proclamation under the National Emergencies Act, 50 U.S.C. §§ 1601-1651, “declar[ing] that a
national emergency exists at the southern border of the
United States.” Proclamation No. 9844, 84 Fed. Reg.
4949 (Feb. 15, 2019) (“Proclamation No. 9844”).
Proclamation No. 9844 described “a border security
and humanitarian crisis that threatens core national security interests” because the border served as a major
entry point for criminals, gang members, and illicit narcotics and the number of family units entering the
United States had recently increased. Id. It declared
that this “emergency situation” necessitated support
from the Armed Forces. Id. The proclamation made
available to DoD “the construction authority provided
in” 10 U.S.C. § 2808, which is limited to presidential declarations “that require[] use of the armed forces,” id.
§ 2808(a).
An accompanying White House Fact Sheet explained
that the President was “using his legal authority to take
Executive action to secure additional resources” to build
a border barrier. President Donald J. Trump’s Border
Security Victory, The White House (Feb. 15, 2019), https://

215a
www.whitehouse.gov/briefings-statements/presidentdonald-j-trumps-border-security-victory/. It continued:
“Including funding in Homeland Security appropriations, the Administration has so far identified up to $8.1
billion that will be available to build the border wall once
a national emergency is declared and additional funds
have been reprogrammed.” Id. The fact sheet specifically identified three funding sources: (1) “[a]bout
$601 million from the Treasury Forfeiture Fund,” 31
U.S.C. § 9705(a); (2) “[u]p to $2.5 billion under the Department of Defense [reprogrammed] funds transferred
[to DHS] for Support for Counterdrug Activities” pursuant to 10 U.S.C. § 284 (“section 284”); 2 and (3) “[u]p
to $3.6 billion reallocated from [DoD] military construction projects under the President’s declaration of a national emergency” pursuant to 10 U.S.C. § 2808 (“section 2808”), which provides that the Secretary of Defense may authorize military construction projects
whenever the President declares a national emergency
that requires use of the armed forces. Id.

Title 10, Chapter 15 of the U.S. Code describes various forms of
military support for civilian law enforcement agencies. Within that
chapter, section 284 authorizes the Secretary of Defense to “provide
support for the counterdrug activities . . . of any other department or agency of the Federal Government” if it receives a request
from “the official who has responsibility for the counterdrug activities.” 10 U.S.C. §§ 284(a), 284(a)(1)(A). The statute permits, among
other things, support for “[c]onstruction of roads and fences and installation of lighting to block drug smuggling corridors across international boundaries of the United States.” Id. § 284(b)(7). DoD’s
provision of support for other agencies pursuant to section 284 does
not require the declaration of a national emergency.
2

216a
The House and Senate adopted a joint resolution terminating the President’s declaration of a national emergency pursuant to Congress’s authority under 50 U.S.C.
§ 1622(a)(1). H.R.J. Res. 46, 116th Cong. (2019). The
President vetoed the joint resolution, Veto Message to
the House of Representatives for H.J. Res. 46, The White
House (Mar. 15, 2019), https://www.whitehouse.gov/
briefings-statements/veto-message-house-representativesh-j-res-46/, and a vote in the House to override the veto
fell short of the required two-thirds majority, 165 Cong.
Rec. H2799, H2814-15 (2019).
Almost immediately, executive branch agencies began to use the funds identified in Proclamation 9844 for
border barrier construction. The same day the President issued the proclamation, the Department of the
Treasury approved DHS’s December 2018 request to
use treasury forfeiture funds to enhance border security
infrastructure, providing up to $601 million in funding. 3
Letter from David F. Eisner, Assistant Sec’y for Mgmt.,
U.S. Dep’t of the Treasury, to the House and Senate Appropriations Comms.’ Subcomms. on Fin. Servs. & Gen.
Gov’t (Feb. 15, 2019). Then, on February 25, DHS submitted a request to DoD for assistance, pursuant to section 284, with construction of fences, roads, and lighting
within eleven drug-smuggling corridors identified by
DHS along the border. Memorandum re: Request for
Assistance Pursuant to 10 U.S.C. § 284 from Christina
The three funding sources the White House had identified were
to “be used sequentially and as needed.” President Donald J. Trump’s
Border Security Victory, The White House (Feb. 15, 2019). In
other words, the government first began spending the treasury forfeiture funds, followed by DoD funding reprogrammed under section
8005 and transferred to DHS pursuant to section 284, and finally
military construction funds reallocated under section 2808.
3

217a
Bobb, Exec. Sec’y, DHS, to Capt. Hallock N. Mohler,
Jr., Exec. Sec’y, DoD, (Feb. 25, 2019). In response to
that request, on March 25, the Acting Secretary of Defense, Patrick Shanahan, approved the transfer of up to
$1 billion in funds from DoD to DHS for the three highest priority drug-smuggling corridors: the Yuma Sector Project 1 and Yuma Sector Project 2 in Arizona, and
the El Paso Sector Project 1 in New Mexico. 4 Letter
from Patrick M. Shanahan, Acting Sec’y of Def., DoD, to
Kirstjen Nielsen, Sec’y of Homeland Sec., DHS (Mar.
25, 2019).
To fund the approved projects, Shanahan invoked
section 8005 of the Department of Defense Appropriations Act of 2019 and section 1001 of the John S. McCain
National Defense Authorization Act (“NDAA”) for Fiscal Year 2019 to “reprogram” approximately $1 billion
from Army personnel funds to the counter-narcotics
support budget, which Shanahan asserted then made
those funds available for transfer to DHS pursuant to
section 284. Section 8005 authorizes the Secretary of
Defense to transfer up to $4 billion “of working capital
funds of the Department of Defense or funds made available in this Act to the Department of Defense for military functions (except military construction).” The
Secretary must first determine that “such action is necessary in the national interest” and obtain approval from
the White House Office of Management and Budget.
Section 8005 further provides that the authority to
transfer may only be used “for higher priority items,
based on unforeseen military requirements, than those
The U.S. Army Corps of Engineers, which is tasked with initial
project scoping and construction, has since decided not to fund or
construct Yuma Project 2 under § 284.
4

218a
for which originally appropriated and in no case where
the item for which funds are requested has been denied
by the Congress.” 5 It also imposes a “prompt[]” congressional notification requirement for all transfers
made under its authority. Reprogramming of funds
under section 8005 does not require the declaration of a
national emergency.
A memo from Shanahan asserted that the statutory
requirements for reprogramming under section 8005
had been met: that the items to be funded were a higher
priority than the Army personnel funds; that the need
to provide support for the Yuma and El Paso Projects
was “an unforeseen military requirement not known at
the time of the FY 2019 budget request”; and that support for construction of the border barrier in these areas
“ha[d] not been denied by Congress.” Memorandum
re: Funding Construction in Support of the Department
of Homeland Security Pursuant to 10 U.S.C. § 284 from
Patrick M. Shanahan, Acting Sec’y of Def., DoD, to Under Sec’y of Def. (Comptroller)/Chief Fin. Officer (Mar.
25, 2019). Specifically, DoD concluded that “Army personnel funds were available for transfer because expenditures for service member pay and compensation, retirements benefits, food, and moving expenses through
the end of fiscal year 2019 [would] be lower than originally budgeted.” As required by section 8005, Shanahan also formally notified Congress of the reprogramming authorization, explaining that the reprogrammed

Equivalent language restricting the circumstances in which reprogramming is permitted has been included in defense appropriations statutes since 1974. See Pub. L. No. 93-238, § 735, 87 Stat.
1026, 1044 (1974); H.R. Rep. No. 93-662, at 16 (1973).
5

219a
funds were “required” so that DoD could provide DHS
the support it requested under section 284. 6
The next day, both the House Committee on Armed
Services and the House Committee on Appropriations
formally disapproved of DoD’s section 8005 reprogramming. The Armed Services Committee wrote in a letter
to DoD that it “denie[d] this [reprogramming] request,”
and that the committee “[did] not approve the proposed
use of Department of Defense funds to construct additional physical barriers and roads or install lighting in
the vicinity of the United States border.” Letter from
Adam Smith, Chairman of the U.S. House of Representatives Comm. on Armed Servs., to David L. Norquist,
Under Sec’y of Def., Comptroller, and Chief Fin. Officer
(Mar. 26, 2019). The Appropriations committee similarly denied the reprogramming request. Letter from
Peter J. Visclosky, Chairman of the Def. Subcomm. of
the U.S. House of Representatives Comm. on Appropriations (Mar. 26, 2019).
Officials at DoD and DHS pressed forward with
reprogramming-enabled border barrier construction
plans. In early April, DoD awarded contracts for work
in the Yuma and El Paso Project areas, and the agencies
began environmental planning and consultation. Contracts for Apr. 9, 2019, U.S. Dep’t of Def. (Apr. 9, 2019),
https://dod.defense.gov/News/Contracts/Contract-View/
Article/1809986/.
DoD had previously adhered to a “gentlemen’s agreement” with
Congress where it sought approval from the relevant committees before reprogramming funds, rather than simply notifying them after
the decision had been finalized. House Armed Services Committee
Holds Hearing on Fiscal 2020 Defense Authorization, CQ Cong.
Transcripts (Mar. 26, 2019).
6

220a
Meanwhile, Shanahan reported on May 8 that DoD
and DHS had secured funding for DHS to build about
256 miles of border barrier using both treasury forfeiture funds and reprogrammed monies. Acting Defense
Secretary Shanahan Testimony on Fiscal Year 2020
Budget Request (C-SPAN May 8, 2019), https://www.
c-span.org/video/?460437-1/acting-defensesecretaryshanahan-testifies-2020-budget-request. DoD also reported selecting twelve companies to compete for up to
$5 billion worth of border barrier construction contracts. Contracts for May 8, 2019, U.S. Dep’t of Def.
(May 8, 2019), https://dod.defense.gov/News/Contracts/
Contract-View/Article/1842189/. On May 9, Shanahan
invoked section 8005 and section 1001 of the NDAA again
—along with related reprogramming provisions, section
9002 of the Department of Defense Appropriations Act
of 2019 and section 1512 of the NDAA 7—to authorize an
additional $1.5 billion in reprogramming to fund four
Section 9002 of the Department of Defense Appropriations Act
of 2019 authorizes the Secretary of Defense to transfer up to $2 billion between the appropriations or funds made available to DoD if
he determines “that such action is necessary in the national interest”
and obtains approval from the Office of Management and Budget.
Pub. L. No. 115-245, § 9002, 132 Stat 2981, 3042 (2018). Section
9002 “is subject to the same terms and conditions as the authority
provided in section 8005.” Id. Section 1512 of the NDAA likewise
provides a special transfer authority for up to $3.5 billion upon determination that it is “necessary in the national interest,” and, under
section 1001 of the NDAA, is subject to identical terms and conditions as 8005. Pub. L. No. 115-232, § 1512, 132 Stat. 1636, 2096
(2018). Because it is uncontested that all of these reprogramming
provisions are subject to section 8005’s requirements, we refer to
these requirements collectively by reference to section 8005. See
Order Granting in Part and Denying in Part Plaintiffs’ Motion for
Partial Summary Judgment, Sierra Club v. Trump, No. 19-cv-00892HSG, 2019 WL 2715422, at *2 (N.D. Cal. June 28, 2019).
7

221a
more projects. Memorandum re: Additional Support
to the Dep’t of Homeland Security from Patrick M. Shanahan, Acting Sec’y of Def., DoD (May 9, 2019). The
new projects, El Centro Project 1 and Tucson Sector Projects 1, 2, and 3, are located in California and Arizona.
Around the same time, the President indicated that he
expected to approve additional projects using funds authorized by the national emergency declaration pursuant to section 2808, although no concrete action has been
taken in that regard. See White House Memorandum
on Sequencing of Border Barrier Construction Authorities (Mar. 4, 2019).
On February 19, 2019, the Sierra Club and Southern
Border Communities Coalition filed a lawsuit against
Donald J. Trump, in his official capacity as President of
the United States; Patrick M. Shanahan, in his official
capacity as Acting Secretary of Defense; Kirstjen M.
Nielsen, in her official capacity as Secretary of Homeland Security; and Steven Mnuchin, in his official capacity as Secretary of the Treasury (collectively, “Defendants,” see supra n.1). 8 This lawsuit followed closely on
the heels of a related action brought by a coalition of
states against the same group of Defendants and others.
Plaintiffs are two nonprofit organizations who sued
on behalf of themselves and their members. The Sierra
Club is dedicated to enjoyment of the outdoors and environmental protection, and it engages in advocacy and
public education on issues such as habitat destruction,
land use, and the human and environmental impact of
The current Acting Secretary of Defense, Mark Esper, has been
automatically substituted for Shanahan. The current Acting Secretary of Homeland Security, Kevin K. McAleenan, has been automatically substituted for Nielsen.
8

222a
construction projects, including the proposed construction of the border barrier. SBCC is a program of Alliance San Diego that brings together organizations from
California, Arizona, New Mexico, and Texas to promote
policies aimed at improving the quality of life in border
communities, including border enforcement and immigration reform policies.
Plaintiffs’ operative Complaint alleges that Defendants exceeded the scope of their constitutional and statutory authority by spending money in excess of what
Congress allocated for border security; that Defendants’ actions violated separation of powers principles as
well as the Appropriations Clause and Presentment
Clause of the Constitution; and that Defendants failed
to comply with the National Environmental Policy Act
(“NEPA”), 42 U.S.C. § 4321 et seq. Plaintiffs also allege that Defendants are acting ultra vires (without authority) in seeking to divert funding without statutory
authority to do so.
Plaintiffs allege that Defendants’ use of the reprogrammed funds would injure their members because the
noise of construction, additional personnel, visual blight,
and negative ecological effects that would accompany a
border barrier and its construction would detract from
their ability to hike, fish, enjoy the desert landscapes,
and observe and study a diverse range of wildlife in areas near the U.S.-Mexico border. Plaintiffs also allege
that they participated in the legislative process by “devot[ing] substantial staff and other resources towards
legislative advocacy leading up to the appropriations bill
passed by Congress in February 2019, specifically directed towards securing Congress’s denial of substan-

223a
tial funding to the border wall.” The Complaint requests declaratory and permanent injunctive relief to
prevent construction of the border barrier using the
funding at issue in the lawsuit.
On April 4, Plaintiffs filed a motion for a preliminary
injunction, asking the district court to enter a “preliminary injunction prohibiting Defendants and all persons
associated with them from taking action to build a border wall using funds or resources from the Defense Department; and specifically enjoining construction of the
wall segments in the . . . ‘Yuma Sector Projects 1
and 2 and El Paso Sector Project 1 [areas].’ ” In particular, Plaintiffs moved to enjoin Defendants from using
DoD’s reprogramming authority in section 8005 to
transfer funds from Army personnel into the counterdrug appropriations line, from subsequently using
section 284 to divert those funds from DoD’s counterdrug appropriations line to be used by DHS for border
barrier construction, from invoking section 2808 to divert funds appropriated to military construction projects, and from taking any further action before complying with NEPA’s procedural requirements. Plaintiffs
argued that a preliminary injunction was necessary because Defendants had already diverted funds, and that
Plaintiffs would be irreparably harmed if Defendants
proceeded with their threatened construction during the
pendency of the district court proceedings. After receiving briefing from both sides, the district court held
a multiple-hour hearing on May 17, 2019.
On May 24, the district court issued an order granting the motion in part and denying it in part. Sierra
Club v. Trump, No. 4:19-cv-00892-HSG, 2019 WL 2247689

224a
(N.D. Cal. May 24, 2019). After concluding that Plaintiffs had standing to bring their challenge, the district
court held that Plaintiffs were entitled to a preliminary
injunction with respect to the section 8005 reprogramming authority because they would likely succeed in arguing that Defendants acted ultra vires, they had
demonstrated that they would be irreparably harmed,
and the balance of equities weighed in their favor. Id.
at *13-23, *27-28, *29. The court declined to rule on
Plaintiffs’ likelihood of success on their section 2808 arguments, however, because Defendants had not yet disclosed a plan for diverting funds under that authority.
Id. at *25, *28-29. Finally, the court concluded that
Plaintiffs were unlikely to succeed on their NEPA argument. Id. at *26. It accordingly granted the following
preliminary injunction:
Defendants Patrick M. Shanahan, in his official
capacity as Acting Secretary of Defense, Kevin K.
McAleenan, in his official capacity as Acting Secretary of Homeland Security, Steven T. Mnuchin, in his
official capacity as Secretary of the Department of
the Treasury, and all persons acting under their direction, are enjoined from taking any action to construct a border barrier in the areas Defendants have
identified as Yuma Sector Project 1 and El Paso Sector Project 1 using funds reprogrammed by DoD under Section 8005 of the Department of Defense Appropriations Act, 2019.
Id. at 30. 9

The district court simultaneously denied the motion for a preliminary injunction in the related case brought by states, explaining
that there was no likelihood of irreparable injury once it had granted
9

225a
Defendants filed a motion in the district court to stay
the preliminary injunction pending appeal. The district court denied that motion, concluding that Defendants were unlikely to prevail on the merits and that the
“request to proceed immediately with the enjoined construction would not preserve the status quo” but rather
would “effectively moot [Plaintiffs’] claims.” Sierra
Club v. Trump, No. 4:19-cv-00892-HSG, 2019 WL 2305341,
at *1 (N.D. Cal. May 30, 2019).
On June 3, 2019, Defendants filed an emergency motion with this court requesting a stay pending appeal.
Defendants implored our court to act as quickly as possible because they were incurring daily fees and penalties from contractors due to the suspension of construction and because, if the injunction remained in place, Defendants would need to begin the process of reprogramming the funds again by the end of June or else face the
risk of being deprived of the use of those funds entirely. 10
Initial briefing on the stay motion was completed on
June 14, and we heard oral argument on June 20. On
June 24, we requested supplemental briefing from the
parties on issues that arose during oral argument but
the injunction in the Sierra Club case. See State v. Trump, No.
4:19-cv-00872-HSG, 2019 WL 2247814, at *17 (N.D. Cal. May 24,
2019).
10
We note that Defendants did not file any motion to expedite the
appeal itself, and as explained below, actually filed a motion to delay
the expedited briefing schedule our court had issued for the preliminary injunction appeal, asking us to let the parties wait until after
further anticipated decisions in the district court and our court’s decision on their stay motion to propose a new briefing schedule that
could govern “any” full appeal.

226a
that had not been briefed. That briefing was completed
on June 28.
Meanwhile, proceedings continued in the district
court. On May 29, Plaintiffs filed a motion for a supplemental preliminary injunction to block the additional
planned construction in California and Arizona using
funds reprogrammed under sections 8005 and 9002 of
the Department of Defense Appropriations Act of 2019,
as well as section 1512 of the 2019 NDAA. Plaintiffs
acknowledged that the motion “present[ed] virtually
identical legal questions regarding whether the proposed plan for funding border barrier construction exceeds the Executive Branch’s lawful authority” to the
ones that the court had decided in its May 24 order
granting in part Plaintiffs’ motion for a preliminary injunction. On June 12, 2019, Plaintiffs moved for partial
summary judgment, seeking a permanent injunction
based on the same arguments made in their initial and
supplemental motions for a preliminary injunction. Defendants cross-moved for summary judgment, resting
on the same arguments they had made against the preliminary injunction. Briefing on those motions was
completed on June 24.
On June 28, the district court issued an order granting in part and denying in part Plaintiffs’ motion for partial summary judgment, and denying Defendants’ crossmotion for partial summary judgment. Sierra Club v.
Trump, No. 4:19-cv-00892-HSG, 2019 WL 2715422 (N.D.
Cal. June 28, 2019). In that order, the court issued a
permanent injunction prohibiting Defendants from using reprogrammed funds to construct a border barrier
in the El Paso and Yuma Sectors (the subject of the initial preliminary injunction) as well as the more recently-

227a
announced El Centro and Tucson Sector areas (the subject of the motion for a supplemental preliminary injunction). 11 Id. at *6. The district court concluded that
Plaintiffs’ legal challenge was meritorious, that Plaintiffs had shown that they would suffer irreparable harm
absent a permanent injunction, and that the balance of
hardships and the public interest supported a permanent injunction. Id. at *4-5. The court heeded Defendants’ request to certify the judgment for immediate
appeal, see Fed. R. Civ. P. 54(b), and it denied Defendants’ request to stay the injunction pending appeal. Id.
at *5-6.
Defendants filed an immediate notice of appeal from
that decision. At Defendants’ request, we consolidated
their new appeal with the pending appeal of the preliminary injunction. Defendants now seek a stay of the
permanent injunction pending appeal, resting on the

The terms of the permanent injunction are identical to those of
the preliminary injunction, but it also covers funds reprogrammed
under sections 8005 and 9002 for construction in the El Centro and
Tucson sectors. In full, the permanent injunction states:
11

Defendants Mark T. Esper, in his official capacity as Acting
Secretary of Defense, Kevin K. McAleenan, in his official capacity as Acting Secretary of Homeland Security, Steven T.
Mnuchin, in his official capacity as Secretary of the Department of the Treasury, and all persons acting under their direction, are enjoined from taking any action to construct a border
barrier in the areas Defendants have identified as El Paso Sector 1, Yuma Sector 1, El Centro Sector, and Tucson Sectors 13 using funds reprogrammed by DoD under Sections 8005 and
9002 of the Department of Defense Appropriations Act, 2019.
Sierra Club, 2019 WL 2715422, at *6.

228a
same arguments they made about the preliminary injunction because the underlying legal questions are
identical.
II. Issues Not Before the Court

Before turning to the merits, we highlight what is not
at issue in this appeal. First, Defendants at oral argument acknowledged that they are “not challenging [Article III] standing for purposes of the stay motion.”
Thus, Defendants do not dispute that Plaintiffs have suffered an “actual or imminent,” “concrete and particularized,” “injury in fact” that is “fairly traceable” to Defendants’ actions and that will “likely” be “redressed by
a favorable decision.” Lujan v. Defs. of Wildlife, 504
U.S. 555, 560-61 (1992) (quotation marks and alterations
omitted); Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547
(2016). We have satisfied ourselves that Defendants’
assessment is correct. See Friends of the Earth, Inc. v.
Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S. 167, 180
(2000) (discussing a court’s sua sponte obligation to assure itself that it has jurisdiction before proceeding to
the merits). Plaintiffs have alleged enough to satisfy
the requirements for standing under Article III at this
stage of the litigation. Id. at 181-83 (holding that the
plaintiffs’ injuries from environmental harm were sufficient for standing).
Second, although Defendants may have access to
other funding sources to build a border barrier, the only
source at issue in this stay motion is section 8005 reprogramming. 12 The district court’s preliminary injunc-

As noted above, the parties do not contest that the related reprogramming provisions—section 9002 of the Department of Defense
12

229a
tion order discussed various other potential sources, including the Treasury Forfeiture Fund and money reallocated after a national emergency declaration for “military construction projects” under section 2808. Sierra
Club v. Trump, No. 4:19-cv-00892-HSG, 2019 WL
2247689, at *11 (N.D. Cal. May 24, 2019). The injunction, however, only concerns section 8005 reprogramming for border barrier construction in Yuma Sector
Project 1, El Paso Sector 1, El Centro Sector 1, and Tucson Sectors 1-3. We have not been asked to expand the
scope of the injunction, and the parties have not addressed in this stay motion any non-section 8005 funding
sources. Accordingly, our decision does not address
any sources of funds Defendants might use to build a
border barrier except those reprogrammed under section 8005.
Third, as the district court observed in the preliminary injunction order,
The case is not about whether the challenged border
barrier construction plan is wise or unwise. It is not
about whether the plan is the right or wrong policy
response to existing conditions at the southern border of the United States. These policy questions are
the subject of extensive, and often intense, differences of opinion, and this Court cannot and does not
express any view as to them.
Sierra Club, 2019 WL 2247689, at *1. Our consideration is limited to legal questions regarding the authority

Appropriations Act of 2019 and section 1512 of the NDAA—are subject to section 8005’s requirements. We accordingly refer to these
requirements collectively by reference to section 8005.

230a
of the Executive Branch under the Constitution and under statutes enacted into law by Congress.
III. Justiciability

Defendants have not argued that jurisdiction over
this action is lacking. Nor have they asserted that Plaintiffs’ challenge to the section 8005 reprogramming presents a nonjusticiable “political question.” They have
contended, however, that “[t]he real separation-of-powers
concern is the district court’s intrusion into the budgeting process,” which “is between the Legislative and Executive Branches—not the judiciary.” We consider,
therefore, whether it is appropriate for the courts to entertain Plaintiffs’ action in the first place. We conclude
that it is.
“Cases” and “controversies” that contain “a textually
demonstrable constitutional commitment of the issue to
a coordinate political department,” Baker v. Carr, 369
U.S. 186, 217 (1962), or “revolve around policy choices
and value determinations constitutionally committed for
resolution to the halls of Congress or the confines of the
Executive Branch,” Japan Whaling Ass’n v. Am. Cetacean Soc., 478 U.S. 221, 230 (1986), present a “narrow
exception” to our responsibility to decide cases properly
before us, Zivotofsky ex rel. Zivotofsky v. Clinton, 566
U.S. 189, 195 (2012).
Nowhere does the Constitution grant Congress the
exclusive ability to determine whether the Executive
Branch has violated the Appropriations Clause. See Office of Pers. Mgmt. v. Richmond, 496 U.S. 414, 425 (1990).
Nor does the Constitution leave the Executive Branch to
police itself. Rather, the judiciary “appropriately exercises” its constitutional function “where the question is

231a
whether Congress or the Executive is ‘aggrandizing its
power at the expense of another branch.’ ” Zivotofsky,
566 U.S. at 197 (quoting Freytag v. Comm’r, 501 U.S.
868, 878 (1991)).
The current action does not ask us to decide whether
the projects for which Defendants seek to reprogram
funds are worthy or whether, as a policy judgment,
funds should be spent on them. Instead, we are asked
whether the reprogramming of funds is consistent with
the Appropriations Clause and section 8005. That “is a
familiar judicial exercise.” Id. at 196.
Chief Justice Marshall’s answer to “whether the legality of an act of the head of a department be examinable in a court of justice” or “only politically examinable”
remains the same: “[W]here a specific duty is assigned
by law, and individual rights depend upon the performance of that duty, . . . the individual who considers
himself injured, has a right to resort to the laws of his
country for a remedy.” Marbury v. Madison, 5 U.S. (1
Cranch) 137, 165-66 (1803). Pursuant to its exclusive
power of appropriation, Congress imposed on the Executive Branch a duty—contained in section 8005—not to
transfer funds unless certain circumstances were present. As discussed above, see supra Section II, Defendants have not disputed that Plaintiffs have sufficiently
alleged injuries that satisfy Article III’s standing requirement to enable them to pursue this action. Although
“our decision may have significant political overtones,”
Japan Whaling Ass’n, 478 U.S. at 230, “courts cannot
avoid their responsibility merely ‘because the issues
have political implications,’ ” Zivotofsky, 566 U.S. at 196
(quoting INS v. Chadha, 462 U.S. 919, 943 (1983)). In

232a
sum, it is appropriate for this action to proceed in federal court.
IV. Stay Standards

We decide whether to issue a stay by considering four
factors, reiterated by the Supreme Court in Nken v.
Holder, 556 U.S. 418 (2009):
(1) whether the stay applicant has made a strong
showing that he is likely to succeed on the merits; (2)
whether the applicant will be irreparably injured absent a stay; (3) whether issuance of the stay will substantially injure the other parties interested in the
proceeding; and (4) where the public interest lies.
Id. at 434 (quoting Hilton v. Braunskill, 481 U.S. 770,
776 (1987)). The first two factors “are the most critical,” and we only reach the last two “[o]nce an applicant
satisfies the first two factors.” Id. at 434-35.
The requirement that an applicant for a stay make a
“strong showing” may be explained at least in part by
the fact that “[a] stay is not a matter of right, even if
irreparable injury might otherwise result.” Id. at 433
(quoting Virginian Ry. Co. v. United States, 272 U.S.
658, 672 (1926)). Indeed, “[a] stay is an intrusion into
the ordinary processes of administration and judicial review.” Id. at 427 (quotation marks omitted). Issuing a
stay is therefore “an exercise of judicial discretion” not
to be issued “reflexively,” but rather based on the circumstances of the particular case. Id. at 427, 433.
“The party requesting a stay bears the burden of showing that the circumstances justify an exercise of that discretion.” Id. at 433-34. Here, Defendants carry those
burdens because it is Defendants who have sought a
stay.

233a
That being said, the unusual circumstances of this
case complicate our typically restrained approach to assessing the merits in this procedural posture. When
deciding whether to issue a stay, we usually speak about
the merits in probabilistic “likelihood” terms, in part because we recognize that the “ordinary processes of administration and judicial review” best ensure “careful
review and a meaningful decision.” Id. at 427 (quotation marks omitted). Particularly given a recent increase in emergency petitions asking for injunctive relief or stays of injunctive relief, we think it is especially
important for courts to strive to follow the traditional
process of judicial review. Otherwise, we are forced to
decide “justice on the fly.” Id.
Here, however, both sides contend that we must evaluate the merits of this case now to preserve their interests
—both agree that there is no time for the “ordinary”
course of appellate review. 13 As Defendants represented in their briefing and again at oral argument, if
the injunction remains in place, DoD’s authority to
spend the remaining challenged funds on border barrier
construction, or to redirect them for other purposes, will
lapse. At the same time, as the district court noted, allowing Defendants to move forward with spending the
funds will allow construction to begin, causing immediate, and likely irreparable, harm to Plaintiffs. Sierra
The dissent suggests that we should not be analyzing the merits
at this stage because there will be a fuller appeal later. Dissent at
2 n.1. That argument depends on disbelieving Defendants’ assertions that the Executive Branch will lose its ability to spend the reprogrammed money by the beginning of July, if not earlier. To the
extent Defendants’ representations about their imminent injury are
not credible, Defendants certainly do not deserve the equitable relief
of a stay.
13

234a
Club v. Trump, No. 4:19-cv-00892-HSG, 2019 WL 2247689,
at *27-28 (N.D. Cal. May 24, 2019). In either scenario,
many of the issues in this case may become moot or
largely moot before fuller litigation of the appeal can be
completed. Accordingly, we proceed to evaluate the
merits more fully than we otherwise might in response
to a stay request. 14
V. Likelihood of Success on the Merits

In their operative Complaint, Plaintiffs framed their
claim in various ways. Plaintiffs asserted constitutional claims based on violations of separation of powers
principles, the Appropriations Clause, and the Presentment Clause; a claim that Defendants acted ultra vires;
and a statutory claim under the Consolidated Appropriations Act of 2019. 15 Because we conclude that Plaintiffs’ claim is, at its core, one alleging a constitutional
violation, we focus on that issue. More than one legal
doctrine offers Plaintiffs a cause of action to raise that
claim, and Plaintiffs’ success under each depends on
whether Defendants’ actions indeed violate the Constitution.

14
In an appeal from a district court’s grant of a permanent injunction, we may “affirm the district court on any ground supported by
the record.” Sony Computer Entm’t, Inc. v. Connectix Corp., 203
F.3d 596, 608 (9th Cir. 2000) (quoting Charley’s Taxi Radio Dispatch
Corp. v. SIDA of Haw., Inc., 810 F.2d 869, 874 (9th Cir. 1987)).
Evaluating whether Defendants have a likelihood of success on appeal therefore requires assessing whether there are clear grounds
for affirmance supported by the record.
15
Plaintiffs also separately asserted a NEPA claim. The parties
have not made any arguments about the NEPA claim in these stay
proceedings, so we do not address it.

235a
A. Plaintiffs’ Constitutional Claim

The Constitution’s Appropriations Clause provides
that “No Money shall be drawn from the Treasury, but
in Consequence of Appropriations made by Law.” U.S.
Const. art. I, § 9, cl. 7. In addition to safeguarding “the
public treasure, the common fund of all,” and providing
“a most useful and salutary check upon . . . corrupt
influence and public peculation,” it ensures that the “the
executive [does not] possess an unbounded power over
the public purse of the nation.” 3 Joseph Story, Commentaries on the Constitution of the United States
§ 1342 (Boston, Hilliard, Gray & Co. ed. 1833).
This approach to the power of the purse comported
with the Founders’ “declared purpose of separating and
dividing the powers of government,” namely “to ‘diffus[e] power the better to secure liberty.’ ” Bowsher v.
Synar, 478 U.S. 714, 721 (1986) (alteration in original)
(quoting Youngstown Sheet & Tube Co. v. Sawyer, 343
U.S. 579, 635 (1952) (Jackson, J., concurring)); see also
INS v. Chadha, 462 U.S. 919, 949-50 (1983) (collecting
sources and explaining the Founders’ belief in “the need
to divide and disperse power in order to protect liberty”). In response to critiques that his proposed Constitution would dangerously concentrate power in a single central government, James Madison argued that the
risk of abuse of such power was low because “the sword
and purse are not to be given to the same member” of
the government. 3 Debates in the Several State Conventions on the Adoption of the Federal Constitution
393 (Jonathan Elliot ed., 2d ed. 1836). Instead, Madison explained that “[t]he purse is in the hands of the representatives of the people,” who “have the appropriation
of all moneys.” Id.

236a
Plaintiffs’ principal legal theory is that Defendants
seek to spend funds for a different purpose than that for
which Congress appropriated them, thereby violating
the Appropriations Clause. 16 Defendants’ defense to
this claim is that, through section 8005, Congress allowed Defendants to make this reallocation. If Defendants were correct that section 8005 allowed this spending reallocation, Plaintiffs’ claim would fail, because the
spending would be consistent with Congress’s appropriation legislation. If section 8005 does not authorize the
reallocation, however, then Defendants are acting outside of any statutory appropriation and are therefore
spending funds contrary to Congress’s appropriations
decisions. We believe Plaintiffs are correct that there
is no statutory appropriation for the expenditures that
are the subject of the injunction. Reprogramming and
spending those funds therefore violates the Appropriations Clause.
1. Section 8005’s Meaning

Defendants argue that they are likely to prevail on
appeal because Congress has authorized DoD to reprogram funds, the planned use of funds is consistent with
that reprogramming authorization, and this spending is
therefore authorized by an appropriation from Congress
as the Appropriations Clause requires. We disagree.
DoD’s proposed expenditures are not authorized by the
Throughout this litigation, Plaintiffs’ claim has been framed in
various ways. The lack of compliance with section 8005 has sometimes been labeled ultra vires as outside statutory authority or as
outside the President’s Article II powers, and spending without an
appropriation has been described as a violation of the Appropriations Clause. However their claim is labeled, Plaintiffs’ theory is
ultimately the same.
16

237a
applicable reprogramming statute. They therefore are
not “in Consequence of Appropriations made by Law.”
U.S. Const. art. I, § 9, cl. 7.
At bottom, this constitutional issue turns on a question of statutory interpretation. Section 8005 of the
Department of Defense Appropriations Act of 2019 provides that the Secretary of Defense may reprogram
funds for certain military functions other than those for
which they were initially appropriated, but it limits the
Secretary’s ability to do so to a narrow set of circumstances. Pub. L. No. 115-245, § 8005, 132 Stat. 2981,
2999 (2018). 17 Transferred funds must address “higher

17

Section 8005 provides, in relevant part:
Upon determination by the Secretary of Defense that such action is necessary in the national interest, he may, with the approval of the Office of Management and Budget, transfer not
to exceed $4,000,000,000 of working capital funds of the Department of Defense or funds made available in this Act to the
Department of Defense for military functions (except military
construction) between such appropriations or funds or any
subdivision thereof, to be merged with and to be available for
the same purposes, and for the same time period, as the appropriation or fund to which transferred: Provided, That such
authority to transfer may not be used unless for higher priority
items, based on unforeseen military requirements, than those
for which originally appropriated and in no case where the item
for which funds are requested has been denied by the Congress
. . . Provided further, That no part of the funds in this Act
shall be available to prepare or present a request to the Committees on Appropriations for reprogramming of funds, unless
for higher priority items, based on unforeseen military requirements, than those for which originally appropriated and in no
case where the item for which reprogramming is requested has
been denied by the Congress.

238a
priority items, based on unforeseen military requirements, than those for which originally appropriated.”
Id. And “in no case” may the Secretary use the funds
“where the item for which reprogramming is requested
has been denied by the Congress.” Id. We conclude,
as Plaintiffs argue, that those requirements are not satisfied.
i.

“Unforeseen”

Plaintiffs argue that the President’s repeated and unsuccessful requests for more border barrier funding make
the request here obviously not unforeseen. Defendants
assert in response, without citation, that “[a]n expenditure is ‘unforeseen’ . . . if DoD was not aware of the
specific need when it made its budgeting requests.”
Defendants contend that DoD could not have foreseen
the “need to provide support” to DHS for border barrier
construction in the relevant sectors when it made its
budget requests for 2019, before DHS’s own budget was
even finalized.
Defendants mistakenly focus on the assertion that
DoD “could not have anticipated that DHS would request specific support for roads, fences, and lighting.”
Even assuming that is true, the fact remains that DHS
came to DoD for funds because Congress refused to
grant DHS itself those funds. And when properly viewed
as applying to the broader “requirement” of a border
wall, not to DHS’s specific need to turn to an entity other
than Congress for funds, it is not credible that DoD did
not foresee this requirement. The long history of the
President’s efforts to build a border barrier and of Congress’s refusing to appropriate the funds he requested
makes it implausible that this need was unforeseen.

239a
ii.

“Denied by the Congress”

Even if there could be doubt about how to interpret
“unforeseen,” it is clear that Congress denied this request. Because each of section 8005’s conditions must
be satisfied for DoD’s reprogramming and spending to
be constitutionally permissible, this conclusion alone undermines Defendants’ likelihood of success on the merits on appeal.
Defendants urge that “an ‘item for which funds are
requested’ ” refers to “a particular budget item” for section 8005 purposes, so “Congress’s decisions with respect to DHS’s more general request for border-wall
funding [are] irrelevant.” But this interpretation,
which would require that a specific funding request be
explicitly rejected by Congress, is not compatible with
the plain text of section 8005. First, the statute refers
to “item[s] . . . denied by the Congress,” not to funding requests denied by the Congress, suggesting that
the inquiry centers on what DoD wishes to spend the
funds on, not on the form in which Congress considered
whether to permit such spending. Second, Defendants
give the term “denied” a meaning other than its “ordinary, contemporary, and common” one. United States
v. Iverson, 162 F.3d 1015, 1022 (9th Cir. 1998). In common usage, a general denial of something requested can,
and in this case does, encompass more specific or narrower forms of that request. To illustrate, if someone
offered a new job asks her potential future employer for
a larger compensation package than was included in the
job offer and the request is denied, she has been denied
a five percent higher salary even if her request did not
specifically ask for that amount.

240a
As the district court noted, Defendants’ reading of
section 8005 also would produce the perverse result that
DoD could, by declining to present Congress with a particular line item to deny, reprogram funds for a purpose
that Congress refused to grant another agency elsewhere in the budgeting process. 18 In other words, it
would simply invite creative repackaging. But putting
a gift in different wrapping paper does not change the
gift. Identifying the request to Congress as having
come previously from DHS instead of from DoD does
not change what funding was requested for: a wall
along the southern border.
Construing section 8005 with an eye towards the ordinary and common-sense meaning of “denied,” realworld events in the months and years leading up to the
2019 appropriations bills leave no doubt that Congress
considered and denied appropriations for the border
barrier construction projects that DoD now seeks to finance using its section 8005 authority. Long before the
emergency declaration and DoD’s reprogramming at issue here, the President made plain his desire to construct a border barrier, requesting $5.7 billion from
Congress to do so. Throughout 2018, Congress considered multiple bills that would have supported construction of such a barrier; it passed none of them. See supra Section I.
That DoD never specifically requested from Congress the specific sums at issue here for the specific purpose of counterdrug funding at the southern border (and
That result would hardly comport with Congress’s stated desire
in drafting the language currently in section 8005 “to tighten congressional control of the reprogramming process.” H.R. Rep. No.
93-662, at 16 (1973).
18

241a
that Congress therefore never had cause to deny that
specific request) is of no moment. The amount to be appropriated for a border barrier occupied center stage of
the budgeting process for months, culminating in a prolonged government shutdown that both the Legislative
and Executive Branches clearly understood as hinging
on whether Congress would accede to the President’s
request for $5.7 billion to build a border barrier.
In sum, Congress considered the “item” at issue here
—a physical barrier along the entire southern border,
including in the Yuma, El Paso, Tucson, and El Centro
sectors—and decided in a transparent process subject
to great public scrutiny to appropriate less than the total amount the President had sought for that item. To
call that anything but a “denial” is not credible.
2. Defendants’ Interpretation and Agency Deference

Defendants did not argue in their briefing to the district court, their stay motion, or their supplemental briefing that their contrary interpretation of section 8005 is
entitled to agency deference. Even setting aside whether
Defendants’ failure to raise such an argument may operate as a waiver or forfeiture, we conclude that their
position is unworthy of deference when evaluated under
traditional standards for reviewing agency action.
Under the two-step framework articulated in Chevron, U.S.A., Inc. v. Natural Resources Defense Council,
Inc., 467 U.S. 837 (1984), a reviewing court will often defer to an agency’s interpretation of an ambiguous statute administered by the agency. Id. at 843. To determine whether the Chevron framework governs at all,
however, there is a threshold “step zero” inquiry in

242a
which we ask whether “it appears that Congress delegated authority to the agency generally to make rules
carrying the force of law, and [whether] the agency interpretation claiming deference was promulgated in the
exercise of that authority.” United States v. Mead
Corp., 533 U.S. 218, 226-27 (2001). “Delegation of such
authority may be shown in a variety of ways, [such] as
by an agency’s power to engage in adjudication or noticeand-comment rulemaking, or by some other indication
of a comparable congressional intent.” Id. at 227.
And to evaluate whether the agency exercised its authority, we look to “the interpretive method used and
the nature of the question at issue,” considerations that
may include “the interstitial nature of the legal question,
the related expertise of the [a]gency, the importance of
the question to administration of the statute, the complexity of that administration, and the careful consideration the [a]gency has given the question over a long period of time.” Barnhart v. Walton, 535 U.S. 212, 222
(2002). If we determine that (1) Congress did not intend to delegate interpretive authority to the agency, or
(2) that the agency did not take the challenged action in
exercise of that authority, we defer to the agency only
to the extent that the agency’s reasoning is persuasive.
Mead, 533 U.S. at 234 (citing Skidmore v. Swift & Co.,
323 U.S. 134 (1944)).
Under this framework, DoD’s current interpretation
of section 8005 is not entitled to deference. First, it
does not appear that Congress intended to delegate to
DoD the power to interpret section 8005. DoD’s authorizing and appropriating statutes do not contain an
explicit grant of rulemaking power to the agency. Section 8005 could suggest a potential congressional intent
to delegate to DoD the authority to interpret the phrase

243a
“higher priority items, based on unforeseen military requirements,” because these are subjects about which
DoD has expertise. But the same is not true of the “denied by the Congress” limitation, given that DoD has no
clear expertise in assessing what “denied by the Congress” might mean. Moreover, as discussed above, Congress’s intent in inserting the “denied by the Congress”
limitation in the first place was to tighten the fiscal reins
and retain congressional control over the appropriations
process. See supra n.18.
Second, the agency has not advanced its interpretation in a manner that would typically trigger review under Chevron. There is no question that DoD did not
conduct notice-and-comment rulemaking or other formalized procedures in interpreting section 8005. See
Mead, 533 U.S. at 230 (“[T]he overwhelming number of
our cases applying Chevron deference have reviewed
the fruits of notice-and-comment rulemaking or formal
adjudication.”). Nor were there any other features in
DoD’s interpretive process here that might otherwise
justify Chevron deference. See Barnhart, 535 U.S. at
222. There is no indication that DoD’s decision was the
product of “careful consideration . . . over a long period of time” or any other procedural rigor that would
more closely approximate a formal rulemaking. Id.
On the contrary, DoD’s interpretation appears to have
emerged in a matter of weeks. And to the extent that
DoD has mustered further support for its interpretation
during this litigation, that litigating position is not entitled to Chevron deference. Price v. Stevedoring Servs.
of Am., Inc., 697 F.3d 820, 830 (9th Cir. 2012) (en banc)
(“Without a basis in agency regulations or other binding
agency interpretations, there is usually no justification
for attributing to an agency litigating position ‘the force

244a
of law.’ ” (quoting Mead, 533 U.S. at 227)). Accordingly,
we conclude that Chevron deference to DoD’s interpretation of section 8005 is not warranted.
An agency action not entitled to Chevron deference
may nevertheless carry persuasive weight based on the
factors that the Supreme Court enumerated in Skidmore, 323 U.S. at 140. See Mead, 533 U.S. at 234-35.
Under Skidmore, we look to “the thoroughness evident
in [the agency’s] consideration, the validity of its reasoning, its consistency with earlier and later pronouncements, and all those factors which give it power to persuade.” 323 U.S. at 140.
DoD’s interpretation of section 8005 does not warrant
deference under Skidmore’s standards either. The two
documents in the record that appear to contain DoD’s
analysis of the section 8005 requirements—the official
reprogramming action and a related memorandum to
DoD’s comptroller—are entirely conclusory. The reprogramming action merely parrots the statute without
analysis:
This reprogramming action provides funding in support of higher priority items, based on unforeseen
military requirements, than those for which originally appropriated; and is determined to be necessary in the national interest. It meets all administrative and legal requirements, and none of the items
has previously been denied by the Congress.
The memorandum contains little more, stating that
“[t]he need to provide support . . . was . . . not
known at the time of the [Fiscal Year] 2019 budget request” and that Congress had not denied funding for the

245a
items. The Supreme Court has found unpersuasive under Skidmore agency determinations containing far
more reasoning than that which we confront here. See
Gonzales v. Oregon, 546 U.S. 243, 253-54 (2006) (rejecting as unpersuasive under Skidmore an interpretive
rule announced by the Attorney General that “[i]ncorporat[ed] the legal analysis of a memorandum he had solicited from his Office of Legal Counsel”); Christensen
v. Harris County, 529 U.S. 576, 581, 587 (2000) (rejecting as unpersuasive under Skidmore an interpretation
in an opinion letter containing brief textual analysis and
citation to operative regulations).
Defendants’ interpretation also fails to rest on the
sort of expertise that might inspire deference. See
Gonzales, 546 U.S. at 269 (“[Skidmore] deference here
is tempered by the Attorney General’s lack of expertise
in this area.”); cf. Kisor v. Wilkie, No. 18-15, 2019 WL
2605554, at *9 (U.S. June 26, 2019) (explaining that when
an agency interprets its own regulation, its “interpretation must in some way implicate its substantive expertise” to be entitled to deference); compare Mead, 533
U.S. at 235 (“There is room at least to raise a Skidmore
claim here, where . . . [the agency] can bring the
benefit of specialized experience to bear on the subtle
questions in this case.”).
* * *
Without section 8005’s statutory authorization to reprogram funds for section 284 security measures, no
congressional action permits Defendants to use those
funds to construct border barriers. “The President’s
power . . . must stem either from an act of Congress
or from the Constitution itself. There is no statute that

246a
expressly authorizes the President to [act] as he did
here. Nor is there any act of Congress to which our attention has been directed from which such a power can
fairly be implied.” Youngstown, 343 U.S. at 585. Defendants’ attempt to reprogram and spend these funds
therefore violates the Appropriations Clause and intrudes on Congress’s exclusive power of the purse, for it
would cause funds to be “drawn from the Treasury” not
“in Consequence of Appropriations made by Law.”
U.S. Const. art. I, § 9, cl. 7.
B. Whether Plaintiffs Have a Cause of Action

Defendants argue that none of the foregoing analysis
matters because Plaintiffs lack a cause of action to challenge the reprogramming of funds at issue here. We
disagree. Plaintiffs may bring their challenge through
an equitable action to enjoin unconstitutional official
conduct, or under the judicial review provisions of the
Administrative Procedure Act (“APA”), 5 U.S.C. § 701
et seq., as a challenge to a final agency decision that is
alleged to violate the Constitution, or both. Either
way, Plaintiffs have an avenue for seeking relief.
1. Equitable Cause of Action

The Supreme Court has “long held that federal
courts may in some circumstances grant injunctive relief against” federal officials violating federal law.
Armstrong v. Exceptional Child Ctr., Inc., 135 S. Ct.
1378, 1384 (2015); see also Corr. Servs. Corp. v. Malesko,
534 U.S. 61, 74 (2001) (“[I]njunctive relief has long been
recognized as the proper means for preventing entities
from acting unconstitutionally.”). “The ability to sue to
enjoin unconstitutional actions by state and federal officers is the creation of courts of equity, and reflects a

247a
long history of judicial review of illegal executive action,
tracing back to England.” Armstrong, 135 S. Ct. at
1384; see also Grupo Mexicano de Desarrollo S.A. v. All.
Bond Fund, Inc., 527 U.S. 308, 318-19 (1999) (“[T]he
substantive prerequisites for obtaining an equitable
remedy as well as the general availability of injunctive
relief . . . depend on traditional principles of equity
jurisdiction.” (quoting 11A Charles Alan Wright et al.,
Federal Practice and Procedure § 2941, at 31 (2d ed.
1995)).
In Youngstown, for example, the Supreme Court
heard a challenge to a wartime presidential order directing the Secretary of Commerce to seize and operate a
majority of the nation’s steel mills. 343 U.S. at 582.
Acting pursuant to the presidential order, the Secretary
of Commerce issued possessory orders that required the
seized companies to operate according to the Secretary’s direction. Id. at 583. The plaintiff steel mill
owners challenged the order as amounting to lawmaking, a function that “the Constitution has expressly confided to the Congress and not to the President.” Id. at
582. The President contended that his order was “necessary to avert a national catastrophe.” Id. In addressing the dispute, the Court held that there was no
statute that authorized the order, and that “[t]he order
[could not] properly be sustained as an exercise of the
President’s military power,” or any other constitutional
grant of power to the President. Id. at 587. The Court
therefore held that “th[e] seizure order [could not]
stand.” Id. at 589.
More recently, in Trump v. Hawaii, 138 S. Ct. 2392
(2018), the Supreme Court heard a challenge to a presi-

248a
dential proclamation restricting the entry of certain foreign nationals into the United States on the ground that
it violated the Establishment Clause of the First Amendment. Id. at 2403. Plaintiffs were individuals who alleged that they were injured by being separated from
relatives barred from entering the country. Id. at 2416.
Without discussing whether a cause of action existed to
challenge the alleged constitutional violation, the Court
reached the merits of the plaintiffs’ Establishment
Clause claim. See id. at 2416-17. The government had
contended that the plaintiffs’ claims were not justiciable
because the Establishment Clause did not give them a
legally protected interest in the admission of particular
foreign nationals, but the Court rejected this argument
and proceeded to evaluate the merits of the plaintiffs’
claim. Id. at 2416. Trump v. Hawaii and Youngstown
therefore support the conclusion that Plaintiffs may seek
equitable relief to remedy an alleged constitutional violation.
Consistent with these cases, our court allowed an equitable action to enforce the Appropriations Clause in
United States v. McIntosh, 833 F.3d 1163 (9th Cir.
2016). In McIntosh, appellants were criminal defendants who had been federally indicted on marijuanarelated offenses. Id. at 1168-69. They sought to enjoin their prosecutions, claiming that a congressional appropriations rider prohibited the Department of Justice
(“DOJ”) from spending money on their prosecutions because their marijuana-related activities were licensed
under state law. Id. at 1169, 1177. We held that the
defendant-appellants could properly “enjoin their prosecutions on the grounds that [DOJ] [was] prohibited
from spending funds to prosecute them” if they could
demonstrate that their conduct was authorized by state

249a
law and thus fell within what the appropriations rider
was enacted to protect. Id. at 1169, 1174. As we explained: “Congress has enacted an appropriations rider
that specifically restricts DOJ from spending money to
pursue certain activities,” and it had acted within its
“ ‘exclusive province’ ” in doing so. Id. at 1172 (quoting
Tenn. Valley Auth. v. Hill, 437 U.S. 153, 194 (1978)).
Once Congress has so acted, “it is for . . . the courts
to enforce” its decisions. Id. (quoting Tenn. Valley
Auth., 437 U.S. at 194). Contrary to the dissent’s characterization, we did not in McIntosh treat the alleged
constitutional violation only “as a defense for criminal
defendants.” Dissent at 21. Instead we held that “Appellants . . . can seek—and have sought—to enjoin [an
agency] from spending funds” contrary to Congress’s
restrictions. McIntosh, 833 F.3d at 1172.
Relying on Dalton v. Specter, 511 U.S. 462 (1994), Defendants argue that there cannot be a constitutional
cause of action here. Dalton involved a challenge to the
President’s discretionary decision to agree to a specific
military base closure included in a base closure package
proposed by an independent commission pursuant to the
Defense Base Closure and Realignment Act of 1990
(“DBCRA”). Id. at 464-66. The Supreme Court held
that the plaintiff ’s statutory challenge to the President’s
decision failed because the statute gave the President
unfettered discretion. Id. at 474-76. The Court then
also rejected the argument that because the President
had allegedly violated the statute, he had acted unconstitutionally. Id. at 472-74. In explanation, the Court
stated that “every action by the President, or by another
executive official, in excess of his statutory authority is
[not] ipso facto in violation of the Constitution.” Id. at

250a
472. The Court did not say, however, that action in excess of statutory authority can never violate the Constitution or give rise to a constitutional claim. Statutory
and constitutional claims are not mutually exclusive.
Indeed, the Court went on in Dalton to state that
Youngstown “cannot be read for the proposition that an
action taken by the President in excess of his statutory
authority necessarily violates the Constitution.” Id. at
473 (emphasis added). There would have been no reason for the Court to include the word “necessarily” if the
two claims were always mutually exclusive.
In Dalton, the President’s authority was put at issue
because of the contention that he had violated requirements set by DBCRA. It was only because Congress
had enacted a statutory process for closing bases that
the Court considered whether it could review the President’s compliance with DBCRA and ultimately concluded that it could not because the statute gave the
President unreviewable discretion. Id. at 474-76. It
was in that context that the Court explained that an allegation that the President had not complied with the
statute would not necessarily become a constitutional
claim through an ultra vires theory. Id. at 472-73.
Because DBCRA authorized unfettered discretion by
the President to either approve or disapprove the package of base closures as a whole, the Court had no occasion to consider the constitutional implications of violating statutes, such as section 8005, that authorize executive action contingent on satisfaction of certain requirements. 19 Here, unlike in Dalton, Plaintiffs’ claim is not
The dissent notes that when Congress appropriates funds in
lump-sum amounts, and leaves it to the unfettered discretion of the
agency to re-allocate funds, no judicial review is available. Dissent
19

251a
one “simply alleging that the President has exceeded
his statutory authority.” Id. at 473 (emphasis added).
Rather, Plaintiffs claim that to the extent Defendants
did not have statutory authority to reprogram the funds,
they acted in violation of constitutional separation of
powers principles because Defendants lack any background constitutional authority to appropriate funds—
making Plaintiffs’ claim fundamentally a constitutional
one. 20 Dalton therefore does not foreclose Plaintiffs’
constitutional claim here. 21
at 8 (citing Lincoln v. Vigil, 508 U.S. 182, 193 (1993)). That principle has no bearing here. Section 8005 does not involve a lump sum
whose allocation is committed to the agency’s discretion, but instead
imposes restrictions on when and for what purposes the agency may
use reprogrammed funds.
20
Defendants rely on Harrington v. Schlesinger, 528 F.2d 455 (4th
Cir. 1975), in which the Fourth Circuit held that the claims of several
individual taxpayers who alleged that the government was spending
money in violation of two statutes did not satisfy the test for taxpayer standing enunciated in Flast v. Cohen, 392 U.S. 83 (1968), because they “present[ed] no constitutional challenge to any congressional appropriation,” Harrington, 528 F.2d at 457. Harrington is
largely inapposite, because Plaintiffs do not rely on taxpayer standing here. The court in Harrington noted, however, that “[i]f there
were a clear and flagrant violation of congressional limitations upon
expenditures, a court in a taxpayer suit might find its intervention
appropriate.” Id. at 458. Thus, if Harrington has any persuasive
value here, we think it is in suggesting that Plaintiffs do have a cause
of action because, as we have discussed, there has been a clear violation of Congress’ limits on expenditures.
21
The dissent suggests that Train v. City of New York, 420 U.S.
35 (1975), supports the proposition that a claim attacking the Executive Branch’s reading of an appropriations statute sounds only in
that statute and not in the Constitution. Dissent at 8-9. But the
plaintiffs in Train argued not that the Executive Branch was spending money that Congress had never appropriated, rather that the

252a
Defendants also cannot be right in their apparent
contention that as long as an official identifies some statutory authorization for his actions, doing so makes any
challenge to those actions statutory and precludes constitutional review. It cannot be that simply by pointing
to any statute, governmental defendants can foreclose a
constitutional claim. At the risk of sounding tautological, only if the statute actually permits the action can it
even possibly give authority for that action. 22 For the
reasons explained above, section 8005 does not permit
the action here.
Congress may, of course, limit a court’s equitable
power to enjoin acts violating federal law. See Armstrong, 135 S. Ct. at 1385 (explaining that an equitable
remedy is not available where Congress has demonstrated an “intent to foreclose” that form of relief, as
Executive Branch was refusing to allot money Congress had specifically instructed it to spend. 420 U.S. at 42. There was thus no
constitutional claim at issue in Train, and if there had been, it would
have had nothing to do with the prohibitions on unauthorized spending imposed by the Appropriations Clause. The Supreme Court in
Train considered only the statutory question whether an Executive
Branch agency had failed to comply with a specific statutory mandate because that was the only issue in that case, not because the
existence of a statute had any bearing on constitutional reviewability.
22
Although in Youngstown the President conceded that no statute
authorized his actions, and relied only on his Article II powers, 343
U.S. at 587, we do not see how Defendants’ willingness or unwillingness to concede that a particular statute does not authorize their
actions should affect whether Plaintiffs in this case have a cause of
action—particularly when, as we have discussed, we think it quite
clear that section 8005 does not authorize the reprogramming.
Thus, we do not think that the concession in Youngstown was determinative, or that the lack of a concession is determinative here.

253a
where a statutory provision (1) expressly provided a
method of enforcing a substantive right, or (2) lacked a
judicially administrable standard (quoting Verizon Md.,
Inc. v. Public Serv. Comm’n of Md., 535 U.S. 635, 647
(2002))). But Defendants do not argue that Congress
has demonstrated any such intent to limit equitable
remedies here, and we have identified no statute that
does so. Indeed, to foreclose a remedy for a constitutional violation, Congress must demonstrate its intent
by “clear and convincing evidence.” Weinberger v.
Salfi, 422 U.S. 749, 762 (1975) (quoting Johnson v. Robinson, 415 U.S. 361, 373 (1974)); see also City of Chicago
v. Int’l Coll. of Surgeons, 522 U.S. 156, 183 (1997)
(“[J]udicial review of [federal] administrative action is
the rule, and nonreviewability an exception which must
be demonstrated.” (alterations in original) (quoting
Barlow v. Collins, 397 U.S. 159, 166 (1970)).
2. Administrative Procedure Act Cause of Action

Plaintiffs’ claim is also cognizable under the APA.
The APA provides for judicial review of “[a]gency action
made reviewable by statute and final agency action for
which there is no other adequate remedy in a court.” 5
U.S.C. § 704. Here, Plaintiffs have a cause of action under the APA as long as there has been final agency action, and as long as Congress has not limited review of
such actions through other statutes or committed them
to agency discretion. Neither of these bars to APA relief is present here. See 5 U.S.C. §§ 701(a), 704, 706;
Bennett v. Spear, 520 U.S. 154, 175 (1997).
The APA mandates that a court “shall . . . hold
unlawful and set aside agency action . . . found to be
. . . contrary to constitutional right, power, privilege,

254a
or immunity.” 5 U.S.C. § 706(2)(B). Plaintiffs’ challenge is to a final agency action and alleges that the action violates the Appropriations Clause, so it falls within
the APA’s scope. 23
Although section 701(a)(2) of the APA “preclude[s]
judicial review of certain categories of administrative
decisions,” this case does not involve such an “administrative decision traditionally regarded as committed to
agency discretion.” Lincoln v. Vigil, 508 U.S. 182, 19192 (1993). In their emergency stay motion and related
supplemental briefing, Defendants do not argue that
DoD’s actions were committed to “agency discretion by
law,” so as to preclude review under the APA. We
agree with Defendants’ implicit concession that this is
not a case involving a “statute . . . drawn so that a
court would have no meaningful standard against which
to judge the agency’s exercise of discretion.” Heckler
v. Chaney, 470 U.S. 821, 830 (1985).
Any constitutional challenge that Plaintiffs may advance under the APA would exist regardless of whether
they could also assert an APA claim that DoD’s applica-

Defendants argue that DoD’s reprogramming action is not a final agency action in part because it “imposes no obligations and confers no rights upon plaintiffs.” Exec. Tan Br. at 14. But the question we must ask in determining finality is whether the agency action
imposes obligations on the agency, not whether it imposes obligations on Plaintiffs. See Bennett, 520 U.S. at 177 (holding that the
challenged agency actions were final because they “alter[ed] the legal regime to which the action agency [wa]s subject” (emphasis
added)). Here, as we have discussed, the reprogramming action
purports to affect DoD’s legal right to use particular funds to build
a border barrier instead of the purpose for which they were originally appropriated.
23

255a
tion of section 8005 was “in excess of statutory jurisdiction, authority, or limitations, or short of statutory right.”
5 U.S.C. § 706(2)(C); see Webster v. Doe, 486 U.S. 592,
602-04 (1988) (holding that a plaintiff may raise under
the APA a constitutional challenge to agency action even
where the plaintiff lacks an avenue under the APA to
argue that the same agency action is invalid for statutory or procedural reasons). If “Congress intends to
preclude judicial review of constitutional claims[,] its intent to do so must be clear.” Webster, 487 U.S. at 603.
Congress has not done so here.
3. Survival of at Least One Cause of Action

The dissent argues that Plaintiffs’ claim is necessarily one encompassed by the APA, and that the availability of an APA cause of action precludes Plaintiffs’
equitable claim. We do not think that the APA forecloses Plaintiffs’ equitable claim. And even if it did,
then for the reasons we have discussed, Plaintiffs would
have an APA claim. Either way, it cannot be that both
an equitable claim and an APA claim foreclose the other,
leaving Plaintiffs with no recourse.
It is true that the APA is the general mechanism by
which to challenge final agency action. See Weyerhaeuser Co. v. U.S. Fish & Wildlife Serv., 139 S. Ct. 361, 370
(2018) (noting the “basic presumption of judicial review
[created by the APA] for one ‘suffering legal wrong because of agency action’ ” (quoting Abbott Labs. v. Gardner, 387 U.S. 136, 140 (1967)). But this does not mean
the APA forecloses other causes of action. In Navajo
Nation v. Department of the Interior, 876 F.3d 1144 (9th
Cir. 2017), we explained that “a court is foreclosed by
[APA section] 704 from entertaining claims brought under the APA seeking review of non-final agency action

256a
(and not otherwise permitted by law),” but that this final
agency action limitation does not apply “to other types
of claims (like . . . constitutional claims).” Id. at 1170.
Likewise, in Presbyterian Church v. United States,
870 F.2d 518 (9th Cir. 1989), we allowed constitutional
claims to proceed without even deciding whether an APA
cause of action was available. There, plaintiff churches
brought claims for injunctive relief against the United
States, DOJ, and the Immigration and Naturalization
Service (“INS”) and certain INS officials, alleging violations of their First and Fourth Amendment rights by
INS agents’ surreptitious recording of their church services. Id. at 520. The district court dismissed the plaintiffs’ claims as, in relevant part, barred by sovereign immunity. Id. at 521. We reversed, holding that APA
section 702 waived the government defendants’ sovereign immunity for claims seeking non-monetary relief.
Id. at 523-24. We further explained that this waiver of
sovereign immunity was not limited to suits involving an
“agency action” as defined under the APA. Id. at 525.
We therefore did not reach the question whether the actions challenged in that case were ones for which the
APA would provide a cause of action. Id. at 525 n.8.
Rather, we remanded for further analysis of standing
and mootness, and, if the district court determined it
had jurisdiction, for evaluation of the plaintiffs’ constitutional claims. Id. at 529. Navajo Nation and Presbyterian Church clearly contemplate that claims challenging agency actions—particularly constitutional claims—
may exist wholly apart from the APA.
In fact, the APA provides for judicial review only of
“[a]gency action made reviewable by statute and final

257a
agency action for which there is no other adequate remedy in a court.” 5 U.S.C. § 704. Here, no statute expressly makes Plaintiffs’ claims reviewable, but, as we
have explained, Plaintiffs do have an adequate remedy
in a court: an equitable cause of action for injunctive
relief. If either form of their claim precludes the other,
it would therefore seem that their equitable claim to enjoin unconstitutional action would preclude their APA
claim to enjoin unconstitutional action. But even if it is
the other way around, these causes of action cannot possibly be the legal equivalent of baking soda and vinegar
—when they come in contact, there is no reason to believe they both go up in smoke.
C. Zone of Interests

Defendants argue that even if a cause of action generally exists to challenge the reprogramming, Plaintiffs
must satisfy a “zone of interests” test to establish that
they, specifically, have a cause of action for the constitutional violation they allege here. Defendants argue
that this test would apply to Plaintiffs’ claim whether
characterized as an equitable cause of action to enjoin a
constitutional violation or as an APA claim. We are
doubtful that a zone of interests test applies to Plaintiffs’
equitable cause of action. Although we recognize that
the APA generally does carry a zone of interests test,
there is some lack of clarity with respect to what that
might look like in a constitutional context. We need not
resolve these ambiguities in the case law, however, because we believe Plaintiffs fall within any zone of interests test that may apply.

258a
1. Applicability of a Zone of Interests Test

Courts apply the zone of interests test to “determine,
using traditional tools of statutory interpretation, whether
a legislatively conferred cause of action encompasses a
particular plaintiff ’s claim.” Lexmark Int’l, Inc. v. Static
Control Components, Inc., 572 U.S. 118, 127 (2014). To
determine whether a plaintiff satisfies this test we ask
whether the plaintiff ’s “interests fall within the zone of
interests protected by the law invoked.” Id. at 129
(quotation marks omitted). In answering this question,
we recognize that “the breadth of the [applicable] zone
of interests varies according to the provisions of law at
issue.” Id. at 130 (quoting Bennett, 520 U.S. at 163).
The zone of interests test derives from the Supreme
Court’s decision in Association of Data Processing Service Organizations, Inc. v. Camp, 397 U.S. 150 (1970),
where the Court articulated a limit on causes of action
conferred by the APA. But the Court clarified in Lexmark that the test “applies to all statutorily created
causes of action . . . and that Congress is presumed
to ‘legislate against the background of ’ the zone-ofinterests limitation, ‘which applies unless it is expressly
negated.’ ” Lexmark, 572 U.S. at 129 (emphasis added)
(quoting Bennett, 520 U.S. at 163). 24
Many pre-Lexmark cases refer to the zone of interests test—
and the broader question whether a particular plaintiff has a cause
of action—as a part of the standing inquiry (and, more specifically,
as a component of “prudential standing”). See Lexmark, 572 U.S.
at 126-27. In Lexmark, however, the Court clarified that the zone
of interests test does not go to a plaintiff ’s standing but rather to
whether the plaintiff has a cause of action. Id. at 127, 128 n.4. The
Court suggested that holding otherwise would be “in some tension
with [the Court’s] recent affirmation of the principle that ‘a federal
24

259a
We are doubtful that any zone of interests test applies to Plaintiffs’ equitable cause of action to enjoin a
violation of the Appropriations Clause, particularly after Lexmark.
As an initial matter, we are skeptical that there could
be a zone of interests requirement for a claim alleging
that official action was taken in the absence of all authority, like that which Plaintiffs assert here. The D.C. Circuit’s decision in Haitian Refugee Center v. Gracey, 809
F.2d 794 (D.C. Cir. 1987), explains why it does not make
sense to treat such claims as carrying a zone of interests
requirement. There, the court heard a challenge to a
government program for intercepting ships carrying
undocumented immigrants, in which the plaintiffs argued that the program exceeded authority granted by
statute or the Constitution. Id. at 797-98. The court
ultimately held that the plaintiffs lacked standing. Id.
at 800-01. But, citing Youngstown in its discussion, the
D.C. Circuit noted that the plaintiffs were not required
to “show that their interests [fell] within the zones of interests of the constitutional and statutory powers invoked by the President in order to . . . challenge the
. . . program as ultra vires.” Id. at 811 n.14. “Otherwise,” the court explained, “a meritorious litigant, injured by ultra vires action, would seldom have standing
to sue since the litigant’s interest normally will not fall
within the zone of interests of the very statutory or constitutional provision that he claims does not authorize
action concerning that interest.” Id. In other words,

court’s obligation to hear and decide’ cases within its jurisdiction ‘is
virtually unflagging.’ ” Id. at 126 (quoting Sprint Commc’ns, Inc.
v. Jacobs, 571 U.S. 69, 77 (2013).

260a
where the very claim is that no statutory or constitutional provision authorized a particular governmental
action, it makes little sense to ask whether any statutory or constitutional provision was written for the benefit of any particular plaintiffs.
Consistent with this logic, Youngstown did not apply
a zone of interests test. Although we acknowledge that
Youngstown was decided before the Supreme Court had
formally articulated a zone of interests test, Youngstown did not address any similar concept, either. Rather, the Court held that the President had unlawfully
intruded on the lawmaking function reserved to Congress without ever discussing whether the plaintiffs,
steel mill owners whose property was ordered to be
seized, were the intended beneficiaries of the structural
provisions in Article II.
Similarly, in Clinton v. City of New York, 524 U.S.
417 (1998), which addressed a Presentment Clause challenge, the Supreme Court said nothing about a zone of
interests requirement. In that case, two sets of plaintiffs challenged the constitutionality of the Line Item
Veto Act, which allowed the President to veto only particular provisions in enacted laws, rather than the entire
law. Id. at 420-21. One set of plaintiffs consisted of
the City of New York, a hospital and two hospital associations, and unions representing hospital employees.
Id. at 425. Another consisted of a cooperative of Idaho
potato growers, and an individual potato farmer. Id.
All the plaintiffs alleged that they were injured by the
President’s cancellation of particular line items in the
budget that would have inured to their financial benefit.
Id. at 421. The Supreme Court held that the Act vio-

261a
lated the structural protections provided by the Presentment Clause, without asking whether the plaintiffs
fell within any zone of interests of that clause. Id. at
436-48.
The Appropriations Clause likewise operates as a
structural protection built into our constitutional system. Just as the Court in Clinton treated as sufficient
that the plaintiffs were concretely injured as a result of
the alleged Presentment Clause violation, we believe it
is likely sufficient here that Plaintiffs would be concretely injured by the alleged Appropriations Clause violation, and that no zone of interests test applies to their
claim.
Even if a zone of interests test may have been applied
to some cases considering constitutional claims like
Plaintiffs’ prior to Lexmark, we think that Lexmark has
called into question its continuing applicability to constitutional claims. Lexmark focuses on Congress’s intent
in creating statutory causes of action, casting doubt on
Defendants’ argument that a zone of interests test has
any role to play here, where Plaintiffs’ theory derives
from the Constitution. The Court in Lexmark described the purpose of the zone of interests test as being
to discern whether a statutory cause of action exists—
specifically, “whether a legislatively conferred cause of
action encompasses a particular plaintiff ’s claim.” 572
U.S. at 127. Because the Constitution was not created
by any act of Congress, it is hard to see how the zone of
interests test would even apply. 25

Defendants argue that an equitable cause of action to enjoin a
constitutional violation is, at its root, a creation of statute, and is
25

262a
Indeed, in its recent decision in Tennessee Wine &
Spirits Retailers Ass’n v. Thomas, No. 18-96, 2019 WL
2605555 (U.S. June 26, 2019), in which the plaintiffs alleged a violation of the dormant Commerce Clause, the
Supreme Court did not even mention the zone of interests test. Given that the Court did apply a zone of interests test in Boston Stock Exchange v. State Tax Commission, 429 U.S. 318 (1977), a pre-Lexmark dormant
Commerce Clause case, Tennessee Wine supports the
idea that Lexmark has changed the landscape. See 429
U.S. at 602 n.3.
For all of these reasons, we doubt that any zone of
interests test applies to Plaintiffs’ equitable cause of action.
We recognize that the Supreme Court has consistently applied a zone of interests test to causes of action
arising under the APA. When the Court has applied
the zone of interests test in APA actions, however, it has
therefore encompassed within Lexmark’s references to causes of action created by statute. Although Defendants are correct that Congress granted federal courts equity jurisdiction by statute, see Grupo
Mexicano, 527 U.S. at 318 (“The Judiciary Act of 1789 conferred on
the federal courts jurisdiction over all suits . . . in equity.”
(quotation marks omitted)); see also 28 U.S.C. § 1331 (“The district
courts shall have original jurisdiction of all civil actions arising under
the Constitution, laws, or treaties of the United States.”), we think
it a stretch to conclude that the traditional equitable cause of action
to enjoin a constitutional violation was therefore created by statute.
Indeed, the lower federal courts are created entirely by statute, see
An Act to Establish the Judicial Courts of the United States §§ 2-6,
1 Stat. 73 (1789), but this does not mean that all constitutional claims
filed in a federal district court are really statutory claims. See, e.g.,
Bivens v. Six Unknown Named Agents of Fed. Bureau of Narcotics,
403 U.S. 388, 397 (1971) (recognizing “a cause of action under the
Fourth Amendment” for damages).

263a
analyzed the zone of interests of the statute the agency
is alleged to have violated, not any zone of interests of
the APA itself. In Match-E-Be-Nash-She-Wish Band
of Pottawatomi Indians v. Patchak, 567 U.S. 209 (2012),
for example, the Court examined an APA action alleging
that the government had exceeded its statutory authority to take title to a piece of property “for the purpose of
providing land for Indians.” Id. at 211 (quoting the Indian Reorganization Act, 25 U.S.C. § 465 (2012) (current
version at 25 U.S.C. § 5108)). It concluded that the
plaintiff, who lived near land that had been acquired by
the Secretary of the Interior for an Indian tribe seeking
to open a casino, was “arguably within the zone of interests to be protected or regulated by” the Indian Reorganization Act, which “authorize[d] the acquisition of
property ‘for the purpose of providing land for Indians.’ ” Id. at 211-12, 224-26 (first quoting Ass’n of Data
Processing Serv. Orgs., 397 U.S. at 153, then quoting
25 U.S.C. § 465 (2012) (current version at 25 U.S.C.
§ 5108)). In so doing, it departed from the reasoning of
the district court, which had concluded that the plaintiff
fell outside the Act’s zone of interests because he was
“not an Indian, nor [did] he purport to seek to protect or
vindicate the interests of any Indians or Indian tribes.”
Patchak v. Salazar, 646 F. Supp. 2d 72, 77 (D.D.C. 2009).
And in Air Courier Conference of America v. American
Postal Workers Union, 498 U.S. 517 (1991), the Court
asked whether postal workers bringing a claim under
the APA were within the zone of interests protected by
the Private Express Statutes on which their claims depended. 26
In Bennett, the Court noted that because the zone of interests
test “varies according to the provisions of law at issue, . . . what
26

264a
Here, rather than looking at a statute underlying an
APA action to determine the relevant zone of interests,
we would need to look at the Appropriations Clause.
Because, as we have discussed, we are doubtful that any
zone of interests test applies to claims seeking to enjoin
a violation of the Appropriations Clause, we think it is
possible that the present type of APA claim is distinct
from typical APA claims and that there is no zone of interests requirement here. We need not decide that
question, however, because we believe that, even if a
zone of interests test applied here, it would be satisfied.
2. Whether Any Zone of Interests Test Is Satisfied

Defendants argue that Plaintiffs cannot satisfy the
zone of interests test because their claims fall outside
the zone of interests of section 8005. Although Plaintiffs’ Complaint did assert a claim under section 8005, it
also asserted constitutional claims, including a claim for
a violation of the Appropriations Clause. To the extent
any zone of interests test applies to that constitutional
claim (whether brought in equity or under the APA), it
requires us to ask whether Plaintiffs fall within the zone
of interests of the Appropriations Clause, not of section
8005. And when the Supreme Court has applied a zone
of interests test to claims about structural provisions of
comes within the zone of interests of a statute for purposes of obtaining judicial review . . . under the ‘generous review provisions’ of
the APA may not do so for other purposes.” 520 U.S. at 163 (quoting
Clark v. Sec. Indus. Ass’n, 479 U.S. 388, 400 n.16 (1987)). We read
this not to suggest that a particular zone of interests test applies to
all APA actions, but that when analyzing whether a plaintiff falls
within the zone of interests of a particular statute, courts should be
particularly lenient if a violation of that statute is being asserted
through an APA claim.

265a
the Constitution, it has applied a very lenient version of
that test.
For example, in Boston Stock Exchange, the Court
held that plaintiff businesses that alleged financial injury from a state tax that discriminated against out-ofstate businesses fell within the zone of interests of the
implied dormant Commerce Clause, which functions as
a limit on a state’s power relative to that of Congress to
regulate interstate commerce. 429 U.S. at 320 n.3.
Although the suit was not brought by Congress seeking
to protect its Commerce Clause authority, or even by
another state alleging harm from the defendant state’s
tax law, the Court held that the plaintiffs were permitted to assert that the state defendant had acted in a
manner that infringed on Congress’s constitutional authority. Id.
More recently, in McIntosh, we allowed criminal defendants charged with marijuana-related offenses to
seek an injunction prohibiting DOJ from spending funds
in violation of the Appropriations Clause. 833 F.3d at
1168, 1172. We explained: “When Congress has . . .
expressly prohibit[ed] DOJ from spending funds on certain actions, federal criminal defendants may seek to enjoin the expenditure of those funds, and we may exercise
jurisdiction over a district court’s direct denial of a request for such injunctive relief.” Id. at 1172-73. To
the extent we implicitly applied a zone of interests test
to the criminal defendants, it was not a restrictive one—
indeed, our primary concern was to confirm that the defendants had standing to challenge the Appropriations
Clause violation (and we concluded they did). Id. at
1173-74.

266a
Accordingly, if Plaintiffs must fall within a zone of interests served by the constitutional provision they seek
to vindicate, we are persuaded that they do. The Appropriations Clause is a vital instrument of separation
of powers, which has as its aim the protection of individual rights and liberties—not merely separation for separation’s sake. See supra section V.A. As Justice
Kennedy put it in Clinton:
[I]f a citizen who is taxed has the measure of the tax
or the decision to spend determined by the Executive
alone, without adequate control by the citizen’s Representatives in Congress, liberty is threatened. . . .
The individual loses liberty in a real sense if that instrument is not subject to traditional constitutional
constraints.
524 U.S. at 451 (Kennedy, J., concurring). Because “individuals, too, are protected by the operations of separation of powers and checks and balances,” it follows
that “they are not disabled from relying on those principles in otherwise justiciable cases and controversies.”
Bond v. United States, 564 U.S. 211, 223 (2011).
Plaintiffs assert that if Defendants’ allegedly unconstitutional spending proceeds, they will suffer injuries to
their environmental, professional, aesthetic, and recreational interests. Those individual rights and interests resemble myriad interests that the Supreme Court has
concluded—either explicitly or tacitly—fall within any
applicable zone of interests encompassed by structural
constitutional principles like separation of powers.
See, e.g., Chadha, 462 U.S. at 935-36, 951-52 (allowing a
plaintiff with an interest in avoiding deportation to bring
a constitutional claim based on bicameralism and presentment requirements); Bos. Stock Exch., 429 U.S. at

267a
602 n.3 (allowing a plaintiff stock exchange with an interest in avoiding a state tax to bring a claim enforcing
Congress’s dominion over the regulation of interstate
commerce). Plaintiffs’ claim that their rights or liberties were infringed by a violation of the Appropriations
Clause therefore falls within any zone of interests required to enforce that clause’s provisions.
VI. The Remaining Stay Factors

Our focus to this point has been on the first of the
four factors to be considered in deciding a motion to
stay, “whether the stay applicant has made a strong
showing that he is likely to succeed on the merits.”
Nken v. Holder, 556 U.S. 418, 434 (2009). The second
factor, “whether the applicant will be irreparably injured absent a stay,” was identified in Nken together
with the first factor as “the most critical.” Id.
The Supreme Court observed in Nken that the third
and fourth factors—whether issuance of a stay will substantially injure other parties and where the public interest lies—“merge when the Government is the opposing party.” Id. at 435. That case involved an application for a stay of removal by a noncitizen who was facing
deportation. The motion before us presents a variant
on that situation. Here, it is Defendants who seek a
stay, so the question whether Defendants will be irreparably injured absent a stay may, in practical terms,
merge with consideration of the public interest.
Public interest is a concept to be considered broadly.
The Court noted in Nken, for example, that there is a
public interest in “preventing aliens from being wrongfully removed,” but also that there is “always a public

268a
interest in prompt execution of removal orders.” Id. at
436.
Defendants have discussed these three remaining
factors together in terms of the “equitable balance of
harms.” There is logic in that, so we will do the same,
considering the respective impacts on Defendants, Plaintiffs and others interested in the proceedings, and the
general public.
The primary harm cited by Defendants if a stay is not
granted is that a “delay in the construction of border
fencing pending appeal will create irreparable harm”
because “deadly drugs [will] flow into this country in the
interim.” They argue that CBP has recorded over
4,000 “drug-related events” between border crossings in
the El Paso, El Centro, Tucson, and Yuma Sectors in
Fiscal Year 2018 and cites CBP’s seizure of thousands
of pounds of marijuana and lesser amounts of other illegal substances, including cocaine, heroin, methamphetamine, and fentanyl.
We do not question in the slightest the scourge that
is illegal drug trafficking and the public interest in combatting it. Our circuit includes several border states,
and our courts deal with no small number of cases involving illegal drugs crossing those states’ borders.
Defendants have not actually spoken to the more relevant questions, however. What will be the impact of
building the barriers they propose? Even more to the
point, what would be the impact of delaying the construction of those barriers? If these specific leaks are
plugged, will the drugs flow through somewhere else?
We do not know, but the evidence before us does not
support a conclusion that enjoining the construction of

269a
the proposed barriers until this appeal is fully resolved
will have a significant impact.
To begin with, the statistics cited by Defendants describe drug trafficking that CBP has detected with existing barriers and law enforcement efforts. They do
not tell us how much gets through undetected or what
additional amounts would be stopped by the proposed
barriers.
As Plaintiffs point out, according to the Drug Enforcement Administration’s most recent assessment, the “majority of the [heroin] flow is through [privately operated
vehicles] entering the United States at legal ports of entry, followed by tractor-trailers, where the heroin is comingled with legal goods.” Drug Enforcement Admin., 2018
National Drug Threat Assessment 19 (2018), https://www.
dea.gov/sites/default/files/2018-11/DIR-032-18%202018%20
NDTA%20final%20low%20resolution.pdf. Only “a small
percentage of all heroin seized by [CBP] along the land
border was between Ports of Entry.” Id. Fentanyl
transiting the southern border is likewise most commonly smuggled in “multi-kilogram loads” in vehicles
crossing at legal ports of entry. Id. at 33. Defendants
have not disputed these assessments.
That does not lead to a conclusion that leaks should
not be plugged. It does suggest, however, that Defendants’ claim that failing to stay the injunction pending appeal will cause significant irreparable harm is supported
by much less than meets the eye. Congress could have
appropriated funds to construct these barriers if it concluded that the expenditure was in the public interest,
but it did not.

270a
For similar reasons, we are unmoved by Defendants’
contention that “the injunction threatens to permanently deprive DoD of its authorization to use the funds at
issue to complete” the selected projects, including “approximately $1.1 billion it has transferred for these projects but has not yet obligated via construction contracts,” because “the funding will likely lapse during the
appeal’s pendency.” A lapse in funding does not mean
that the money will disappear from the Treasury. The
country will still have that money. It could be spent in
the future, including through appropriations enacted by
Congress for the next fiscal year. The lapse simply
means that Defendants’ effort to justify spending those
funds based on the appropriations act for the current
fiscal year and the authority to reprogram funds under
section 8005 may be thwarted.
Defendants’ identification of this lapse as a factor
that should tip the balance of harms in their favor actually serves instead to illustrate the underlying weakness
in their position. Defendants’ rush to spend this money
is necessarily driven by their understanding that Congress did not appropriate requested funding for these
purposes in the current budget and their expectation
that Congress will not authorize that spending in the
next fiscal year, either. The effort by Defendants to
spend this money is not consistent with Congress’s power
over the purse or with the tacit assessment by Congress
that the spending would not be in the public interest.
Finally, Defendants maintain that a stay is necessary
because DoD “is incurring unrecoverable fees and penalties of hundreds of thousands of dollars to its contractors for each day that construction is suspended.” But
that liability resulted from Defendants’ own decisions

271a
about how to proceed in the face of litigation. Plaintiffs
filed their motion for a preliminary injunction on April
4, 2019, and a hearing was held on May 17. When DoD
awarded contracts on April 9 for El Paso Project Sector
1, and May 15 for Yuma Project Sector 1 and Tucson
Project Sectors 1-3, DoD knew this litigation was pending and that the district court had been asked to enter a
preliminary injunction. Placing significant weight on
financial obligations that Defendants knowingly undertook would, in effect, reward them for self-inflicted
wounds.
Moving to the impacts on the Plaintiffs, Defendants
denigrate those impacts as limited to “aesthetic and recreational injuries.” As noted above, see supra Section
II, Defendants have elected not to dispute that Plaintiffs’ interests are sufficiently substantial to support Article III standing. Environmental injuries have been
held sufficient in many cases to support injunctions
blocking substantial government projects. The Supreme
Court has observed that “[e]nvironmental injury, by its
nature, can seldom be adequately remedied by money
damages and is often permanent or at least of long duration, i.e., irreparable. If such injury is sufficiently
likely, therefore, the balance of harms will usually favor
the issuance of an injunction to protect the environment.” Amoco Prod. Co. v. Village of Gambell, 480 U.S.
531, 545 (1987).
As to the public interest, we conclude that the public
interest weighs forcefully against issuing a stay. The
Constitution assigns to Congress the power of the purse.
Under the Appropriations Clause, it is Congress that is
to make decisions regarding how to spend taxpayer dollars. As we have explained, see supra Section V.C.2.,

272a
the Appropriations Clause serves as a check by requiring that “not a dollar of [money in the Treasury] can be
used in the payment of any thing not thus previously
sanctioned” by Congress,” as “[a]ny other course would
give to the fiscal officers a most dangerous discretion.”
Reeside v. Walker, 52 U.S. 272, 291 (1850). In the words
of then-Judge Kavanaugh, the Appropriations Clause is
a bulwark of the Constitution’s separation of powers
among the three branches of the National Government. It is particularly important as a restraint on
Executive Branch officers: If not for the Appropriations Clause, the executive would possess an unbounded power over the public purse of the nation;
and might apply all its monied resources at his pleasure.
U.S. Dep’t of Navy v. Fed. Labor Relations Auth., 665
F.3d 1339, 1347 (D.C. Cir. 2012) (Kavanaugh, J.) (quotation marks omitted). The Clause prevents the Executive Branch from “even inadvertently obligating the
Government to pay money without statutory authority.”
Id. The public interest in ensuring protection of this
separation of powers is foundational and requires little
elaboration. See supra Section V.A.
Similarly, when Congress chooses how to address a
problem, “[i]t is quite impossible . . . to find secreted
in the interstices of legislation the very grant of power
which Congress consciously withheld,” as doing so is
“not merely to disregard in a particular instance the
clear will of Congress,” but “to disrespect the whole legislative process and the constitutional division of authority between President and Congress.” Youngstown,
343 U.S. at 609 (1952) (Frankfurter, J., concurring).
Congress did not appropriate money to build the border

273a
barriers Defendants seek to build here. Congress presumably decided such construction at this time was not
in the public interest. See id.; supra Section V.A.1.ii.
It is not for us to reach a different conclusion.
The public interest and the balance of hardships do
not support granting the motion to stay.
VII. Conclusion

In his concurrence in Youngstown, Justice Jackson
made eloquent comments that seem equally apt today:
The essence of our free Government is “leave to
live by no man’s leave, underneath the law”—to be
governed by those impersonal forces which we call
law. Our Government is fashioned to fulfill this concept so far as humanly possible. The Executive, except for recommendation and veto, has no legislative
power. The executive action we have here originates in the individual will of the President and represents an exercise of authority without law. . . .
With all its defects, delays and inconveniences, men
have discovered no technique for long preserving
free government except that the Executive be under
the law, and that the law be made by parliamentary
deliberations.
Such institutions may be destined to pass away.
But it is the duty of the Court to be last, not first, to
give them up.
343 U.S. at 654-55 (Jackson, J., concurring).
Heeding Justice Jackson’s words, we deny Defendants’ motion for a stay.

274a
N.R. SMITH, Circuit Judge, dissenting:
The majority here takes an uncharted and risky
approach—turning every question of whether an executive officer exceeded a statutory grant of power into a
constitutional issue. This approach is in contradiction
to the most fundamental concepts of judicial review.
The majority has created a constitutional issue where
none previously existed. See Dalton v. Specter, 511
U.S. 462, 472-74 (1994). We have no right to expand the
Judiciary’s role in this manner and, as explained in
greater detail below, the majority’s approach has been
expressly rejected by the Supreme Court.
Turning to the merits of the case before us, we are
asked solely whether we should stay a permanent injunction prohibiting Defendants from transferring certain funds within the budget of the Department of Defense (DoD) to support counterdrug activities, while the
parties await a final ruling on the merits of the permanent injunction order. We are not, as the majority
claims, “evaluat[ing] the merits more fully that we otherwise might.” Maj. Op. at 31. In fact, the parties
have expressly informed the court that they will be presenting an expedited briefing schedule for the merits
panel by July 8, 2019, Dkt. No. 65 at 4—four days after
the parties anticipate a decision from the current panel. 1
The majority ignores this declaration. Maj. Op. at 31. The
parties have asked us to expedite our decision, but they have not
asked us to make a merits decision in contravention of traditional
procedure. Nken v. Holder, 556 U.S. 418, 427 (2009) (recognizing
that the “ordinary processes of administration and judicial review”
best ensure “careful review and a meaningful decision” (citation
omitted)). Whether an issue may become moot during the course
of an appeal does not change the scope of our review for a motion to
1

275a
Because Defendants have satisfied their burden to obtain the requested relief when Plaintiffs’ claim is properly cast as a statutory issue, the majority should grant
Defendants’ motion to stay the permanent injunction
until the matter is finally determined on appeal.
In deciding whether to stay an injunction pending appeal, we must consider: “(1) whether the stay applicant
has made a strong showing that [it] is likely to succeed
on the merits; (2) whether the applicant will be irreparably injured absent a stay; (3) whether issuance of the
stay will substantially injure the other parties interested in the proceeding; and (4) where the public interest lies,” Nken, 556 U.S. at 434 (citation omitted).
“[H]arm to the opposing party and weighing the public
interest . . . merge when the Government” is one of
the parties. Id. at 435. Although “[t]he first two factors . . . are the most critical,” id. at 434, we must
“give serious consideration to the public interest factor,”
Nat. Res. Def. Council, Inc. v. Winter, 502 F.3d 859, 863
(9th Cir. 2007). In any event, the decision to grant or
deny a stay is discretionary. Nken, 556 U.S. at 433-34.
Here, each factor favors issuing a stay. 2
stay. Even though the parties rely on their previous briefs for purposes of this motion, they do not suggest that they do not have additional arguments for the merits of appeal. We should not be deciding the merits of these issues (potentially binding the merits panel).
2
Whether Defendants are likely to succeed on the merits of this
appeal ultimately turns on whether the district court abused its discretion in issuing the permanent injunction. See La Quinta Worldwide LLC v. Q.R.T.M., S.A. de C.V., 762 F.3d 867, 879 (9th Cir. 2014).
Thus, even though this is only a motion to stay, we review the district
court’s grant of a permanent injunction for abuse of discretion, and
we review its legal conclusions de novo. Aircraft Serv. Int’l, Inc. v.
Int’l Bhd. of Teamsters, 779 F.3d 1069, 1072 (9th Cir. 2015) (en banc).

276a
I.

Defendants are Likely to Succeed on the Merits

The district court granted a permanent injunction in
Plaintiffs’ favor based on a purported statutory claim
under the DoD Appropriations Act for Fiscal Year 2019,
Pub. L. No. 115-245, §§ 8005, 9002, 132 Stat. 2981, 2999.
See Permanent Injunction Order at 3-4, 6-8. The district court analyzed only whether Defendants exceeded
their statutory authority under § 8005, without discussing whether they also separately violated any constitutional provision. See generally id. Nevertheless, the
majority views Plaintiffs’ claim as, “at its core, one alleging a constitutional violation.” Maj. Op. at 32. As
discussed below, viewing Plaintiffs’ claim as alleging a
statutory violation is the proper approach. Dalton, 511
U.S. at 472-74.
When their claim is properly viewed as alleging a
statutory violation, Plaintiffs have no mechanism to challenge Defendants’ actions. Plaintiffs have neither an
implied statutory cause of action under § 8005, nor an
equitable cause of action. See generally Dalton, 511 U.S.
at 472-76. Nor do Plaintiffs have a cause of action to challenge the DoD’s § 8005 reprogramming under the Administrative Procedure Act (APA), as they fall outside
of the zone of interests for such a claim. Consequently,
“It is an abuse of discretion to apply the wrong legal standard.”
United States v. Emmett, 749 F.3d 817, 819 (9th Cir. 2014). As explained in greater detail below, the district court abused its discretion here by failing to analyze Plaintiffs’ claim under the Administrative Procedure Act. See, e.g., Permanent Injunction Order at 4
(“[T]he Court continues to find that the [zone of interests] test has
no application in an ultra vires challenge, which operates outside of
the APA framework.”). The majority does not defend the district
court’s decision, but rules in Plaintiffs’ favor under a completely
different—yet equally faulty—legal theory.

277a
Defendants have made a strong showing that they are
likely to succeed on the merits of their appeal.
1.

Plaintiffs Claim Is Properly Viewed as Alleging a
Statutory Violation

Because we are allowed to affirm the permanent injunction “on any ground supported by the record,” Sony
Comput. Entm’t, Inc. v. Connectix Corp., 203 F.3d 596,
608 (9th Cir. 2000) (citation omitted), the majority denies Defendants’ motion for a stay by re-characterizing
Plaintiffs’ claim as a constitutional violation—despite
the contrary ground relied on by the district court in its
decision 3—which the majority now analyzes on the fly.
The majority’s primary mistake is drawing no distinction between a claim that an agency is violating a
statute and a claim that an agency is violating the Constitution:
If section 8005 does not authorize the reallocation,
however, then Defendants are acting outside of any
statutory appropriation and are therefore spending
funds contrary to Congress’s appropriations decisions. . . . The lack of compliance with section
8005 has sometimes been labeled ultra vires as outside statutory authority or as outside the President’s
The district court construed Plaintiffs’ claim as an ultra vires action to enforce § 8005. Permanent Injunction Order at 4. It determined that principles of constitutional avoidance required it to first
analyze whether § 8005 supported the reprogramming, and reach
the constitutional analysis only if necessary. Sierra Club v. Trump,
No. 19-CV-00892-HSG, 2019 WL 2247689, *18 (N.D. Cal. March 24,
2019); Permanent Injunction Order at 5 (“[N]o new factual or legal
arguments persuade the Court that its analysis in the preliminary
injunction order was wrong.”). Thus, the court never conducted a
constitutional analysis of this question.
3

278a
Article II powers, and spending without an appropriation has been described as a violation of the Appropriations Clause. However their claim is labeled,
Plaintiffs’ theory is ultimately the same.
Maj. Op. at 34 & n.16. This approach is flatly contradicted by Dalton and related cases, which clarified the
distinction between “claims of constitutional violations
and claims that an official has acted in excess of his statutory authority” and declared that “[o]ur cases do not
support the proposition that every action by the President, or by another executive official, in excess of his
statutory authority is ipso facto in violation of the Constitution.” Dalton, 511 U.S. at 472.
Indeed, recasting Plaintiffs’ challenge—fundamentally
a dispute about whether the DoD erred in deciding that
the pre-conditions of § 8005 were met—as a constitutional claim against the DoD for violating the Appropriations Clause contradicts several lines of caselaw.
First, Dalton clarifies that cases such as Youngstown
Sheet & Tube Co. v. Sawyer, 343 U.S. 579 (1952) involve
constitutional violations, because “[t]he only basis of authority asserted was the [executive’s] inherent constitutional power.” Dalton, 511 U.S. at 473. In those instances, “the case necessarily turned on whether the Constitution authorized the [executive’s] actions,” only “[b]ecause no statutory authority was claimed.” Id. (emphasis added).
This is not that type of case. As noted by the majority, Plaintiffs’ claim entirely rises or falls on whether the
DoD complied with the limitations in § 8005. Maj. Op.
at 34 (“If Defendants were correct that section 8005 allowed this spending reallocation, Plaintiffs’ claim would

279a
fail, because the spending would be consistent with Congress’s appropriation legislation. If section 8005 does
not authorize the reallocation, however, then Defendants are acting outside of any statutory appropriation
and are therefore spending funds contrary to Congress’s appropriations decisions.”). The DoD offers no
other source of authority besides a statute. Accordingly, this case “concern[s] only issues of statutory interpretation” and “no constitutional question whatever
is raised.” Dalton, 511 U.S. at 474 n.6 (emphasis added)
(citation and internal quotation marks omitted).
Second, applying Dalton to the Appropriations Clause
context requires us to reject the majority’s logic, which
relies on the assumption that every violation of an appropriations statute is necessarily a constitutional violation. In Dalton, Congress granted the President discretion to take certain actions, and the plaintiffs asserted that he had exceeded that authority. Id. at 474.
The plaintiffs further claimed that, because the President had exceeded his statutory authority, he had also
violated the Constitution. Id. That is precisely the
majority’s approach in this case. See Maj. Op. at 51
(“Plaintiffs claim that to the extent Defendants did not
have statutory authority to reprogram the funds, they
acted in violation of constitutional separation of powers
principles because Defendants lack any background
constitutional authority to appropriate funds.”). The
Supreme Court rejected this type of constitutional claim,
flatly reminding us that “[t]he distinction between
claims that an official exceeded his statutory authority,
on the one hand, and claims that he acted in violation of
the Constitution, on the other, is too well established to
permit this sort of evisceration.” Dalton, 511 U.S. at
474.

280a
Finally, the distinction between an Appropriations
Clause violation and a non-constitutional “exceeding statutory authority” claim turns on the degree of discretion
Congress has provided to the agency or President in appropriating funds. On the one hand, if Congress has
entirely withdrawn agency discretion over the who,
what, when, where, and why of agency spending, an Appropriations Clause violation may lie. See, e.g., United
States v. McIntosh, 833 F.3d 1163, 1172, 1175 (9th Cir.
2016). On the other hand, if Congress has merely appropriated a lump-sum amount and leaves it to the
agency to re-allocate funds toward a particular statutory purpose, Congress has provided such discretion to
the agency that, not only could there be no constitutional violation, a challenger does not even have a viable
“exceeding statutory authority” claim. 4 See Lincoln v.
Vigil, 508 U.S. 182, 193 (1993). Section 8005, which appropriates funds to the DoD and makes allocating those
funds incumbent on the Secretary’s determination of the
“national interest” and other factors, falls somewhere
in the middle. Unlike the appropriations language in
McIntosh, which we observed “specifically restricts [the
Department of Justice (DOJ)] from spending money to
pursue certain activities,” 833 F.3d at 1172 (emphasis
added), or the non-discretionary “not to exceed” and
“shall be allotted” language in Train v. City of New
York, 420 U.S. 35, 42 (1975), § 8005 provides some discretion over the who, what, when, where, and why of
agency spending. Yet, unlike the virtually unfettered
discretion of the agency to reallocate funds towards particular statutory purposes in Lincoln, 508 U.S. at 192The statutory claims in Dalton ultimately failed on this basis.
See Dalton, 511 U.S. at 474-76.
4

281a
93, § 8005 constrains the discretion and the DoD is “not
free simply to disregard statutory responsibilities.”
Id. at 193 (emphasis added). Accordingly, the DoD’s
reprogramming of funds is a judicially reviewable statutory claim. The majority overlooks these points.
In attempting to distinguish Dalton, the majority
misstates the chronology of the Supreme Court’s decision, claiming that “[t]he Supreme Court held that the
plaintiff ’s statutory challenge to the President’s decision failed because the statute gave the President unfettered discretion . . . [and] then also rejected the argument that because the President had allegedly violated the statute, he had acted unconstitutionally.”
Maj. Op. at 49. However, the Supreme Court declared
first that there was no constitutional issue, Dalton, 511
U.S. at 472-74, and only thereafter determined that the
plaintiffs’ statutory claim failed based on the President’s
unfettered discretion, id. at 474-76. Consequently, the
Court’s conclusion that “no constitutional question
whatever is raised” did not stem from its later conclusion that the President had, in fact, acted within his statutory authority in that case. Id. at 474 n.6; see also id.
at 476-77 (“In sum . . . [t]he claim that the President
exceeded his authority under the 1990 Act is not a constitutional claim, but a statutory one. Where a statute, such as the 1990 Act, commits decisionmaking to the
discretion of the President, judicial review of the President’s decision is not available.” (emphasis added)).
The majority also attempts to distinguish Dalton on
the grounds that it “did not say . . . that action in excess of statutory authority can never violate the Constitution or give rise to a constitutional claim.” Maj. Op.

282a
at 49. Albeit true that claims alleging statutory violations and those alleging constitutional violations are not
mutually exclusive, Dalton expressly discussed when
the two may be asserted together—by pointing to cases
where the constitutionality of the authorizing statute itself is called into question. Dalton, 511 U.S. at 473 n.5;
see, e.g., Chamber of Commerce of United States v.
Reich, 74 F.3d 1322, 1325 (D.C. Cir. 1996) (determining
that a claim raised a constitutional violation, because it
alleged that the relevant statutory authority itself was
“an unconstitutional delegation” of Congressional power).
But Plaintiffs have not alleged that § 8005 is itself unconstitutional.
The majority’s approach would turn our current system of administrative review on its head, directing
courts in this circuit to deem unconstitutional any reviewable executive actions (i.e., any actions that are not
entirely within the actor’s discretion) that exceed a statutory grant of authority. Such an approach directly
contradicts the Supreme Court’s declaration that “[o]ur
cases do not support the proposition that every action
by the President, or by another executive official, in excess of his statutory authority is ipso facto in violation
of the Constitution.” 5 Dalton, 511 U.S. at 472. For those
reasons, the majority’s approach is flawed; no claim of a
constitutional violation exists in this case.

The majority’s approach is also directly contradicted by the D.C.
Circuit. In Mountain States Legal Foundation v. Bush, our sister
circuit determined that “[n]o constitutional . . . claim is before
us, as the President exercised his delegated powers under the Antiquities Act,” precisely because “that statute includes intelligible
principles to guide the President’s actions.” 306 F.3d 1132, 1137
(D.C. Cir. 2002) (emphasis added).
5

283a
2.

Plaintiffs have no Implied Statutory Claim

Whether Plaintiffs have an implied statutory cause of
action under § 8005 turns on “whether Congress intended to create a private cause of action.” Karahalios
v. Nat’l Fed’n of Fed. Emps., Local 1263, 489 U.S. 527,
532 (1989) (citation and internal quotation marks omitted).
Here, “[t]here is no express suggestion” that Congress intended a direct judicial remedy for a § 8005 violation, and “neither the language nor the structure of
the Act shows any congressional intent to provide a private cause of action to” judicially enforce such a violation. Id. at 532-33. Likewise, “[n]othing in the legislative history of [§ 8005] has been called to our attention
indicating that Congress contemplated direct judicial
enforcement.” Id. at 533.
Furthermore, § 8005 is directed not at private parties
or individuals, but at the Secretary of Defense; creates
no apparent individual rights, much less an individual
remedy; and “lacks the sort of rights-creating language
needed to imply a private right of action.” Armstrong
v. Exceptional Child Ctr., Inc., 135 S. Ct. 1378, 1387
(2015).
3.

Plaintiffs have no APA Claim

With Dalton limiting our ability to construe Plaintiffs’ claim as alleging a constitutional violation, and with
no implied statutory cause of action to challenge the
agency’s action as a violation of § 8005, Plaintiffs are left
with challenging the DoD’s reprogramming under the
APA as an “abuse of discretion,” “not in accordance
with law,” or “in excess of statutory jurisdiction.” See
5 U.S.C. § 706(2)(A), (C). See Clouser v. Espy, 42 F.3d

284a
1522, 1527 n.5 (9th Cir. 1994) (construing a plaintiff ’s
challenge to Forest Service rulings “as issued without
statutory authority” to be “a claim challenging agency
action ‘in excess of statutory jurisdiction, authority, or
limitations, or short of statutory right’ under 5 U.S.C.
§ 706(2)(C)”). However, although the APA is the proper vehicle for challenging the DoD’s § 8005 reprogramming, Plaintiffs are not a proper party to bring such a
claim, as they fall outside § 8005’s zone of interests.
The majority errs by fashioning an equitable claim to
bypass the APA’s limitations.
a. The APA is the Proper Vehicle for Challenging the DoD’s Action

Where a statute imposes obligations on a federal
agency but “does not give rise to a ‘private’ right of action against the federal government[,] [a]n aggrieved
party may pursue its remedy under the APA.” San
Carlos Apache Tribe v. United States, 417 F.3d 1091,
1096-99 (9th Cir. 2005) (explaining how a federal action
is nearly always reviewable under the APA for conformity with statutory obligations even absent a “private
right of action”). In other words, the APA opens the
door for judicial review provided: (1) the agency’s action is “final,” 5 U.S.C. § 704; (2) the statute imposing
obligations on the federal agency does not “preclude judicial review,” id. § 701(a)(1); and (3) the agency action
is not “committed to agency discretion by law,” id.
§ 701(a)(2). See Weyerhaeuser Co. v. U.S. Fish & Wildlife Serv., 139 S. Ct. 361, 370 (2018). Each element is
satisfied here.
First, the agency’s action satisfies the test for “final
agency action” for purposes of 5 U.S.C. § 704. The fi-

285a
nality of an agency’s action turns on whether the decision represents the “consummation of the agency’s decisionmaking process” and whether it determines rights
or obligations, or from which “legal consequences will
flow.” Bennett v. Spear, 520 U.S. 154, 177-78 (1997) (citation omitted). After approving the Department of
Homeland Security’s (DHS) request for support under
10 U.S.C. § 284, the Secretary of Defense concluded support could be funded through the reprogramming of
funds under § 8005. The Secretary found the § 8005 criteria were met. Following the necessary procedures,
the DoD transferred the funds to the Drug Interdiction
and Counter-Drug Activities, Defense, appropriation account. Because the DoD committed those funds for §
284(b)(7) support, “legal consequences [began to] flow.”
See Bennett, 520 U.S. at 178 (citation omitted). Indeed,
Defendants acknowledge that the § 8005 transfer was
necessary for authorizing support under § 284 and constructing the wall.
Second, as explained above, § 8005 does not “preclude
judicial review.” See 5 U.S.C. § 701(a)(1). Further, neither party presented “clear and convincing evidence”
that § 8005 precludes APA’s default remedy. See Abbott Labs. v. Gardner, 387 U.S. 136, 140-41 (1967), abrogated on other grounds by Califano v. Sanders, 430 U.S.
99 (1977).
Finally, the DoD’s reprogramming of funds under
§ 8005 is not “committed to agency discretion by law.”
5 U.S.C. § 701(a)(2). Defendants do not argue to the
contrary, nor would such an argument succeed. The
APA embodies a broad presumption of judicial review of
agency action. Abbott Labs., 387 U.S. at 140-41. Out
of concern that “legal lapses and violations occur, and

286a
especially so when they have no consequence,” Weyerhaeuser Co., 139 S. Ct. at 370 (quoting Mach Mining,
LLC v. EEOC, 135 S. Ct. 1645, 1652-53 (2015)), the Supreme Court “read[s] the [phrase ‘committed to agency
discretion’] quite narrowly, restricting it to ‘those rare
circumstances where the relevant statute is drawn so
that a court would have no meaningful standard against
which to judge the agency’s exercise of discretion.’ ”
Id. (quoting Lincoln, 508 U.S. at 191).
The appropriation scheme governing § 8005 allows
the DoD to reprogram funds provided the transferred
funds address “higher priority items, based on unforeseen military requirements, than those for which originally appropriated.” 6 § 8005. And “in no case” may
the Secretary use the funds “where the item for which
reprogramming is requested has been denied by the
Congress.” Id. Thus, we do not confront one of those
rare circumstances where a court would have no meaningful standard for judging the agency’s exercise of discretion. See Weyerhaeuser, 139 S. Ct. at 371-72 (citing
Lincoln, 508 U.S. at 191); accord Citizens to Pres. Overton Park, Inc. v. Volpe, 401 U.S. 402, 413 (1971), abrogated on other grounds by Califano v. Sanders, 430 U.S.
99 (1977). For example, whether the “item” to be funded
by the reprogrammed funds was “denied” by Congress
turns on a meaningful question of statutory interpretation
—i.e., what does “item” and “denied” mean? 7 This court
is generally required to provide some deference to such
Section 9002 is subject to these same limitations.
Unlike in Lincoln, the appropriation scheme governing Plaintiffs’ claims does not involve a lump-sum appropriation designed with
merely a general, overarching goal and no specific strings attached
to the money. 508 U.S. at 189-92.
6
7

287a
an interpretation, depending on the circumstance, see
Chevron, U.S.A., Inc. v. Nat. Res. Def. Council, Inc., 467
U.S. 837 (1984); Skidmore v. Swift & Co., 323 U.S. 134
(1944), 8 but the phrase undoubtedly places a judicially
reviewable constraint on the DoD’s actions.
b. Plaintiffs are Not the Proper Party to Bring
an APA Claim

However, to bring a valid APA claim, Plaintiffs must
establish that they “fall within the zone of interests protected by the law invoked.” Lexmark Int’l, Inc. v. Static
Control Components, Inc., 572 U.S. 118, 129 (2014) (citation omitted). They have failed to do so. 9
The zone of interests test requires a court to determine whether, “in view of Congress’ evident intent to

8
In determining whether Defendants violated § 8005, we should
defer to the DoD’s interpretation under Skidmore. See Alaska Dep’t
of Envtl. Conservation v. EPA, 540 U.S. 461, 487 (2004). Skidmore
deference operates like a sliding scale, meaning the degree of deference we give the agency’s interpretation of a statute “depend[s] upon
the thoroughness evident in its consideration, the validity of its reasoning, its consistency with earlier and later pronouncements, and
all those factors which give it power to persuade, if lacking power to
control.” Skidmore, 323 U.S. at 140. We also consider whether the
agency has changed its position or whether its interpretation “was
framed for the specific purpose of aiding a party in this litigation.”
Fed. Express Corp. v. Holowecki, 552 U.S. 389, 400 (2008).
9
Because the majority concludes Plaintiffs’ APA claim is constitutional, we disagree as to what zone of interests applies. However,
as a statutory claim, Plaintiffs must fall within the zone of interests
of § 8005. They have failed to do so. Because this claim should not
be viewed as a constitutional claim under the Appropriations Clause,
it is not necessary to decide whether Plaintiffs could (or would need
to) fall within that zone of interests.

288a
make agency action presumptively reviewable, a particular plaintiff should be heard to complain of a particular
agency decision.” Clarke v. Sec. Indus. Ass’n, 479 U.S.
388, 399 (1987). “[T]he relevant zone of interests is not
that of the APA itself, but rather the zone of interests to
be protected or regulated by the statute that the plaintiff says was violated.” E. Bay Sanctuary Covenant v.
Trump, 909 F.3d 1219, 1244 (9th Cir. 2018) (alteration
omitted) (quoting Match-E-Be-Nash-She-Wish Band of
Pottawatomi Indians v. Patchak, 567 U.S. 209, 224
(2012)). “[W]e first discern the interests arguably to be
protected by the statutory provision at issue; we then
inquire whether the plaintiff ’s interests affected by the
agency action in question are among them.” Nat’l
Credit Union Admin. v. First Nat’l Bank & Tr. Co., 522
U.S. 479, 492 (1998) (alteration and internal quotation
marks omitted).
Although, “in the APA context, . . . the test is not
‘especially demanding,’ ” Lexmark, 572 U.S. at 130, it “is
not toothless,” Nw. Requirements Utils. v. FERC, 798
F.3d 796, 808 (9th Cir. 2015). “In cases where the plaintiff is not itself the subject of the contested regulatory
action, the test denies a right of review if the plaintiff ’s
interests are so marginally related to or inconsistent
with the purposes implicit in the statute that it cannot
reasonably be assumed that Congress intended to permit the suit.” Clarke, 479 U.S. at 399. Even under this
generous standard, we have found certain APA claims
fail the zone of interests test. 10 See, e.g., Ashley Creek

Plaintiffs cite the D.C. Circuit’s decision in Scheduled Airlines
Traffic Offices, Inc. v. Department of Defense, 87 F.3d 1356 (D.C.
Cir. 1996) as “illustrat[ing] the expansive zone of interests for claims
10

289a
Phosphate Co. v. Norton, 420 F.3d 934, 940 (9th Cir.
2005) (“[P]urely economic interests do not fall within
[the National Environmental Policy Act’s (NEPA)] zone
of interests” because “the zone of interests that NEPA
protects [is] environmental.”); Havasupai Tribe v. Provencio, 906 F.3d 1155, 1166-67 (9th Cir. 2018) (recognizing that the plaintiff ’s environmental interests fell outside the Mining Act’s zone of interests, but within the
Federal Land Policy and Management Act’s zone of interests); Nw. Requirements Utils., 798 F.3d at 809 (determining zone of interests test not satisfied where the
plaintiffs’ goals were likely to frustrate rather than further statutory objectives).
Here, Plaintiffs’ interests fall outside § 8005’s zone of
interests. Section 8005 operates only to authorize the Secretary of Defense to transfer previously-appropriated
funds between DoD accounts, based upon certain conditions and circumstances. This statute arguably protects Congress and those who would have been entitled
to the funds as originally appropriated; and as a budgetary statute regarding the transfer of funds among DoD
accounts, it arguably protects economic interests.
Plaintiffs have not asserted that they would have been
entitled to the funds but for the transfer, nor have they
raised any other economic interests. Rather, they assert aesthetic, recreational, and generalized environmental interests that will be affected, not by the transfer

arising under statutes protecting Congress’s control over appropriations decisions.” However, that case merely applied the same zone
of interests test that we do here to determine that the plaintiff ’s economic interests were “sufficiently congruent” with the statute and
fell within the zone of interests. Id. at 1360.

290a
of funds, but by the building of the border wall. Nothing in § 8005 requires that aesthetic, recreational, or environmental interests be considered before a transfer is
made, nor does the statute even address such interests.
At best, Plaintiffs’ interests are only “marginally related
to . . . the purposes implicit in the statute [such] that
it cannot reasonably be assumed that Congress intended
to permit the suit,” Clarke, 479 U.S. at 399, and they fall
outside § 8005’s zone of interests. Thus, Plaintiffs may
not bring this APA claim, because their interests are not
protected by the relevant statute.
c. The Existence of an APA Claim Also Precludes an Equitable Constitutional Claim

Even though these Plaintiffs lack a cause of action under the APA, this court cannot save their claim by fashioning an “equitable” work-around to assert a constitutional claim, as the majority has done. Even if we ignored the discretion § 8005 provides to the DoD and thus
could reframe Plaintiffs’ claim as a constitutional one,
the APA’s “scope of review” provision would cover it.
Those provisions provide that a reviewing court shall:
[H]old unlawful and set aside agency action, findings,
and conclusions found to be—
(A) arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law;
(B) contrary to constitutional right, power, privilege, or immunity;
(C) in excess of statutory jurisdiction, authority,
or limitations, or short of statutory right[.]
5 U.S.C. § 706(2) (emphasis added). Where courts can
review an agency action under the APA to ensure the

291a
agency has not abused its discretion, violated the Constitution, or otherwise operated outside its authority, we
have no business devising additional “equitable” causes
of action. Here, an avenue for challenging the DoD’s
reprogramming action exists under the APA—just not
for these Plaintiffs. Thus, there is no reason to resort
to the extraordinary step of implying an equitable cause
of action for these Plaintiffs.
As the majority recognizes, “[t]he ability to sue to enjoin unconstitutional actions by state and federal officers is the creation of courts of equity.” See Armstrong,
135 S. Ct. at 1384-85. However, this “judge-made remedy” does not provide courts the unfettered power to enjoin executive action; our power “is subject to express
and implied statutory limitations.” Id. at 1385. The
majority ignores this limitation, relying on inapposite
cases to conclude that a federal court’s “equity” jurisdiction allows any would-be plaintiff to avoid proceeding
under the APA. Maj. Op. at 46-47. That the Supreme
Court considered challenges to a president’s action in
Youngstown Sheet & Tube Co. v. Sawyer, 343 U.S. 579
(1952) and Trump v. Hawaii, 138 S. Ct. 2392 (2018)
lends the majority no support; the APA does not apply
to the President, see Dalton, 511 U.S. at 468, so no
plaintiff would have an APA claim in those cases. Yet
this case is about an agency action, and therefore the
APA applies. Moreover, McIntosh arose in a very different context; our court did not “allow[] an equitable
action to enforce the Appropriations Clause,” Maj. Op.
at 48, we considered the Appropriations Clause as a defense for criminal defendants indicted for federal marijuana offenses, McIntosh, 833 F.3d at 1168 (“We are
asked to decide whether criminal defendants may avoid
prosecution for various federal marijuana offenses on

292a
the basis of a congressional appropriations rider that
prohibits the United States Department of Justice from
spending funds to prevent states’ implementation of
their own medical marijuana laws.”). Allowing defendants to invoke constitutional principles as a defense is
common, see, e.g., Bond v. United States, 564 U.S. 211,
225-26 (2011), and distinguishable from the affirmative
enforcement that the majority provides here. 11
The majority’s reliance on Armstrong highlights its
fundamental misunderstanding of cases involving a
court’s equitable power to enjoin acts violating federal
law. Maj. Op. at 52-53. Congress has not displaced the
possibility of judge-made equitable remedies against
federal agencies through the APA, see Armstrong, 135
S. Ct. at 1385, it codified judicial review of agency action. 12 Cf. W. Radio Servs. Co. v. U.S. Forest Serv., 578
The majority misunderstands my point about the distinguishing
features of McIntosh. Maj. Op. at 48. The question facing the
McIntosh court was whether criminal defendants could halt their
prosecutions by attacking how the DOJ was funding the prosecutions. 833 F.3d at 1172-73. All of the defendants “filed motions to
dismiss or to enjoin on the basis of the rider.” Id. at 1170. In granting relief, the court stated that it “need not decide in the first instance exactly how the district courts should resolve claims that the
DOJ is spending money to prosecute a defendant in violation of an
appropriations rider. We therefore take no view on the precise relief required and leave that issue to the district courts in the first
instance.” Id. at 1172 n.2. As such, McIntosh simply did not address or contemplate an injunction to enjoin spending funds parallel
to the pending criminal proceedings.
12
Without supporting authority, the majority even suggests that
the availability of an equitable cause of action would preclude an
APA claim under the APA provision providing for judicial review
when “there is no other adequate remedy in a court.” Maj. Op. at
57 (quoting 5 U.S.C. § 704).
11

293a
F.3d 1116, 1123 (9th Cir. 2009) (“The fact that APA’s
procedures are available where no other adequate alternative remedy exists further indicates Congress’s intent
that courts should not devise additional, judicially crafted
default remedies.”); San Carlos Apache Tribe, 417 F.3d
at 1096-97 (“[C]reating a direct private action against
the federal government makes little sense in light of the
administrative review scheme set out in the APA.”). 13
The majority’s failure to channel Plaintiffs’ claims
through the APA’s framework for challenging agency
action will inevitably lead to peculiar results. What prevents future plaintiffs from simply challenging any agency
action “equitably,” thereby avoiding the APA’s limited
judicial review under the “arbitrary and capricious”
standard, so that a court may substitute its own judgment for that of the agency? See 5 U.S.C. § 706(2)(A);
Motor Vehicle Mfrs. Ass’n. of United States, Inc. v.
State Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43 (1983).
The majority offers no reason to distort decades of ad-

The majority’s reliance on Navajo Nation v. Department of the
Interior, 876 F.3d 1144 (9th Cir. 2017) and Presbyterian Church v.
United States, 870 F.2d 518 (9th Cir. 1989) is misplaced. Presbyterian Church reserved the determination of whether there was
“agency action” within the meaning of the APA, 870 F.2d at 525 n.8,
meaning there was no “alternative” APA claim. Navajo Nation addressed the limits of the APA’s waiver of sovereign immunity, but
offered no guidance about the propriety of bringing parallel claims
espousing the same theory under two different causes of action (under the APA and “equitably”). 876 F.3d at 1171-72. Thus, neither
case stands for the proposition that, where (as here) an agency action
is reviewable under the APA, Plaintiffs may bring a parallel “equitable” claim.
13

294a
ministrative law practice to recognize Plaintiffs’ “equitable” action when the APA provides for review of the
DoD’s reprogramming actions.
Although it may seem unjust that Plaintiffs have no
viable recourse for their asserted injuries, “[t]he judicial
power of the United States conferred by Article III of
the Constitution is upheld just as surely by withholding
judicial relief where Congress has permissibly foreclosed it, as it is by granting such relief where authorized by the Constitution or by statute.” Dalton, 511
U.S. at 477. Plaintiffs’ relief has been permissibly foreclosed here, and Defendants have accordingly demonstrated a strong likelihood of success on the merits of
their appeal.
II.

The Other Relevant Factors Also Favor a Stay

To reemphasize, the issue before us is a motion to
stay the district court’s injunction under Federal Rule
of Appellate Procedure 8. We are limited to decide only
whether a stay should be granted until the appeal on the
merits is final. Although “[a] stay is not a matter of
right, even if irreparable injury might otherwise result,”
it is “an exercise of judicial discretion, and the propriety
of its issue is dependent upon the circumstances of the
particular case.” Nken, 556 U.S. at 433 (citations, alteration, and quotation marks omitted). Here, the circumstances of this case merit our discretionary relief
pending appeal.
Even if Defendants had failed to show a strong likelihood of success on the merits, they “may be entitled to
prevail if [they] can demonstrate a ‘substantial case on
the merits’ and the second and fourth factors [irreparable injury and public interest] militate in [their] favor.”

295a
Winter, 502 F.3d at 863. Because Plaintiffs have no viable claim for relief, Defendants have more than demonstrated a substantial case on the merits. 14 Therefore,
our panel must “give serious consideration” to the second and fourth factors. Id.
As to irreparable harm, Defendants argue that without a stay they will be prevented from ever using the
enjoined funds to complete the identified projects addressed by the permanent injunction. Defendants are
likely correct. The funding for those projects will lapse
on September 30th, and even if Defendants prevail in
this court’s final ruling, we could not order or permit Defendants to spend funds granted in a lapsed appropriation. See, e.g., City of Houston v. Dep’t of Hous. & Urban Dev., 24 F.3d 1421, 1424, 1426-27 (D.C. Cir. 1994).
No one appears to dispute that this will likely be the
practical consequence if a stay is denied. Congress
may opt to appropriate new funds for these projects in
the future, but that possibility is irrelevant. Simply,
the permanent injunction will certainly render Defendants unable to use the funds at issue here under
As to the discretionary standard of review, the district court did
not apply the second and fourth factors (for the short period of time
for which this appeal would be pending) to the request for the permanent injunction. Thus, its factual findings are not clear as to the
motion before us. It did have the occasion to apply these two factors in its analysis of the stay of the preliminary injunction. However, in its analysis of that stay, it chose to ignore these factors, concluding that, “[b]ecause the Court finds that Defendants have not
met their burden to make a strong showing that they are likely to
succeed on the merits of their appeal, the Court need not further
address the other Nken factors.” Sierra Club v. Trump, No. 19CV-00892-HSG, 2019 WL 2305341, at *2 n.2 (N.D. Cal. May 30,
2019). This conclusion was an abuse of discretion. See Winter,
502 F.3d at 862.
14

296a
§ 284(b)(7). Thus, there is a “possibility that . . .
corrective relief will [not] be available at a later date, in
the ordinary course of litigation.” See Sampson v.
Murray, 415 U.S. 61, 90 (1974). Therefore, Defendants
have demonstrated that they will be irreparably injured
if a stay is not issued. See id.
As to the public interest, Defendants argue that their
interests in preventing drug trafficking easily outweigh
Plaintiffs’ aesthetic, recreational, and generalized environmental injuries. In the narrow context of this stay
motion, Defendants are correct. Even though environmental injuries may be significant in the long term, the
injunction will only be stayed for a short period. 15 If
the DoD is precluded from obligating these funds in the
2019 fiscal year, it must forgo providing support under
§ 284(b)(7). Defendants have adequately demonstrated
that the public interest weighs in their favor for supporting § 284(b)(7) for at least three reasons. 16
First, no one disputes that Defendants have broad
authority to carry out a variety of actions aimed at disrupting the cross-border flow of narcotics in the affected
areas. Cf. United States v. Guzman-Padilla, 573 F.3d
865, 889 (9th Cir. 2009). Nor does anyone dispute that
Defendants are authorized by statute to construct fencing and other barriers for that purpose in the areas at
As previously noted, the parties have suggested that an expedited briefing schedule will be requested. Given the need for a timely
resolution of this case, this case should be resolved shortly.
16
Whether the district court appropriately balanced these interests when it issued the permanent injunction is not before us. Our
inquiry is limited to the motion to stay, and the final determination
on the balance on interests is one that the merits panel will ultimately
decide.
15

297a
issue in this lawsuit. See 10 U.S.C. § 284(b)(7). Nor
even does anyone seriously dispute the DoD’s determination that drug trafficking along our southern border
(including in the project areas at issue here) threatens
the safety and security of our nation and its citizens.
See Winter, 502 F.3d at 862 (“We customarily give considerable deference to the Executive Branch’s judgment
regarding foreign policy and national defense.” (citing
Dep’t of Navy v. Egan, 484 U.S. 518, 529 (1988))); see
also Franklin, 505 U.S. at 818. Given this significant national security interest, the public would benefit more
from a stay that—while this appeal is pending—permits
Defendants to effect the policies that it has determined
are necessary to minimize that threat, than it would
from a decision that hampers Defendants’ ability to combat this threat throughout the present appellate process. 17

The record does not reflect that Congress “denied” funding under § 284. The funds at issue here will be used solely to “provide support for the counterdrug activities.” § 284. The fact that there were
numerous discussions surrounding the building of a wall, during the
budgetary negotiations and the shut down of the government, does
not alter what Congress set forth in its appropriations bill for the
DoD. See Salazar v. Ramah Navajo Chapter, 567 U.S. 182, 200
(2012) (“An agency’s discretion to spend appropriated funds is cabined only by the ‘text of the appropriation,’ not by Congress’ expectations of how the funds will be spent, as might be reflected by legislative history.” (citation omitted)). Nowhere in the DoD Appropriations Act are there limitations on its ability to act under
§ 284. Moreover, the transfer of funds stays within the DoD’s allotted appropriations and does not increase the appropriations of the
DHS. Even if we should look to all appropriation acts, the only limitations placed on the DHS “for the construction of pedestrian fencing” were for geographic areas and “funds made available by this
17

298a
Second, if the injunction is allowed to remain in effect, it will, for reasons outlined above, potentially cause
irreparable harm to Defendants. On the other hand,
the irreparable harm to Plaintiffs during this relatively
short period (if a stay is granted) is less clear. Defendants have represented to this court that the projects at
issue are needed to protect national security and must
go forward even if there is a possibility that a merits
panel may eventually order them to remove whatever
was constructed while a stay was in place. This is not
the sort of determination that courts will ordinarily second guess. See Winter, 502 F.3d at 862; Franklin, 505
U.S. at 818 (recognizing “the principle of judicial deference that pervades the area of national security”); see
also Munaf v. Geren, 553 U.S. 674, 689 (2008) (“We therefore approach these questions cognizant that ‘courts traditionally have been reluctant to intrude upon the authority of the Executive in military and national security
affairs.’ ” (quoting Egan, 484 U.S. at 530)). It is difficult
to determine that Plaintiffs’ inability to recreate in and
otherwise enjoy this public land would outweigh the
claimed national interests during the limited period of
time the requested stay would be in place—especially
considering Plaintiffs do not have a viable cause of action to challenge Defendants’ actions under § 8005.
Third, the district court’s reasoning that the public
interest does not favor Defendants, because the public
has a generalized interest in ensuring that the Executive acts within the limits imposed by statute and by the
Constitution, simply begs the question. If a court accepts the premise that Defendants exceeded statutory
Act or prior Acts.”
see also id. § 232.

See Pub. L. No. 116-6, § 231, 133 Stat. 13, 28.

299a
or constitutional limitations on its authority, then the
public has an interest in seeing that the Executive
Branch is “reined in.” However, if Defendants show
that they did not exceed those bounds, then the public
interest articulated by Plaintiffs and the district court
has no merit. Moreover, when considering whether to
grant a stay, the public interest factor cannot rise or fall
on how the appeal is ultimately resolved on its merits.
That analysis would collapse the public interest factor
into the first element of the four-part test.
In conclusion, because Defendants have more than
demonstrated a substantial case on the merits, and because the second and fourth factors “militate in [their]
favor,” we should exercise our discretion and issue a
stay pending the appeal of the district court’s permanent
injunction. See Winter, 502 F.3d at 863. It makes little
sense to tie Defendants’ hands while the appellate process plays out, especially given Plaintiffs’ lack of a viable
claim and given the national security considerations present in this case.

300a
APPENDIX G
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Nos. 19-16102, 19-16300
D.C. No. 4:19-cv-00892-HSG
Northern District of California, Oakland
SIERRA CLUB; SOUTHERN BORDER COMMUNITIES
COALITION, PLAINTIFFS-APPELLEES
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES; ET AL.,
DEFENDANTS

No. 19-16299
D.C. No. 4:19-cv-00872-HSG
Northern District of California, Oakland
STATE OF CALIFORNIA; ET AL., PLAINTIFFS-APPELLEES
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES OF AMERICA;
ET AL., DEFENDANTS-APPELLANTS
[Filed:

July 3, 2019]

ORDER

Before: CLIFTON, N.R. SMITH, and FRIEDLAND, Circuit Judges.

301a
The motion to consolidate appeal Nos. 19-16102
and 19-16300 is granted. We defer resolution of the request to consolidate appeal No. 19-16299, which will be
addressed by separate order.
Briefing is stayed in these appeals pending further
order.

302a
APPENDIX H
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA

Case No. 19-cv-00892-HSG
SIERRA CLUB, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, ET AL., DEFENDANTS
Filed:

May 30, 2019

ORDER DENYING MOTION
TO STAY PRELIMINARY INJUNCTION
Re: Dkt. Nos. 146, 147

Pending before the Court is Defendants’ Motion to
Stay Preliminary Injunction Pending Appeal. See Dkt.
No. 146 (“Mot.”). Defendants seek a stay of the Court’s
May 24, 2019 preliminary injunction order pending the
outcome of their recently filed appeal to the United
States Court of Appeals for the Ninth Circuit. See Dkt.
No. 144 (“Order”). The Order enjoined Defendants from
“taking any action to construct a border barrier in the
areas Defendants have identified as Yuma Sector Project 1 and El Paso Sector Project 1 using funds reprogrammed by DoD under Section 8005 of the Department
of Defense Appropriations Act, 2019.” Id. at 55. 1
Reasonably, Defendants “request that the Court rule on this
motion expeditiously,” without a response from Plaintiffs, and without
1

303a
“A stay is not a matter of right, even if irreparable
injury might otherwise result.” Nken v. Holder, 556
U.S. 418, 433 (2009) (internal quotation marks omitted).
Instead, it is “an exercise of judicial discretion,” and
“the propriety of its issue is dependent upon the circumstances of the particular case.” Id. (internal quotation and alteration marks omitted). The party seeking
a stay bears the burden of justifying the exercise of that
discretion. Id. at 433-34.
Whether to grant a stay pending appeal involves a
similar inquiry as whether to issue a preliminary injunction. Tribal Vill. of Akutan v. Hodel, 859 F.2d 662, 663
(9th Cir. 1988). Courts consider four familiar factors:
“(1) whether the stay applicant has made a strong showing that he is likely to succeed on the merits; (2) whether
the applicant will be irreparably injured absent a stay;
(3) whether issuance of the stay will substantially injure
the other parties interested in the proceeding; and (4)
where the public interest lies.” Nken, 556 U.S. at 434
(noting overlap with Winter v. Natural Resources Defense Council, Inc., 555 U.S. 7 (2008)). The first two
factors “are the most critical.” Id.
The Court will not stay its preliminary injunction order pending Defendants’ appeal. The Court does not
find that Defendants are likely to prevail on the merits
of their appeal. In granting the preliminary injunction,
the Court rejected all of the arguments Defendants now
oral argument, so that Defendants may promptly seek relief in the
Ninth Circuit if the Court denies the motion to stay. Mot. at 1. The
Court finds this matter appropriate for disposition without oral argument and the matter is deemed submitted. See Civil L.R. 71(b). The Court further finds that no response from Plaintiffs is necessary.

304a
advance regarding their intended use of funds reprogrammed by DoD under Section 8005, and found that
Plaintiffs, not Defendants, were likely to succeed on the
merits of their respective arguments. The Court incorporates that reasoning here. Moreover, Defendants’ request to proceed immediately with the enjoined construction would not preserve the status quo pending resolution of the merits of Plaintiffs’ claims, and would instead
effectively moot those claims. Finally, the Court continues to see no reason that the merits of this case cannot be resolved expeditiously, enabling the parties to litigate a final judgment on appeal, rather than a preliminary injunction.
For these reasons, the Court DENIES Defendants’
Motion to Stay. 2 Defendants’ Motion to Shorten Time
is TERMINATED AS MOOT. See Dkt. No. 147.
IT IS SO ORDERED.

Dated:

5/30/2019
/s/ HAYWOOD S. GILLIAM, JR.
HAYWOOD S. GILLIAM, JR.
United States District Judge

Because the Court finds that Defendants have not met their
burden to make a strong showing that they are likely to succeed on
the merits of their appeal, the Court need not further address the
other Nken factors.
2

305a
APPENDIX I
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA

Case No. 19-cv-00892-HSG
SIERRA CLUB, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, ET AL., DEFENDANTS
Filed:

May 24, 2019

ORDER GRANTING IN PART AND DENYING
IN PART PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
Re: Dkt. No. 29

On February 19, 2019, Sierra Club and Southern
Border Communities Coalition (“SBCC”) (collectively,
“Citizen Group Plaintiffs” or “Citizen Groups”) filed suit
against Defendants Donald J. Trump, in his official capacity as President of the United States; Patrick M.
Shanahan, in his official capacity as Acting Secretary of
Defense; Kevin K. McAleenan, in his official capacity as
Acting Secretary of Homeland Security 1; and Steven T.
Mnuchin, in his official capacity as Secretary of the Department of the Treasury (collectively, “Federal Defendants”). Dkt. No. 1. This action followed a related
Acting Secretary McAleenan is automatically substituted for
former Secretary Kirstjen M. Nielsen. See Fed. R. Civ. P. 25(d).
1

306a
suit brought by a coalition of states (collectively, “Plaintiff States” or “States”) against the same—and more—
Federal Defendants.
See Complaint, California v.
Trump, No. 4:19-cv-00872-HSG (N.D. Cal. Feb. 18, 2019),
ECF No. 1. Plaintiffs here filed an amended complaint
on March 18, 2019. Dkt. No. 26 (“FAC”).
Now pending before the Court is Plaintiffs’ motion
for a preliminary injunction, briefing for which is complete. See Dkt. Nos. 29 (“Mot.”), 64 (“Opp.”), 91 (“Reply”). The Court held a hearing on this motion on May
17, 2019. See Dkt. No. 138. In short, Plaintiffs seek to
prevent executive officers from using redirected federal
funds for the construction of a barrier on the U.S.Mexico border.
It is important at the outset for the Court to make
clear what this case is, and is not, about. The case is
not about whether the challenged border barrier construction plan is wise or unwise.
It is not about
whether the plan is the right or wrong policy response
to existing conditions at the southern border of the
United States. These policy questions are the subject
of extensive, and often intense, differences of opinion,
and this Court cannot and does not express any view as
to them. See Trump v. Hawaii, 138 S. Ct. 2392, 2423
(2018) (indicating that the Supreme Court “express[ed]
no view on the soundness of the policy” at issue there);
In re Border Infrastructure Envtl. Litig., 284 F. Supp.
3d 1092, 1102 (S.D. Cal. 2018) (noting that the court
“cannot and does not consider whether underlying decisions to construct the border barriers are politically
wise or prudent”). Instead, this case presents strictly
legal questions regarding whether the proposed plan for

307a
funding border barrier construction exceeds the Executive Branch’s lawful authority under the Constitution
and a number of statutes duly enacted by Congress.
See In re Aiken Cty., 725 F.3d 255, 257 (D.C. Cir. 2013)
(“The underlying policy debate is not our concern. . . .
Our more modest task is to ensure, in justiciable cases,
that agencies comply with the law as it has been set by
Congress.”).
Assessing whether Defendants’ actions not only conform to the Framers’ contemplated division of powers
among co-equal branches of government but also comply
with the mandates of Congress set forth in previously
unconstrued statutes presents a Gordian knot of sorts.
But the federal courts’ duty is to decide cases and controversies, and “[t]hose who apply the rule to particular
cases, must of necessity expound and interpret that
rule.” See Marbury v. Madison, 1 Cranch 137, 177
(1803). Rather than cut the proverbial knot, however,
the Court aims to untie it—no small task given the number of overlapping legal issues. And at this stage, the
Court then must further decide whether Plaintiffs have
met the standard for obtaining the extraordinary remedy of a preliminary injunction pending resolution of the
case on the merits.
After carefully considering the parties’ arguments,
the Court GRANTS IN PART and DENIES IN PART
Plaintiffs’ motion.
I.

FACTUAL BACKGROUND

The President has long voiced support for a physical
barrier between the United States and Mexico. See,
e.g., Request for Judicial Notice, California v. Trump,
No. 4:19-cv-00872-HSG (N.D. Cal. Apr. 8, 2019), ECF

308a
No. 59-4 (“States RJN”) Ex. 3 (June 16, 2016 Presidential Announcement Speech) (“I would build a great wall,
and nobody builds walls better than me, believe me, and
I’ll build them very inexpensively, I will build a great,
great wall on our southern border. And I will have
Mexico pay for that wall.”). 2 Upon taking office in
2017, the President’s administration repeatedly sought
appropriations from Congress for border barrier construction. See, e.g., Budget of the U.S. Government:
A New Foundation for American Greatness: Fiscal Year
2018, Office of Mgmt. & Budget 18 (2017), https://www.
whitehouse.gov/wp-content/uploads/2017/11/budget.pdf
(requesting “$2.6 billion in high-priority tactical infrastructure and border security technology, including funding to plan, design, and construct a physical wall along
the southern border”). Congress provided some funding, including $1.571 billion for fiscal year 2018. See
Consolidated Appropriations Act, 2018, Pub. L. No. 115141, div. F, tit. II, § 230(a) 132 Stat. 348 (2018). And
Defendants do not oppose the Plaintiff States’ request to take
judicial notice of various documents. The Court finds it may take
judicial notice of documents from Plaintiff States’ request that are
cited in this order, all of which are: (1) statements of government
officials or entities that are not subject to reasonable dispute; (2)
bills considered by Congress or other legislative history; or (3)
other public records and government documents available on reliable internet sources, such as government websites. See DeHoog
v. Anheuser-Busch InBev SA/NV, 899 F.3d 758, 763 n.5 (9th Cir.
2018) (taking “judicial notice of government documents, court filings, press releases, and undisputed matters of public record”);
Hawaii v. Trump, 859 F.3d 741, 773 n.14 (9th Cir. 2017) (taking
judicial notice of President’s tweets), vacated on other grounds,
138 S. Ct. 377 (2017); Anderson v. Holder, 673 F.3d 1089, 1094 n.1
(9th Cir. 2012) (“Legislative history is properly a subject of judicial
notice.”).
2

309a
Congress considered several bills that, if passed, would
have authorized or otherwise appropriated billions of dollars more for border barrier construction. See States
RJN Exs. 14-20. None passed.
In December 2018—as Congress and the President
were negotiating an appropriations bill to fund various
federal departments for what remained of the fiscal
year—the President announced that he would not sign
any funding legislation that lacked substantial funds for
border barrier construction. Farm Bill Signing, CSPAN (Dec. 20, 2018), https://www.c-span.org/video/?
456189-1/president-government-funding-bill-includemoney-border-wall (“I’ve made my position very clear.
Any measure that funds the government must include
border security. . . . Walls work whether we like it
or not. They work better than anything.”). Congress
did not pass a bill with the President’s desired border
barrier funding and, due to this impasse, the United
States entered into the nation’s longest partial government shutdown.
The President and those in his administration stated
on several occasions before, during, and after the shutdown that, although Congress should make the requisite
funds available for border barrier construction, the
President was willing to use a national emergency declaration and other reprogramming mechanisms as funding backstops. For example, during a December 11,
2018 meeting with congressional representatives, the
President stated that “if we don’t get what we want [for
border barrier construction funding], one way or the
other—whether it’s through [Congress], through a military, through anything you want to call [sic]—I will shut
down the government. Absolutely.” States RJN Ex.

310a
21. The White House initially requested only $1.6 billion for border barrier construction for the fiscal year
2019 budget, for sixty-five miles of border barrier construction “in south Texas.” See Supplemental Request
for Judicial Notice, California v. Trump, No. 4:19-cv00872-HSG (N.D. Cal. Apr. 8, 2019), ECF No. 112-1, Ex.
51, at 58. However, the White House increased its request on January 6, 2019, when the Acting Director of
the Office of Management and Budget transmitted a letter to the U.S. Senate Committee on Appropriations,
“request[ing] $5.7 billion for construction of a steel barrier for the Southwest border,” and explaining that the
request “would fund construction of a total of approximately 234 miles of new physical barrier.” See Dkt. No.
36 (“Citizen Groups RJN”) Ex. A, at 1. 3 The increased
request specified that “[a]ppropriations bills for fiscal
year (FY) 2019 that have already been considered by the
current and previous Congresses are inadequate to fully
address these critical issues,” including the need for border barrier construction funds. Id. Days later, the President explained: “If we declare a national emergency, we
have a tremendous amount of funds—tremendous—if
we want to do that, if we want to go that route. Again,
there is no reason why we can’t come to a deal. . . .
[Congress] could stop this problem in 15 minutes if they
wanted to.” States RJN Ex. 13.
After the government shutdown ended, the President
and others in his administration reaffirmed their intent

The Court takes judicial notice of documents submitted by the
Citizen Group Plaintiffs, consideration of which Defendants do not
oppose, and the accuracy of the contents of which similarly “cannot
be questioned.” See discussion supra note 2.
3

311a
to fund a border barrier, with or without Congress’s blessing. On February 9, 2019, the President explained that
even if Congress provided less than the requested funding for a border barrier, the barrier “[would] get built
one way or the other!” Citizen Groups RJN Ex. C.
The next day, the Acting White House Chief of Staff explained that the Administration intended to accept
whatever funding Congress would offer and then use
other measures to reach the President’s desired funding
level for border barrier construction:
The President is going to build a wall. You saw what
the Vice-President said there, and that’s our attitude
at this point, which is: We’ll take as much money as
you can give us, and then we’ll go off and find the
money someplace else, legally, in order to secure that
southern barrier. But this is going to get built, with
or without Congress.
See Fox News, Mick Mulvaney on chances of border
deal, Democrats ramping up investigation of Trump admin, YouTube (Feb. 10, 2019), https://www.youtube.com/
watch?v=l_Z0xx_zS0M. He went on to detail that the
Administration was prepared to both reprogram money
and declare a national emergency to unlock funds:
There are other funds of money that are available to
[the President] through what we call reprogramming.
There is money that he can get at and is legally allowed to spend, and I think it—needs to be said again
and again that all of this is going to be legal. There
are statutes on the books as to how any President can
do this. . . . There are certain funds of money
that he can get to without declaring a national emergency and other funds that he can only get to after
declaring a national emergency.

312a
Id. All told, the “whole pot” of such funds was “well
north of $5.7 billion.” Id. And with respect to a national emergency declaration in particular, the Acting
White House Chief of Staff explained: “The President
doesn’t want to do it. . . . He would prefer legislation because that’s the right way to go, and it’s the
proper way to spend money in this country.” Id.
On February 14, 2019, Congress passed the Consolidated Appropriations Act of 2019 (“CAA”), Pub. L. No.
116-6, 133 Stat. 13 (2019). The CAA consolidated separate appropriations acts related to different federal
agencies into one bill, including for present purposes the
DHS Appropriations Act for Fiscal Year 2019. See id.,
div. A. The CAA made available $1.375 billion—less than
one quarter of the $5.7 billion sought by the President—
“for the construction of primary pedestrian fencing, including levee pedestrian fencing, in the Rio Grande Valley Sector.” Id. § 230(a)(1), 133 Stat. at 28. Congress
limited the use of these funds both as to the type of pedestrian fencing—only “operationally effective designs
deployed as of the date of the Consolidated Appropriations Act, 2017 . . . such as currently deployed steel
bollard designs”—and geographically—no funds were
available for construction within (1) the Santa Ana Wildlife Refuge, (2) the Bentsen-Rio Grande Valley State
Park, (3) La Lomita Historical park, (4) the National
Butterfly Center, or (5) within or east of the Vista del
Mar Ranch tract of the Lower Rio Grande Valley National Wildlife Refuge. Id. §§ 230(b), 231, 133 Stat. at 28.
The CAA further imposed notice and comment requirements prior to the use of any funds for the construction
of barriers within certain city limits. Id. § 232, 133 Stat.
at 28-29. Section 739 of the CAA provided:

313a
None of the funds made available in this or any other
appropriations Act may be used to increase, eliminate, or reduce funding for a program, project, or activity as proposed in the President’s budget request
for a fiscal year until such proposed change is subsequently enacted in an appropriation Act, or unless
such change is made pursuant to the reprogramming
or transfer provisions of this or any other appropriations Act.
Id. § 739, 133 Stat. at 197.
On February 15, 2019, the President not only signed
the CAA into law but also issued a proclamation “declar[ing] that a national emergency exists at the southern
border of the United States.” Proclamation No. 9844,
84 Fed. Reg. 4,949 (Feb. 15, 2019). In announcing the
national emergency declaration, the President declared
that although he “went through Congress” for the $1.375
billion in funding, he was “not happy with it.” States
RJN Ex. 50. The President added: “I could do the
wall over a longer period of time. I didn’t need to do
this. But I’d rather do it much faster. . . . And I
think that I just want to get it done faster, that’s all.”
Id.
The proclamation itself provided:
The current situation at the southern border presents a border security and humanitarian crisis that
threatens core national security interests and constitutes a national emergency. The southern border is
a major entry point for criminals, gang members, and
illicit narcotics. The problem of large-scale unlawful migration through the southern border is longstanding, and despite the executive branch’s exercise

314a
of existing statutory authorities, the situation has
worsened in certain respects in recent years. In particular, recent years have seen sharp increases in the
number of family units entering and seeking entry to
the United States and an inability to provide detention space for many of these aliens while their removal
proceedings are pending. If not detained, such aliens
are often released into the country and are often difficult to remove from the United States because they
fail to appear for hearings, do not comply with orders
of removal, or are otherwise difficult to locate. In
response to the directive in my April 4, 2018, memorandum and subsequent requests for support by the
Secretary of Homeland Security, the Department of
Defense has provided support and resources to the
Department of Homeland Security at the southern
border. Because of the gravity of the current emergency situation, it is necessary for the Armed Forces
to provide additional support to address the crisis.
Proclamation No. 9844, 84 Fed. Reg. 4,949. The proclamation then invoked and made available to relevant
Department of Defense (“DoD”) personnel two statutory authorities. First, the proclamation made available the authority to “order any unit, and any member
not assigned to a unit organized to serve as a unit, in the
Ready Reserve . . . to active duty for not more than
24 consecutive months,” under 10 U.S.C. § 12302. Id.
Second, the proclamation made available “the construction authority provided in [10 U.S.C. § 2808].” Id. As
is necessary to invoke Section 2808, the proclamation
“declar[ed] that this emergency requires use of the
Armed Forces.” Id.; see also 10 U.S.C. § 2808(a) (limiting construction authority to presidential declarations
“that require[] use of the armed forces”).

315a
As additional information regarding the national
emergency declaration, the White House simultaneously issued a “fact sheet[],” which explained that “the
Administration [had] so far identified up to $8.1 billion
that will be available to build the border wall once a national emergency is declared.” Citizen Groups RJN
Ex. G. The White House specifically identified three
funding sources, purportedly to be used sequentially:
•

“About $601 million from the Treasury Forfeiture Fund” (“TFF ”);

•

“Up to $2.5 billion under the Department of Defense funds transferred for Support for Counterdrug Activities” (10 U.S.C. § 284) (“Section
284”); and

•

“Up to $3.6 billion reallocated from Department
of Defense military construction projects under
the President’s declaration of a national emergency” (10 U.S.C. § 2808) (“Section 2808”).

Id.
In declaring a national emergency, the President invoked his authority under the National Emergencies
Act (“NEA”), Pub. L. 94-412, 90 Stat. 1255 (1976) (codified as amended at 50 U.S.C. §§ 1601-1651). This appears to have been the first time in American history
that a President declared a national emergency to secure funding previously withheld by Congress. As another historical first, Congress passed a joint resolution
to terminate the President’s declaration of a national
emergency. See H.R.J. Res. 46, 116th Cong. (2019).
The President vetoed Congress’s joint resolution on

316a
March 15, 2019. 4 See Veto Message to the House of Representatives for H.J. Res. 46, The White House (Mar. 15,
2019), https://www.whitehouse.gov/briefings-statements/
veto-message-house-representatives-h-j-res-46/. The
House voted 248-181 to override the President’s veto,
which fell short of the required two-thirds majority.
165 Cong. Rec. 2,799, 2,814-15 (2019).
Following the President’s national emergency declaration, executive officers reaffirmed what the President
and his administration had been saying for months:
the Administration was content to first request border
barrier construction funding from Congress, and then
augment whatever they received with funds from alternative sources. Then-Secretary of Homeland Security
Nielsen described this mindset on March 6, 2019, while
testifying before the House Homeland Security Committee: “[The President] hoped Congress would act,
that it didn’t have to come to issuing an emergency declaration, if Congress had met his request to fund the resources that [U.S. Customs and Border Protection
(“CBP”)] has requested.” 3/6/2019 Nielsen Testimony,
C-SPAN (Mar. 6, 2019), https://www.c-span.org/video/?
c4787939/362019-nielsen-testimony.
Since the national emergency declaration, Defendants have taken significant steps toward using the funds
at issue in this motion for border barrier construction.
On February 15, 2019, the Treasury approved a request
from the Department of Homeland Security (“DHS”) to
make available up to $601 million from the Treasury
Forfeiture Fund, which Defendants “intend[] to obligate
As described below, the Congress that passed the NEA did not
contemplate the possibility of a presidential veto.
4

317a
. . . before the end of Fiscal Year 2019.” See Case
No. 4:19-cv-00872-HSG, ECF No. 89-8 (“Flossman Second Decl.”) ¶¶ 9, 11. On February 25, 2019, DHS submitted a request to DoD for assistance blocking drugsmuggling corridors under Section 284. See Dkt. No.
64-8 (“Rapuano Decl.”) ¶ 3; States RJN Ex. 33. And on
March 25, 2019, in response to DHS’s request, the Acting Secretary of Defense—Defendant Shanahan—
approved the diversion of funds from DoD’s counternarcotics support budget for three “drug-smuggling corridors” identified by DHS: one located in New Mexico—
El Paso Project 1—and two located in Arizona—Yuma
Sector Projects 1-2. 5 Rapuano Decl. ¶¶ 4, 7-9. Construction related to these projects may begin as soon as
May 25, 2019. See id. ¶ 10 (providing that construction
“will begin no earlier than May 25, 2019”).
To fund the Section 284 diversion, Defendant Shanahan simultaneously invoked Section 8005 of the mostrecent DoD appropriations act to “reprogram” $1 billion
from Army personnel funds to the counter-narcotics
support budget. See id. ¶ 5; States RJN Ex. 34; see
also Department of Defense Appropriations Act, 2019,
Pub. L. No. 115-245, § 8005, 132 Stat. 2981, 2999 (2018).
Defendant Shanahan also formally notified Congress of
the authorization, explaining that reprogrammed funds
under Section 8005 were “required” so that DoD could
provide DHS the support it requested under Section
284. States RJN Ex. 32, at 1; see also id. Ex. 33, at 2
(DHS’s February 25, 2019 request for support under
Section 284).
Defendants have since elected not to fund or construct Yuma
Project 2 using funds reprogrammed or diverted under Sections
8005 or 284. See Dkt. No. 118-1 (“Rapuano Second Decl.”) ¶ 4.
5

318a
The next day, Defendant Shanahan appeared before
the House Armed Services Committee to testify in support of the President’s budget request for fiscal year
2020. See Case No. 4:19-cv-00872-HSG, ECF No. 8912. The Committee Chairman asked Defendant Shanahan why DoD did not first seek approval from relevant congressional committees before reprogramming
funds under Section 8005, as would have been consistent
with a “gentlemen’s agreement[]” between Congress
and the Executive. Id. at 13 (“But one of the sort of
gentlemen’s agreements about [giving reprogramming
authority for up to $4 billion last year] was if you reprogram money, you will not do it without first getting the
approval of all for [sic] relevant committees. . . .
For the first time since we’ve [given such reprogramming authority]. . . . you are not asking for our permission.”). The Chairman noted that “the result of ” ignoring the gentlemen’s agreement likely would be Congress declining to provide such broad reprogramming
authority in the future. Id. Defendant Shanahan conceded that “discretionary reprogramming” was “traditionally done in coordination” with Congress, but explained that the Administration discussed unilateral reprogramming “prior to the declaration of a national
emergency,” recognized “the significant downsides of
the [sic] losing what amounts to a privilege,” and nonetheless decided to move forward with unilaterally reprogramming funds despite that risk. Id. at 14. The
same day as the hearing, both the House Committee on
Armed Services and the House Committee on Appropriations formally disapproved of the Section 8005 reprogramming. See States RJN Ex. 35 (“The committee
denies this request. The committee does not approve
the proposed use of [DoD] funds to construct additional

319a
physical barriers and roads or install lighting in the vicinity of the United States border.”); id. Ex. 36 (“The
Committee has received and reviewed the requested reprogramming action. . . . The Committee denies the
request.”).
On April 24, 2019, Defendant McAleenan, the Acting
Secretary of Homeland Security, published in the Federal Register notices of determination concerning the
“construction of barriers and roads in the vicinity of
the international land border in Luna County, New
Mexico and Doña Ana County, New Mexico,” and “in
Yuma County, Arizona”—in other words, areas encompassed by the El Paso Sector and Yuma Sector Projects.
See Determination Pursuant to Section 102 of the Illegal
Immigration Reform and Immigrant Responsibility Act
of 1996, as Amended, 84 Fed. Reg. 17,185, 17,186 (Apr.
24, 2019); Determination Pursuant to Section 102 of the
Illegal Immigration Reform and Immigrant Responsibility Act of 1996, as Amended, 84 Fed. Reg. 17,187 (Apr.
24, 2019). The Acting Secretary invoked his authority
under Section 102(c) of the Illegal Immigration Reform
and Immigrant Responsibility Act of 1996 (“IIRIRA”) 6
“to waive all legal requirements that [he], in [his] sole
discretion, determine[d] necessary to ensure the expeditious construction of barriers and roads authorized by
section 102 of IIRIRA.” See, e.g., 84 Fed. Reg. at
17,186. The waiver asserts that “areas in the vicinity
Pub. L. No. 104-208, div. C, 110 Stat. 3009, 3009-554 (Sept. 30,
1996), as amended by the REAL ID Act of 2005, Pub. L. No. 109-13,
div. B, 119 Stat. 231, 302, 306 (May 11, 2005), as amended by the
Secure Fence Act of 2006, Pub. L. No. 109-367, § 3, 120 Stat. 2638,
2638-39 (Oct. 26, 2006), as amended by the Department of Homeland
Security Appropriations Act, 2008, Pub. L. No. 110-161, div. E, tit.
V, § 564, 121 Stat. 1844, 2090-91 (Dec. 26, 2007).
6

320a
of the United States border, located in [these regions],
are areas of high illegal entry,” for which “[t]here is
presently an acute and immediate need to construct
physical barriers and roads.” See id. The designated
“Project Areas” encompass all portions of New Mexico
and Arizona for which Defendants presently intend to
construct physical barriers. Finding this action “necessary,” the Acting Secretary invoked Section 102(c) to
waive “in their entirety” numerous federal laws—
including the National Environmental Policy Act
(“NEPA”), Pub. L. No. 91-190, 83 Stat. 852 (1970) (codified as amended at 42 U.S.C. §§ 4321-4370b)—“with respect to the construction of physical barriers and roads
. . . in the project area[s].” See id.
On May 8, 2019, Defendant Shanahan, appearing before the Senate Defense Appropriations Subcommittee,
testified: “We now have on contract sufficient funds to
build about 256 miles of barrier,” explaining that this
funding derived in part from “treasury forfeiture funds,
as well as reprogramming.” Acting Defense Secretary
Shanahan Testifies on 2020 Budget Request, C-SPAN
(May 8, 2019), https://www.c-span.org/video/?460437-1/
acting-defense-secretary-shanahan-testifies-2020-budgetrequest. Defendant Shanahan estimated that “sixtythree new miles will come online” from these contracts
in the next six months, or “half a mile a day.” Id. The
same day, DoD reported selecting twelve companies to
compete for up to $5 billion worth of border barrier construction contracts. Contracts for May 8, 2019, U.S.
Dep’t of Def. (May 8, 2019), https://dod.defense.gov/News/
Contracts/Contract-View/Article/1842189/.

321a
The next day, Defendant Shanahan authorized an additional $1.5 billion in funding for border barrier construction, in further response to DHS’s February 25,
2019 request for support under Section 284, for four projects: one located in California—El Centro Project 1—
and three located in Arizona—Tucson Sector Projects 13. See Rapuano Second Decl. ¶ 6; see also Rapuano
Decl. Ex. A, at 3, 6-7 (describing project locations). To
fund these projects, Defendant Shanahan again invoked
Section 8005, “as well as DoD’s special transfer authority under section 9002 of the Department of Defense Appropriations Act, 2019, and section 1512 of the John S.
McCain National Defense Authorization Act for Fiscal
Year 2019.” 7 Rapuano Second Decl. ¶ 7. Defendants
anticipate that construction will begin with these funds
as early as July 2019. Id. ¶¶ 10-11 (noting Defendants’
expectation of awarding contracts by May 16, 2019,
forty-five days after which construction may begin).
And on May 15, 2019, Defendant McAleenan issued
NEPA waivers for the El Centro Sector and Tucson
Sector Projects. See Determination Pursuant to Section 102 of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996, as Amended, 84 Fed.
Reg. 21,798 (May 15, 2019) (waiving NEPA require-

Defendants’ Section 9002 authority is, at a minimum, subject to
Section 8005’s limitations. See Department of Defense Appropriations Act, 2019, Pub. L. No. 115-245, § 9002, 132 Stat. 2981, 3042
(2018) (providing that “the authority provided in this section is in
addition to any other transfer authority available to the Department
of Defense and is subject to the same terms and conditions as the
authority provided in section 8005 of this Act”); see also Dkt. No.
131, at 4 (acknowledging that Section 9002 “incorporates the requirements of [Section] 8005 by reference”).
7

322a
ments for Tucson Sector Projects); Determination Pursuant to Section 102 of the Illegal Immigration Reform
and Immigrant Responsibility Act of 1996, as Amended,
84 Fed. Reg. 21,800 (May 15, 2019) (waiving NEPA requirements for El Centro Sector Project).
At the hearing on this motion, the parties agreed that
the Court need not yet address the lawfulness of Defendants’ newly announced reprogramming and subsequent diversion of funds for border barrier construction
in the El Centro Sector and Tucson Sector Projects,
pending further development of the record as to those
projects.
II.

STATUTORY FRAMEWORK
A.

The National Emergencies Act

In 1976, Congress enacted the National Emergencies
Act “to insure that the exercise of national emergency
authority is responsible, appropriate, and timely.” Comm.
on Gov’t Operations & the Special Comm. on Nat’l Emergencies & Delegated Emergency Powers, 94th Cong., 2d
Sess., The National Emergencies Act (Public Law 94412) Source Book: Legislative History, Texts, and Other
Documents, at 1 (1976) (“NEA Source Book”). The
NEA rescinded several existing national emergencies,
repealed many statutes, and created procedural guidelines for congressional oversight over future presidents’
declarations of national emergencies.
The NEA first permits that after “specifically declar[ing] a national emergency,” the president may exercise
emergency powers authorized by Congress in other federal statutes. 50 U.S.C. § 1621. To exercise any statutory emergency power, the president must first specify
the power or authority under which the president or

323a
other officers will act, “either in the declaration of a national emergency, or by one or more contemporaneous
or subsequent Executive orders published in the Federal Register and transmitted to the Congress.” Id.
§ 1631.
Section 1622 then establishes a procedure for Congress to terminate any declared national emergency
through a joint resolution. 8 As initially drafted, Congress meant for the joint resolution to terminate the declared national emergency by itself—the NEA did not
require a presidential signature on the joint resolution,
nor was it subject to a presidential veto. In part because Congress had power under the NEA to terminate
national emergencies with a simple majority in both
houses, Congress neither defined the term “national
emergency,” nor “ma[de] any attempt to define when a
declaration of national emergency is proper.” NEA
Source Book at 9, 278-92. In rejecting a proposed
amendment to the NEA that would have “spelled out”
for the executive what may constitute a national emergency, the House of Representatives observed the “impossibility” of future presidents vetoing any joint resolution. Id. at 279-80. House members there observed:
Mr. Conyers.
ipation in this
this question:
United States

. . . Mr. Chairman, my final particdebate revolves around the reason of
What happens if the President of the
vetoes the congressional termination

The initial version of the NEA referred to a “concurrent resolution.” That language was changed to “joint resolution” in 1985.
See Foreign Relations Authorization Act, “22 USC 2651 note” Fiscal Years 1986 and 1987, Pub. L. No. 99-93, § 801(1)(A), 99 Stat.
405, 448 (1985). For simplicity’s sake, the Court only uses the
term “joint resolution,” as the statute now reads.
8

324a
of the emergency power? Is that contemplatable
within the purview of this legislation?
. . .
Mr. Flowers. Mr. Chairman, on the advice of counsel we have researched that thoroughly. A concurrent resolution would not require Presidential signature of acceptance. It would be an impossibility that
it would be vetoed.
Mr. Conyers. So there would be no way that the
President could interfere with the Congress?
Mr. Flowers.

The gentleman is correct.

Id.
Congress’s unilateral power under the NEA to terminate national emergency declarations ended in 1983,
when the Supreme Court in INS v. Chadha ruled that
the president must have power to approve or veto congressional acts, such as a terminating joint resolution
under the NEA. See 462 U.S. 919 (1983). Two years
later, Congress amended the NEA to reflect that the
joint resolution must be “enacted into law” to terminate
an emergency, thereby rendering the NEA Chadhacompliant. See Pub. L. No. 99-93, § 801(1)(A), 99 Stat.
405, 448 (1985).
By some estimates, there are 123 statutory powers
available to a president who declares a national emergency. See A Guide to Emergency Powers and Their
Use, Brennan Ctr. for Justice (2019), www.brennancenter.
org/sites/default/files/legislation/Emergency%20Powers_
Printv2.pdf. And in the more than forty years since
Congress enacted the NEA, presidents have declared

325a
almost sixty national emergencies. See Declared National Emergencies Under the National Emergencies
Act, 1978-2018, Brennan Ctr. for Justice (2019), www.
brennancenter.org/sites/default/files/analysis/NEA%20
Declarations.pdf.
Until now, Congress had never invoked its emergency termination powers.
B.

Section 284

Under Section 284, “[t]he Secretary of Defense may
provide support for the counterdrug activities . . .
of any other department or agency of the Federal Government” if “such support is requested . . . by the
official who has responsibility for [such] counterdrug activities.” 10 U.S.C. § 284(a), (a)(1)(A). Section 284
defines permissible “[t]ypes of support” under the statute, including support for “[c]onstruction of roads and
fences and installation of lighting to block drug smuggling corridors across international boundaries of the
United States.” Id. § 284(b)(7). The statute also
mandates congressional notification before the Secretary of Defense provides certain—but not all—types of
support. Id. § 284(h). For one, Section 284 requires
the Secretary of Defense to submit to the appropriate
congressional committee “a description of any small
scale construction project for which support is provided.” Id. § 284(h)(1)(B). Section 284 defines “small
scale construction” as “construction at a cost not to exceed $750,000 for any project.” Id. § 284(i)(3).
Congress first provided DoD with authority to support such counterdrug activities in 1991, in what is commonly referred to as “Section 1004.” See National Defense Authorization Act for Fiscal Year 1991, Pub. L.

326a
No. 101-510, § 1004, 104 Stat. 1485, 1629-30 (1990). The
initial iteration of Section 1004 made available $50 million in funds for fiscal year 1991 alone, and contained no
congressional notification requirement or per-project
cap on the provision of support. Id. § 1004(g), 104 Stat.
at 1630. Congress subsequently renewed Section 1004
on a regular basis. 9 Congress ultimately codified Section 1004 at 10 U.S.C. § 284 in 2016. See National Defense Authorization Act for Fiscal Year 2017, Pub. L.
No. 114-328, § 1011(a)(1), 130 Stat. 2000, 2381 (2016), renumbered § 284 by id. § 1241(a)(2), 130 Stat. at 2497.

Congress extended the provision of funds under Section 1004
on eight occasions, the last of which provided funds through fiscal
year 2017. See National Defense Authorization Act for Fiscal
Years 1992 and 1993, Pub. L. No. 102-190, § 1088(a), 105 Stat. 1290,
1484 (1991) (extending funding through fiscal year 1993); National
Defense Authorization Act for Fiscal Year 1994, Pub. L. No. 103160, § 1121, 107 Stat. 1547, 1753-54 (1993) (extending funding through
fiscal year 1995); National Defense Authorization Act for Fiscal
Year 1995, Pub. L. No. 103-337, § 1011, 108 Stat. 2663, 2836-37
(1994) (extending funding through fiscal year 1999); Strom Thurmond National Defense Authorization Act for Fiscal Year 1999,
Pub. L. No. 105-261, § 1021, 112 Stat. 1920, 2120 (1998) (extending
funding through fiscal year 2002); National Defense Authorization
Act for Fiscal Year 2002, Pub. L. No. 107-107, § 1021, 115 Stat.
1012, 1212-15 (2001) (extending funding through fiscal year 2006);
John Warner National Defense Authorization Act for Fiscal Year
2007, Pub. L. No. 109-364, § 1021, 120 Stat. 2083, 2382 (2006) (extending funding through fiscal year 2011); National Defense Authorization Act for Fiscal Year 2012, Pub. L. No. 112-81, § 1005,
125 Stat. 1298, 1556-57 (2011) (extending funding through fiscal
year 2014); Carl Levin and Howard P. “Buck” McKeon National
Defense Authorization Act for Fiscal Year 2015, Pub. L. No. 113291, § 1012, 128 Stat. 3292, 3483-84 (2014) (extending funding
through fiscal year 2017).
9

327a
In fiscal year 2019, Congress appropriated $881 million in funds to DoD “[f]or drug interdiction and counterdrug activities,” $517 million of which was “for counternarcotics support.” See Department of Defense and
Labor, Health and Human Services, and Education Appropriations Act, 2019, Pub. L. No. 115-245, div. A, tit.
VI, 132 Stat. 2981, 2997 (2018). All funds DoD now purports to make available for support to DHS under Section 284 come from the counter-narcotics support line of
appropriation, out of what is known as the “drug interdiction fund.” Rapuano Decl. ¶ 5, Ex. D. But when
Secretary Shanahan first authorized support to DHS
under Section 284 on March 25, 2019, the counternarcotics support line only contained $238,306,000 in unobligated funds. See Dkt. No. 131 at 4 (citing Rapuano
Decl. ¶ 5, Ex. D, at 2). Therefore, although DoD seeks
to make available $2.5 billion in support to DHS “under
Section 284,” Defendants have not used—and do not intend to use in the near future—any of the counternarcotics support funds appropriated by Congress in fiscal year 2019 for border barrier construction. Id. (noting that all $2.5 billion in border barrier construction
support to DHS under Section 284 is attributable to Section 8005 and 9002 reprogramming). In other words,
every dollar of Section 284 support to DHS and its enforcement agency, CBP, is attributable to reprogramming mechanisms.
DoD’s provision of support under Section 284 does
not require a national emergency declaration.
C.

Section 8005

“An amount available under law may be withdrawn
from one appropriation account and credited to another
or to a working fund only when authorized by law.” 31

328a
U.S.C. § 1532. Section 8005 of the fiscal year 2019 Department of Defense Appropriations Act authorizes the
Secretary of Defense to transfer up to $4 billion “of
working capital funds of the Department of Defense or
funds made available in this Act to the Department of
Defense for military functions (except military construction).” § 8005, 132 Stat. at 2999. The Secretary must
first determine that “such action is necessary in the national interest.” Id. Section 8005 further provides
that such authority to transfer may only be used (1) for
higher priority items than those for which originally appropriated, and (2) based on unforeseen military requirements, but (3) in no case where the item for which
funds are requested has been denied by the Congress. 10
Id.
DoD’s Section 8005 transfer authority has existed in
largely the same form since at least fiscal year 1974.
See Department of Defense Appropriation Act, 1974,
Pub. L. No. 93-238, § 735, 87 Stat. 1026, 1044 (1974). That
year, Congress added the “denied by Congress” provision “to tighten congressional control of the reprogramming process,” and in response to incidents where “[DoD]
[had] requested that funds which have been specifically
deleted in the legislative process be restored through
the reprogramming process.” H.R. Rep. No. 93-662, at
16 (1973). The House Committee on Appropriations
“believ[ed] that to concur in such actions would place
committees in the position of undoing the work of the
Congress,” and that “henceforth no such requests will
be entertained.” Id.

10

10 U.S.C. § 2214(b) contains identical transfer authority.

329a
On February 25, 2019, DHS submitted a request to
DoD for assistance blocking drug-smuggling corridors
under Section 284. See Rapuano Decl. ¶ 3; States RJN
Ex. 33. And on March 25, 2019, DoD invoked Section
8005 to transfer $1 billion from funds Congress previously appropriated for military personnel costs to the
drug interdiction fund, which DoD then intends to use
to provide DHS’s requested “assistance” by constructing border barriers using its Section 284 authority.
See Rapuano Decl. ¶ 5, Ex. D. Despite the recent dispute between the President and Congress over funding
for border barrier construction, and although the President had directed DoD nearly a year prior to support
DHS “in securing the southern border and taking other
necessary actions,” including the provision of “military
personnel,” Federal Defendants purported to invoke
Section 8005 “based on unforeseen military requirements.” Id.; see also States RJN Ex. 27 (April 4, 2018
presidential memorandum). On May 9, 2019, Defendants invoked Section 8005 and a related reprogramming
provision to authorize the transfer of an additional $1.5
billion in funding into the drug interdiction fund, which
then is slated to be used under Section 284 for border
barrier construction. See Rapuano Second Decl. ¶¶ 67, Ex. C.
The reprogramming of funds under Section 8005
does not require a national emergency declaration.
D.

Section 2808

Under Section 2808, the Secretary of Defense “may
undertake military construction projects, and may authorize the Secretaries of the military departments to
undertake military construction projects, not otherwise
authorized by law.” 10 U.S.C. § 2808(a). Section 2808

330a
requires that the President first declare a national
emergency under the NEA “that requires use of the
armed forces.” Id. And the Secretary of Defense
must use the funds for “military construction projects
. . . that are necessary to support such use of the
armed forces.” Id.
Congress defined the term “military construction” as
it is used in Section 2808 to “include[] any construction,
development, conversion, or extension of any kind carried out with respect to a military installation, whether
to satisfy temporary or permanent requirements, or any
acquisition of land or construction of a defense access
road (as described in section 210 of title 23).” 10 U.S.C.
§ 2801(a). And Congress defined the term “military installation” to “mean[] a base, camp, post, station, yard,
center, or other activity under the jurisdiction of the
Secretary of a military department or, in the case of an
activity in a foreign country, under the operational control of the Secretary of a military department or the Secretary of Defense, without regard to the duration of operational control.” Id. § 2801(c)(4).
Presidents have twice invoked Section 2808’s military
construction authority.
In 1990, President George
H.W. Bush authorized emergency construction authority “to deal with the threat to the national security and
foreign policy of the United States caused by the invasion of Kuwait by Iraq.” Exec. Order No. 12,734, 55 Fed.
Reg, 48,099 (Nov. 14, 1990). President George W.
Bush later authorized emergency construction authority
in the aftermath of the September 11, 2001 terrorist attacks. Exec. Order. No. 13,235, 66 Fed. Reg. 58,343 (Nov.
16, 2001). To date, DoD has only once used its Section
2808 military construction authority domestically, when

331a
it authorized $35 million in funds to secure weapons of
mass destruction in five states. See Michael J. Vassalotti, Brendan W. McGarry, Military Construction
Funding in the Event of a National Emergency, Cong.
Research Serv. 2 & tbl. 1 (January 11, 2019).
According to Defendants, the Acting Secretary of
Defense “has not yet decided to undertake or authorize
any barrier construction projects under section 2808.”
Rapuano Decl. ¶ 14. DoD undertook an internal review
process, to identify “existing military construction projects of sufficient value to provide up to $3.6 billion of
funding.” Id. ¶ 15. The review process identified
such funding for border barrier construction, but the
Acting Secretary nevertheless “has taken no action on
this information and has not yet decided to undertake or
authorize any barrier construction projects under section 2808.” See Dkt. No. 131-2 (“Rapuano Third Decl.”)
¶ 6. Defendants have represented that they “will inform the Court” once a decision is made to use Section
2808 to fund border barrier construction. See Dkt. No.
131 at 3.
E.

Treasury Forfeiture Fund (Section 9705)

Through 31 U.S.C. § 9705, Congress established in
the Treasury of the United States a separate fund
known as the “Department of the Treasury Forfeiture
Fund.” 31 U.S.C. § 9705(a). Funds are generally
available to the Secretary of the Treasury “with respect
to seizures and forfeitures made pursuant to [applicable] law,” and for certain “law enforcement purposes.”
Id. State and local law enforcement agencies that participate in the seizure or forfeiture of property may receive “[e]quitable sharing payments.” Id. § 9705(a)(1)(G).
Section 9705(a)(1)(G) details three statutory avenues for

332a
the provision of such equitable sharing payments:
“Equitable sharing payments made to other Federal
agencies, State and local law enforcement agencies, and
foreign countries pursuant to section 616(c) of the Tariff
Act of 1930 (19 U.S.C. 1616a(c)), section 981 of title 18,
or subsection (h) of this section, and all costs related
thereto.” Equitable sharing payments are statutorily
capped, however, by the value of seized property. 31
U.S.C. § 9705(b)(2). After the TFF has accounted for
not only the current fiscal year’s mandatory expenses—
which include equitable sharing payments—but also set
aside adequate funds for the following fiscal year’s mandatory expenses, unobligated balances are available to
the Secretary of the Treasury, to be used “in connection
with the law enforcement activities of any Federal
agency.” 31 U.S.C. § 9705(g)(4)(B). This is commonly
referred to as “Strategic Support.” See Case No. 4:19cv-00872-HSG, ECF No. 89-9 (“Farley Decl.”) ¶ 11.
In late December 2018 11 —during the government
shutdown and just before the Administration sought $5.7
billion from Congress to fund border barrier construction
—DHS requested $681 million in Strategic Support
funding “for border security.” Id. ¶ 24; see also States
RJN Ex. 25 (January 6, 2019 request for $5.7 billion in
funding for border barrier construction). The Treasury ultimately determined that it could make available
to CBP, DHS’s enforcement agency, up to $601 million
from the TFF, in two tranches. Farley Decl. ¶¶ 24-25;
The exact date of the request is unclear due to Defendants’ inconsistent representations. Compare Flossman Second Decl. ¶ 9
(indicating the request was made on December 26, 2018), with Farley Decl. ¶ 24 (indicating the request was made on December 29,
2018).
11

333a
Opp. at 9. The first tranche—$242 million—was made
available for obligation on March 14, 2019. See Opp. at
9. Save for a small portion “for program support on the
TFF funded projects,” CBP intends to obligate the first
tranche “on an Interagency Agreement (IAA) with the
U.S. Army Corps of Engineers . . . by June 2019.”
Dkt. No. 131-1 (“Flossman Third Decl.”) ¶ 4. Defendants represent that “CBP intends to obligate all available TFF funds before the end of Fiscal Year 2019 or, if
not, before the end of the 2019 calendar year.” Flossman Second Decl. ¶ 11. The second tranche—$359 million —“is expected to be made available for obligation at
a later date upon Treasury’s receipt of additional anticipated forfeitures.” See Opp. at 9. CBP intends to use
funds from the TFF “exclusively for projects in the Rio
Grande Valley Sector,” in Texas. See Flossman Third
Decl. ¶ 5.
The Secretary of Treasury’s use of funds in the TFF
for Strategic Support does not require a national emergency declaration.
F.

National Environmental Policy Act

NEPA establishes a “national policy which will encourage productive and enjoyable harmony between
man and his environment[,] to promote efforts which
will prevent or eliminate damage to the environment
and biosphere and stimulate the health and welfare of
man.” 42 U.S.C. § 4321. To this end, NEPA compels
federal agencies to assess the environmental impact of
agency actions that “significantly affect[ ] the quality of
the human environment.” Id. § 4332(C). NEPA
serves two fundamental objectives. First, it “ensures that the agency, in reaching its decision, will

334a
have available, and will carefully consider, detailed
information concerning significant environmental impacts.” And, second, it requires “that the relevant information will be made available to the larger audience that may also play a role in both the decisionmaking process and the implementation of that decision.”
WildEarth Guardians v. Provencio, No. 17-17373, 2019
WL 1983455, at *7 (9th Cir. May 6, 2019) (quoting
WildEarth Guardians v. Mont. Snowmobile Ass’n, 790
F.3d 920, 924 (9th Cir. 2015)). NEPA does not establish substantive environmental standards; rather, it sets
“action-forcing” procedures that compel agencies to
take a “hard look” at environmental consequences. See
Robertson v. Methow Valley Citizens Council, 490 U.S.
332, 348-50 (1989). “NEPA’s purpose is to ensure that
‘the agency will not act on incomplete information, only
to regret its decision after it is too late to correct.’ ”
Friends of the Clearwater v. Dombeck, 222 F.3d 552, 557
(9th Cir. 2000) (quoting Marsh v. Or. Nat. Res. Council,
490 U.S. 360, 371 (1989)). And the Ninth Circuit commands that courts “strictly interpret” NEPA’s procedural requirements “to the fullest extent possible,” as
consistent with NEPA’s policies. Churchill Cty. v.
Norton, 276 F.3d 1060, 1072 (9th Cir. 2001) (quoting Lathan v. Brinegar, 506 F.2d 677, 687 (9th Cir. 1974) (en
banc)). “[G]rudging, pro forma compliance will not
do.” Id. (quoting Lathan, 506 F.2d at 693).
Where an agency’s project “might significantly affect
environmental quality,” NEPA compels preparation of
what is known as an Environmental Impact Statement
(“EIS”). Provencio, 2019 WL 1983455, at *7 (emphasis
added). To prevail on a claim that an agency violated

335a
its duty to prepare an EIS, a plaintiff need only raise
“substantial questions whether a project may have a significant [environmental] effect.”
Id. (quoting Blue
Mountains Biodiversity Project v. Blackwood, 161 F.3d
1208, 1212 (9th Cir. 1998)). An action’s “significance”
depends on “both context and intensity.” 40 C.F.R.
§ 1508.27; see also id. § 1508.27(b) (setting forth ten factors to “consider[] in evaluating intensity”). Even where
a project does not require an EIS, agencies generally must
prepare an Environmental Assessment (“EA”) which, in
part, serves to “[b]riefly provide sufficient evidence and
analysis for determining whether to prepare an environmental impact statement or a finding of no significant
impact.” See 40 C.F.R. § 1508.9(a)(1).
“[A]gency action taken without observance of the
procedure required by law will be set aside.” Save the
Yaak Comm. v. Block, 840 F.2d 714, 717 (9th Cir. 1988).
III. LEGAL STANDARD

A preliminary injunction is a matter of equitable discretion and is “an extraordinary remedy that may only
be awarded upon a clear showing that the plaintiff is entitled to such relief.” Winter v. Nat. Res. Def. Council,
Inc., 555 U.S. 7, 22 (2008). “A plaintiff seeking preliminary injunctive relief must establish that [it] is likely to
succeed on the merits, that [it] is likely to suffer irreparable harm in the absence of preliminary relief, that the
balance of equities tips in [its] favor, and that an injunction is in the public interest.” Id. at 20. Alternatively,
an injunction may issue where “the likelihood of success
is such that serious questions going to the merits were
raised and the balance of hardships tips sharply in [the
plaintiff ’s] favor,” provided that the plaintiff can also
demonstrate the other two Winter factors. All. for the

336a
Wild Rockies v. Cottrell, 632 F.3d 1127, 1131-32 (9th Cir.
2011) (citation and internal quotation marks omitted).
Under either standard, Plaintiffs bear the burden of
making a clear showing that they are entitled to this extraordinary remedy. Earth Island Inst. v. Carlton,
626 F.3d 462, 469 (9th Cir. 2010). The most important
Winter factor is likelihood of success on the merits.
See Disney Enters., Inc. v. VidAngel, Inc., 869 F.3d 848,
856 (9th Cir. 2017).
IV. ANALYSIS

In the pending motion, Plaintiffs seek to enjoin Defendants from using certain diverted federal funds and
resources for border barrier construction. Specifically,
Plaintiffs move to enjoin Defendants from (1) invoking
Section 8005’s reprogramming authority to channel
funds into DoD’s drug interdiction fund, (2) invoking
Section 284 to divert monies from DoD’s drug interdiction fund for border barrier construction on the southern border of Arizona and New Mexico, (3) invoking Section 2808 to divert monies from appropriated DoD military construction projects for border barrier construction, 12 and (4) taking any further action related to border barrier construction until Defendants comply with
NEPA.
Defendants oppose each basis for injunctive relief.
Defendants further contend that the Plaintiffs lack standing to bring their Sections 8005 and 2808 claims. The
Court addresses these threshold issues first before turning to Plaintiffs’ individual bases for injunctive relief.

Only the Citizen Group Plaintiffs challenge the diversion of funds
under Section 2808.
12

337a
A.

Article III Standing

A plaintiff seeking relief in federal court bears the
burden of establishing “the irreducible constitutional
minimum” of standing. Spokeo, Inc. v. Robins, 136
S. Ct. 1540, 1547 (2016) (quoting Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 (1992)). First, the plaintiff must
have “suffered an injury in fact.” Id. This requires
“an invasion of a legally protected interest” that is concrete, particularized, and actual or imminent, rather
than conjectural or hypothetical. Lujan, 504 U.S. at
560 (internal quotation marks omitted). Second, the
plaintiff ’s injury must be “fairly traceable to the challenged conduct of the defendant.” Spokeo, 136 S. Ct. at
1547. Third, the injury must be “likely to be redressed
by a favorable judicial decision.” Id. (citing Lujan,
504 U.S. at 560-61).
1. Plaintiffs Have Standing for Their 8005 Claim.

Defendants argue that Plaintiffs lack standing to
challenge Defendants’ invocation of Section 8005 to reprogram funds into the drug interdiction fund, so that
Defendants can then divert that money wholesale to
border barrier construction using Section 284. See
Opp. at 14. 13 Defendants do not dispute that Plaintiffs
have standing to challenge the use of funds from the
drug interdiction fund for border barrier construction
under Section 284. Defendants nonetheless reason
that harm from construction using drug interdiction
Defendants also argue Plaintiffs lack standing because they fall
outside Section 8005’s “zone of interests.” See Opp. at 18-19. Because
the Court finds Defendants’ “zone of interests” challenge derivative
of Defendants’ misunderstanding of ultra vires review, the Court
addresses those matters together, below. See infra Section IV.B.1.
13

338a
funds under Section 284 does not establish standing to
challenge Defendants’ use of Section 8005 to supply
those funds. Id. Defendants argue that standing requires that the plaintiff be the “object” of the challenged
agency action, but that the Section 8005 augmentation
of the drug interdiction fund and the use of that money
for construction are two distinct agency actions. Id.
(citing Lujan, 504 U.S. at 562). According to Defendants, the “object” of the Section 8005 reprogramming
was “simply mov[ing] funds among DoD’s accounts.”
Id. (citing Lujan, 504 U.S. at 562).
Defendants’ logic fails in all respects. As an initial
matter, it is not credible to suggest that the “object” of
the Section 8005 reprogramming is anything but border
barrier construction, even if the reprogrammed funds
make a pit stop in the drug interdiction fund. Since
Defendants first announced that they would reprogram
funds using Section 8005, they have uniformly described
the object of that reprogramming as border barrier construction. See Rapuano Decl. ¶ 5 (providing that “the
Acting Secretary of Defense decided to use DoD’s general transfer authority under section 8005 . . . to
transfer funds between DoD appropriations to fund
[border barrier construction in Arizona and New Mexico]”); id. Ex. D, at 1 (notifying Congress that the “reprogramming action” under Section 8005 is for “construction of additional physical barriers and roads in the
vicinity of the United States border”).
Nor does Lujan impose Defendants’ proffered strict
“object” test. The Lujan Court explained that “when
the plaintiff is not himself the object of the government
action or inaction he challenges, standing is not precluded, but it is ordinarily substantially more difficult to

339a
establish.” 504 U.S. at 562 (internal quotation marks
omitted). And the Supreme Court was concerned in
particular with “causation and redressability,” which
are complicated inquiries when a plaintiff ’s standing
“depends on the unfettered choices made by independent actors not before the courts and whose exercise of
broad and legitimate discretion the courts cannot presume either to control or to predict.” Id. (quoting
ASARCO Inc. v. Kadish, 490 U.S. 605, 615 (1989) (Kennedy, J.)). As concerns causation, the Ninth Circuit recently explained that Article III standing only demands
a showing that the plaintiff ’s injury is “fairly traceable
to the challenged action of the defendant, and not the
result of the independent action of some third party not
before the court.” Mendia v. Garcia, 768 F.3d 1009,
1012 (9th Cir. 2014) (quoting Bennett v. Spear, 520 U.S.
154, 167 (1997)). “Causation may be found even if there
are multiple links in the chain connecting the defendant’s unlawful conduct to the plaintiff ’s injury, and there’s
no requirement that the defendant’s conduct comprise
the last link in the chain. As we’ve said before, what
matters is not the length of the chain of causation, but
rather the plausibility of the links that comprise the
chain.” Id. (internal quotation marks and citations
omitted).
No complicated causation inquiry is necessary here,
as there are no independent absent actors. More important, if there were ever a case where standing exists
even though the challenged government action is nominally directed to some different “object,” this is it.
Neither the parties nor the Court harbor any illusions
that the point of reprogramming funds under Section
8005 is to use those funds for border barrier construc-

340a
tion. And under Ninth Circuit law, there is no requirement that the challenged conduct be the last link in the
causal chain. Rather, even if there is an intervening
link between the Section 8005 reprogramming and the
border barrier construction itself, any injury caused by
the border barrier construction is nonetheless “fairly
traceable” to the Section 8005 reprogramming under the
circumstances. See id. The Court thus cannot accept
the Government’s “two distinct actions” rationale as a
basis for shielding Defendants’ actions from review.
2. Plaintiffs Have Standing for Their Section
2808 Claim.

Defendants argue that Plaintiffs lack standing to
challenge Defendants’ diversion of funds under Section
2808 “because the Acting Secretary of Defense has not
yet decided to undertake or authorize any barrier construction projects under [Section] 2808.” Opp. at 21.
Defendants describe the status of the Section 2808 diversion as follows:
The Acting Secretary of Defense has not yet decided
to undertake or authorize any barrier construction
projects under section 2808. To inform the Acting
Secretary’s decision, on March 20, 2019, the Secretary of Homeland Security provided a prioritized list
of proposed border-barrier-construction projects that
DHS assesses would improve the efficiency and effectiveness of the armed forces supporting OHS in
securing the southern border. On April 11, 2019, as
a follow-up to the Chairman’s preliminary assessment
of February 10, 2019, the Acting Secretary instructed
the Chairman of the Joint Chiefs of Staff to provide,
by May 10, 2019, a detailed assessment of whether
and how specific military construction projects could

341a
support the use of the armed forces in addressing the
national emergency at the southern border.
Also on April 11, 2019, the Acting Secretary instructed the DoD Comptroller, in consultation with
the Secretaries of the military departments, the Chairman of the Joint Chiefs of Staff, the Under Secretary
of Defense for Acquisition and Sustainment, the Under Secretary of Defense for Policy, and the heads of
any other relevant DoD components to identify, by
May 10, 2019, existing military construction projects
of sufficient value to provide up to $3.6 billion of funding for his consideration.
Rapuano Decl. ¶¶ 14-15. According to Defendants, absent some express decision to authorize or undertake a
particular project, Plaintiffs’ injury is speculative: “It
is entirely possible that no barrier projects will be constructed pursuant to [Section] 2808, and that, if they are,
they will be [sic] built in any location where Plaintiffs
would have a claim to a cognizable injury.” Opp. at 21.
Defendants ask too much of Plaintiffs. A plaintiff
need not present undisputable proof of a future harm.
The injury-in-fact requirement instead permits standing when a risk of future injury is “at least imminent.”
See Lujan, 504 U.S. at 564 n.2. And while courts must
ensure that the “actual or imminent” measure of harm
is not “stretched beyond its purpose, which is to ensure
that the alleged injury is not too speculative for Article
III purposes,” see id., the Ninth Circuit has consistently
held that a “ ‘credible threat’ that a probabilistic harm
will materialize” is enough, see Nat. Res. Def. Council v.
EPA, 735 F.3d 873, 878 (9th Cir. 2013) (quoting Covington v. Jefferson Cty., 358 F.3d 626, 641 (9th Cir. 2004)).

342a
At this stage, Plaintiffs have carried their burden to
demonstrate that there is a “credible threat” that Defendants will divert funds under Section 2808 for border
barrier construction in a location where Plaintiffs would
have a claim to a cognizable injury. As detailed in Defendants’ supporting declaration, a decision on the use
of Section 2808 to authorize border barrier construction
is forthcoming, as the DoD has now received necessary
information which it intends to use to make decisions.
See Rapuano Third Decl. ¶ 6. Further, the Court cannot ignore that the President invoked Section 2808 to
enable the diversion of funds for border barrier construction. See Citizen Groups RJN Ex. D. The White
House in fact provided in February 2019 that funds under Section 2808 “will be available.” Id. Ex. G. There
is thus no speculation necessary for the Court to find
that Defendants will continue with their current course
of conduct and exercise their authority under Section
2808 in the manner directed by the President. See Cent.
Delta Water Agency v. United States, 306 F.3d 938, 950
(9th Cir. 2002) (“Although [Nelsen v. King County, 895
F.2d 1248, 1251-52 (9th Cir. 1990)] certainly requires us to
consider all the circumstances related to a threatened
future harm, including whether the threatened harm
may result from a chain of contingencies, the possibility
that defendants may change their course of conduct is not
the type of contingency to which we referred in Nelsen.”).
Finally, as to Defendants’ claim that they might use
Section 2808 funds in a location where Plaintiffs would
not have a claim to a cognizable injury, it is highly unlikely that this would be the case, as Plaintiffs have
demonstrated that their members span the entire U.S.Mexico border. See, e.g., Dkt. No. 32 ¶ 3 (“SBCC’s

343a
membership spans the borderlands from California to
Texas.”).
B.

Plaintiffs Have Shown They Are Entitled to a
Preliminary Injunction.

Applying the Winter factors, the Court finds Plaintiffs are entitled to a preliminary injunction as to Defendants’ use of Section 8005’s reprogramming authority to channel funds into the drug interdiction fund so
that those funds may be ultimately used for border barrier construction in El Paso Sector Project 1 and Yuma
Sector Project 1.
1.

Likelihood of Success on the Merits

The crux of Plaintiffs’ case is that Defendants’ methods for funding border barrier construction are unlawful. And Plaintiffs package that core challenge in several ways. For present purposes, Plaintiffs contend
that Defendants’ actions (1) violate Congress’s mostrecent appropriations legislation, (2) are unconstitutional, (3) exceed Defendants’ statutory authority—in
other words, are ultra vires—and (4) violate NEPA.
The Court begins with a discussion of the law governing the appropriation of federal funds. Under the Appropriations Clause of the Constitution, “No Money
shall be drawn from the Treasury, but in Consequence
of Appropriations made by Law.” U.S. Const. art. I,
§ 9, cl. 7. “The Clause’s words convey a ‘straightforward and explicit command’: No money ‘can be paid out
of the Treasury unless it has been appropriated by an
act of Congress.’ ” U.S. Dep’t of Navy v. FLRA, 665
F.3d 1339, 1346 (D.C. Cir. 2012) (quoting OPM v. Richmond, 496 U.S. 414, 424 (1990)). “The Clause has a

344a
‘fundamental and comprehensive purpose . . . to assure that public funds will be spent according to the letter of the difficult judgments reached by Congress as to
the common good and not according to the individual favor of Government agents.’ ” United States v. McIntosh, 833 F.3d 1163, 1175 (9th Cir. 2016) (quoting Richmond, 496 U.S. at 427-28). It “protects Congress’s exclusive power over the federal purse,” and “prevents
Executive Branch officers from even inadvertently obligating the Government to pay money without statutory
authority.” FLRA, 665 F.3d at 1346-47 (internal quotation marks and citations omitted).
“Federal statutes reinforce Congress’s control over
appropriated funds,” and under federal law “appropriated funds may be applied only ‘to the objects for which
the appropriations were made.’ ” Id. at 1347 (quoting
31 U.S.C. § 1301(a)). Moreover, “[a]n amount available
under law may be withdrawn from one appropriation account and credited to another or to a working fund only
when authorized by law.” 31 U.S.C. § 1532. “[A]ll
uses of appropriated funds must be affirmatively approved by Congress,” and “the mere absence of a prohibition is not sufficient.” FLRA, 665 F.3d at 1348. In
summary, “Congress’s control over federal expenditures is ‘absolute.’ ” Id. (quoting Rochester Pure Waters Dist. v. EPA, 960 F.2d 180, 185 (D.C. Cir. 1992)).
Rather than dispute these principles, Defendants
contend that the challenged conduct complies with them.
See Opp. at 26 (“The Government is not relying on independent Article II authority to undertake border construction; rather, the actions alleged are being undertaken pursuant to express statutory authority.”). Accordingly, one of the key issues in dispute is whether

345a
Congress in fact provided “express statutory authority”
for Defendants’ challenged actions.
Turning to Plaintiffs’ claims, it is necessary as a preliminary matter to outline the measure and lens of reviewability the Court applies in assessing such broad
challenges to actions by executive officers. As a first
principle, the Court finds that it has authority to review
each of Plaintiffs’ challenges to executive action. “It is
emphatically the province and duty of the judicial department to say what the law is.” Marbury, 1 Cranch
at 177. In determining what the law is, the Court has
a duty to determine whether executive officers invoking
statutory authority exceed their statutory power. See
Armstrong v. Exceptional Child Ctr., Inc., 135 S. Ct.
1378, 1384 (2015). And even where executive officers
act in conformance with statutory authority, the Court
has an independent duty to determine whether authority conferred by act of the legislature nevertheless runs
afoul of the Constitution. See Clinton v. City of New
York, 524 U.S. 417, 448 (1998).
Once a case or controversy is properly before a court,
in most instances that court may grant injunctive relief
against executive officers to enjoin both ultra vires acts
—that is, acts exceeding the officers’ purported statutory authority—and unconstitutional acts. The Supreme
Court recently reaffirmed this core equitable power:
It is true enough that we have long held that federal
courts may in some circumstances grant injunctive
relief against state officers who are violating, or planning to violate, federal law. But that has been true
not only with respect to violations of federal law by
state officials, but also with respect to violations of
federal law by federal officials. . . . What our

346a
cases demonstrate is that, in a proper case, relief may
be given in a court of equity . . . to prevent an injurious act by a public officer.
The ability to sue to enjoin unconstitutional actions
by state and federal officers is the creation of courts
of equity, and reflects a long history of judicial review
of illegal executive action, tracing back to England.
Armstrong, 135 S. Ct. at 1384 (internal quotation marks
and citations omitted).
Misunderstanding the presumptive availability of equitable relief to enforce federal law, Defendants contend
that Plaintiffs fail to identify a statutory private right of
action, that Plaintiffs must challenge Defendants’ conduct through the framework of the APA, and that to the
extent ultra vires review is available, “Plaintiffs [must]
show that the challenged action ‘contravene[s] clear and
mandatory statutory language.’ ” See Opp. at 12-13.
But as Plaintiffs detail at length in their reply brief, ultra vires review exists outside of the APA framework,
and Defendants’ heightened standard for ultra vires review only applies where Congress has foreclosed judicial
review, which is not the case here. See Reply at 2-5;
see also Dkt. No. 107 (Brief of Amici Curiae Federal
Courts Scholars). 14

Congress may displace federal courts’ equitable power to enjoin unlawful executive action, but a precluding statute must at
least display an “intent to foreclose” injunctive relief. Armstrong,
135 S. Ct. at 1385. Courts have found such implied foreclosure where
(1) the statute provides an express administrative remedy, and (2)
the statute is otherwise judicially unadministrable in nature. Id.
at 1385-86. No party contends that the statutes at issue in this
14

347a
Due to their mistaken framing of the scope of ultra
vires review, Defendants also incorrectly posit that
Plaintiffs must establish that they fall within the “zone
of interests” of a particular statute to challenge actions
taken by the government under that statute. See Opp.
at 14-15. The “zone of interests” test, however, only
relates to statutorily-created causes of action. See
Lexmark Int’l, Inc. v. Static Control Components, Inc.,
572 U.S. 118, 129 (2014) (explaining that “[t]he modern
‘zone of interests’ formulation. . . . applies to all
statutorily created causes of action”). The test has no
application in an ultra vires challenge, which operates
outside of the APA framework. See Haitian Refugee
Ctr. v. Gracey, 809 F.2d 794, 811 n.14 (D.C. Cir. 1987)
(“Appellants need not, however, show that their interests fall within the zones of interests of the constitutional and statutory powers invoked by the President in
order to establish their standing to challenge the interdiction program as ultra vires.”); see also 33 Charles
Alan Wright et al., Federal Practice and Procedure
§ 8302 (2d ed. 2019) (explaining that the “zone of interests” test is to determine whether a plaintiff “seeks to
protect interests that ‘arguably’ fall within the ‘zone of
interests’ protected by that provision”).
In other
words, where a plaintiff seeks to vindicate a right protected by a statutory provision, the plaintiff must
demonstrate that it arguably falls within the zone of interests Congress meant to protect by enacting that provision. But where a plaintiff seeks equitable relief
against a defendant for exceeding its statutory authority, the zone-of-interests test is inapposite. Any other
case either expressly foreclose equitable relief or provide an express administrative remedy, which might warrant a finding of implied foreclosure of equitable relief.

348a
interpretation would lead to absurd results. The very
nature of an ultra vires action posits that an executive
officer has gone beyond what the statute permits, and
thus beyond what Congress contemplated. It would
not make sense to demand that Plaintiffs—who otherwise have standing—establish that Congress contemplated that the statutes allegedly violated would protect
Plaintiffs’ interests. It is no surprise, then, that the
Supreme Court’s recent discussion of ultra vires review
in Armstrong did not once reference this test.
In reviewing the lawfulness of Defendants’ conduct,
the Court thus begins each inquiry by determining
whether the disputed action exceeds statutory authority. For unless an animating statute sanctions a challenged action, a court need not reach the second-level
question of whether it would be unconstitutional for
Congress to sanction such conduct. See Nw. Austin
Mun. Util. Dist. No. One v. Holder, 557 U.S. 193, 205
(2009) (explaining the “well-established principle governing the prudent exercise of this Court’s jurisdiction
that normally the Court will not decide a constitutional
question if there is some other ground upon which to dispose of the case”) (quoting Escambia Cty. v. McMillan,
466 U.S. 48, 51 (1984) (per curiam)). This is not to say,
however, that the yardstick of statutory authority overlooks constitutional concerns entirely. “The so-called
canon of constitutional avoidance . . . counsel[s]
that ambiguous statutory language be construed to
avoid serious constitutional doubts.” FCC v. Fox Television Stations, Inc., 556 U.S. 502, 516 (2009). Nonetheless, a court presented with both ultra vires and constitutional claims should begin by determining whether
the statutory authority supports the action challenged,
and only reach the constitutional analysis if necessary.

349a
a.

Sections 284 and 8005

At the President’s direction, Defendants intend to divert $2.5 billion, $1 billion of which is the subject of the
pending motion, to the DoD’s drug interdiction fund for
border barrier construction. 15 To do so, Defendants rely
on Section 284(b)(7), which authorizes the Secretary of
Defense to support other federal agencies for the “[c]onstruction of roads and fences and installation of lighting
to block drug smuggling corridors across international
boundaries of the United States.” See The Funds Available to Address the National Emergency at Our Border,
The White House, https://www.whitehouse.gov/briefingsstatements/funds-available-address-national-emergencyborder (Feb. 26, 2019). To satisfy the President’s directive, Defendants intend to rely on their reprogramming authority under Section 8005, and plan to “augment” the drug interdiction fund with the entire $2.5 billion in funds that DoD will then use for the construction.
Id.

The Court here only considers the lawfulness of Defendants’
March 25, 2019 invocation of Section 8005 to reprogram $1 billion,
given the parties’ agreement that this order need not address Defendants’ recently announced intent to use Sections 8005, 9002, and
284 to fund border barrier construction in the El Centro Sector and
Tucson Sector Projects. The parties reached this agreement after
counsel for Defendants represented at the hearing on this motion
that “no construction will start [with those funds] until at least 45
days from” the May 17, 2019 hearing date. See Dkt. No. 138 at
55:16-17. The parties confirmed that they would agree to a schedule
to supplement the record, to permit the Court to review in a timely
manner the lawfulness of the new reprogramming, under the framework set forth in this order. Id. at 59:14-60:2. The parties have
since agreed on a schedule. See Dkt. No. 142.
15

350a
Plaintiffs challenge both the augmentation of the
drug interdiction fund through Section 8005 and the use
of funds from the drug interdiction fund under Section
284. Turning first to the augmentation of funds, Section 8005 authorizes the reprogramming of up to $4 billion “of working capital funds of the Department of Defense or funds made available in this Act to the Department of Defense.” The transfer must be (1) either (a)
DoD working capital funds or (b) “funds made available
in this Act to the [DoD] for military functions (except
military construction),” (2) first determined by the Secretary of Defense as necessary in the national interest,
(3) for higher priority items than those for which originally appropriated, (4) based on unforeseen (5) military
requirements, and (6) in no case where the item for which
funds are requested has been denied by Congress. Plaintiffs argue that Defendants’ actions fail the last three
requirements. The Court first considers whether the
reprogramming Defendants propose here is for an item
for which funds were requested but denied by Congress.
i.

Plaintiffs are Likely to Show That the
Item for Which Funds Are Requested Has
Been Denied by Congress.

Plaintiffs argue that Defendants are transferring
funds for a purpose previously denied by Congress. Mot.
at 16. Defendants dispute, however, whether Congress’s
affirmative appropriation of funds in the CAA to DHS
constitutes a “denial” of appropriations to DoD’s “counterdrug activities in furtherance of DoD’s mission under
[Section] 284.” Opp. at 16. In their view, “the item”
for which funds are requested, for present purposes, is
counterdrug activities under Section 284. Id. And

351a
Defendants maintain that “nothing in the DHS appropriations statute indicates that Congress ‘denied’ a request to fund DoD’s statutorily authorized counter-drug
activities, which expressly include fence construction.”
Id. In other words, even though DoD’s counterdrug
authority under Section 284 is merely a pass-through
vessel for Defendants to funnel money to construct a
border barrier that will be turned over to DHS, Citizen
Groups RJN Ex. I, at 10, Defendants argue that the
Court should only consider whether Congress denied
funding to DoD.
Plaintiffs have shown a likelihood of success as to
their argument that Congress previously denied “the
item for which funds are requested,” precluding the proposed transfer. On January 6, 2019, the President
asked Congress for “$5.7 billion for construction of a
steel barrier for the Southwest border,” explaining that
the request “would fund construction of a total of approximately 234 miles of new physical barrier.” Citizen Groups RJN Ex. A, at 1. The request noted that
“[a]ppropriations bills for fiscal year (FY) 2019 that
have already been considered by the current and previous Congresses are inadequate to fully address these
critical issues,” to include the need for barrier construction funds. Id. The President’s request did not specify the mechanics of how the $5.7 billion sought would be
used for the proposed steel barrier construction. Id.
Nonetheless, in the CAA passed by Congress and signed
by the President, Congress appropriated only $1.375 billion for the construction of pedestrian fencing, of a specified type, in a specified sector, and appropriated no
other funds for barrier construction. The Court agrees
with Plaintiffs that they are likely to show that the proposed transfer is for an item for which Congress denied

352a
funding, and that it thus runs afoul of the plain language
of Section 8005 and 10 U.S.C. § 2214(b) (“Section
2214”). 16
As Defendants acknowledge, in interpreting a statute, the Court applies the principle that “the plain language of [the statute] should be enforced according to
its terms, in light of its context.” ASARCO, LLC v.
Celanese Chem. Co., 792 F.3d 1203, 1210 (9th Cir. 2015).
In its amicus brief, the House recounts legislative history that provides critical context for the Court’s interpretative task. The House explains that the “denied by
the Congress” restriction was imposed on DoD’s transfer authority in 1974 to “tighten congressional control of
the reprogramming process.” Dkt. No. 47 (“House
Br.”) at 10 (citing H.R. Rep. No. 93-662, at 16 (1973)).
The House committee report on the appropriations bill
from that year explained that “[n]ot frequently, but on
some occasions, the Department ha[d] requested that
funds which have been specifically deleted in the legislative process be restored through the reprogramming
process,” and that “[t]he Committee believe[d] that to
concur in such actions would place committees in the position of undoing the work of the Congress.” H.R. Rep.
No. 93-662, at 16. Significantly, the Committee stated
that such a position would be “untenable.” Id. Consistent with this purpose, Congress has described its in-

See Fox News, Mick Mulvaney on chances of border deal, Democrats ramping up investigation of Trump admin, YouTube (Feb.
10, 2019), https://www.youtube.com/watch?v=l_Z0xx_zS0M (statement by Acting White House Chief of Staff that “[w]e’ll take as
much money as you can give us, and then we’ll go off and find the
money someplace else, legally, in order to secure that southern
barrier. But this is going to get built, with or without Congress.”).
16

353a
tent that appropriations restrictions of this sort be “construed strictly” to “prevent the funding for programs
which have been considered by Congress and for which
funding has been denied.” See H.R. Rep. No. 99-106,
at 9 (1985) (discussing analogous appropriations restriction in Pub. L. No. 99-169, § 502(b), 99 Stat. 1005
(codified at 50 U.S.C. § 3094(b)).
The Court finds that the language and purpose of
Section 8005 and Section 2214(b) likely preclude Defendants’ attempt to transfer $1 billion from funds Congress previously appropriated for military personnel
costs to the drug interdiction fund for the construction
of a border barrier. Defendants argue that “Congress
never denied DoD funding to undertake the [Section]
284 projects at issue,” Opp. at 16, such that Section 8005
and Section 2214(b) are satisfied. But in the Court’s
view, that reading of those sections is likely wrong, when
the reality is that Congress was presented with—and
declined to grant—a $5.7 billion request for border barrier construction. Border barrier construction, expressly, is the item Defendants now seek to fund via the
Section 8005 transfer, and Congress denied the requested funds for that item. See 10 U.S.C. § 2214(b)
(explaining that transfer authority “may not be used if
the item to which the funds would be transferred is an
item for which Congress has denied funds”) (emphasis
added). And Defendants point to nothing in the language or legislative history of the statutes in support of
their assertion that only explicit congressional denial of
funding for “[Section] 284 projects,” or even DoD projects generally, would trigger Section 8005’s limitation.
Opp. at 16. It thus would be inconsistent with the purpose of these provisions, and would subvert “the difficult
judgments reached by Congress,” McIntosh, 833 F.3d

354a
at 1175, to allow Defendants to circumvent Congress’s
clear decision to deny the border barrier funding sought
here when it appropriated a dramatically lower amount
in the CAA. See Youngstown Sheet & Tube Co. v. Sawyer, 343 U.S. 579, 609 (1952) (Frankfurter, J., concurring) (“It is quite impossible . . . when Congress did
specifically address itself to a problem . . . to find
secreted in the interstices of legislation the very grant
of power which Congress consciously withheld. To find
authority so explicitly withheld is not merely to disregard in a particular instance the clear will of Congress.
It is to disrespect the whole legislative process and the
constitutional division of authority between President
and Congress.”).
ii.

Plaintiffs are Likely to Show That the
Transfer is Not Based on “Unforeseen Military Requirements.”

Plaintiffs next argue that any need for border barrier
construction—to the extent there is a need—was long
“foreseen,” noting that the President supported his fiscal year 2019 budget request for border barrier funding
with a description that such a barrier “is critical to combating the scourge of drug addiction that leads to thousands of unnecessary deaths.” Mot. at 16 (quoting Citizen Groups RJN Ex. R, at 16).
In response, Defendants again seek to minimize the
pass-through nature of DoD’s counter-drug activities
authority under Section 284.
While not disputing
that the President requested—and was denied—morecomprehensive funds for border barrier construction,
Defendants instead note that “[t]he President’s 2019
budget request did not propose additional funding for
DoD’s counterdrug activities under [Section] 284.”

355a
Opp. at 16. Defendants then argue that because DHS
only formally requested Section 284 support in February 2019, the need for Section 284 support only become
foreseen in February 2019. Id. at 16-17.
Separate and apart from the Court’s analysis above
regarding whether Congress previously denied funding
for the relevant item, Plaintiffs also have shown a likelihood of success as to their argument that Defendants
fail to meet the “unforeseen military requirement” condition for the reprogramming of funds under Section
8005. As the House notes in its amicus brief, DoD has
used this authority in the past to transfer funds based
on unanticipated circumstances (such as hurricane and
typhoon damage to military bases) justifying a departure from the scope of spending previously authorized
by Congress. House Br. at 10 (citing Office of the Under Secretary of Defense (Comptroller), DoD Serial No.
FY 04-37 PA, Reprogramming Action (Sept. 3, 2004)).
Here, however, Defendants claim that what was “unforeseen” was “[t]he need for DoD to exercise its [Section] 284 authority to provide support for counter-drug
activities,” which “did not arise until February 2019,
when DHS requested support from DoD to construct
fencing in drug trafficking corridors.” Opp. at 16.
Defendants’ argument that the need for the requested border barrier construction funding was “unforeseen” cannot logically be squared with the Administration’s multiple requests for funding for exactly that
purpose dating back to at least early 2018. See Citizen
Groups Ex. R (February 2018 White House Budget Request describing “the Administration’s proposal for $18
billion to fund the border wall”); see also States RJN
Exs. 14-20 (failed bills); id. Ex. 21 (December 11, 2018

356a
transcript from a meeting with members of Congress,
where the President stated that “if we don’t get what we
want [for border barrier construction funding], one way
or the other—whether it’s through you, through a military, through anything you want to call [sic]—I will shut
down the government”); Case No. 4:19-cv-00872-HSG,
ECF No. 89-12, at 14 (testimony of Defendant Shanahan
before the House Armed Services Committee explaining
that the Administration discussed unilateral reprogramming “prior to the declaration of a national emergency”).
Further, even the purported need for DoD to provide
DHS with support for border security has similarly been
long asserted. See States RJN Ex. 27 (April 4, 2018
presidential memorandum directing the Secretary of
Defense to support DHS “in securing the southern border and taking other necessary actions” due to “[t]he
crisis at our southern border”). Defendants’ suggestion that by not specifically seeking border barrier funding under Section 284 by name, the Administration can
later contend that as far as DoD is concerned, the need
for such funding is “unforeseen,” is not likely to withstand scrutiny.
Interpreting “unforeseen” to refer to the request for
DoD assistance, as opposed to the underlying “requirement” at issue, also is not reasonable. By Defendants’
logic, every request for Section 284 support would be for
an “unforeseen military requirement,” because only
once the request was made would the “need to exercise
authority” under the statute be foreseen. There is no
logical reason to stretch the definition of “unforeseen
military requirement” from requirements that the government as a whole plainly cannot predict (like the need
to repair hurricane damage) to requirements that plainly
were foreseen by the government as a whole (even if

357a
DoD did not realize that it would be asked to pay for
them until after Congress declined to appropriate funds
requested by another agency). Nothing presented by
the Defendants suggests that its interpretation is what
Congress had in mind when it imposed the “unforeseen”
limitation, especially where, as here, multiple agencies
are openly coordinating in an effort to build a project
that Congress declined to fund. The Court thus finds
it likely that Plaintiffs will succeed on this claim. 17
iii. Accepting Defendants’ Proposed Interpretation of Section 8005’s Requirements
Would Likely Raise Serious Constitutional Questions.

The Court also finds it likely that Defendants’ reading of these provisions, if accepted, would pose serious
problems under the Constitution’s separation of powers
principles. Statutes must be interpreted to avoid a serious constitutional problem where another “construction of the statute is fairly possible by which the question may be avoided.” Zadvydas v. Davis, 533 U.S.
678, 689 (2001) (internal quotation marks and citations
omitted). Constitutional avoidance is “thus a means of
giving effect to congressional intent,” as it is presumed
that Congress did not intend to create an alternative interpretation that would raise serious constitutional concerns. Clark v. Martinez, 543 U.S. 371, 382 (2005).
Courts thus “have read significant limitations into . . .

Because the Court has found that Plaintiffs are likely to succeed
on their argument that the reprogramming violates the two Section
8005 conditions discussed above, it need not reach at this stage their
argument that the border barrier project is not a “military requirement” at all.
17

358a
statutes in order to avoid their constitutional invalidation.” Zadvydas, 533 U.S. at 689 (citation omitted).
As Plaintiffs point out, the upshot of Defendants’ argument is that the Acting Secretary of Defense is authorized to use Section 8005 to funnel an additional $1
billion to the Section 284 account for border barrier construction, notwithstanding that (1) Congress decided to
appropriate only $1.375 billion for that purpose; (2) Congress’s total fiscal year 2019 appropriation available under Section 284 for “[c]onstruction of roads and fences
and installation of lighting to block drug smuggling corridors across international boundaries of the United
States” was $517 million, much of which already has
been spent; and (3) Defendants have acknowledged that
the Administration considered reprogramming funds
for border barrier construction even before the President signed into law Congress’s $1.375 billion appropriation. See Department of Defense and Labor, Health
and Human Services, and Education Appropriations
Act, 2019, Pub. L. No. 115-245, div. A, tit. VI, 132 Stat.
2981, 2997 (2018) (appropriating $881 million in funds
“[f]or drug interdiction and counter-drug activities” in
fiscal year 2019, $517 million of which is “for counternarcotics support”); Dkt. No. 131 at 4 (indicating that
Defendants have not used—and do not intend to use in
the near future—any funds appropriated by Congress
for counter-narcotics support for border barrier construction); Case No. 4:19-cv-00872-HSG, ECF No. 8912, at 14 (testimony of Defendant Shanahan before the
House Armed Services Committee explaining that the
Administration discussed unilateral reprogramming
“prior to the declaration of a national emergency”).
Put differently, according to Defendants, Section 8005

359a
authorizes the Acting Secretary of Defense to essentially triple—or quintuple, when considering the recent
additional $1.5 billion reprogramming—the amount
Congress allocated to this account for these purposes,
notwithstanding Congress’s recent and clear actions in
passing the CAA, and the relevant committees’ express
disapproval of the proposed reprogramming.
See
States RJN Ex. 35 (“The committee denies this request.
The committee does not approve the proposed use of
[DoD] funds to construct additional physical barriers
and roads or install lighting in the vicinity of the United
States border.”); id. Ex. 36 (“The Committee has received and reviewed the requested reprogramming action. . . . The Committee denies the request.”).
Moreover, Defendants’ decision not to refer specifically
to Section 284 in their $5.7 billion funding request deprived Congress of even the opportunity to reject or approve this funding item. 18
The Court agrees with Plaintiffs that reading Section
8005 to permit this massive redirection of funds under
these circumstances likely would amount to an “unbounded authorization for Defendants to rewrite the
federal budget,” Reply at 14, and finds that Defendants’

Defendants do not convincingly explain why the amount now
sought to be transferred under Section 8005 could not have been
sought directly from Congress as part of the fiscal year 2019 appropriation to the DoD Section 284 account to cover requests for
counterdrug support, given that the President has consistently
maintained since before taking office that border barrier funding
is necessary. If the answer is that the Administration expected,
or hoped, that Congress would appropriate the funds to DHS directly, that highlights rather than mitigates the present problem
with Defendants’ position.
18

360a
reading likely would violate the Constitution’s separation of powers principles. Defendants contend that because Congress did not reject (and, indeed, never had
the opportunity to reject) a specific request for an appropriation to the Section 284 drug interdiction fund,
DoD can use Section 8005 to route anywhere up to the
$4 billion cap set by that statute, to be spent for the benefit of DHS via Section 284. But this reading of DoD’s
authority under the statute would render meaningless
Congress’s constitutionally-mandated power to assess
proposed spending, then render its binding judgment as
to the scope of permissible spending. See FDA v. Brown
& Williamson Tobacco Corp., 529 U.S. 120, 133 (2000)
(holding that the interpretation of statutes “must be
guided to a degree by common sense as to the manner
in which Congress is likely to delegate a policy decision
of such economic and political magnitude”); Util. Air
Regulatory Grp. v. EPA, 573 U.S. 302, 324 (2014) (“We
expect Congress to speak clearly if it wishes to assign to
an agency decisions of vast economic and political significance.”) (internal quotation marks omitted). This is
especially true given that Congress has repeatedly rejected legislation that would have funded substantially
broader border barrier construction, as noted above, deciding in the end to appropriate only $1.375 billion. See
City & Cty. of San Francisco v. Trump, 897 F.3d 1225,
1234 (9th Cir. 2018) (“In fact, Congress has frequently
considered and thus far rejected legislation accomplishing the goals of the Executive Order. The sheer amount
of failed legislation on this issue demonstrates the importance and divisiveness of the policies in play, reinforcing the Constitution’s ‘unmistakable expression of a
determination that legislation by the national Congress

361a
be a step-by-step, deliberate and deliberative process.’ ”) (citing Chadha, 462 U.S. at 959). In short, the
Constitution gives Congress the exclusive power “not
only to formulate legislative policies and mandate programs and projects, but also to establish their relative
priority for the Nation,” McIntosh, 833 F.3d at 1172, and
“Congress cannot yield up its own powers” in this regard, Clinton, 524 U.S. at 452 (Kennedy, J., concurring).
Defendants’ interpretation of Section 8005 is inconsistent with these principles.
While Defendants argue that the text and history of
Section 284 suggest that their proposed transfer and use
of the funds are within the scope of what Congress has
permitted previously, Opp. at 18, that argument only
highlights the serious constitutional questions that accepting their position would create. First, Defendants
note that in the past DoD has completed what they characterize as “large-scale fencing projects” with Congress’s approval. Opp. at 18 (citing H.R. Rep. No. 103200, at 330-31 (1993)). But Congress’s past approval of
relatively small expenditures, that were well within the
total amount allocated by Congress to DoD under Section 284’s predecessor, speaks not at all to Defendants’
current claim that the Acting Secretary has authority to
redirect sums over a hundred orders of magnitude greater
to that account in the face of Congress’s appropriations
judgment in the CAA. Similarly, whether or not Section 284 formally “limits” the Secretary to “small scale
construction” (defined in Section 284(i)(3) as “construction at a cost not to exceed $750,000 for any project”),
reading the statute to suggest that Congress requires
reporting of tiny projects but nonetheless has delegated
authority to DoD to conduct the massive funnel-andspend project proposed here is implausible, and likely

362a
would raise serious questions as to the constitutionality
of such an interpretation. See Whitman v. Am. Trucking Ass’ns, 531 U.S. 457, 468 (2001) (noting that Congress “does not, one might say, hide elephants in mouseholes”).
Similarly, if “unforeseen” has the meaning that Defendants claim, Section 8005 would give the agency making a request for assistance under Section 284 complete
control over whether that condition is met, simply by
virtue of the timing of the request. As here, DHS could
wait and see whether Congress granted a requested appropriation, then turn to DoD if Congress declined, and
DoD could always characterize the resulting request as
raising an “unforeseen” requirement because it did not
come earlier. Under this interpretation, DoD could in
essence make a de facto appropriation to DHS, evading
congressional control entirely. The Court finds that this
interpretation likely would pose serious problems under
the Appropriations Clause, by ceding essentially boundless appropriations judgment to the executive agencies.
Finally, the Court has serious concerns with Defendants’ theory of appropriations law, which presumes that
the Executive Branch can exercise spending authority
unless Congress explicitly restricts such authority by
statute. Counsel for Defendants advanced this theory
at the hearing on this motion, arguing that when Congress passed the recent DoD appropriations act containing Section 8005, it “could have” expressly “restrict[ed]
that authority” to preclude reprogramming funds for
border barrier construction. See Dkt. No. 138 at 76:1677:3. According to Defendants: “If Congress had
wanted to deny DOD this specific use of that [repro-

363a
gramming] authority, that’s something it needed to actually do in an explicit way in the appropriations process. And it didn’t.” Id. at 77:21-24. But it is not
Congress’s burden to prohibit the Executive from
spending the Nation’s funds: it is the Executive’s burden to show that its desired use of those funds was “affirmatively approved by Congress.” See FLRA, 665 F.3d at
1348 (“[A]ll uses of appropriated funds must be affirmatively approved by Congress,” and “the mere absence of
a prohibition is not sufficient.”). To have this any other
way would deprive Congress of its absolute control over
the power of the purse, “one of the most important authorities allocated to Congress in the Constitution’s
‘necessary partition of power among the several departments.’ ” Id. at 1346-47 (quoting The Federalist No. 51,
at 320 (James Madison) (Clinton Rossiter ed., 1961)).
To the extent Defendants believe the Ninth Circuit’s
decision in McIntosh suggests anything to the contrary,
the Court disagrees. Defendants appeared to argue at
the hearing on this motion that McIntosh stands for the
principle that the Executive enjoys unfettered spending
power unless Congress crafts an appropriations rider
cabining such authority. See Dkt. No. 138 at 75:5-10.
As counsel for Defendants put it, “[Plaintiffs] want to
say that something was denied by Congress if it wasn’t
funded by Congress. . . . But that is just not how
these statutes are written and that’s not how [McIntosh]
tells us we interpret the appropriations statute.” Id. at
75:13-20. But Defendants overlook that no party in
McIntosh disputed that the government’s use of funds
was authorized but for the appropriations rider at issue
in that case. See 833 F.3d at 1175 (“The parties dispute
whether the government’s spending money on their prosecutions violates [the appropriations rider].”). It is thus

364a
unremarkable that when faced with a dispute exclusively
concerning whether the government’s otherwiseauthorized spending of money violated an appropriations rider, the Ninth Circuit held that “[i]t is a fundamental principle of appropriations law that we may only
consider the text of an appropriations rider.” Id. at
1178; see also Dkt. No. 138 at 75:5-10 (defense counsel
relying on this language from McIntosh).
Unlike in McIntosh, where the sole dispute concerned
the scope of an external limitation on an otherwiseauthorized spending of money, the present dispute concerns the scope of limitations within Section 8005 itself
on the authorization of reprogramming funds. Whether Congress gives authority in the first place is not the
same issue as whether Congress later restricts that authority. And it cannot be the case that Congress must
draft an appropriations rider to breathe life into the internal limitations in Section 8005 establishing that the
Executive may only reprogram money based on unforeseen military requirements, and may not do so where
the item for which funds are requested has been denied
by Congress. To adopt Defendants’ position would
read out these limitations entirely, which the Court
cannot do. See Life Techs. Corp. v. Promega Corp., 137
S. Ct. 734, 740 (2017) (“Whenever possible, however, we
should favor an interpretation that gives meaning to
each statutory provision.”). To give meaning to—and
thus to construe the scope of—these internal limitations
is wholly consistent with McIntosh, which explained
that the Executive’s authority to spend is at all times
limited “by the text of the appropriation.” 833 F.3d at
1178 (internal quotation marks omitted).

365a
For all of these reasons, the Court finds that Plaintiffs have shown a likelihood of success as to their argument that the reprogramming of $1 billion under Section
8005 to the Section 284 account for border barrier construction is unlawful. 19
b.

Section 2808

At the President’s direction, the DoD intends to use
up to $3.6 billion in military construction funding to facilitate border barrier construction. Defendants rely
on Section 2808, under which the Secretary of Defense
may “undertake military construction projects, and may
authorize the Secretaries of the military departments to
undertake military construction projects, not otherwise
authorized by law.” 10 U.S.C. § 2808(a). As is relevant here, Section 2808 requires that (1) the President
first declare a national emergency in accordance with
the NEA that “requires use of the armed forces,” (2) the
Defendants have now acknowledged that all of the money they
plan to spend on border barrier construction under Section 284 is
money transferred into that account under Section 8005. See Dkt.
No. 131 at 4. Given this acknowledgment, and the Court’s finding
that Plaintiffs are likely to show that the Section 8005 reprogramming is unlawful, the Court need not at this stage decide whether
Defendants would have been permitted to use for border barrier construction any remaining funds that Congress appropriated to the
Section 284 account for fiscal year 2019. The Court notes that the
House confirmed in its own lawsuit that it “does not challenge the
expenditure of any remaining appropriated funds under section 284
on the construction of a border wall.” United States House of Representatives’ Application for a Preliminary Injunction at 30, U.S.
House of Representatives v. Mnuchin, No. 1:19-cv-00969 (TNM)
(D.D.C. Apr. 23, 2019), ECF No. 17; see also House Br. at 17 (requesting preliminary injunction “prohibiting defendants from transferring and spending funds in excess of what Congress appropriated
for counter-narcotics support under 10 U.S.C. § 284”).
19

366a
use of funds be for “military construction projects,” and
(3) the military construction projects be “necessary to
support such use of the armed forces.” Id. Plaintiffs
contend that Defendants’ plan to use Section 2808 to
build a barrier on the U.S.-Mexico border fails all three
requirements.
Under the circumstances, it is unclear how border
barrier construction could reasonably constitute a “military construction project” such that Defendants’ invocation of Section 2808 would be lawful. Section 2808
authorizes the Secretary of Defense to “undertake military construction projects.” And Congress defined the
term “military construction,” as it is used in Section 2808,
to “include[] any construction, development, conversion,
or extension of any kind carried out with respect to a
military installation, whether to satisfy temporary or permanent requirements, or any acquisition of land or construction of a defense access road.” 10 U.S.C. § 2801(a).
Congress in turn defined the term “military installation”
to “mean[] a base, camp, post, station, yard, center, or
other activity under the jurisdiction of the Secretary of
a military department or, in the case of an activity in a
foreign country, under the operational control of the
Secretary of a military department or the Secretary of
Defense, without regard to the duration of operational
control.” Id. § 2801(c)(4).
Plaintiffs reason that border barrier construction
does not constitute construction “carried out with respect
to a military installation,” because (1) the U.S.-Mexico
border is not a military “base, camp, post, station, yard,
center” or “defense access road;” and (2) securing the
border is not an “activity under the jurisdiction of the

367a
Secretary of a military department.” Mot. at 14. Instead, Congress assigned responsibility for “[s]ecuring
the borders” to DHS. See 6 U.S.C. § 202. Defendants
respond that although the statute defines both “military
construction” and its nested term, “military installation,” “[b]road terms defining military construction as
‘includ[ing]’ (but not limited to, see 10 U.S.C. § 101(f )(4))
construction with respect to a military installation, and
defining military installation to include non-specified
‘other activity,’ are not the kind of clear and mandatory
statutory language that is a necessary predicate to an
ultra vires claim.” Opp. at 23.
Defendants’ arguments prove too much. As explained above, Defendants misunderstand the standard
for ultra vires review. More to the merits, the plain language of the relevant statutory definitions does not
demonstrate the sort of unbounded authority that Defendants suggest. Turning first to the statutory definition of “military construction,” that it uses the word
“includes” when it provides that military construction
“includes any construction, development, conversion, or
extension of any kind carried out with respect to a military installation” is irrelevant. No one disputes that
border barrier construction constitutes “construction.”
What matters is that Section 2801(a) limits such
construction—however broad that term might be—to
construction related to a military installation. In other
words, the critical language of Section 2801(a) is not the
word “includes,” it is the condition “with respect to a
military installation.”
Turning next to the statutory definition of “military
installation,” Section 2801(c)(4) provides in relevant

368a
part that it “means a base, camp, post, station, yard, center, or other activity under the jurisdiction of the Secretary of a military department.” And Defendants make
no attempt to characterize the U.S.-Mexico border or a
border barrier as a “base, camp, post, station, yard, [or]
center.” Nor could they. Defendants instead contend
that border barrier construction is authorized under the
catch-all term “other activity.” See Dkt. No. 138 at
92:9-93:22.
In interpreting Section 2801 to determine whether
Defendants’ plan to construct a barrier on the U.S.Mexico border falls within the “other activity” category,
the Court applies “traditional tools of statutory construction.” Rumsey Indian Rancheria of Wintun Indians v. Wilson, 64 F.3d 1250, 1257 (9th Cir. 1994),
amended on denial of reh’g by 99 F.3d 321 (9th Cir.
1996). The Court “begin[s] with the statute’s language, which is conclusive unless literally applying the
statute’s text demonstrably contradicts Congress’s intent.” Chemehuevi Indian Tribe v. Newsom, 919 F.3d
1148, 1151 (9th Cir. 2019). “When deciding whether the
language is plain, courts must read the words in their
context and with a view to their place in the overall statutory scheme.” Id. (quoting Rainero v. Archon Corp.,
844 F.3d 832, 837 (9th Cir. 2016) (internal quotation marks
and alterations omitted)).
Applying traditional tools of statutory construction,
Section 2801 likely precludes treating the southern border as an “other activity.” Defendants on this point fail
to appreciate that the words immediately preceding “or
other activity” in Section 2801(c)(4)—“a base, camp, post,
station, yard, [and] center”—provide contextual limits on

369a
the catch-all term. The Court thus relies on the doctrine of noscitur a sociis, “which is that a word is known
by the company it keeps.” Gustafson v. Alloyd Co.,
Inc., 513 U.S. 561, 575 (1995). Courts apply this rule
“to avoid ascribing to one word a meaning so broad that
it is inconsistent with its accompanying words, thus giving ‘unintended breadth to the Acts of Congress.’ ” Id.
(quoting Jarecki v. G.D. Searle & Co., 367 U.S. 303, 307
(1961)). The Supreme Court has relied on this canon of
statutory interpretation many times when construing
detailed statutory lists followed by catch-all-type terms.
Most recently, in Epic Systems Corp. v. Lewis, the
Court limited the term “other concerted activities” in
Section 7 of the National Labor Relations Act to refer to
“things employees ‘just do’ for themselves in the course
of exercising their right to free association in the workplace,” rather than any concerted activity whatsoever—
including class and collective actions—because the term
appeared at the end of a detailed list of specific activities, none of which “speak[] to the procedures judges or
arbitrators must apply in disputes that leave the workplace and enter the courtroom or arbitral forum.” 138
S. Ct. 1612, 1625 (2018). Before that, in Gustafson, the
Supreme Court construed the word “communication” as
used in Section 2(10) of the Securities Act of 1933 to “refer[] to a public communication” and not any communication whatsoever, because the word followed a list of
other terms—“prospectus, notice, circular, advertisement, [and] letter”—in consideration of which “it [was]
apparent that the list refers to documents of wide dissemination.” 513 U.S. at 575.
Noscitur a sociis applies with equal force in the present circumstance. The term “other activity” appears

370a
after a list of closely related types of discrete and traditional military locations: “a base, camp, post, station,
yard, [and] center.” It is thus proper to construe
“other activity” as referring to similar discrete and traditional military locations. The Court does not readily
see how the U.S.-Mexico border could fit this bill.
The Court also finds relevant the ejusdem generis
canon of statutory interpretation, which counsels that
“[w]here general words follow specific words in a statutory enumeration, the general words are construed to
embrace only objects similar in nature to those objects
enumerated by the preceding specific words.” Wash.
State Dept. of Social & Health Servs. v. Guardianship
Estate of Keffeler, 537 U.S. 371, 384 (2003) (quoting Circuit City Stores, Inc. v. Adams, 532 U.S. 105, 114-15
(2001)). At the hearing on this motion, Defendants argued that the term “other activity” “capture[s] everything under the jurisdiction of the secretary of a military
department.” Dkt. No. 138 at 92:9-13. The Court disagrees. Had Congress intended for “other activity” in
Section 2801(c)(4) to be so broad as to transform literally any activity conducted by a Secretary of a military
department into a “military installation”, there would
have been no reason to include a list of specific, discrete
military locations. See Yates v. United States, 135 S. Ct.
1074, 1087 (2015) (“Had Congress intended ‘tangible object’ in § 1519 to be interpreted so generically as to capture physical objects as dissimilar as documents and
fish, Congress would have had no reason to refer specifically to ‘record’ or ‘document.’ The Government’s unbounded reading of ‘tangible object’ would render those
words misleading surplusage.”); CSX Transp., Inc. v.
Ala. Dept. of Revenue, 562 U.S. 277, 295 (“We typically

371a
use ejusdem generis to ensure that a general word will
not render specific words meaningless.”).
To be clear, “other activity” is not an empty term.
Congress undoubtedly contemplated that military installations would encompass more than just “a base,
camp, post, station, yard, [or] center.” But the Court
need not stake out the term’s outer limits here. All
that matters for present purposes is that, in context and
with an eye toward the overall statutory scheme, nothing demonstrates that Congress ever contemplated that
“other activity” has such an unbounded reading that it
would authorize Defendants to invoke Section 2808 to
build a barrier on the southern border.
Despite its concerns with Defendants’ arguments on
this point, the Court need not now address whether Plaintiffs are likely to succeed on the merits of their claim that
Defendants’ ultimate plan to divert funds under Section
2808 is ultra vires. That is because, as discussed below, Plaintiffs have not met their independently necessary burden of showing a likelihood of irreparable harm
from the use of funds under Section 2808 for construction at as-yet-unspecified locations so as to be entitled
to a preliminary injunction.
c. NEPA

After Plaintiffs filed the instant motion—and one day
before Defendants filed their opposition—the Acting
Secretary of Homeland Security invoked his authority
under Section 102(c) of IIRIRA to waive any NEPA requirements for construction in the El Paso and Yuma
sectors. See Opp. at 25-26; see also Determination Pursuant to Section 102 of the Illegal Immigration Reform
and Immigrant Responsibility Act of 1996, as Amended,

372a
84 Fed. Reg. 17185-01 (Apr. 24, 2019); REAL ID Act of
2005, Pub. L. No. 109-13, § 102, 119 Stat. 231, 306 (May
11, 2005) (amending Section 102(c) to reflect that the
Secretary “ha[s] the authority to waive all legal requirements” that, in the “Secretary’s sole discretion,” are
“necessary to ensure expeditious construction” of barriers and roads). The Acting Secretary later waived
NEPA requirements for the El Centro and Tucson Sectors Projects as well, on the same basis. See Determination Pursuant to Section 102 of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996,
as Amended, 84 Fed. Reg. 21,798 (May 15, 2019); Determination Pursuant to Section 102 of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996, as
Amended, 84 Fed. Reg. 21,800 (May 15, 2019).
Defendants contend that such waivers preclude
Plaintiffs from advancing a NEPA claim. Opp. at 26
(citing In re Border Infrastructure Envtl. Litig., 915
F.3d 1213, 1221 (9th Cir. 2019)). Plaintiffs respond that
DHS’s authority to waive NEPA requirements for construction under IIRIRA does not extend to construction
undertaken by DoD under its own spending authority.
Reply at 18-19. Plaintiffs further contend that “Defendants’ argument is incompatible with their own claim
that they are not constructing the El Paso and Yuma
sections of border wall under IIRIRA authority, but instead under the wholly separate DoD authority,” and
suggest that “Defendants cannot have it both ways.”
Reply at 18-19.
Neither set of Plaintiffs appears to contest that the
waivers, if applicable, would be dispositive of the NEPA
claims. See, e.g., Plaintiff States’ Reply at 16, California v. Trump, No. 4:19-cv-00872-HSG (N.D. Cal. May 2,

373a
2019), ECF No. 112 (“States Reply”) (“Plaintiffs do not
dispute DHS’s ability to waive NEPA compliance when
constructing barriers pursuant to [IIRIRA], with funds
specifically appropriated by Congress to be used for
that construction.”) (emphasis in original); see also In re
Border Infrastructure Envtl. Litig., 915 F.3d at 1221
(“[A] valid waiver of the relevant environmental laws under section 102(c) is an affirmative defense to all the environmental claims [including NEPA claims],” and is
“dispositive of [those] claims.”). But Plaintiffs contend
that “the DHS Secretary’s waiver under IIRIRA does
not waive DOD’s obligations to comply with NEPA prior
to proceeding with El Paso Project 1 under DOD’s statutory authority, 10 U.S.C. § 284, and using DOD’s appropriations,” so that “DHS’s waiver has no application
to this project.” States Reply at 16 (emphasis added);
see also Reply at 19 (“Defendants identify no statutory
authority for a waiver for ‘expeditious construction’ under DOD’s § 284 authority, and none exists.”).
The Court finds that Plaintiffs are not likely to succeed on their NEPA argument because of the waivers
issued by DHS. DoD’s authority under Section 284 is derivative. Under the statute, DoD is limited to providing support (including construction support) to other
agencies, and may invoke its authority only in response
to a request from such an agency. See 10 U.S.C. § 284
(“The Secretary of Defense may provide support for the
counterdrug activities . . . of any other department
or agency of the Federal Government,” including support for “[c]onstruction of roads and fences,” if “such
support is requested . . . by the official who has responsibility for the counterdrug activities.”). Here,
DHS has made such a request, invoking “its authority

374a
under Section 102 of IIRIRA to install additional physical barriers and roads” in designated areas, seeking support for its “ability to impede and deny illegal entry and
drug smuggling activities.” Citizen Groups RJN Ex. I,
at 1. DHS requested DoD’s assistance “[t]o support
DHS’s action under Section 102.” Id. at 2. Plaintiffs’
argument would require the Court to find that even
though it is undisputed that DHS could waive NEPA’s
requirements if it were paying for the projects out of its
own budget, that waiver is inoperative when DoD provides support in response to a request from DHS. The
Court finds it unlikely that Congress intended to impose
different NEPA requirements on DoD when it acts in
support of DHS’s Section 102 authority in response to a
direct request under Section 284 than would apply to
DHS itself. 20 See Defs. of Wildlife v. Chertoff, 527
F. Supp. 2d 119, 121, 129 (D.D.C. 2007) (finding DHS’s
Section 102 waiver authority authorized the DHS Secretary to waive legal requirements where the U.S. Army
Corps of Engineers, a federal agency within the DoD,
was constructing border fencing “on behalf of DHS”). 21

Plaintiff States argue that “[i]n another context, Congress explicitly allows the DOD Secretary to request ‘the head of another
agency responsible for the administration of navigation or vesselinspection laws to waive compliance with those laws to the extent
the Secretary considers necessary.’ ” States Reply at 17 (citing 46
U.S.C. § 501(a)). The Court finds this statute to be irrelevant to
the issue here. In this case, DoD is acting solely in response to
DHS’s request for support under Section 102; DHS has undisputed
authority to issue waivers under that section; and it would not make
sense to make NEPA compliance a condition of DoD’s derivative
support notwithstanding DHS’s waiver.
21
To the extent Plaintiffs’ argument is that the government “cannot have it both ways,” the Court agrees, to the extent it found a
20

375a
2.

Likelihood of Irreparable Injury

Plaintiffs advance three theories of irreparable
harm: (1) harm to their members’ aesthetic and recreational interests in areas threatened by border barrier
construction; (2) constitutional harm; and (3) harm to
Plaintiff SBCC and its member organizations’ ability to
carry out their missions. Mot. at 22-25; Reply at 19-24.
Critical to this analysis is that while Defendants have
committed to fund border barrier construction in the El
Paso Sector 1 and Yuma Sector 1 projects using funds
reprogrammed and subsequently used under Sections
8005 and 284, Defendants have not committed to fund
any border barrier construction using Section 2808.
Because of this distinction, the Court addresses the two
categories separately.
a.

Sections 8005 and 284

The Court finds that Plaintiffs have demonstrated a
likelihood of irreparable harm to their members’ aesthetic and recreational interests in the areas known as
El Paso Sector Project 1 and Yuma Sector Project 1.
As the Ninth Circuit has explained, “it would be incorrect to hold that all potential environmental injury
warrants an injunction.” League of Wilderness Defs./Blue
Mountains Biodiversity Project v. Connaughton, 752
F.3d 755, 764 (9th Cir. 2014). “Environmental injury,”
however, “by its nature, can seldom be adequately remedied by money damages and is often permanent or at
least of long duration, i.e., irreparable.” Amoco Prod.
Co. v. Vill. of Gambell, Alaska, 480 U.S. 531, 545 (1987).

likelihood of success as to Plaintiffs’ Section 8005 argument, as discussed in Section IV.B.1.a, above.

376a
Plaintiffs must nonetheless demonstrate that irreparable injury “is likely in the absence of an injunction.”
Winter, 555 U.S. at 22. Mere “possibility” of irreparable harm does not merit a preliminary injunction. Id.
But it is well-established in the Ninth Circuit that an organization can demonstrate irreparable harm by showing that the challenged action will injure its members’
enjoyment of public land. See All. for Wild Rockies,
632 F.3d at 1135.
Turning to Plaintiffs’ aesthetic and recreational interests, Plaintiffs provide declarations from several members, detailing how Defendants’ proposed use of funds reprogrammed under Section 8005 and then used under
Section 284 for border barrier construction will harm
their ability to recreate in and otherwise enjoy public
land along the border. See Dkt. No. 30 (“Del Val Decl.”)
¶¶ 7-9 (alleging harm from border barrier construction
and the accompanying lighting in the Yuma Sector Project 1 to declarant’s “ability to fish” and general enjoyment of natural environment); Dkt. No. 31 (“Munro
Decl.”) ¶ 11 (alleging harm from border barrier construction in El Paso Sector Project 1 to declarant’s “happiness and sense of fulfillment,” which she “derive[s]
from visiting these beautiful landscapes”); Dkt. No. 34
(“Bixby Decl.”) ¶¶ 6, 12 (alleging harm from border barrier construction in El Paso Sector Project 1 to declarant’s hiking and camping interests); Dkt. No. 35 (“Walsh
Decl.”) ¶¶ 8-12 (alleging harm from border barrier construction in El Paso Sector Project 1 to declarant’s recreational interests, including “bird watching and hiking”).

377a
Defendants argue that Plaintiffs’ alleged recreational
harms are insufficient for two reasons. First, Defendants argue that Plaintiffs have not demonstrated “that
any species-level impacts are likely as a result of border
wall construction.” See Opp. at 29. But Defendants
here misunderstand Plaintiffs’ theory. Plaintiffs’ declarants nowhere state that their recreational interest is
merely the enjoyment of a particular species. Defendants’ second argument is that their planned “replacement of existing pedestrian border infrastructure . . .
will not change conditions where Mr. Del Val fishes.”
Id. at 30-31. But Defendants here understate the effects of what they now characterize as mere “replacement of existing pedestrian border infrastructure.”
By Defendants’ own description, they intend to replace
four-to-six-foot vehicle barriers in the Yuma Sector Project 1 area with a thirty-foot “bollard wall,” where “[t]he
bollards are steel-filled concrete that are approximately
six inches in diameter and spaced approximately four
inches apart” and accompanied by lighting. See Dkt.
No. 64-9 (“Enriquez Decl.”) ¶ 12 & Ex. C, at 2-1. Even
if the characteristics of the wall were unchanged—which
is not the case—Mr. Del Val alleges recreational harms
from not only the bollard wall construction but also the
accompanying lighting, which does not currently exist.
See Del Val Decl. ¶ 9. Because the Court finds that Defendants’ proposed construction in Yuma Sector Project
1 constitutes a change in conditions for Mr. Del Val, it
rejects Defendants’ second challenge to Plaintiffs’ alleged recreational harms.
Plaintiffs have shown that Defendants’ proposed construction will lead to a substantial change in the environment, the nature of which will harm their members’ aes-

378a
thetic and recreational interests. The funding of border barrier construction, if indeed barred by law, cannot
be remedied easily after the fact, and yet Defendants intend to commence construction immediately and complete it expeditiously. Thus, “[t]he harm here, as with
many instances of this kind of harm, is irreparable for
the purposes of the preliminary injunction analysis.”
See League of Wilderness Defenders/Blue Mountains
Biodiversity Project, 752 F.3d at 764.
b.

Section 2808

Because Defendants have not disclosed a plan for diverting funds under Section 2808 for border barrier construction, the Court cannot now determine a likelihood
of harm to Plaintiffs’ members’ aesthetic and recreational
interests. The Court thus turns to Plaintiffs’ other theories of irreparable injury.
To start, to the extent Plaintiffs rely on American
Trucking Associations, Inc. v. City of Los Angeles, 559
F.3d 1046, 1058-59 (9th Cir. 2009), for the principle that
a constitutional violation alone suffices to show irreparable harm, the Court finds that principle unavailing.
See Mot. at 25. Even under that theory of irreparable
harm, Plaintiffs must demonstrate some likely irreparable harm in the absence of a preliminary injunction barring the challenged action, and not simply a constitutional violation. See id. (noting that the constitutional
violation must be “coupled with the damages incurred,”
which in that case involved “a good deal of economic
harm in the interim”).
Plaintiffs primary alternative theory of irreparable
injury is that Defendants’ invocation of and use of funds
under Section 2808 for border barrier construction has

379a
harmed and continues to harm Plaintiff SBCC and its
member organizations’ ability to carry out their missions. See Mot. at 23-25. To this end, Plaintiffs describe
that “several senior SBCC staff have devoted a ‘majority’ of their time to analyzing and responding to” Defendants’ invocation of Sections 2808 and 284. Id. at 24.
Defendants acts purportedly have forced SBCC to “field[]
inquiries from members, journalists and elected officials; create[] new educational materials, media toolkits
and multimedia content; and host[] trainings for staff
and partners.” Id. Tending to these activities has
frustrated SBCC and its member organizations’ ability
to focus on their “core missions.” Id. In Plaintiffs’
view, “[s]uch injuries are sufficient to demonstrate a
likelihood of irreparable harm and justify preliminary
injunctive relief.” Id.
But Plaintiffs conflate the type of harm to organizational mission that gives rise to Article III standing and
the type of harm necessary for a preliminary injunction.
There is no dispute that the “perceptibl[e] impair[ment]”
of an organization’s ability to carry out its mission that
results in a “drain on the organization’s resources” is
enough for Article III standing. See Havens Realty
Corp. v. Coleman, 455 U.S. 363, 379 (1982). But to warrant a preliminary injunction, Plaintiffs must do more
than just assert irreparable harm. Winter commands
that plaintiffs seeking a preliminary injunction establish
that they are “likely to suffer irreparable harm in the
absence of preliminary relief.” 555 U.S. at 20 (emphasis added). Plaintiffs ignore the “in the absence of preliminary relief ” component, but Winter is not complicated on this point. Under Winter, Plaintiffs must demonstrate that preliminary injunctive relief will prevent
some irreparable injury that is likely to occur before the

380a
Court has time to decide the case on the merits. In
other words, Plaintiffs must present some persuasive
counterfactual analysis showing a likelihood that irreparable harm would occur absent an injunction, but would
not occur if an injunction is granted. But as it stands,
nothing indicates that Plaintiffs’ proffered “diversion”
of funds or resources would change at all if the Court
were to issue an injunction. With or without an injunction, Plaintiffs will have to continue to litigate this case
and otherwise divert resources in the manner they have
described until the case is resolved.
All three cases on which Plaintiffs rely to support
their mission-frustration theory support the Court’s
conclusion. First, in Valle de Sol Inc. v. Whiting, plaintiffs faced a “credible threat of prosecution” under an
allegedly unconstitutional statute, where the resulting
injury could not be remedied by monetary damages.
732 F.3d 1006, 1029 (9th Cir. 2013). But that is the
quintessential sort of irreparable harm warranting an
injunction. See Ex parte Young, 209 U.S. 123, 155-56
(1908) (“The various authorities we have referred to furnish ample justification for the assertion that individuals
who, as officers of the state, are clothed with some duty
in regard to the enforcement of the laws of the state, and
who threaten and are about to commence proceedings,
either of a civil or criminal nature, to enforce against
parties affected an unconstitutional act, violating the
Federal Constitution, may be enjoined by a Federal
court of equity from such action.”). Next, in East Bay
Sanctuary Covenant v. Trump, the plaintiff organizations sufficiently demonstrated that they faced a substantial loss of funding in the absence of an injunction.
354 F. Supp. 3d 1094, 1116 (N.D. Cal. 2018); see also Cty.
of Santa Clara v. Trump, 250 F. Supp. 3d 497, 537 (N.D.

381a
Cal. 2017) (“Without clarification regarding the Order’s
scope or legality, the Counties will be obligated to take
steps to mitigate the risk of losing millions of dollars in
federal funding, which will include placing funds in reserve and making cuts to services.”). Finally, in League
of Women Voters v. Newby, plaintiffs demonstrated that
their mission interest in registering voters faced likely
irreparable injury absent a preliminary injunction because registration deadlines would pass before resolution of the case on the merits. 838 F.3d 1, 9 (D.C. Cir.
2016) (“Because, as a result of the Newby Decisions,
those new obstacles unquestionably make it more difficult for the Leagues to accomplish their primary mission
of registering voters, they provide injury for purposes
both of standing and irreparable harm. And that harm
is irreparable because after the registration deadlines
for the November election pass, there can be no do over
and no redress.”) (internal quotation marks and citations
omitted).
In all three cases, a counterfactual existed which
demonstrated the need for a preliminary injunction. In
Valle, injunctive relief meant the difference between prosecution under an unconstitutional statute or not. In
East Bay Sanctuary Covenant and County of Santa
Clara, injunctive relief meant the difference between organizations losing substantial funding or not. In League
of Women Voters, injunctive relief meant the difference
between registering voters for an election in keeping
with organizations’ mission interests or not. Here,
however, Plaintiffs present no evidence that injunctive
relief will make any difference to the purported harm to
their mission interests, which will continue until this
case’s resolution. Plaintiffs thus have not carried their
burden to show that the “extraordinary remedy” of a

382a
preliminary injunction is warranted in this regard.
Winter, 555 U.S. at 20.

See

Although the Court finds that Plaintiffs have not yet
met their burden of showing irreparable harm in the absence of a preliminary injunction, the Court fully expects that if and when Defendants identify border barrier construction locations where Section 2808 funds will
be used, Plaintiffs will have the opportunity to submit
materials in support of their irreparable harm claim.
The Court takes Defendants at their word that they
“will inform the Court” immediately once a decision is
made to use Section 2808 to fund border barrier construction. See Dkt. No. 131 at 3.
3.

Balance of Equities and Public Interest

When the government is a party to a case in which a
preliminary injunction is sought, the balance of the equities and public interest factors merge. Drakes Bay
Oyster Co. v. Jewell, 747 F.3d 1073, 1092 (9th Cir. 2014).
According to Defendants, these factors tilt in their favor, because their “weighty” interest in border security
and immigration-law enforcement, as sanctioned by Congress, outweighs Plaintiffs’ “speculative” injuries. Opp. at
34-35. The Ninth Circuit has recognized that “the public has a ‘weighty’ interest ‘in efficient administration of
the immigration laws at the border,’ ” and the Court does
not minimize this interest. See E. Bay Sanctuary Covenant v. Trump, 909 F.3d 1219, 1255 (9th Cir. 2018) (quoting Landon v. Plasencia, 459 U.S. 21, 34 (1982)). On
the other hand, “the public also has an interest in ensuring that statutes enacted by their representatives are not
imperiled by executive fiat.” Id. (internal quotation
marks and brackets omitted). And the Court has found

383a
above that Plaintiffs’ injuries as to El Paso Sector Project 1 and Yuma Sector Project 1 are not speculative,
and will be irreparable in the absence of an injunction.
Accordingly, this factor favors Plaintiffs, and counsels
in favor of a preliminary injunction, to preserve the status quo until the merits of the case can be promptly resolved. 22
V.

CONCLUSION

Congress’s “absolute” control over federal expenditures
—even when that control may frustrate the desires of
the Executive Branch regarding initiatives it views as
important—is not a bug in our constitutional system.
It is a feature of that system, and an essential one. See
FLRA, 665 F.3d at 1346-47 (“The power over the purse
was one of the most important authorities allocated to
Congress in the Constitution’s ‘necessary partition of
power among the several departments.’ ”) (quoting The
Federalist No. 51, at 320 (James Madison)). The Appropriations Clause is “a bulwark of the Constitution’s
separation of powers among the three branches of the
National Government,” and is “particularly important
as a restraint on Executive Branch officers.” Id. at

The Court observes that, although Congress appropriated
$1.571 billion for physical barriers and associated technology along
the Southwest border for fiscal year 2018, counsel for the House
has represented to the Court that the Administration has stated as
recently as April 30, 2019 that CBP represents it has only constructed 1.7 miles of fencing with that funding. See Dkt. No. 139;
see also Consolidated Appropriations Act, 2018, Pub. L. No. 115141, div. F, tit. II, § 230(a) 132 Stat. 348 (2018). This representation tends to undermine Defendants’ claim that irreparable harm
will result if the funds at issue on this motion are not deployed immediately.
22

384a
1347. In short, the position that when Congress declines the Executive’s request to appropriate funds, the
Executive nonetheless may simply find a way to spend
those funds “without Congress” does not square with
fundamental separation of powers principles dating back
to the earliest days of our Republic. See City & Cty of
San Francisco, 897 F.3d at 1232 (“[I]f the decision to
spend is determined by the Executive alone, without adequate control by the citizen’s Representatives in Congress, liberty is threatened.”) (internal quotation marks
and brackets omitted) (quoting Clinton, 524 U.S. at 451)
(Kennedy, J., concurring). Justice Frankfurter wrote
in 1952 that “[i]t is not a pleasant judicial duty to find
that the President has exceeded his powers,” Youngstown, 343 U.S. at 614 (Frankfurter, J., concurring), and
that remains no less true today. But “if there is a
separation-of-powers concern here, it is between the
President and Congress, a boundary that [courts] are
sometimes called upon to enforce.” E. Bay Sanctuary
Covenant, 909 F.3d at 1250; see also Ctr. for Biological
Diversity v. Mattis, 868 F.3d 803, 825-26 (9th Cir. 2017)
(“To declare that courts cannot even look to a statute
passed by Congress to fulfill international obligations
turns on its head the role of the courts and our core respect for a co-equal political branch, Congress.”). Because the Court has found that Plaintiffs are likely to
show that Defendants’ actions exceeded their statutory
authority, and that irreparable harm will result from
those actions, a preliminary injunction must issue pending a resolution of the merits of the case.
For the foregoing reasons, the Court hereby GRANTS
IN PART and DENIES IN PART WITHOUT PREJUDICE Plaintiffs’ motion for a preliminary injunction.

385a
The terms of the injunction are as follows 23: Defendants Patrick M. Shanahan, in his official capacity as Acting Secretary of Defense, Kevin K. McAleenan, in his
official capacity as Acting Secretary of Homeland Security, Steven T. Mnuchin, in his official capacity as Secretary of the Department of the Treasury, and all persons acting under their direction, are enjoined from taking any action to construct a border barrier in the areas
Defendants have identified as Yuma Sector Project 1
and El Paso Sector Project 1 using funds reprogrammed
by DoD under Section 8005 of the Department of Defense Appropriations Act, 2019.
A case management conference is set for June 5, 2019
at 2:00 p.m. At the case management conference, the
parties should be prepared to discuss a plan for expeditiously resolving this matter on the merits, whether
through a bench trial, cross-motions for summary judgment, or other means. The parties must submit a joint
case management statement by May 31, 2019.
IT IS SO ORDERED.

Dated:

5/24/2019
/s/ HAYWOOD S. GILLIAM, JR.
HAYWOOD S. GILLIAM, JR.
United States District Judge

The Court finds that an injunction against the President personally is not warranted here. See Cty. of Santa Clara, 250 F. Supp.
3d at 549-40.
23

386a
APPENDIX J
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA

Case No. 19-cv-00872-HSG
STATE OF CALIFORNIA, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, ET AL., DEFENDANTS
Filed:

May 24, 2019

ORDER DENYING PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
Re: Dkt. No. 59

On February 18, 2019, a coalition of sixteen states
filed suit against Defendants Donald J. Trump, in his official capacity as President of the United States; the
United States; the U.S. Department of Defense (“DoD”);
Patrick M. Shanahan, in his official capacity as Acting
Secretary of Defense; Mark T. Esper, in his official capacity as Secretary of the Army; Richard V. Spencer, in
his official capacity as Secretary of the Navy; Heather
Wilson, in her official capacity as Secretary of the Air
Force; the U.S. Department of the Treasury; Steven T.
Mnuchin, in his official capacity as Secretary of the Department of the Treasury; the U.S. Department of the

387a
Interior; David Bernhardt, in his official capacity as Secretary of the Interior 1; the U.S. Department of Homeland Security (“DHS”); and Kevin K. McAleenan, in his
official capacity as Acting Secretary of Homeland Security 2 (collectively, “Federal Defendants”). Dkt. No. 1.
The next day, Sierra Club and Southern Border Communities Coalition (collectively, “Citizen Group Plaintiffs” or “Citizen Groups”) brought a related suit against
many, but not all, of the same Federal Defendants. See
Complaint, Sierra Club v. Trump, No. 4:19-cv-00892HSG, (N.D. Cal. Feb. 19, 2019), ECF No. 1. Plaintiffs
here filed an amended complaint on March 13, 2019, with
the state coalition now constituting twenty states (collectively, “Plaintiff States” or “States”). See Dkt. No.
47 (“FAC”).
Now pending before the Court is Plaintiffs’ motion
for a preliminary injunction, briefing for which is complete. See Dkt. Nos. 59 (“Mot.”), 89 (“Opp.”), 112 (“Reply”). The Court held a hearing on this motion on May
17, 2019. See Dkt. No. 159. In short, Plaintiffs seek
to prevent executive officers from using redirected federal funds for the construction of a barrier on the U.S.Mexico border.
It is important at the outset for the Court to make
clear what this case is, and is not, about. The case is
not about whether the challenged border barrier construction plan is wise or unwise. It is not about whether
the plan is the right or wrong policy response to existing
Secretary Bernhardt was named in his then-capacity as Acting
Secretary, but was subsequently confirmed as Secretary by the
U.S. Senate on April 11, 2019.
2
Acting Secretary McAleenan is automatically substituted for
former Secretary Kirstjen M. Nielsen. See Fed. R. Civ. P. 25(d).
1

388a
conditions at the southern border of the United States.
These policy questions are the subject of extensive, and
often intense, differences of opinion, and this Court cannot and does not express any view as to them. See
Trump v. Hawaii, 138 S. Ct. 2392, 2423 (2018) (indicating that the Supreme Court “express[ed] no view on the
soundness of the policy” at issue there); In re Border
Infrastructure Envtl. Litig., 284 F. Supp. 3d 1092, 1102
(S.D. Cal. 2018) (noting that the court “cannot and does
not consider whether underlying decisions to construct
the border barriers are politically wise or prudent”).
Instead, this case presents strictly legal questions regarding whether the proposed plan for funding border
barrier construction exceeds the Executive Branch’s
lawful authority under the Constitution and a number of
statutes duly enacted by Congress. See In re Aiken
Cty., 725 F.3d 255, 257 (D.C. Cir. 2013) (“The underlying
policy debate is not our concern. . . . Our more modest task is to ensure, in justiciable cases, that agencies
comply with the law as it has been set by Congress.”).
Assessing whether Defendants’ actions not only conform to the Framers’ contemplated division of powers
among co-equal branches of government but also comply
with the mandates of Congress set forth in previously
unconstrued statutes presents a Gordian knot of sorts.
But the federal courts’ duty is to decide cases and controversies, and “[t]hose who apply the rule to particular
cases, must of necessity expound and interpret that
rule.” See Marbury v. Madison, 1 Cranch 137, 177 (1803).
Rather than cut the proverbial knot, however, the Court
aims to untie it—no small task given the number of overlapping legal issues. And at this stage, the Court then
must further decide whether Plaintiffs have met the
standard for obtaining the extraordinary remedy of a

389a
preliminary injunction pending resolution of the case on
the merits.
After carefully considering the parties’ arguments,
the Court DENIES Plaintiffs’ motion. 3
I.

LEGAL STANDARD

A preliminary injunction is a matter of equitable discretion and is “an extraordinary remedy that may only
be awarded upon a clear showing that the plaintiff is entitled to such relief.” Winter v. Nat. Res. Def. Council,
Inc., 555 U.S. 7, 22 (2008). “A plaintiff seeking preliminary injunctive relief must establish that [it] is likely to
succeed on the merits, that [it] is likely to suffer irreparable harm in the absence of preliminary relief, that the
balance of equities tips in [its] favor, and that an injunction is in the public interest.” Id. at 20. Alternatively,
an injunction may issue where “the likelihood of success
is such that serious questions going to the merits were
raised and the balance of hardships tips sharply in [the
plaintiff ’s] favor,” provided that the plaintiff can also
demonstrate the other two Winter factors. All. for the
Wild Rockies v. Cottrell, 632 F.3d 1127, 1131-32 (9th Cir.
2011) (citation and internal quotation marks omitted).
Under either standard, Plaintiffs bear the burden of
making a clear showing that they are entitled to this extraordinary remedy. Earth Island Inst. v. Carlton,
626 F.3d 462, 469 (9th Cir. 2010). The most important
Winter factor is likelihood of success on the merits.
The relevant background for this and the Citizen Groups’ action
is the same. The Court thus incorporates in full here the factual
background and statutory framework as set forth in its preliminary
injunction order in the Citizen Groups’ action. See Order, Sierra
Club v. Trump, No. 4:19-cv-00892-HSG (N.D. Cal. May 24, 2019),
ECF No. 144.
3

390a
See Disney Enters., Inc. v. VidAngel, Inc., 869 F.3d 848,
856 (9th Cir. 2017).
II.

ANALYSIS

In the pending motion, Plaintiffs seek to enjoin Defendants from using certain diverted federal funds and
resources for border barrier construction. Specifically,
Plaintiffs move to enjoin Defendants from: (1) invoking Section 8005’s reprogramming authority to channel
funds into DoD’s drug interdiction fund, (2) invoking
Section 284 to divert monies from DoD’s drug interdiction fund for border barrier construction on the southern border of New Mexico, (3) invoking Section 9705 to
divert monies from the Treasury Forfeiture Fund for
border barrier construction, 4 and (4) taking any further
action related to border barrier construction until Defendants comply with NEPA.
Defendants oppose each basis for injunctive relief.
Defendants further contend that (1) the Plaintiffs lack
standing to bring their Sections 8005 and 9705 claims,
and (2) the Court is not the proper venue to challenge
border barrier construction in New Mexico. The Court
addresses these threshold issues first before turning to
Plaintiffs’ individual bases for injunctive relief.
A.

Article III Standing

A plaintiff seeking relief in federal court bears the
burden of establishing “the irreducible constitutional minimum” of standing. Spokeo, Inc. v. Robins, 136 S. Ct.
1540, 1547 (2016) (quoting Lujan v. Defs. of Wildlife, 504
U.S. 555, 560 (1992)). First, the plaintiff must have
Only the State Plaintiffs challenge the diversion of funds under
Section 9705.
4

391a
“suffered an injury in fact.” Id. This requires “an invasion of a legally protected interest” that is concrete,
particularized, and actual or imminent, rather than conjectural or hypothetical. Lujan, 504 U.S. at 560 (internal quotation marks omitted). Second, the plaintiff ’s
injury must be “fairly traceable to the challenged conduct of the defendant.” Spokeo, 136 S. Ct. at 1547. Third,
the injury must be “likely to be redressed by a favorable
judicial decision.” Id. (citing Lujan, 504 U.S. at 56061).
“States are not normal litigants for the purposes of
invoking federal jurisdiction,” and are “entitled to special solicitude in [the] standing analysis.” Massachusetts v. EPA, 549 U.S. 497, 518-20 (2007). For instance,
states may sue to assert their “quasi-sovereign interest
in the health and well-being—both physical and economic
—of [their] residents in general.” Alfred L. Snapp &
Son, Inc. v. Puerto Rico, 458 U.S. 592, 607 (1982). In
that case, however, the “interest must be sufficiently concrete to create an actual controversy between the State
and the defendant” such that the state is more than a
nominal party. Id. at 602.
1. New Mexico Has Standing for Its Section
8005 Claim.

Only New Mexico contends that it has standing to
challenge Defendants’ reprogramming of funds under
Section 8005. See Reply at 2 (arguing that “Defendants’
actions [under Section 8005] will cause concrete and particularized injuries-in-fact to New Mexico’s environment and wildlife, giving New Mexico standing”). Defendants argue that New Mexico lacks standing to challenge Defendants’ invocation of Section 8005 to repro-

392a
gram funds into the drug interdiction fund, so that Defendants can then divert that money wholesale to border
barrier construction using Section 284. See Opp. at 1718. 5 Defendants do not dispute that New Mexico has
standing to challenge the use of funds from the drug interdiction fund for border barrier construction under
Section 284. Defendants nonetheless reason that harm
from construction using drug interdiction funds under
Section 284 does not establish standing to challenge Defendants’ use of Section 8005 to supply those funds. Id.
at 17. Defendants argue that standing requires that
the plaintiff be the “object” of the challenged agency action, but that the Section 8005 augmentation of the drug
interdiction fund and the use of that money for construction are “two distinct agency actions.” Id. at 17-18 (citing Lujan, 504 U.S. at 562). According to Defendants,
the “object” of the Section 8005 reprogramming was
“simply mov[ing] funds among DoD’s accounts.” Id.
(citing Lujan, 504 U.S. at 562).
Defendants’ logic fails in all respects. As an initial
matter, it is not credible to suggest that the “object” of
the Section 8005 reprogramming is anything but border
barrier construction, even if the reprogrammed funds
make a pit stop in the drug interdiction fund. Since Defendants first announced that they would reprogram
funds using Section 8005, they have uniformly described

Defendants also argue New Mexico lacks standing because it falls
outside Section 8005’s “zone of interests.” See Opp. at 18-19. Because the Court finds Defendants’ “zone of interests” challenge derivative of Defendants’ misunderstanding of ultra vires review, the
Court addresses those matters together, below. See infra Section
II.C.1.
5

393a
the object of that reprogramming as border barrier construction. See Dkt. No. 89-10 (“Rapuano Decl.”) ¶ 5
(providing that “the Acting Secretary of Defense decided to use DoD’s general transfer authority under section 8005 . .
to transfer funds between DoD appropriations to fund [border barrier construction in Arizona
and New Mexico]”); id. Ex. D, at 1 (notifying Congress
that the “reprogramming action” under Section 8005 is
for “construction of additional physical barriers and roads
in the vicinity of the United States border”).
Nor does Lujan impose Defendants’ proffered strict
“object” test. The Lujan Court explained that “when
the plaintiff is not himself the object of the government
action or inaction he challenges, standing is not precluded, but it is ordinarily substantially more difficult to
establish.” 504 U.S. at 562 (internal quotation marks
omitted). And the Supreme Court was concerned in particular with “causation and redressability,” which are
complicated inquiries when a plaintiff ’s standing “depends on the unfettered choices made by independent
actors not before the courts and whose exercise of broad
and legitimate discretion the courts cannot presume either
to control or to predict.” Id. (quoting ASARCO Inc. v.
Kadish, 490 U.S. 605, 615 (1989) (Kennedy, J.)). As
concerns causation, the Ninth Circuit recently explained
that Article III standing only demands a showing that
the plaintiff ’s injury is “fairly traceable to the challenged action of the defendant, and not the result of the
independent action of some third party not before the
court.” Mendia v. Garcia, 768 F.3d 1009, 1012 (9th
Cir. 2014) (quoting Bennett v. Spear, 520 U.S. 154, 167
(1997)). “Causation may be found even if there are multiple links in the chain connecting the defendant’s unlawful conduct to the plaintiff ’s injury, and there’s no

394a
requirement that the defendant’s conduct comprise the
last link in the chain. As we’ve said before, what matters is not the length of the chain of causation, but rather
the plausibility of the links that comprise the chain.”
Id. (internal quotation marks and citations omitted).
No complicated causation inquiry is necessary here,
as there are no independent absent actors. More important, if there were ever a case where standing exists
even though the challenged government action is nominally directed to some different “object,” this is it. Neither the parties nor the Court harbor any illusions that
the point of reprogramming funds under Section 8005 is
to use those funds for border barrier construction.
And under Ninth Circuit law, there is no requirement
that the challenged conduct be the last link in the causal
chain. Rather, even if there is an intervening link between the Section 8005 reprogramming and the border
barrier construction itself, any injury caused by the border barrier construction is nonetheless “fairly traceable” to the Section 8005 reprogramming under the circumstances. See id. The Court thus cannot accept
the Government’s “two distinct actions” rationale as a
basis for shielding Defendants’ actions from review.
2.

Plaintiffs Have Standing for Their Section
9705 Claim.

Defendants argue that no state has standing to challenge the Treasury’s decision to allocate Treasury Forfeiture Fund (“TFF ”) money to border barrier construction because that decision “does not jeopardize the
solvency of the TFF or negatively impact the States’ receipt of future equitable sharing money.” Opp. at 12.
Defendants thus posit that “[t]he States have not estab-

395a
lished that the challenged action will cause them any injury.” Id. at 14. As support, Defendants rely on the
declaration of the Director of the Treasury’s Executive
Office for Asset Forfeiture (“TEOAF ”), John M. Farley,
who manages the TFF. Dkt. No. 89-9 (“Farley Decl.”)
¶ 2. Mr. Farley assures that the Treasury has adequately accounted for mandatory and priority expenses
in such a way that there is no risk to the TFF’s solvency
in general or to any equitable sharing payments specifically. Id. at 13-14. Defendants, however, do not address Plaintiffs’ evidence to support standing, which includes recent statements from TEOAF that a “substantial drop in ‘base’ revenue,” which “is relied upon to
cover basic mandatory [TFF] costs . . . is especially
troubling,” even before the $601 million diversion.
Dkt. No. 59-4 (“States RJN”) Ex. 43, at 4 6; Mot. at 12.
Defendants ask too much of Plaintiffs. A plaintiff
need not present undisputable proof of a future harm.
The injury-in-fact requirement instead permits standing when a risk of future injury is “at least imminent.”
See Lujan, 504 U.S. at 564 n.2. And while courts must
ensure that the “actual or imminent” measure of harm
is not “stretched beyond its purpose, which is to ensure
that the alleged injury is not too speculative for Article
III purposes,” see id., the Ninth Circuit has consistently
held that a “ ‘credible threat’ that a probabilistic harm
will materialize” is enough, see Nat. Res. Def. Council v.
The Court takes judicial notice of various documents, for reasons
set forth in the Court’s preliminary injunction order in the Citizen
Groups’ action. See Order, Sierra Club v. Trump, No. 4:19-cv-00892HSG (N.D. Cal. May 24, 2019), ECF No. 144, at 3 n.2; see also Request for Judicial Notice, Sierra Club v. Trump, No. 4:19-cv-00892HSG (N.D. Apr. 4, 2019), ECF No. 36 (“Citizen Groups RJN”).
6

396a
EPA, 735 F.3d 873, 878 (9th Cir. 2013) (quoting Covington v. Jefferson Cty., 358 F.3d 626, 641 (9th Cir. 2004)).
At this stage, Plaintiff States have carried their burden to demonstrate that there is a “credible threat” that
Defendants’ diversion of TFF funds will have economic
ramifications on the states. If the only information before the Court were bald allegations questioning the
TFF’s solvency and the States’ prospects of future equitable sharing payments on the one hand, and Mr. Farley’s declaration assuaging those concerns on the other,
then whether Plaintiffs could demonstrate a “credible
threat” would be a closer call. But that is not the case.
Plaintiffs instead cite to recent statements by the Treasury characterizing “especially troubling” drops in revenue which call into question its ability to cover “basic
mandatory [TFF] costs.” See States RJN 43, at 4.
The Court finds these statements demonstrate a “credible threat,” such that Plaintiffs have satisfied the
injury-in-fact requirement for Article III standing.
See Nat. Res. Def. Council, 735 F.3d at 878.
B.

Venue is Proper in This Court.

Because Defendants challenge Plaintiffs’ standing as
to all claims except New Mexico’s Section 284 claim, Defendants assert that New Mexico is the only Plaintiff
that can plausibly state an alleged injury and thus that
venue is improper in the Northern District of California.
Opp. at 30. But New Mexico’s ability to seek relief in
this Court relies on California having standing, which
the parties do not dispute would render venue proper
for all claims in this case. Because the Court finds that
California has independent Article III standing, the
Court finds venue is proper. See 28 U.S.C. § 1391(e)(1)

397a
(providing that venue is proper in actions against officers or employees of the United States where a “plaintiff
resides if no real property is involved in the action”).
C.

Plaintiffs Have Not Shown They Are Entitled to a
Preliminary Injunction.

Applying the Winter factors, the Court finds Plaintiffs are not entitled to a preliminary injunction at this
time.
1. Likelihood of Success on the Merits

The crux of Plaintiffs’ case is that Defendants’ methods for funding border barrier construction are unlawful. And Plaintiffs package that core challenge in several ways. For present purposes, Plaintiffs contend
that Defendants’ actions (1) are unconstitutional, (2) exceed Defendants’ statutory authority—in other words,
are ultra vires—(3) violate the APA because they are
arbitrary and capricious, and (4) violate NEPA.
The Court begins with a discussion of the law governing the appropriation of federal funds. Under the Appropriations Clause of the Constitution, “No Money
shall be drawn from the Treasury, but in Consequence
of Appropriations made by Law.” U.S. Const. art. I,
§ 9, cl. 7. “The Clause’s words convey a ‘straightforward and explicit command’: No money ‘can be paid
out of the Treasury unless it has been appropriated by
an act of Congress.’ ” U.S. Dep’t of Navy v. FLRA, 665
F.3d 1339, 1346 (D.C. Cir. 2012) (quoting OPM v. Richmond, 496 U.S. 414, 424 (1990)). “The Clause has a
‘fundamental and comprehensive purpose . . . to assure that public funds will be spent according to the letter of the difficult judgments reached by Congress as to

398a
the common good and not according to the individual favor of Government agents.’ ” United States v. McIntosh, 833 F.3d 1163, 1175 (9th Cir. 2016) (quoting Richmond, 496 U.S. at 427-28). It “protects Congress’s exclusive power over the federal purse,” and “prevents
Executive Branch officers from even inadvertently obligating the Government to pay money without statutory
authority.” FLRA, 665 F.3d at 1346-47 (internal quotation marks and citations omitted).
“Federal statutes reinforce Congress’s control over
appropriated funds,” and under federal law “appropriated funds may be applied only ‘to the objects for which
the appropriations were made.’ ” Id. at 1347 (quoting
31 U.S.C. § 1301(a)). Moreover, “[a]n amount available
under law may be withdrawn from one appropriation account and credited to another or to a working fund only
when authorized by law.” 31 U.S.C. § 1532. “[A]ll
uses of appropriated funds must be affirmatively approved by Congress,” and “the mere absence of a prohibition is not sufficient.” FLRA, 665 F.3d at 1348. In
summary, “Congress’s control over federal expenditures is ‘absolute.’ ” Id. (quoting Rochester Pure Waters Dist. v. EPA, 960 F.2d 180, 185 (D.C. Cir. 1992)).
Rather than dispute these principles, Defendants
contend that the challenged conduct complies with them.
See Opp. at 26 (“The Government is not relying on independent Article II authority to undertake border construction; rather, the actions alleged are being undertaken pursuant to express statutory authority.”). Accordingly, one of the key issues in dispute is whether
Congress in fact provided “express statutory authority”
for Defendants’ challenged actions.

399a
Turning to Plaintiffs’ claims, it is necessary as a preliminary matter to outline the measure and lens of reviewability the Court applies in assessing such broad
challenges to actions by executive officers. As a first
principle, the Court finds that it has authority to review
each of Plaintiffs’ challenges to executive action. “It is
emphatically the province and duty of the judicial department to say what the law is.” Marbury, 1 Cranch
at 177. In determining what the law is, the Court has
a duty to determine whether executive officers invoking
statutory authority exceed their statutory power. See
Armstrong v. Exceptional Child Ctr., Inc., 135 S. Ct.
1378, 1384 (2015). And even where executive officers
act in conformance with statutory authority, the Court
has an independent duty to determine whether authority conferred by act of the legislature nevertheless runs
afoul of the Constitution. See Clinton v. City of New
York, 524 U.S. 417, 448 (1998).
Once a case or controversy is properly before a court,
in most instances that court may grant injunctive relief
against executive officers to enjoin both ultra vires acts
—that is, acts exceeding the officers’ purported statutory authority—and unconstitutional acts. The Supreme Court recently reaffirmed this broad equitable
power:
It is true enough that we have long held that federal
courts may in some circumstances grant injunctive
relief against state officers who are violating, or planning to violate, federal law. But that has been true
not only with respect to violations of federal law by
state officials, but also with respect to violations of
federal law by federal officials. . . . What our
cases demonstrate is that, in a proper case, relief may

400a
be given in a court of equity . . .
jurious act by a public officer.

to prevent an in-

The ability to sue to enjoin unconstitutional actions
by state and federal officers is the creation of courts
of equity, and reflects a long history of judicial review
of illegal executive action, tracing back to England.
Armstrong, 135 S. Ct. at 1384 (internal quotation marks
and citations omitted).
Misunderstanding the presumptive availability of equitable relief to enforce federal law, Defendants contend
that Plaintiffs may only challenge Defendants’ conduct
through the framework of the APA, and ignore Plaintiffs’ ultra vires challenges entirely. See Opp. at 12
(“Because Congress did not create a private right of action to enforce the statutes that form the basis of the
States’ challenge, their claims are governed by the [APA],
5 U.S.C. § et seq.”) But as the Citizen Group Plaintiffs
detail at length in their reply brief, ultra vires review
exists outside of the APA framework. See Plaintiffs’
Reply at 2-5, Sierra Club v. Trump, No. 4:19-cv-00892HSG (N.D. Cal. May 2, 2019), ECF No. 91 (“Citizen
Groups Reply”); see also Dkt. No. 129 (Brief of Amici
Curiae Federal Courts Scholars). 7
Congress may displace federal courts’ equitable power to enjoin
unlawful executive action, but a precluding statute must at least display an “intent to foreclose” injunctive relief. Armstrong, 135 S. Ct.
at 1385. Courts have found such implied foreclosure where (1) the
statute provides an express administrative remedy, and (2) the statute is otherwise judicially unadministrable in nature. Id. at 138586. No party contends that the statutes at issue in this case either
expressly foreclose equitable relief or provide an express administrative remedy, which might warrant a finding of implied foreclosure
of equitable relief.
7

401a
Due to their mistaken framing of the scope of ultra
vires review, Defendants also incorrectly posit that
Plaintiffs must establish that they fall within the “zone
of interests” of a particular statute to challenge actions
taken by the government under that statute. See Opp.
at 18-19. The “zone of interests” test, however, only
relates to statutorily-created causes of action. See
Lexmark Int’l, Inc. v. Static Control Components, Inc.,
572 U.S. 118, 129 (2014) (explaining that “[t]he modern
‘zone of interests’ formulation. . . . applies to all
statutorily created causes of action”). The test has no
application in an ultra vires challenge, which operates
outside of the APA framework. See Haitian Refugee
Ctr. v. Gracey, 809 F.2d 794, 811 n.14 (D.C. Cir. 1987)
(“Appellants need not, however, show that their interests fall within the zones of interests of the constitutional and statutory powers invoked by the President in
order to establish their standing to challenge the interdiction program as ultra vires.”); see also 33 Charles
Alan Wright et al., Federal Practice and Procedure
§ 8302 (2d ed. 2019) (explaining that the “zone of interests” test is to determine whether a plaintiff “seeks to
protect interests that ‘arguably’ fall within the ‘zone of
interests’ protected by that provision”).
In other
words, where a plaintiff seeks to vindicate a right protected by a statutory provision, the plaintiff must
demonstrate that it arguably falls within the zone of interests Congress meant to protect by enacting that provision. But where a plaintiff seeks equitable relief
against a defendant for exceeding its statutory authority, the zone-of-interests test is inapposite. Any other
interpretation would lead to absurd results. The very
nature of an ultra vires action posits that an executive
officer has gone beyond what the statute permits, and

402a
thus beyond what Congress contemplated. It would
not make sense to demand that Plaintiffs—who otherwise have standing—establish that Congress contemplated that the statutes allegedly violated would protect
Plaintiffs’ interests. It is no surprise, then, that the
Supreme Court’s recent discussion of ultra vires review
in Armstrong did not once reference this test.
In reviewing the lawfulness of Defendants’ conduct,
the Court thus begins each inquiry by determining
whether the disputed action exceeds statutory authority. For unless an animating statute sanctions a challenged action, a court need not reach the second-level
question of whether it would be unconstitutional for
Congress to sanction such conduct. See Nw. Austin
Mun. Util. Dist. No. One v. Holder, 557 U.S. 193, 205
(2009) (explaining the “well-established principle governing the prudent exercise of this Court’s jurisdiction
that normally the Court will not decide a constitutional
question if there is some other ground upon which to dispose of the case”) (quoting Escambia Cty. v. McMillan,
466 U.S. 48, 51 (1984) (per curiam)). This is not to say,
however, that the yardstick of statutory authority overlooks constitutional concerns entirely. “The so-called
canon of constitutional avoidance . . . counsel[s]
that ambiguous statutory language be construed to
avoid serious constitutional doubts.” FCC v. Fox Television Stations, Inc., 556 U.S. 502, 516 (2009). Nonetheless, a court presented with both ultra vires and constitutional claims should begin by determining whether

403a
the statutory authority supports the action challenged,
and only reach the constitutional analysis if necessary. 8
a.

Sections 284 and 8005

At the President’s direction, Defendants intend to divert $2.5 billion, $1 billion of which is the subject of the
pending motion, to the DoD’s drug interdiction fund for
border barrier construction. 9 To do so, Defendants

The Court finds it need not address Plaintiffs’ claim that the use
of the various reprogramming and diversion mechanisms is arbitrary and capricious under the APA. Plaintiffs’ APA arguments are
largely repackaged ultra vires claims. See, e.g., Reply at 15 (arguing it is arbitrary and capricious to act in excess of statutory authority). To the extent Plaintiffs’ APA claim is based on Defendants’
alleged departure from internal procedure concerning Section 8005
reprogramming, the Court finds Plaintiffs’ are unlikely to succeed
on the merits of that argument. Among other reasons, this sort of
DoD procedure does not appear to be the kind of “binding internal
policy” that might demand an explanation if departed from. Cf. Nat’l
Ass’n of Home Builders v. Norton, 340 F.3d 835, 852 (9th Cir. 2003)
(involving an agency’s departure from a formally promulgated policy).
9
The Court here only considers the lawfulness of Defendants’
March 25, 2019 invocation of Section 8005 to reprogram $1 billion,
given the parties’ agreement that this order need not address Defendants’ recently announced intent to use Sections 8005, 9002, and
284 to fund border barrier construction in the El Centro Sector and
Tucson Sector Projects. The parties reached this agreement after counsel for Defendants represented at the hearing on this motion that “no construction will start [with those funds] until at least
45 days from” the May 17, 2019 hearing date. See Dkt. No. 159 at
55:16-17. The parties confirmed that they would agree to a schedule to supplement the record, to permit the Court to review in a
timely manner the lawfulness of the new reprogramming, under the
framework set forth in this order. Id. at 59:14-60:2. The parties have
since agreed on a schedule. See Dkt. No. 163.
8

404a
rely on Section 284(b)(7), which authorizes the Secretary of Defense to support other federal agencies for the
“[c]onstruction of roads and fences and installation of
lighting to block drug smuggling corridors across international boundaries of the United States.” See The
Funds Available to Address the National Emergency at
Our Border, The White House, https://www.whitehouse.gov/
briefings-statements/funds-available-address-nationalemergency-border (Feb. 26, 2019).
To satisfy the
President’s directive, Defendants intend to rely on their
reprogramming authority under Section 8005, and plan
to “augment” the drug interdiction fund with the entire
$2.5 billion in funds that DoD will then use for the construction. Id.
Plaintiffs challenge both the augmentation of the
drug interdiction fund through Section 8005 and the use
of funds from the drug interdiction fund under Section
284. Turning first to the augmentation of funds, Section 8005 authorizes the reprogramming of up to $4 billion “of working capital funds of the Department of Defense or funds made available in this Act to the Department of Defense.” The transfer must be (1) either (a)
DoD working capital funds or (b) “funds made available
in this Act to the [DoD] for military functions (except
military construction),” (2) first determined by the Secretary of Defense as necessary in the national interest,
(3) for higher priority items than those for which originally appropriated, (4) based on unforeseen (5) military
requirements, and (6) in no case where the item for
which funds are requested has been denied by Congress.
Plaintiffs argue that Defendants’ actions fail the last
three requirements. The Court first considers whether the reprogramming Defendants propose here is for

405a
an item for which funds were requested but denied by
Congress.
i.

Plaintiffs are Likely to Show That the
Item for Which Funds Are Requested
Has Been Denied by Congress.

Plaintiffs argue that Defendants are transferring
funds for a purpose previously denied by Congress. Mot.
at 24. Defendants dispute, however, whether Congress’s
affirmative appropriation of funds in the CAA to DHS
constitutes a “denial” of appropriations to DoD’s “counterdrug activities in furtherance of DoD’s mission under
[Section] 284.” Opp. at 19. In their view, “the item” for
which funds are requested, for present purposes, is
counterdrug activities under Section 284. Id. at 19-20.
And Defendants maintain that “nothing in the DHS appropriations statute indicates that Congress ‘denied’ a
request to fund DoD’s statutorily authorized counterdrug activities, which expressly include fence construction.” Id. In other words, even though DoD’s
counter-drug authority under Section 284 is merely a
pass-through vessel for Defendants to funnel money to
construct a border barrier that will be turned over to
DHS, Citizen Groups RJN Ex. I, at 10, Defendants argue that the Court should only consider whether Congress denied funding to DoD.
Plaintiffs have shown a likelihood of success as to
their argument that Congress previously denied “the
item for which funds are requested,” precluding the proposed transfer. On January 6, 2019, the President asked
Congress for “$5.7 billion for construction of a steel barrier for the Southwest border,” explaining that the request “would fund construction of a total of approximately 234 miles of new physical barrier.” Citizen

406a
Groups RJN Ex. A, at 1. The request noted that “[a]ppropriations bills for fiscal year (FY) 2019 that have already been considered by the current and previous Congresses are inadequate to fully address these critical issues,” to include the need for barrier construction funds.
Id. The President’s request did not specify the mechanics of how the $5.7 billion sought would be used for
the proposed steel barrier construction. Id. Nonetheless, in the CAA passed by Congress and signed by
the President, Congress appropriated only $1.375 billion
for the construction of pedestrian fencing, of a specified
type, in a specified sector, and appropriated no other
funds for barrier construction. The Court agrees with
Plaintiffs that they are likely to show that the proposed
transfer is for an item for which Congress denied funding, and that it thus runs afoul of the plain language of
Section 8005 and 10 U.S.C. § 2214(b) (“Section 2214”). 10
As Defendants acknowledge, in interpreting a statute, the Court applies the principle that “the plain language of [the statute] should be enforced according to
its terms, in light of its context.” ASARCO, LLC v.
Celanese Chem. Co., 792 F.3d 1203, 1210 (9th Cir. 2015).
In its amicus brief, the House recounts legislative history that provides critical context for the Court’s interpretative task. The House explains that the “denied by
the Congress” restriction was imposed on DoD’s transfer authority in 1974 to “tighten congressional control of
See Fox News, Mick Mulvaney on chances of border deal,
Democrats ramping up investigation of Trump admin, YouTube
(Feb. 10, 2019), https://www.youtube.com/watch?v=l_Z0xx_zS0M
(statement by Acting White House Chief of Staff that “[w]e’ll take
as much money as you can give us, and then we’ll go off and find
the money someplace else, legally, in order to secure that southern
barrier. But this is going to get built, with or without Congress.”).
10

407a
the reprogramming process.” Dkt. No. 73 (“House
Br.”) at 9 (citing H.R. Rep. No. 93-662, at 16 (1973)).
The House committee report on the appropriations bill
from that year explained that “[n]ot frequently, but on
some occasions, the Department ha[d] requested that
funds which have been specifically deleted in the legislative process be restored through the reprogramming
process,” and that “[t]he Committee believe[d] that to
concur in such actions would place committees in the position of undoing the work of the Congress.” H.R. Rep.
No. 93-662, at 16. Significantly, the Committee stated
that such a position would be “untenable.” Id. Consistent with this purpose, Congress has described its intent that appropriations restrictions of this sort be “construed strictly” to “prevent the funding for programs
which have been considered by Congress and for which
funding has been denied.” See H.R. Rep. No. 99-106,
at 9 (1985) (discussing analogous appropriations restriction in Pub. L. No. 99-169, § 502(b), 99 Stat. 1005
(codified at 50 U.S.C. § 3094(b)).
The Court finds that the language and purpose of
Section 8005 and Section 2214(b) likely preclude Defendants’ attempt to transfer $1 billion from funds Congress previously appropriated for military personnel
costs to the drug interdiction fund for the construction
of a border barrier. Defendants argue that “Congress
never denied DoD funding to undertake the [Section]
284 projects at issue,” Opp. at 20, such that Section 8005
and Section 2214(b) are satisfied. But in the Court’s
view, that reading of those sections is likely wrong, when
the reality is that Congress was presented with—and
declined to grant—a $5.7 billion request for border barrier construction. Border barrier construction, expressly, is the item Defendants now seek to fund via the

408a
Section 8005 transfer, and Congress denied the requested funds for that item. See 10 U.S.C. § 2214(b)
(explaining that transfer authority “may not be used if
the item to which the funds would be transferred is an
item for which Congress has denied funds”) (emphasis
added). And Defendants point to nothing in the language or legislative history of the statutes in support of
their assertion that only explicit congressional denial of
funding for “[Section] 284 projects,” or even DoD projects generally, would trigger Section 8005’s limitation.
Opp. at 20. It thus would be inconsistent with the purpose of these provisions, and would subvert “the difficult
judgments reached by Congress,” McIntosh, 833 F.3d
at 1175, to allow Defendants to circumvent Congress’s
clear decision to deny the border barrier funding sought
here when it appropriated a dramatically lower amount
in the CAA. See Youngstown Sheet & Tube Co. v. Sawyer, 343 U.S. 579, 609 (1952) (Frankfurter, J., concurring) (“It is quite impossible . . . when Congress did
specifically address itself to a problem . . . to find
secreted in the interstices of legislation the very grant
of power which Congress consciously withheld. To find
authority so explicitly withheld is not merely to disregard in a particular instance the clear will of Congress.
It is to disrespect the whole legislative process and the
constitutional division of authority between President
and Congress.”).
ii.

Plaintiffs are Likely to Show That the
Transfer is Not Based on “Unforeseen
Military Requirements.”

Plaintiffs next argue that any need for border barrier
construction—to the extent there is a need—was long
“foreseen.” Mot. at 23. The Citizen Group Plaintiffs

409a
highlight that the President supported his fiscal year
2019 budget request for border barrier funding with a
description that such a barrier “is critical to combating
the scourge of drug addiction that leads to thousands of
unnecessary deaths.” Motion for Preliminary Injunction at 16, Sierra Club v. Trump, No. 4:19-cv-00892HSG (N.D. Cal. Apr. 4, 2019) (“Citizen Groups Mot.”)
(quoting Citizen Groups RJN Ex. R, at 16).
In response, Defendants again seek to minimize the
pass-through nature of DoD’s counterdrug activities authority under Section 284. While not disputing that
the President requested—and was denied—morecomprehensive funds for border barrier construction,
Defendants instead note that “[t]he President’s 2019
budget request did not propose additional funding for
DoD’s counter-drug activities under [Section] 284.”
Opp. at 20. Defendants then argue that because DHS
only formally requested Section 284 support in February 2019, the need for Section 284 support only become
foreseen in February 2019. Id.
Separate and apart from the Court’s analysis above
regarding whether Congress previously denied funding
for the relevant item, Plaintiffs also have shown a likelihood of success as to their argument that Defendants
fail to meet the “unforeseen military requirement” condition for the reprogramming of funds under Section
8005. As the House notes in its amicus brief, DoD has
used this authority in the past to transfer funds based
on unanticipated circumstances (such as hurricane and
typhoon damage to military bases) justifying a departure from the scope of spending previously authorized
by Congress. House Br. at 9 (citing Office of the Under
Secretary of Defense (Comptroller), DoD Serial No. FY

410a
04-37 PA, Reprogramming Action (Sept. 3, 2004)).
Here, however, Defendants claim that what was “unforeseen” was “[t]he need for DoD to exercise its [Section] 284 authority to provide support for counter-drug
activities,” which “did not arise until February 2019,
when DHS requested support from DoD to construct
fencing in drug trafficking corridors.” Opp. at 20.
Defendants’ argument that the need for the requested
border barrier construction funding was “unforeseen”
cannot logically be squared with the Administration’s
multiple requests for funding for exactly that purpose
dating back to at least early 2018. See Citizen Groups
Ex. R (February 2018 White House Budget Request describing “the Administration’s proposal for $18 billion to
fund the border wall”); see also States RJN Exs. 14-20
(failed bills); id. Ex. 21 (December 11, 2018 transcript
from a meeting with members of Congress, where the
President stated that “if we don’t get what we want [for
border barrier construction funding], one way or the
other—whether it’s through you, through a military,
through anything you want to call [sic]—I will shut down
the government”); Dkt. No. 89-12, at 14 (testimony of
Defendant Shanahan before the House Armed Services
Committee explaining that the Administration discussed
unilateral reprogramming “prior to the declaration of a
national emergency”). Further, even the purported
need for DoD to provide DHS with support for border
security has similarly been long asserted. See States
RJN Ex. 27 (April 4, 2018 presidential memorandum directing the Secretary of Defense to support DHS “in securing the southern border and taking other necessary
actions” due to “[t]he crisis at our southern border”).
Defendants’ suggestion that by not specifically seeking
border barrier funding under Section 284 by name, the

411a
Administration can later contend that as far as DoD is
concerned, need for such funding is “unforeseen,” is not
likely to withstand scrutiny.
Interpreting “unforeseen” to refer to the request for
DoD assistance, as opposed to the underlying “requirement” at issue, also is not reasonable. By Defendants’
logic, every request for Section 284 support would be for
an “unforeseen military requirement,” because only once
the request was made would the “need to exercise authority” under the statute be foreseen. There is no logical reason to stretch the definition of “unforeseen military requirement” from requirements that the government as a whole plainly cannot predict (like the need to
repair hurricane damage) to requirements that plainly
were foreseen by the government as a whole (even if
DoD did not realize that it would be asked to pay for
them until after Congress declined to appropriate funds
requested by another agency). Nothing presented by
the Defendants suggests that its interpretation is what
Congress had in mind when it imposed the “unforeseen”
limitation, especially where, as here, multiple agencies
are openly coordinating in an effort to build a project
that Congress declined to fund. The Court thus finds
it likely that Plaintiffs will succeed on this claim. 11

Because the Court has found that Plaintiffs are likely to succeed
on their argument that the reprogramming violates the two Section
8005 conditions discussed above, it need not reach at this stage their
argument that the border barrier project is not a “military requirement” at all.
11

412a
iii. Accepting Defendants’ Proposed Interpretation of Section 8005’s Requirements Would Likely Raise Serious Constitutional Questions.

The Court also finds it likely that Defendants’ reading of these provisions, if accepted, would pose serious
problems under the Constitution’s separation of powers
principles. Statutes must be interpreted to avoid a serious constitutional problem where another “construction
of the statute is fairly possible by which the question
may be avoided.” Zadvydas v. Davis, 533 U.S. 678, 689
(2001) (internal quotation marks and citations omitted).
Constitutional avoidance is “thus a means of giving effect to congressional intent,” as it is presumed that Congress did not intend to create an alternative interpretation that would raise serious constitutional concerns.
Clark v. Martinez, 543 U.S. 371, 382 (2005). Courts
thus “have read significant limitations into . . . statutes in order to avoid their constitutional invalidation.”
Zadvydas, 533 U.S. at 689 (citation omitted).
As Plaintiffs point out, the upshot of Defendants’ argument is that the Acting Secretary of Defense is authorized to use Section 8005 to funnel an additional $1
billion to the Section 284 account for border barrier construction, notwithstanding that (1) Congress decided to
appropriate only $1.375 billion for that purpose; (2) Congress’s total fiscal year 2019 appropriation available under Section 284 for “[c]onstruction of roads and fences
and installation of lighting to block drug smuggling corridors across international boundaries of the United
States” was $517 million, much of which already has
been spent; and (3) Defendants have acknowledged that
the Administration considered reprogramming funds

413a
for border barrier construction even before the President signed into law Congress’s $1.375 billion appropriation. See Department of Defense and Labor, Health
and Human Services, and Education Appropriations
Act, 2019, Pub. L. No. 115-245, div. A, tit. VI, 132 Stat.
2981, 2997 (2018) (appropriating $881 million in funds
“[f]or drug interdiction and counter-drug activities” in
fiscal year 2019, $517 million of which is “for counternarcotics support”); Dkt. No. 151 at 4 (indicating that
Defendants have not used—and do not intend to use in
the near future—any funds appropriated by Congress
for counter-narcotics support for border barrier construction); Dkt. No. 89-12, at 14 (testimony of Defendant
Shanahan before the House Armed Services Committee
explaining that the Administration discussed unilateral
reprogramming “prior to the declaration of a national
emergency”). Put differently, according to Defendants, Section 8005 authorizes the Acting Secretary of
Defense to essentially triple—or quintuple, when considering the recent additional $1.5 billion reprogramming
—the amount Congress allocated to this account for
these purposes, notwithstanding Congress’s recent and
clear actions in passing the CAA, and the relevant committees’ express disapproval of the proposed reprogramming. See States RJN Ex. 35 (“The committee
denies this request. The committee does not approve
the proposed use of [DoD] funds to construct additional
physical barriers and roads or install lighting in the vicinity of the United States border.”); id. Ex. 36 (“The
Committee has received and reviewed the requested reprogramming action. . . . The Committee denies the
request.”). Moreover, Defendants’ decision not to refer specifically to Section 284 in their $5.7 billion funding

414a
request deprived Congress of even the opportunity to
reject or approve this funding item. 12
The Court agrees with the Citizen Group Plaintiffs
that reading Section 8005 to permit this massive redirection of funds under these circumstances likely would
amount to an “unbounded authorization for Defendants
to rewrite the federal budget,” Citizen Groups Reply at
14, and finds that Defendants’ reading likely would violate the Constitution’s separation of powers principles.
Defendants contend that because Congress did not reject (and, indeed, never had the opportunity to reject) a
specific request for an appropriation to the Section 284
drug interdiction fund, DoD can use Section 8005 to
route anywhere up to the $4 billion cap set by that statute, to be spent for the benefit of DHS via Section 284.
But this reading of DoD’s authority under the statute
would render meaningless Congress’s constitutionallymandated power to assess proposed spending, then render its binding judgment as to the scope of permissible
spending. See FDA v. Brown & Williamson Tobacco
Corp., 529 U.S. 120, 133 (2000) (holding that the interpretation of statutes “must be guided to a degree by
common sense as to the manner in which Congress is
likely to delegate a policy decision of such economic and
Defendants do not convincingly explain why the amount now
sought to be transferred under Section 8005 could not have been
sought directly from Congress as part of the fiscal year 2019 appropriation to the DoD Section 284 account to cover requests for
counterdrug support, given that the President has consistently
maintained since before taking office that border barrier funding
is necessary. If the answer is that the Administration expected, or
hoped, that Congress would appropriate the funds to DHS directly,
that highlights rather than mitigates the present problem with Defendants’ position.
12

415a
political magnitude”); Util. Air Regulatory Grp. v. EPA,
573 U.S. 302, 324 (2014) (“We expect Congress to speak
clearly if it wishes to assign to an agency decisions of
vast economic and political significance.”) (internal quotation marks omitted). This is especially true given
that Congress has repeatedly rejected legislation that
would have funded substantially broader border barrier
construction, as noted above, deciding in the end to appropriate only $1.375 billion. See City & Cty. of San
Francisco v. Trump, 897 F.3d 1225, 1234 (9th Cir. 2018)
(“In fact, Congress has frequently considered and thus
far rejected legislation accomplishing the goals of the
Executive Order. The sheer amount of failed legislation on this issue demonstrates the importance and divisiveness of the policies in play, reinforcing the Constitution’s ‘unmistakable expression of a determination that
legislation by the national Congress be a step-by-step,
deliberate and deliberative process.’ ”) (citing Chadha,
462 U.S. at 959). In short, the Constitution gives Congress the exclusive power “not only to formulate legislative policies and mandate programs and projects, but
also to establish their relative priority for the Nation,”
McIntosh, 833 F.3d at 1172, and “Congress cannot yield
up its own powers” in this regard, Clinton, 524 U.S. at
452 (Kennedy, J., concurring). Defendants’ interpretation of Section 8005 is inconsistent with these principles.
While Defendants argue that the text and history of
Section 284 suggest that their proposed transfer and use
of the funds are within the scope of what Congress has
permitted previously, Opp. at 21, that argument only highlights the serious constitutional questions that accepting
their position would create. First, Defendants note that
in the past DoD has completed what they characterize

416a
as “large-scale fencing projects” with Congress’s approval. Opp. at 21 (citing H.R. Rep. No. 103-200, at 33031 (1993)). But Congress’s past approval of relatively
small expenditures, that were well within the total amount
allocated by Congress to DoD under Section 284’s predecessor, speaks not at all to Defendants’ current claim
that the Acting Secretary has authority to redirect sums
over a hundred orders of magnitude greater to that account in the face of Congress’s appropriations judgment
in the CAA. Similarly, whether or not Section 284 formally “limits” the Secretary to “small scale construction” (defined in Section 284(i)(3) as “construction at a
cost not to exceed $750,000 for any project”), reading the
statute to suggest that Congress requires reporting of
tiny projects but nonetheless has delegated authority to
DoD to conduct the massive funnel-and-spend project
proposed here is implausible, and likely would raise serious questions as to the constitutionality of such an interpretation. See Whitman v. Am. Trucking Ass’ns,
531 U.S. 457, 468 (2001) (noting that Congress “does not,
one might say, hide elephants in mouseholes”).
Similarly, if “unforeseen” has the meaning that Defendants claim, Section 8005 would give the agency making a request for assistance under Section 284 complete
control over whether that condition is met, simply by
virtue of the timing of the request. As here, DHS could
wait and see whether Congress granted a requested appropriation, then turn to DoD if Congress declined, and
DoD could always characterize the resulting request as
raising an “unforeseen” requirement because it did not
come earlier. Under this interpretation, DoD could in
essence make a de facto appropriation to DHS, evading
congressional control entirely. The Court finds that
this interpretation likely would pose serious problems

417a
under the Appropriations Clause, by ceding essentially
boundless appropriations judgment to the executive
agencies.
Finally, the Court has serious concerns with Defendants’ theory of appropriations law, which presumes that
the Executive Branch can exercise spending authority
unless Congress explicitly restricts such authority by
statute. Counsel for Defendants advanced this theory
at the hearing on this motion, arguing that when Congress passed the recent DoD appropriations act containing Section 8005, it “could have” expressly “restrict[ed]
that authority” to preclude reprogramming funds for
border barrier construction. See Dkt. No. 159 at 76:1677:3. According to Defendants: “If Congress had wanted
to deny DOD this specific use of that [reprogramming]
authority, that’s something it needed to actually do in an
explicit way in the appropriations process. And it didn’t.”
Id. at 77:21-24. But it is not Congress’s burden to prohibit the Executive from spending the Nation’s funds:
it is the Executive’s burden to show that its desired use
of those funds was “affirmatively approved by Congress.” See FLRA, 665 F.3d at 1348 (“[A]ll uses of appropriated funds must be affirmatively approved by
Congress,” and “the mere absence of a prohibition is not
sufficient.”). To have this any other way would deprive
Congress of its absolute control over the power of the
purse, “one of the most important authorities allocated
to Congress in the Constitution’s ‘necessary partition of
power among the several departments.’ ” Id. at 134647 (quoting The Federalist No. 51, at 320 (James Madison) (Clinton Rossiter ed., 1961)).
To the extent Defendants believe the Ninth Circuit’s
decision in McIntosh suggests anything to the contrary,

418a
the Court disagrees. Defendants appeared to argue at
the hearing on this motion that McIntosh stands for the
principle that the Executive enjoys unfettered spending
power unless Congress crafts an appropriations rider
cabining such authority. See Dkt. No. 159 at 75:5-10.
As counsel for Defendants put it, “[Plaintiffs] want to
say that something was denied by Congress if it wasn’t
funded by Congress. . . . But that is just not how
these statutes are written and that’s not how [McIntosh]
tells us we interpret the appropriations statute.” Id. at
75:13-20. But Defendants overlook that no party in
McIntosh disputed that the government’s use of funds
was authorized but for the appropriations rider at issue
in that case. See 833 F.3d at 1175 (“The parties dispute
whether the government’s spending money on their prosecutions violates [the appropriations rider].”). It is
thus unremarkable that when faced with a dispute exclusively concerning whether the government’s otherwiseauthorized spending of money violated an appropriations rider, the Ninth Circuit held that “[i]t is a fundamental principle of appropriations law that we may only
consider the text of an appropriations rider.” Id. at
1178; see also Dkt. No. 159 at 75:5-10 (defense counsel
relying on this language from McIntosh).
Unlike in McIntosh, where the sole dispute concerned
the scope of an external limitation on an otherwiseauthorized spending of money, the present dispute concerns the scope of limitations within Section 8005 itself
on the authorization of reprogramming funds. Whether
Congress gives authority in the first place is not the
same issue as whether Congress later restricts that authority. And it cannot be the case that Congress must
draft an appropriations rider to breathe life into the internal limitations in Section 8005 establishing that the

419a
Executive may only reprogram money based on unforeseen military requirements, and may not do so where
the item for which funds are requested has been denied
by Congress. To adopt Defendants’ position would
read out these limitations entirely, which the Court
cannot do. See Life Techs. Corp. v. Promega Corp., 137
S. Ct. 734, 740 (2017) (“Whenever possible, however, we
should favor an interpretation that gives meaning to
each statutory provision.”). To give meaning to—and
thus to construe the scope of—these internal limitations
is wholly consistent with McIntosh, which explained
that the Executive’s authority to spend is at all times
limited “by the text of the appropriation.” 833 F.3d at
1178 (internal quotation marks omitted).
For all of these reasons, the Court finds that Plaintiffs have shown a likelihood of success as to their argument that the reprogramming of $1 billion under Section
8005 to the Section 284 account for border barrier construction is unlawful. 13

Defendants have now acknowledged that all of the money they
plan to spend on border barrier construction under Section 284 is
money transferred into that account under Section 8005. See Dkt.
No. 151 at 4. Given this acknowledgment, and the Court’s finding
that Plaintiffs are likely to show that the Section 8005 reprogramming is unlawful, the Court need not at this stage decide whether
Defendants would have been permitted to use for border barrier
construction any remaining funds that Congress appropriated to
the Section 284 account for fiscal year 2019. The Court notes that
the House confirmed in its own lawsuit that it “does not challenge
the expenditure of any remaining appropriated funds under section
284 on the construction of a border wall.” United States House of
Representatives’ Application for a Preliminary Injunction at 30,
U.S. House of Representatives v. Mnuchin, No. 1:19-cv-00969 (TNM)
13

420a
b.

Section 9705

At the President’s direction, Defendants intend to divert $601 million from the Treasury Forfeiture Fund to
DHS, to provide additional funding for border barrier
construction. See The Funds Available to Address the
National Emergency at Our Border, The White House,
https://www.whitehouse.gov/briefings-statements/fundsavailable-address-national-emergency-border (Feb. 26,
2019). To do so, Defendants rely on 31 U.S.C. § 9705(g)(4)(B),
which authorizes the Secretary of Treasury to transfer
“unobligated balances . . . for obligation or expenditure in connection with the law enforcement activities
of any Federal agency or of a Department of the Treasury law enforcement organization.” Defendants intend to use the $601 million “in two allocations, $242 million available immediately and $359 million from future
anticipated forfeitures.” Id. Plaintiffs argue that Defendants’ diversion of $601 million toward border barrier construction is not an expenditure for “law enforcement activities.” Mot. at 25-26. 14
As a threshold matter, Defendants contend that how
the Treasury allocates funds is unreviewable because it
is committed to the Treasury’s discretion by law, as “the
agency must be allowed to administer its statutory responsibilities” in ways “it sees as the most effective or
(D.D.C. Apr. 23, 2019), ECF No. 17; see also House Br. at 11 (requesting preliminary injunction “prohibiting defendants from transferring and spending funds in excess of what Congress appropriated
for counter-narcotics support under 10 U.S.C. § 284”).
14
Notably, the House does not challenge this expenditure in either
its own lawsuit or in its amicus brief in this case. See Complaint,
U.S. House of Representatives v. Mnuchin, No. 1:19-cv-00969
(TNM) (D.D.C. Apr. 5, 2019), ECF No. 1; House Br.

421a
desirable.” Opp. at 14 (quoting Lincoln v. Vigil, 508
U.S. 182, 192 (1993)). They reason that as long as the
Treasury “meet[s] permissible statutory objectives,” the
APA precludes judicial review of the allocation. Id. at
15 (quoting Serrato v. Clark, 486 F.3d 560, 568 (9th Cir.
2007)). And in this instance—according to Defendants
—the Acting Secretary of Defense has exercised his
“wide discretion to use” unobligated balances “in connection with the law enforcement activities of any Federal agency.” Id. “Thus, funding the construction of
border barriers is consistent with the statutory purposes of the TFF, such that the allocation of funds for
this purpose is unreviewable.” Id.
The Court finds Defendants’ reliance on Lincoln and
Serrato unavailing, and finds that the transfer of funds
under Section 9705 is reviewable. Under the APA,
Congress may preclude review by statute where the administrative action is committed by law to an agency.
See 5 U.S.C. § 701(a)(2). Judicial review of agency action, however, is presumptively available. See Abbott
Labs. v. Gardner, 387 U.S. 136, 141 (1967), abrogated on
other grounds by Califano v. Sanders, 430 U.S. 99 (1977).
And this presumption applies to judicial review of an
agency’s discretionary acts as well.
See 5 U.S.C.
§ 706(2)(A) (permitting courts to “hold unlawful and set
aside agency action, findings, and conclusions found to
be . . . arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with law”). That an
agency enjoys discretion is thus only the beginning of
the inquiry. Whether Section 701(a)(2) precludes review depends on whether the agency enjoys some special discretion.

422a
Defendants maintain that such special discretion exists under Lincoln and Serrato. In Lincoln, the Supreme Court held that the Indian Health Service’s decision to discontinue a pilot program called the Indian
Children’s Program and reallocate funds from a lumpsum appropriation was committed to agency discretion
by law under Section 701(a)(2). 508 U.S. at 193. But
the lump-sum nature of the appropriation at issue was
critical to the Lincoln Court’s conclusion. “After all,
the very point of a lump-sum appropriation is to give an
agency the capacity to adapt to changing circumstances
and meet its statutory responsibilities in what it sees as
the most effective or desirable way.” Id. at 192. As
the Supreme Court put it:
[A]n agency’s allocation of funds from a lump-sum appropriation requires a complicated balancing of a
number of factors which are peculiarly within its expertise: whether its resources are best spent on one
program or another; whether it is likely to succeed in
fulfilling its statutory mandate; whether a particular
program best fits the agency’s overall policies; and,
indeed, whether the agency has enough resources to
fund a program at all.
Id. at 193 (quoting Heckler v. Chaney, 470 U.S. 821, 831
(1985)) (internal quotation marks omitted). The Ninth
Circuit applied Lincoln to another lump-sum appropriation in Serrato. See 486 F.3d at 567-69. And the Ninth
Circuit there summarized the test established by Lincoln: “[A]s long as the agency allocates funds from a
lump-sum appropriation to meet permissible statutory
objectives, [Section] 701(a)(2) gives the courts no leave
to intrude. [T]o [that] extent, the decision to allocate

423a
funds is committed to agency discretion by law.”
568 (internal quotation marks omitted).

Id. at

Defendants’ diversion of $601 million from the TFF
to fund border barrier construction fails the Lincoln unreviewability test in two respects. First, Congress’s
funding of the TFF arguably does not qualify as the sort
of lump-sum appropriation present in Lincoln and Serrato. Rather, Section 9705 delineates a comprehensive
list of payments for which the TFF “shall be available,”
thus specifying how TFF funds may be used. More important, Defendants’ purported authority for diverting
funds from the TFF itself establishes the limitation on
discretion which Plaintiffs seek to vindicate here. Section 9705(g)(4)(B) limits transfers for use “in connection
with [] law enforcement activities.” And Plaintiffs
maintain that Defendants have not met this limitation.
See Mot. at 25-26. Thus, even accepting Defendants’
argument that the APA precludes judicial review so long
as the Treasury “meet[s] permissible statutory objectives,” see Opp. at 14, judicial review is available because
Plaintiffs maintain that the Treasury is transferring
funds in a statutorily impermissible manner. See Hawaii v. Trump, 878 F.3d 662, 681 (9th Cir. 2017), rev’d
on other grounds, 138 S. Ct. 2392 (2018) (explaining that
the “committed to ‘agency discretion by law’ ” exception
is “very narrow,” and “does not apply where, as here, a
court is tasked with reviewing whether an executive action has exceeded statutory authority”). 15
Although it finds that whether Defendants’ conduct
meets Section 9705’s requirements is reviewable, the
Defendants’ position on the reviewability of Plaintiffs’ challenge to the diversion of TFF funds is, in this sense, symptomatic
of Defendants’ general misunderstanding of ultra vires claims.
15

424a
Court need not now address whether Plaintiffs are likely
to succeed on the merits of their claim that the use of
funds for border barrier construction is not “in connection with a law enforcement activity.” For reasons discussed below, the Court finds that Plaintiffs have not
met their independently necessary burden of showing a
likelihood of irreparable harm as to the diversion of TFF
funds so as to be entitled to a preliminary injunction.
c.

NEPA

After Plaintiffs filed the instant motion—and one day
before Defendants filed their opposition—the Acting
Secretary of Homeland Security invoked his authority
under Section 102(c) of IIRIRA to waive any NEPA requirements for construction in the El Paso and Yuma
sectors. See Opp. at 24-26; see also Determination Pursuant to Section 102 of the Illegal Immigration Reform
and Immigrant Responsibility Act of 1996, as Amended,
84 Fed. Reg. 17185-01 (Apr. 24, 2019); REAL ID Act of
2005, Pub. L. No. 109-13, § 102, 119 Stat. 231, 306 (May
11, 2005) (amending Section 102(c) to reflect that the
Secretary “ha[s] the authority to waive all legal requirements” that, in the “Secretary’s sole discretion,” are “necessary to ensure expeditious construction” of barriers
and roads). The Acting Secretary later waived NEPA
requirements for the El Centro Sector and Tucson Sector Projects as well, on the same basis. See Determination Pursuant to Section 102 of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996,
as Amended, 84 Fed. Reg. 21,798 (May 15, 2019); Determination Pursuant to Section 102 of the Illegal Immigration Reform and Immigrant Responsibility Act of
1996, as Amended, 84 Fed. Reg. 21,800 (May 15, 2019).

425a
Defendants contend that such waivers preclude Plaintiffs from advancing a NEPA claim. Opp. at 25 (citing
In re Border Infrastructure Envtl. Litig., 915 F.3d 1213,
1221 (9th Cir. 2019)). Plaintiffs respond that DHS’s
authority to waive NEPA requirements for construction
under IIRIRA does not extend to construction undertaken by DoD under its own spending authority. Reply
at 16-17. The Citizen Group Plaintiffs further contend
that “Defendants’ argument is incompatible with their
own claim that they are not constructing the El Paso and
Yuma sections of border wall under IIRIRA authority,
but instead under the wholly separate DoD authority,”
and suggest that “Defendants cannot have it both ways.”
Citizen Groups Reply at 18-19.
Neither set of Plaintiffs appears to contest that the
waivers, if applicable, would be dispositive of the NEPA
claims. See Reply at 16 (“Plaintiffs do not dispute DHS’s
ability to waive NEPA compliance when constructing barriers pursuant to [IIRIRA], with funds specifically appropriated by Congress to be used for that construction.”)
(emphasis in original); see also In re Border Infrastructure Envtl. Litig., 915 F.3d at 1221 (“[A] valid waiver of
the relevant environmental laws under section 102(c) is
an affirmative defense to all the environmental claims
[including NEPA claims],” and is “dispositive of [those]
claims.”). But Plaintiffs contend that “the DHS Secretary’s waiver under IIRIRA does not waive DOD’s obligations to comply with NEPA prior to proceeding with
El Paso Project 1 under DOD’s statutory authority,
10 U.S.C. § 284, and using DOD’s appropriations,” so
that “DHS’s waiver has no application to this project.”
Reply at 16 (emphasis in original); see also Citizen
Groups Reply at 19 (“Defendants identify no statutory

426a
authority for a waiver for ‘expeditious construction’ under DOD’s § 284 authority, and none exists.”).
The Court finds that Plaintiffs are not likely to succeed on their NEPA argument because of the waivers
issued by DHS. DoD’s authority under Section 284 is
derivative. Under the statute, DoD is limited to providing support (including construction support) to other
agencies, and may invoke its authority only in response
to a request from such an agency. See 10 U.S.C. § 284
(“The Secretary of Defense may provide support for the
counterdrug activities . . . of any other department
or agency of the Federal Government,” including support for “[c]onstruction of roads and fences,” if “such
support is requested . . . by the official who has responsibility for the counterdrug activities.”). Here,
DHS has made such a request, invoking “its authority
under Section 102 of IIRIRA to install additional physical barriers and roads” in designated areas, seeking support for its “ability to impede and deny illegal entry and
drug smuggling activities.” States RJN Ex. 33, at 1.
DHS requested DoD’s assistance “[t]o support DHS’s
action under Section 102.” Id. at 2. Plaintiffs’ argument would require the Court to find that even though
it is undisputed that DHS could waive NEPA’s requirements if it were paying for the projects out of its own
budget, that waiver is inoperative when DoD provides
support in response to a request from DHS. The Court
finds it unlikely that Congress intended to impose different NEPA requirements on DoD when it acts in support of DHS’s Section 102 authority in response to a direct request under Section 284 than would apply to DHS

427a
itself. 16 See Defs. of Wildlife v. Chertoff, 527 F. Supp.
2d 119, 121, 129 (D.D.C. 2007) (finding DHS’s Section
102 waiver authority authorized the DHS Secretary to
waive legal requirements where the U.S. Army Corps of
Engineers, a federal agency within the DoD, was constructing border fencing “on behalf of DHS”). 17
2.

Likelihood of Irreparable Injury

Plaintiffs advance two theories of irreparable harm:
(1) New Mexico faces irreparable environmental harm
from border barrier construction; and (2) all States face
irreparable harm from the diversion of funds from the
TFF. Mot. at 29-33. Defendants take issue with both
theories. Opp. at 31-34.
a.

New Mexico’s Environmental Harm

New Mexico’s asserted environmental harm stems
largely from Defendants’ alleged failure to comply with
NEPA. See Mot. at 29 (“Thus, irreparable injury exists when the agency fails to consider the environmental
16
Plaintiffs argue that “[i]n another context, Congress explicitly
allows the DOD Secretary to request ‘the head of another agency responsible for the administration of navigation or vessel-inspection
laws to waive compliance with those laws to the extent the Secretary considers necessary.’ ” Reply at 17 (citing 46 U.S.C. 501(a)).
The Court finds this statute to be irrelevant to the issue here. In
this case, DoD is acting solely in response to DHS’s request for
support under Section 102; DHS has undisputed authority to issue
waivers under that section; and it would not make sense to make
NEPA compliance a condition of DoD’s derivative support notwithstanding DHS’s waiver.
17
To the extent Plaintiffs’ argument is that Defendants “cannot
have it both ways,” the Court agrees, to the extent it found a likelihood of success as to Plaintiffs’ Section 8005 argument, as discussed in Section II.C.1.a, above.

428a
concerns raised by NEPA such that governmental decisionmakers make up their minds without having before
them an analysis (with prior public comment) of the
likely effects of their decision upon the environment.”)
(internal quotation marks omitted). But for the reasons discussed above, the Court finds Plaintiffs are unlikely to succeed on the merits of their NEPA claim.
Plaintiffs also allege, however, that beyond the procedural NEPA harm, Defendants’ overall unlawful reprogramming and use of funds under Sections 8005 and 284
for border barrier construction “will cause irreparable
injury to wildlife in the area and New Mexico as a whole.”
Id. at 30. And among other things, Defendants’ proposed border barrier construction in the El Paso Sector
Project 1 portion of New Mexico allegedly will (1) impede wildlife connectivity of over 100 species of wildlife,
including the Mexican gray wolf, mountain lion, bobcat,
mule deer, and javelina; (2) generate “noise, deep holes
for fence posts, vehicle traffic, lighting, and other [construction] disturbances,” which will “kill, injure, or alter
the behavior of ” several species, including the Aplomado
falcon and Gila monster; (3) limit New Mexico residents’
recreational opportunities; and (4) harm New Mexico as
a whole, as it is entrusted by its residents with a duty to
protect natural resources for its residents’ benefit. Id.
at 30-31.
Defendants posit that Plaintiffs’ “vague allegations,”
only supported by “declarations [that] are heavy on conjecture and light on detail” concerning harm to local species, are insufficient to satisfy Plaintiffs’ burden of
demonstrating a likelihood of irreparable injury. Opp.
at 31-32. More to the point, Defendants maintain that
New Mexico fails to meet its burden of showing that Defendants’ plan “is likely to cause population-level harm,”

429a
which Defendants claim requires proof of a “definitive
threat” to the species as a whole, and “not mere speculation.” Id. at 32 (quoting Nat’l Wildlife Fed’n v. Burlington N.R.R., 23 F.3d 1508, 1512 n.8 (9th Cir. 1994)
(“Burlington”)). And as is relevant to the present discussion, Defendants highlight that any purported environmental harm does not warrant a preliminary injunction because population or species-level harm would not
occur before a final disposition of the case on the merits.
Id. at 34. Last, Defendants attack New Mexico’s invocation of its residents’ recreational interests as a possible irreparable harm, because states may not advance
resident interests in parens patriae against the United
States. Id. at 33 (citing Sierra Forest Legacy v. Sherman, 646 F.3d 1161, 1178 (9th Cir. 2011)).
As the Ninth Circuit has explained, “it would be incorrect to hold that all potential environmental injury
warrants an injunction.” League of Wilderness Defs./Blue
Mountains Biodiversity Project v. Connaughton, 752
F.3d 755, 764 (9th Cir. 2014). “Environmental injury,”
however, “by its nature, can seldom be adequately remedied by money damages and is often permanent or at
least of long duration, i.e., irreparable.” Amoco Prod.
Co. v. Vill. of Gambell, Alaska, 480 U.S. 531, 545 (1987).
Plaintiffs must nonetheless demonstrate that irreparable injury “is likely in the absence of an injunction.”
Winter, 555 U.S. at 22. Mere “possibility” of irreparable harm does not merit a preliminary injunction. Id.
Contrary to Defendants’ suggestion, the irreparableinjury inquiry does not require a showing of populationlevel harm or an extinction-level threat. In fact, none
of Defendants’ proffered cases establish this standard.
See N.M. Dep’t of Game & Fish v. DOI, 854 F.3d 1236,

430a
1251 (10th Cir. 2017) (rejecting as insufficient evidence
of irreparable harm a single declaration stating that the
release of Mexican Wolves within a state “has the potential to affect predator-prey dynamics, and may affect
other attributes of the ecosystem”); Burlington, 23 F.3d
at 1511-12 (finding a district court did not clearly err in
finding plaintiff failed to establish a likelihood of irreparable future injury based on past accidental injuries to
protected grizzly bears); Maughan v. Vilsack, No. 4:14cv-0007-EJL, 2014 WL 201702, at *6-7 (D. Idaho Jan. 17,
2014) (finding that growth in wolf population cut against
plaintiffs’ claim that a program authorizing wolf hunting
would cause irreparable injury). 18 For example, Defendants offer Burlington for the principle that New
Mexico here must establish that the challenged conduct
constitutes a “definitive threat” to a “protected species.”
Opp. at 32 (citing 23 F.3d at 1512 n.8). But the Burlington court added an important qualifier: “We are
not saying that a threat of extinction to the species is
required before an injunction may issue under the ESA.
This would be contrary to the spirit of the statute, whose
goal of preserving threatened and endangered species
Although the court in Maughan found a lack of irreparable injury because evidence showed the wolf species population was growing despite the challenged action, it nonetheless stated: “The evidence in the current record shows that the [challenged] program for
hunting wolves will not result in the loss of the species as a whole.”
See 2014 WL 201702, at *7. Even if the Maughan court meant for
this passing comment to serve as the standard for irreparable injury, no court has since endorsed this view. More important, that
standard would be inconsistent with Ninth Circuit law, and thus
the Court reads Maughan as standing for the narrow proposition
that undisputed evidence of species growth in the face of a challenged action tilts against a finding of irreparable injury to that
species from the challenged action.
18

431a
can also be achieved through incremental steps.” 23
F.3d at 1512 n.8. And Burlington cited favorably a
case where “between three and nine grizzly bears would
be killed” as meriting an injunction. Id. (citing Fund
for Animals, Inc. v. Turner, No. 91-2201(MB), 1991 WL
206232 (D.D.C. Sept. 27, 1991)). Thus, while a showing
of irreparable environmental injury to warrant injunctive relief may require evidence that the challenged action poses a threat of future demonstrable harm to a
protected species, it does not require that the species is
likely to be entirely wiped out. 19
However, whether or not New Mexico has proffered
sufficient evidence to meet its burden of showing a likelihood of irreparable environmental harm from the use
of reprogrammed and diverted funds under Sections
8005 and 284 for border barrier construction in the El
Paso Sector Project 1 region, the contested use of such
funds is no longer likely before resolution of the case on
the merits. This is because the Court has enjoined the
relevant Defendants in the Citizen Groups’ action from
proceeding with such construction. See Order at 55,
Sierra Club v. Trump, No. 4:19-cv-00892-HSG (N.D.
Cal. May 24, 2019), ECF No. 144 (enjoining the use of
reprogrammed funds for border barrier construction in
El Paso Sector Project 1). Accordingly, no irreparable
harm will result from the denial (without prejudice) of
the States’ duplicative requested injunction.

At the hearing on this motion, counsel for Defendants essentially acknowledged that this is the appropriate standard. Dkt.
No. 159 at 104:4-6 (“And I don’t want to overstate that because it’s
—as my colleagues on the other side have pointed out, it’s not extinction.”)
19

432a
b.

States’ Harm from Diversion of TFF
Funds

Plaintiffs’ second theory of harm is that the diversion
of TFF funds runs the risk of “depriv[ing] Plaintiff States
of the same opportunity to receive TFF funds that they
have enjoyed for years.” Mot. at 31. Plaintiffs contend that a $601 million diversion “undermines the continued viability of TFF ” moving forward and “jeopardizes the States’ ability to collect their pending equitable
share claims of millions of dollars that they are entitled
to receive after dedicating time and resources to participating in joint law enforcement efforts.” Id. at 32.
In other words, Plaintiffs’ alleged irreparable harms are
that they (1) will not receive equitable share claims already owed, and (2) may not receive equitable share
claims in the future.
Defendants respond to both irreparable injury bases
with a declaration of the TEOAF Director, John M. Farley, who manages the TFF. See Farley Decl. ¶ 2. Mr.
Farley acknowledges that equitable sharing payments
to state and local enforcement agencies are “mandatory” TFF expenses. Id. ¶ 8. Mr. Farley explains,
however, that “Strategic Support is an amount of unobligated funds at the end of the fiscal year, after accounting for equitable sharing and other mandatory expenses
. . . [which] may be used in connection with the law
enforcement activities of any Federal agency.” Id. ¶ 4.
He adds that TEOAF works with TFF member agencies
“to track anticipated and current forfeiture cases and liabilities that may be associated with such cases,” which
“enables the program to accurately estimate its revenue

433a
and liabilities.” Id. ¶¶ 5, 9. 20 In this capacity, the
“TFF has remained financially solvent and maintained
adequate funds in its accounts to meet all of its expenses” since its inception in 1992. Id. ¶ 9.
Because Strategic Support funding at the end of any
fiscal year has already taken account of current fiscal
year mandatory expenses and anticipated liabilities for
the following fiscal year, Mr. Farley provides that “the
decision to make Strategic Support funding available in
fiscal year 2019 will have no impact on the amount of
money state and local entities receive through equitable
sharing.” Id. ¶¶ 13, 23. And the Treasury predicts
that following the diversion of $601 million in strategic
support payments to DHS, the “projected unobligated
balance carry-over to fiscal year 2020 will be approximately $507 million.” Id. ¶ 26.
Given Mr. Farley’s representations, Defendants argue that there is no risk of irreparable harm to Plaintiffs
from the diversion of TFF funds: “Because Treasury’s
Strategic Support payments to DHS do not pose any
threat to the solvency of the TFF or diminish the equitable sharing payments to which the States may be entitled under [Section] 9705, the States have not established a likelihood of irreparable injury.” Opp. at 31.
Plaintiffs’ substantive response to the Farley declaration is to characterize it as a “self-serving declaration”
that must be disregarded. But Plaintiffs’ support for this
proposition—Nigro v. Sears, Roebuck & Co.—stands for
the exact opposite proposition. See 784 F.3d 495, 497
(9th Cir. 2015) (“Although the source of the evidence
may have some bearing on its credibility and on the
TEOAF also sets aside funding to cover future fiscal year expenses. See Farley Decl. ¶¶ 10-11 (explaining the process).
20

434a
weight it may be given by a trier of fact, the district
court may not disregard a piece of evidence at the summary judgment stage solely based on its self-serving nature.”).
At the hearing on this motion, Plaintiffs shifted their
criticism of Mr. Farley to his TFF balance calculation.
See Dkt. No. 138 at 45:12-47:1. Plaintiffs argued that
Mr. Farley failed to consider contingent liabilities and
noted that the TFF could theoretically be underwater
based on such liabilities and other data contained in TEOAF’s fiscal year 2020 budget. See id.; see also Dkt.
No. 136 Ex. 55, at 6-7. It does not appear warranted,
though, to discount the TFF balance calculation by the
entire contingent liability entry, given that such liabilities “are significant because remission payments from
multiple years are recorded and carried forward.” See
Dkt. No. 136 Ex. 55, at 6. Nothing indicates that the
Treasury would pay out all contingent liabilities in the
next fiscal year. And even accepting Plaintiffs’ argument as true, they have not explained why the TFF’s
existence alone manifests an entitlement to future equitable sharing payments. Further, Plaintiffs fail to consider that the amount of potential future equitable sharing payments is tethered to future seizures or forfeitures for which a given state or local law enforcement
agency participates in the seizure or forfeiture, and is
capped by the value of the seized or forfeited property.
See 31 U.S.C. § 9705(a)(1)(g), (b)(2), (h)(1)(B)(ii). Thus,
to the extent a given law enforcement agency participates in future seizures or forfeitures, the TFF necessarily will have the funds to provide the mandatory equitable sharing payment.

435a
Most important, Plaintiffs’ ignore that the burden is
theirs to demonstrate that irreparable injury is likely in
the absence of an injunction. Winter, 555 U.S. at 22.
“Speculative” or “possible” injury is not enough. All.
for the Wild Rockies, 632 F.3d at 1131-36. Plaintiffs
have not met their burden. Plaintiffs alleged there was
some risk that Defendants’ diversion of $601 million
would undermine the continued viability of TFF and/or
jeopardize their ability to collect “pending” equitable
share claims. See Mot. at 31-32. Defendants responded
with a sworn declaration demonstrating that no pending
equitable share claims are at risk and that the TEOAF
has taken account of future needs to prevent any threat
to TFF’s continued viability. The Court cannot ignore
this declaration just because it makes it more difficult
for Plaintiffs to meet their burden to demonstrate that
irreparable injury is likely in the absence of an injunction. And the Court also cannot ignore that Plaintiffs
failed to consider important relevant factors, such as the
nature of equitable sharing payments. Thus, even
though Plaintiffs have shown that they have standing as
to this claim, they have not shown an entitlement to the
“extraordinary” remedy of a preliminary injunction on
this basis. 21

To the extent Plaintiffs rely on American Trucking Associations,
Inc. v. City of Los Angeles, 559 F.3d 1046, 1058-59 (9th Cir. 2009), for
the principle that a “constitutional violation alone, coupled with the
damages incurred, can suffice to show irreparable harm,” that principle does not alter the Court’s conclusion. See Mot. at 31. Even
under that theory of irreparable harm, Plaintiffs must demonstrate
some likely harm resulting from the challenged action, and not simply
a constitutional violation.
21

436a
3.

Balance of Equities and Public Interest

When the government is a party to a case in which a
preliminary injunction is sought, the balance of the equities and public interest factors merge. Drakes Bay
Oyster Co. v. Jewell, 747 F.3d 1073, 1092 (9th Cir. 2014).
According to Defendants, these factors tilt in their favor, because their “weighty” interest in border security
and immigration-law enforcement, as sanctioned by
Congress, outweighs Plaintiffs’ “speculative” injuries.
Opp. at 34-35. The Ninth Circuit has recognized that
“the public has a ‘weighty’ interest ‘in efficient administration of the immigration laws at the border,’ ” and
the Court does not minimize this interest. See E. Bay
Sanctuary Covenant v. Trump, 909 F.3d 1219, 1255 (9th
Cir. 2018) (quoting Landon v. Plasencia, 459 U.S. 21, 34
(1982)). On the other hand, “the public also has an interest in ensuring that statutes enacted by their representatives are not imperiled by executive fiat.” Id. (internal quotation marks and brackets omitted). Because Plaintiffs have not shown a likelihood of irreparable harm as to the TFF diversion, and because the Court
need not now reach that question with respect to the El
Paso Sector project, this factor does not militate in favor
of a preliminary injunction. 22

The Court observes that, although Congress appropriated
$1.571 billion for physical barriers and associated technology along
the Southwest border for fiscal year 2018, counsel for the House
has represented to the Court that the Administration has stated as
recently as April 30, 2019 that CBP represents it has only constructed 1.7 miles of fencing with that funding. See Dkt. No. 161;
see also Consolidated Appropriations Act, 2018, Pub. L. No. 115141, div. F, tit. II, § 230(a) 132 Stat. 348 (2018). This representation tends to undermine Defendants’ claim that irreparable harm
22

437a
III. CONCLUSION

For the foregoing reasons, the Court DENIES WITHOUT PREJUDICE Plaintiffs’ motion for a preliminary
injunction. A case management conference is set for
June 5, 2019 at 2:00 p.m. At the case management conference, the parties should be prepared to discuss a plan
for expeditiously resolving this matter on the merits,
whether through a bench trial, cross-motions for summary judgment, or other means. The parties must submit a joint case management statement by May 31, 2019.
IT IS SO ORDERED.

Dated:

5/24/2019
/s/ HAYWOOD S. GILLIAM, JR.
HAYWOOD S. GILLIAM, JR.
United States District Judge

will result if the funds at issue on this motion are not deployed immediately.

438a
APPENDIX K

1.

U.S. Const. Art. I, § 9, Cl. 7 provides:

No money shall be drawn from the Treasury, but in Consequence of Appropriations made by Law; and a regular
Statement and Account of the Receipts and Expenditures of all public Money shall be published from time
to time.
2

10 U.S.C. 284 provides:

Support for counterdrug activities and activities to counter transnational organized crime

(a) SUPPORT TO OTHER A GENCIES.—The Secretary
of Defense may provide support for the counterdrug activities or activities to counter transnational organized
crime of any other department or agency of the Federal
Government or of any State, local, tribal, or foreign law
enforcement agency for any of the purposes set forth in
subsection (b) or (c), as applicable, if—
(1) in the case of support described in subsection
(b), such support is requested—
(A) by the official who has responsibility for
the counterdrug activities or activities to counter
transnational organized crime of the department
or agency of the Federal Government, in the case
of support for other departments or agencies of
the Federal Government; or
(B) by the appropriate official of a State, local, or tribal government, in the case of support

439a
for State, local, or tribal law enforcement agencies; or
(2) in the case of support described in subsection
(c), such support is requested by an appropriate official of a department or agency of the Federal Government, in coordination with the Secretary of State,
that has counterdrug responsibilities or responsibilities for countering transnational organized crime.
(b) TYPES OF SUPPORT FOR AGENCIES OF UNITED
STATES.—The purposes for which the Secretary may
provide support under subsection (a) for other departments or agencies of the Federal Government or a State,
local, or tribal law enforcement agencies, are the following:
(1) The maintenance and repair of equipment
that has been made available to any department or
agency of the Federal Government or to any State,
local, or tribal government by the Department of Defense for the purposes of—
(A) preserving the potential future utility of
such equipment for the Department of Defense;
and
(B) upgrading such equipment to ensure
compatibility of that equipment with other equipment used by the Department.
(2) The maintenance, repair, or upgrading of
equipment (including computer software), other than
equipment referred to in paragraph (1) for the purpose of—

440a
(A) ensuring that the equipment being maintained or repaired is compatible with equipment
used by the Department of Defense; and
(B) upgrading such equipment to ensure the
compatibility of that equipment with equipment
used by the Department.
(3) The transportation of personnel of the United
States and foreign countries (including per diem expenses associated with such transportation), and the
transportation of supplies and equipment, for the
purpose of facilitating counterdrug activities or activities to counter transnational organized crime within
or outside the United States.
(4) The establishment (including an unspecified
minor military construction project) and operation of
bases of operations or training facilities for the purpose of facilitating counterdrug activities or activities
to counter transnational organized crime of the Department of Defense or any Federal, State, local, or
tribal law enforcement agency within or outside the
United States.
(5) Counterdrug or counter-transnational organized crime related training of law enforcement personnel of the Federal Government, of State, local,
and tribal governments, including associated support
expenses for trainees and the provision of materials
necessary to carry out such training.
(6) The detection, monitoring, and communication of the movement of—
(A) air and sea traffic within 25 miles of and
outside the geographic boundaries of the United
States; and

441a
(B) surface traffic outside the geographic
boundary of the United States and within the
United States not to exceed 25 miles of the boundary if the initial detection occurred outside of the
boundary.
(7) Construction of roads and fences and installation of lighting to block drug smuggling corridors
across international boundaries of the United States.
(8) Establishment of command, control, communications, and computer networks for improved integration of law enforcement, active military, and National Guard activities.
(9) The provision of linguist and intelligence
analysis services.
(10) Aerial and ground reconnaissance.
(c) TYPES OF SUPPORT FOR
FORCEMENT AGENCIES.—

FOREIGN LAW EN-

(1) PURPOSES.—The purposes for which the Secretary may provide support under subsection (a) for
foreign law enforcement agencies are the following:
(A) The transportation of personnel of the
United States and foreign countries (including per
diem expenses associated with such transportation),
and the transportation of supplies and equipment,
for the purpose of facilitating counterdrug activities or activities to counter transnational organized crime within or outside the United States.
(B) The establishment (including small scale
construction) and operation of bases of operations
or training facilities for the purpose of facilitating

442a
counterdrug activities or activities to counter transnational organized crime of a foreign law enforcement agency outside the United States.
(C) The detection, monitoring, and communication of the movement of—
(i)
air and sea traffic within 25 miles of
and outside the geographic boundaries of the
United States; and
(ii) surface traffic outside the geographic
boundaries of the United States.
(D) Establishment of command, control,
communications, and computer networks for improved integration of United States Federal and
foreign law enforcement entities and United States
Armed Forces.
(E) The provision of linguist and intelligence
analysis services.
(F)

Aerial and ground reconnaissance.

(2) COORDINATION WITH SECRETARY OF STATE.—
In providing support for a purpose described in this
subsection, the Secretary shall coordinate with the
Secretary of State.
(d) CONTRACT AUTHORITY.—In carrying out subsection (a), the Secretary may acquire services or equipment by contract for support provided under that subsection if the Department of Defense would normally acquire such services or equipment by contract for the
purpose of conducting a similar activity for the Department.

443a
(e) LIMITED
WAIVER
OF
PROHIBITION.—
1
Notwithstanding section 276 of this title, the Secretary
may provide support pursuant to subsection (a) in any
case in which the Secretary determines that the provision of such support would adversely affect the military
preparedness of the United States in the short term if the
Secretary determines that the importance of providing
such support outweighs such short-term adverse effect.
(f ) CONDUCT OF TRAINING OR OPERATION TO AID
CIVILIAN AGENCIES.—In providing support pursuant to
subsection (a), the Secretary may plan and execute otherwise valid military training or operations (including
training exercises undertaken pursuant to section
1206(a) of the National Defense Authorization Act for
Fiscal Years 1990 and 1991 (Public Law 101-189; 103
Stat. 1564)) for the purpose of aiding civilian law enforcement agencies.
(g) RELATIONSHIP TO OTHER SUPPORT AUTHORITIES.—
(1) ADDITIONAL AUTHORITY.—The authority
provided in this section for the support of counterdrug
activities or activities to counter transnational organized crime by the Department of Defense is in addition to, and except as provided in paragraph (2), not
subject to the other requirements of this chapter.
(2) EXCEPTION.—Support under this section shall
be subject to the provisions of section 2751 and, except as provided in subsection (e), section 2761 of this
title.

1

See References in Text note below.

444a
(h) CONGRESSIONAL NOTIFICATION.—
(1) IN GENERAL.—Not less than 15 days before
providing support for an activity under subsection
(a), the Secretary of Defense shall submit to the appropriate committees of Congress a written and electronic notice of the following:
(A) In the case of support for a purpose described in subsection (c)—
(i)
the country the capacity of which will
be built or enabled through the provision of
such support;
(ii) the budget, implementation timeline
with milestones, anticipated delivery schedule
for support, and completion date for the purpose or project for which support is provided;
(iii) the source and planned expenditure of
funds provided for the project or purpose;
(iv) a description of the arrangements, if
any, for the sustainment of the project or purpose and the source of funds to support sustainment of the capabilities and performance outcomes achieved using such support, if applicable;
(v) a description of the objectives for the
project or purpose and evaluation framework
to be used to develop capability and performance metrics associated with operational outcomes for the recipient;
(vi) information, including the amount,
type, and purpose, about the support provided

445a
the country during the three fiscal years preceding the fiscal year for which the support
covered by the notice is provided under this
section under—
(I)

this section;

(II) section 23 of the Arms Export Control Act (22 U.S.C. 2763);
(III) peacekeeping operations;
(IV) the International Narcotics Control and Law Enforcement program under
section 481 of the Foreign Assistance Act of
1961 (22 U.S.C. 2291);
(V) Nonproliferation, Anti-Terrorism,
Demining, and Related Programs;
(VI) counterdrug activities authorized
by section 1033 of the National Defense Authorization Act for Fiscal Year 1998 (Public
Law 105-85); or
(VII) any other significant program, account, or activity for the provision of security assistance that the Secretary of Defense and the Secretary of State consider
appropriate;
(vii) an evaluation of the capacity of the recipient country to absorb the support provided;
and
(viii) an evaluation of the manner in which
the project or purpose for which the support is

446a
provided fits into the theater security cooperation strategy of the applicable geographic combatant command.
(B) In the case of support for a purpose described in subsection (b) or (c), a description of any
small scale construction project for which support
is provided.
(2) COORDINATION WITH SECRETARY OF STATE.—
In providing notice under this subsection for a purpose described in subsection (c), the Secretary of Defense shall coordinate with the Secretary of State.
(i)

DEFINITIONS.—In this section:

(1) The term “appropriate committees of Congress” means—
(A) the Committee on Armed Services, the
Committee on Appropriations, and the Committee
on Foreign Affairs of the House of Representatives; and
(B) the Committee on Armed Services, the
Committee on Appropriations, and the Committee
on Foreign Relations of the Senate.
(2) The term “Indian tribe” means a Federally
recognized Indian tribe.
(3) The term “small scale construction” means
construction at a cost not to exceed $750,000 for any
project.
(4) The term “tribal government” means the
governing body of an Indian tribe, the status of
whose land is “Indian country” as defined in section

447a
1151 of title 18 or held in trust by the United States
for the benefit of the Indian tribe.
(5) The term “tribal law enforcement agency”
means the law enforcement agency of a tribal government.
(6) The term “transnational organized crime”
means self-perpetuating associations of individuals
who operate transnationally for the purpose of obtaining power, influence, monetary, or commercial
gains, wholly or in part by illegal means, while protecting their activities through a pattern of corruption or violence or through a transnational organization structure and the exploitation of transnational
commerce or communication mechanisms.

3. Section 8005 of Department of Defense Appropriations Act, 2019, Pub. L. No. 115-245, Div. A, Tit. VIII,
132 Stat. 2999, provides:
DIVISION A—DEPARTMENT OF DEFENSE
APPROPRIATIONS ACT, 2019

*

*

*

*

*

Tit. VIII
GENERAL PROVISIONS
*

*

*

*

*

SEC. 8005. Upon determination by the Secretary
of Defense that such action is necessary in the national
interest, he may, with the approval of the Office of
Management and Budget, transfer not to exceed

448a
$4,000,000,000 of working capital funds of the Department of Defense or funds made available in this Act to
the Department of Defense for military functions (except military construction) between such appropriations
or funds or any subdivision thereof, to be merged with
and to be available for the same purposes, and for the
same time period, as the appropriation or fund to which
transferred: Provided, That such authority to transfer
may not be used unless for higher priority items, based
on unforeseen military requirements, than those for
which originally appropriated and in no case where the
item for which funds are requested has been denied by
the Congress: Provided further, That the Secretary of
Defense shall notify the Congress promptly of all transfers made pursuant to this authority or any other authority in this Act: Provided further, That no part of
the funds in this Act shall be available to prepare or present a request to the Committees on Appropriations for
reprogramming of funds, unless for higher priority
items, based on unforeseen military requirements, than
those for which originally appropriated and in no case
where the item for which reprogramming is requested
has been denied by the Congress: Provided further,
That a request for multiple reprogrammings of funds
using authority provided in this section shall be made
prior to June 30, 2019: Provided further, That transfers among military personnel appropriations shall not
be taken into account for purposes of the limitation on
the amount of funds that may be transferred under this
section.

449a
4. Section 9002 of Department of Defense Appropriations Act, 2019, Pub. L. No. 115-245, Div. A, Tit. IX, 132
Stat. 3042, provides:
DIVISION A—DEPARTMENT OF DEFENSE
APPROPRIATIONS ACT, 2019

*

*

*

*

*

TITLE IX
OVERSEAS CONTINGENCY OPERATIONS
MILITARY PERSONNEL
*

*

*

*

*

SEC. 9002. Upon the determination of the Secretary of Defense that such action is necessary in the national interest, the Secretary may, with the approval of
the Office of Management and Budget, transfer up to
$2,000,000,000 between the appropriations or funds
made available to the Department of Defense in this title: Provided, That the Secretary shall notify the Congress promptly of each transfer made pursuant to the
authority in this section: Provided further, That the
authority provided in this section is in addition to any
other transfer authority available to the Department of
Defense and is subject to the same terms and conditions
as the authority provided in section 8005 of this Act.

